<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   JAMES P. MORAN, Virginia, Chairman
 NORMAN D. DICKS, Washington
 ALAN B. MOLLOHAN, West Virginia
 BEN CHANDLER, Kentucky
 MAURICE D. HINCHEY, New York
 BETTY McCOLLUM, Minnesota
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona                 MICHAEL K. SIMPSON, Idaho
                                    KEN CALVERT, California
                                    STEVEN C. LaTOURETTE, Ohio
                                    TOM COLE, Oklahoma

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Delia Scott, Christopher Topik, Julie Falkner,
                      Jason Gray, and Brendan Lilly
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Environmental Protection Agency..................................    1
 U.S. Forest Service..............................................  223
 U.S. Geological Survey...........................................  349
 Minerals and Management Service..................................  431
 National Endowment for the Humanities............................  441
 United States Holocaust Memorial Museum..........................  488
 National Endowment for the Arts..................................  519
 Arts Advocacy Day................................................  543
 Office of Surface Mining.........................................  603
 Eisenhower Memorial Commission...................................  633

         Printed for the use of the Committee on Appropriations
                                 PART 5

                                  EPA

                                   FS

                                  USGS

                                  MMS

                                  NEH

                                 USHMM

                                  NEA

                                  Arts

                                  OSM

                               Eisenhower

  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2011
                                                                      ?

                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   JAMES P. MORAN, Virginia, Chairman
 NORMAN D. DICKS, Washington
 ALAN B. MOLLOHAN, West Virginia
 BEN CHANDLER, Kentucky
 MAURICE D. HINCHEY, New York
 BETTY McCOLLUM, Minnesota
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona                 MICHAEL K. SIMPSON, Idaho
                                    KEN CALVERT, California
                                    STEVEN C. LaTOURETTE, Ohio
                                    TOM COLE, Oklahoma

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Delia Scott, Christopher Topik, Julie Falkner,
                      Jason Gray, and Brendan Lilly
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Environmental Protection Agency..................................    1
 U.S. Forest Service..............................................  223
 U.S. Geological Survey...........................................  349
 Minerals and Management Service..................................  431
 National Endowment for the Humanities............................  441
 United States Holocaust Memorial Museum..........................  488
 National Endowment for the Arts..................................  519
 Arts Advocacy Day................................................  543
 Office of Surface Mining.........................................  603
 Eisenhower Memorial Commission...................................  633

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-647                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma             
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2011

                              ----------                              --
--------

                                      Wednesday, February 24, 2010.

FISCAL YEAR 2011 BUDGET REQUEST FOR THE ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

LISA P. JACKSON, ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY
BOB PERCIASEPE, DEPUTY ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY
BARBARA BENNETT, CHIEF FINANCIAL OFFICER
PETER SILVA, ASSISTANT ADMINISTRATOR, OFFICE OF WATER
CYNTHIA GILES, ASSISTANT ADMINISTRATOR, OFFICE OF ENFORCEMENT AND 
    COMPLIANCE ASSURANCE
STEVE OWENS, ASSISTANT ADMINISTRATOR, OFFICE OF PREVENTION, PESTICIDES, 
    AND TOXIC SUBSTANCES
MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE AND 
    EMERGENCY RESPONSE

                  Opening Statement of Chairman Dicks

    Mr. Dicks. Good afternoon. I want to welcome everyone to 
this subcommittee's first budget hearing this year. Today we 
will discuss the Environmental Protection Agency's budget 
request for fiscal year 2011.
    It is only fitting that we start the year reviewing how we 
can better protect our citizens and our environment. 
Administrator Jackson, thank you for being here today to 
outline your priorities for 2011. The past year was a busy one 
for you. One year and 1 week ago this committee nearly doubled 
your budget with the inclusion of $7.22 billion for water 
infrastructure, land cleanup, and diesel emission reduction 
projects in the recovery effort.
    To date, as many as 6,700 jobs have been saved or created 
with this funding. Not to mention all of the equipment and 
construction funded as well. We are interested in hearing what 
else you accomplished with those funds and what more we can 
expect. There is still much more that needs to be done to 
accelerate the pace of these projects and to assist in recovery 
of our economy.
    In addition to putting Americans back to work in calendar 
year 2009, EPA carefully reviewed the science and determined 
that greenhouse gases are harmful to human health and the 
environment, finalized the mandatory greenhouse gas reporting 
rule directed by this subcommittee, strengthened their water 
quality standards, redoubled efforts in the Chesapeake Bay and 
Puget Sound to address non-point source pollution and nutrient 
loadings, and increased the review and oversight of mountaintop 
mining permits to ensure protection of water quality.
    In fiscal year 2010, this committee provided you with the 
largest budget in EPA history. There were some on this 
committee that thought the number was too high. I could not 
disagree more. There is a general consensus that the current 
state of our Nation's infrastructure is inadequate. It is 
important to note that of the $2.7 billion increase in fiscal 
year 2010, $2 billion of it was targeted to drinking water and 
waste water infrastructure improvements.
    This is just a fraction of the 20-year, $662 billion 
funding gap, which one of your predecessors, identified. And 
every penny of that $2 billion increase has passed through EPA 
and given to states and communities. It funded approximately 
670 projects. The Great Lakes Restoration Initiative also 
received a substantial and very necessary increase.
    However, the recent identification of the Asian carp DNA 
beyond the fish barrier near Chicago is yet another example of 
ongoing threats to our ecosystem, economy, and environment that 
require immediate investment.
    On top of increased funding in 2010, the committee 
authorized additional subsidies to assist small communities 
that often struggle to pay for the necessary water and waste 
water treatment upgrades needed to provide safe and clean water 
for their citizens. These subsidies include grants, loan 
forgiveness, and negative interest loans and additional 
financing for green infrastructures. I am pleased to see that 
your budget continues these creative funding vehicles.
    Now to your budget request. You have requested $10.02 
billion, making this the second highest request ever for the 
agency. Equally, as noted, is the $43 million in new funding to 
begin to take real measured steps to reduce greenhouse gases 
and address climate change. As you know, we in the House passed 
our version of the climate bill last June. We recognize the 
need for action, and I am glad to see the Administration does, 
too.
    More than half your budget funds grants to states and 
tribes. Within this amount you provide $1.3 billion, a $160 
million increase for the direct implementation of state 
environmental programs through categorical grants. This 
increase includes $30 million in new funding for tribes to 
begin to implement their own environmental programs after years 
of building capacity to do so.
    You also have a healthy $41.5 million increase for brown 
field cleanup and redevelopment. I am pleased to see this 
progress from this partnership.
    As you know, the subcommittee has had a special interest in 
protecting the Nation's great water bodies, including the Great 
Lakes and environmentally sensitive estuaries. I see you have 
requested an additional $13 million for the country's largest 
estuary while reducing the budget by 60 percent to the Nation's 
second largest estuary. I will work with the subcommittee to 
carefully review that decision.
    You have also requested $16 million in new funding for the 
Upper Mississippi River Basin, our largest watershed, which 
also faces many non-point source and nutrient pollution issues. 
The subcommittee will continue to be good stewards of taxpayer 
dollars and insist you use resources wisely. The Nation has 
real needs that demand every dollar be effectively utilized. To 
ensure resources are used as effectively and efficiently as 
possible, we are committed to analyzing the budget to seek out 
any areas of waste.
    We also need to ensure proper accountability and oversight 
of resources already provided to the EPA. We need strong 
enforcement so that the general taxpayer is not asked to foot 
the bill for the negligence of others. EPA needs to ensure that 
these dollars and all sources of funding are used quickly and 
produce real environmental improvements as the sense of urgency 
has never been more real.
    Mr. Dicks. Before Administrator Jackson begins her 
statement, I am going to yield to Mr. Simpson, who would like 
to make an opening statement.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman. Administrator 
Jackson, you have been on the job now for 13 months, and I have 
appreciated the conversations we have had over that time 
regarding important issues to Idaho and to the Nation. I am 
hopeful that you will take me up on my offer to come out and 
visit our great state, and while I do not agree with you on 
every single issue, I continue to respect your courage in what 
is no doubt a very difficult job. Thank you for joining us 
today and welcome back to the subcommittee.
    When President Obama campaigned on the promise to change, 
he must have had this agency in mind. Under your leadership the 
EPA has probably been more active than at any time in its 
nearly 40-year history. You are overseeing by far the largest 
budget in EPA's history, and your rule-making staffs are 
sprinting like thoroughbreds out of the starting gate.
    Some people will say that these actions are long overdue, 
but I cannot help feeling weary about the way in which EPA is 
implementing broad regulatory changes and the impact these 
changes are having on our struggling economy.
    First and foremost, I am concerned about what appears to be 
the unilateral pursuit of the most intrusive and sweeping 
environmental regulations in the history of this country. 
Contrary to popular understanding, the Supreme Court did not 
force the EPA to regulate greenhouse gases. Yet the agency has 
pursued a far-reaching regulatory agenda anyway despite 
admitting that new legislation is a more responsible approach.
    And by announcing the endangerment finding just prior to 
Copenhagen, this Administration sends their message that it is 
prepared to force new climate policies upon the American 
people, even if the people are not ready and willing to act due 
to their elective legislature. The people are even less ready 
and willing now than in the recent past. I have heard from 
thousands of constituents who are deeply concerned about the 
direction we are going on this issue and numerous surveys by 
Gallop Research Center and others show that their concerns are 
widespread throughout the country.
    The impact on Congress, therefore, should be no surprise. 
It appears to be on life support in the Senate, and I do not 
believe it could pass the House again today if it were brought 
up for a vote. No less than 16 separate court petitions were 
filed last week by three states, 13 House lawmakers, and 
various advocacy groups and think tanks challenging EPA's 
endangerment finding.
    EPA's public response to both the petitions and the so-
called climate game issue are also disturbing. Elected 
officials, business owners, and other concerned citizens are 
raising legitimate concerns and counter arguments that they are 
being similarly dismissed and labeled by this Administration. 
Despite President Obama's commitments to restore science to its 
rightful place and to have a more transparent and open 
government, last week the EPA declared that the science is 
settled.
    The problem is that many Americans do not believe the 
matter is settled. They have yet to see convincing scientific 
evidence behind the claims that mankind is driving climate 
change or that over-the-top responses are warranted. That is 
why Mr. Lewis and I wrote to the President just before 
Christmas a letter that as of today we note is not answered.
    It is simply not good enough to say thousands of scientists 
cannot be wrong, and if you do not believe us, go and read 
their reports. It is simply not good enough to return from 
Copenhagen without explaining to the people what the world 
committed to and whether those commitments are going to have 
any effect on our changing climate. One thing I have learned in 
this job, Madam Administrator, is that until you have done a 
better job of reaching out to the people, the people's trust in 
your agenda will continue to erode.
    As for the fiscal year 2011 budget, I will simply say this. 
This budget is still a 31 percent increase over the fiscal year 
2009 and only 3 percent below the largest budget in the history 
of the agency, which was fiscal year 2010. When you consider 
the additional $7.2 billion in stimulus spending, it is easy to 
conclude that the EPA is attempting to manage the largest 
relative budget increases in the Federal Government right now. 
Anytime the budget grows that rapidly, conditions are ripe for 
waste, fraud and abuse.
    EPA's fiscal year 2011 climate change budget is nearly $230 
million, continuing a streak of average increases of 21 percent 
in each of the past three budgets. These climate change 
increases are not unique to EPA. This bill alone contains 
nearly $437 million for climate change in the President's 
fiscal year 2011 budget, if the President's fiscal year 2011 
budget is funded.
    As with last year, I continue to question what exactly we 
expect to achieve with all of this spending and just how 
strategic and well coordinated is the effort across the Federal 
Government.
    I agree with you, Administrator Jackson, that using the 
Clean Air Act to regulate greenhouse gases is not the best way 
to address climate change. That is why I questioned whether the 
nearly $50 million in EPA's fiscal year 2011 budget for 
greenhouse gas regulation is prudent and, considering that the 
endangerment finding will likely enter proactive litigation, 
what exactly the funding would be spent on.
    Elsewhere, the fiscal year 2011 budget is filled with 
funding increases to support a seemingly endless stream of new 
regulations on air and water quality. In addition, the budget 
proposes to raise taxes on business owners, large and small, 
who may never have violated pollution laws.
    Meanwhile, every business owner in America is forced to 
operate with an elevated level of uncertainty as to how all of 
these new regulations and taxes are going to impact the bottom 
line. And states are concerned as to how they will have the 
budgets needed to implement and enforce the regulations. The 
net result is that the states are being further squeezed, the 
business owners simply cannot afford to hire. The impact that 
all of these new regulations and taxes will have on long-term, 
sustainable jobs is perhaps the greatest irony of all. The 
President is desperately trying to create jobs, and the EPA is 
not making it any easier.
    Despite our disagreements, I believe that we can work 
together in good faith toward solutions, just as the public 
expects us to. I am committed to doing what I think you are 
also. I look forward to working with you and my colleagues on 
this subcommittee as we consider the fiscal year 2011 
appropriations.
    Before I end, I want to take a moment to thank one of your 
staff; Ed Walsh, for his dedicated service to both the EPA and 
the Appropriations staff. Despite our 24/7 bombardment with 
questions and requests, Ed has been masterful at keeping staff 
informed and bringing honesty, integrity, and good humor to the 
job. He is the quintessential civil servant.
    I look forward to your testimony today and remain willing 
to work with you on these issues. Thank you for being here.
    Mr. Dicks. Administrator.

                   Testimony of Administrator Jackson

    Ms. Jackson. Thank you, Mr. Chairman, and thanks for having 
me here. Thank you, Ranking Member Simpson, and I look forward 
to our conversations and answering some of your questions 
certainly.
    Thank you for the opportunity to talk about our proposed 
budget for 2011. The budget full reflects President Obama's and 
my commitment to environmental protection and to ensure that 
all families across the country have access to clean air, 
water, and land. Much, much work has gone into this budget over 
the last year, and I am very proud that it supports key roles 
for the agency going forward.
    Specifically, the budget is a framework to address climate 
change, to improve air quality, to assure the safety of 
chemicals, to clean up our communities, protect America's 
waters, expand the conservation on environmentalism and work 
for environmental justice, and continue to build strong state 
and tribal partnerships.
    Let me touch on some of the highlights of this budget that 
will protect human health and the environment and lay a new 
foundation for our prosperity.
    The science behind climate change is settled in human 
activity is responsible for global warming. Not only has 
America's top scientific institutions come to that conclusion 
but so have numerous other industrialized countries. That 
conclusion is not a partisan one. Bipartisan basis of evolution 
finding that greenhouse gas accumulation from human activity 
poses a substantial risk of increased frequency and severity of 
floods.
    This budget reflects science and positions EPA to address 
this issue in a way that will not cause an adverse impact to 
the economy. The budget includes a requested increase of more 
than $33 million for efforts aimed at taking action on climate 
change. The bulk of this funding, $25 million, is for safe 
grants; grants focused on developing technical capacity to 
address greenhouse gas emissions other than clean air.
    It also includes $13.5 million in funding for implementing 
new emission standards that will reduce greenhouse gas emission 
from mobile sources such as passenger cars, light-duty trucks, 
and medium-duty vehicles, a role that I am pleased to say was 
supported by the states, by the auto industry, and many 
stakeholders.
    This budget also requests an additional $3.1 million to 
promote work on future and current carbon capture and 
sequestration funding.
    Now, while addressing global warming, this budget also 
takes steps to ensure that the local air quality is good for 
all, including those with respiratory problems. To improve air 
quality, EPA will continue our support of enhanced monitoring 
and enforcement efforts. This budget requests $60 million for 
state grants to address new and expanded national air quality 
standards as well as air monitoring requirements.
    Also, this budget provides $6 million to improve air toxics 
monitoring capabilities and address compliance and enforcement 
issues in local communities.
    Toxins are found not only in our air emissions but in many 
of the common chemicals that we use everyday, and we have an 
obligation to the American people to ensure these chemicals are 
safe. At the end of 2009, EPA released the first ever chemical 
action plans performed in some substances, and more plans are 
in the pipeline for 2010.
    In this budget EPA proposes $56 million for chemical 
assessment and risk review, including continued development of 
chemical management plans to ensure that no unreasonable risks 
are posed by new or existing chemicals. This budget also 
promotes new innovative strategies for cleaning up communities 
to protect sensitive populations such as children, the elderly, 
and individuals with chronic diseases.
    The budget proposes $215 million for Brownfields, an 
increase of $42 million, to support planning, cleanup, job 
training, and redevelopment of Brownfields properties, 
especially in underserved and disadvantaged communities. In 
addition, this budget proposes $1.3 billion for Superfund 
cleanup efforts across the country. Cleanup of contaminated 
properties provides economic opportunities and jobs.
    Protecting America's waters is a top priority for EPA due 
to the tremendous impact water quality has on human health and 
environmental health and also in economic health. For fiscal 
year 2011, this budget reflects EPA's commitment to upgrading 
drinking water and wastewater infrastructure with a substantial 
investment of $2 billion for the Clean Water State Revolving 
Fund, $1.3 billion for the Drinking Water State Revolving Fund. 
This will initiate approximately 800 clean water, 500 drinking 
water projects across America.
    Also, the fiscal year 2011 budget requests and supports 
numerous national ecosystem restoration efforts; $300 million 
for the Great Lakes, $63 million for the Chesapeake Bay 
Program, continued strong funding for the national estuaries, 
including the Puget Sound. These programs will address critical 
environmental issues such as contaminated sediments and toxins, 
non-point source pollution, habitat degradation, invasive 
species, including the Asian carp.
    We have also begun a new era of outreach and protection for 
communities historically underrepresented in environmental 
decision making. We are working to build strong relationships, 
stronger than ever, with our tribes, with communities of color, 
with economically-distressed cities and towns, young people, 
and others, but this is just a start. We must also bolster our 
relationships with our state and tribal partners. These are 
areas that call for innovation and bold thinking, and I am 
challenging all of our employees to bring vision and creativity 
to our programs.
    Thank you so much for allowing me to briefly go through the 
highlights of the fiscal year 2011 budget. I certainly now 
could answer any questions.
    [The statement of Lisa P. Jackson follows:]

    [GRAPHIC] [TIFF OMITTED] T6647A.001
    
    [GRAPHIC] [TIFF OMITTED] T6647A.002
    
    [GRAPHIC] [TIFF OMITTED] T6647A.003
    
    [GRAPHIC] [TIFF OMITTED] T6647A.004
    
    [GRAPHIC] [TIFF OMITTED] T6647A.005
    
    [GRAPHIC] [TIFF OMITTED] T6647A.006
    
    [GRAPHIC] [TIFF OMITTED] T6647A.007
    
    [GRAPHIC] [TIFF OMITTED] T6647A.008
    
    [GRAPHIC] [TIFF OMITTED] T6647A.009
    
    [GRAPHIC] [TIFF OMITTED] T6647A.010
    
    [GRAPHIC] [TIFF OMITTED] T6647A.011
    
    [GRAPHIC] [TIFF OMITTED] T6647A.012
    
    [GRAPHIC] [TIFF OMITTED] T6647A.013
    
                             CLIMATE CHANGE

    Mr. Dicks. Okay. Before we enter into a prolonged debate 
about climate change and its source, our ability to regulate 
it, the cost of these regulations, and the economic impact of 
those regulations, please review for the committee how we got 
to this. I know the Administration would prefer to have an 
authorization that addresses the issue in a comprehensive and 
integrative way rather than through the limited Clean Air Act, 
yet, until the Senate acts, the Supreme Court has left you no 
choice but to address the issue through the Clean Air Act.
    Please tell us how we arrived at the point of using the 
Clean Air Act.
    Ms. Jackson. Certainly. The United States Supreme Court, as 
noted here, held 3 years ago that greenhouse gases are air 
pollution. The decision says they are air pollution and EPA's 
determination as to whether or not they endanger human health, 
public health and welfare, would trigger additional regulatory 
action.
    It is my position sitting here that my responsibility is to 
address the mandate from the court to determine whether or not 
greenhouse gas pollution endangers public health and welfare. 
That is the essence of the endangerment finding that EPA made 
and is based on the soundest science that EPA could muster and 
did muster. It is peer-reviewed science. It is science that has 
multiple reads by multiple experts, and I have said over and 
over again that I believe that it is EPA's responsibility to 
constantly look at emerging science but also be able to move 
forward on the issue.
    I have heard people say that we could have ignored the 
Supreme Court ruling and simply chosen not to make any finding 
or make a negative finding and say greenhouse gases do not 
endanger human health, public health and welfare. It is not my 
finding as Administrator that the science would support a 
negative conclusion, and it is not my belief that I should 
ignore the Supreme Court mandate to make a determination.

                          ENDANGERMENT FINDING

    Mr. Dicks. Tell us what actions you took to ensure a 
scientifically-sound endangerment finding.
    Ms. Jackson. The action that my staff took, the staff 
relied on international science, science that includes the U.S. 
Global Change Research Program. It is a long-sounding name, but 
it really includes, or draws on, places like the National 
Academies of Science, NOAA, NASA, our national experts, as well 
as international experts as reflected in the International 
Panel on Climate Change. I do not believe that even with the 
revelation of e-mails that call into question the behavior and 
action of some of the scientists involved with IPTC there is 
any basis to throw out the multiple strands of research and 
mountain of evidence that shows that the climate is not only 
changing but that man-made causes, the release of greenhouse 
gases are a major contributing factor.

                             CO2 EMISSIONS

    Mr. Dicks. And you have to take into account that the 
oceans are absorbing these CO2 emissions as well, and we 
already have very serious indications of increases in 
acidification which undermines coral and shells and goes right 
to the basic vital plankton that is fundamental to the salmon.
    You know, it is not just the air pollution. It is also what 
is happening to the oceans. So I think there is a lot of 
seriousness to this.
    What do the findings now mean for cars and trucks? What are 
we doing with cars and trucks?
    Ms. Jackson. Well, the endangerment finding does not 
trigger regulation, I mean, is not a regulation. It is not a 
requirement to control; however, it is the predicate to control 
greenhouse gases from light-duty vehicles. So when we talk 
about rules that control the greenhouse gas and carbon dioxide 
emissions for cars, they are based on a finding of endangerment 
under the Clean Air Act. They are based on authority that we 
have now under the Clean Air Act.
    When greenhouse gases become subject to regulation for 
cars, the Clean Air Act says that permitting programs for what 
we call stationary sources also begin to apply to those 
emissions. There has been some news made and an exchange of 
letters with several members of the Senate who asked for my 
assurances about a timeline for regulation of what we call 
stationary sources, knowing that we are poised to regulate cars 
quite soon. What I said is that there would be no permit 
requirements, no regulations that any stationary source would 
need a permit for greenhouse gases this calendar year. I said 
that, based on numerous comments we have received, we would 
phase in regulation of stationary sources beginning next year, 
and we would begin with only those sources that already need 
what is called a PSD permit, several hundred sources that 
already need PSD permits for other than greenhouse gases.
    Mr. Dicks. Mr. Simpson.

                      AGENCY IMPLEMENTATION PLANS

    Mr. Simpson. I've got a book of questions. Let me just ask 
a couple first. I do not want to get into greenhouse gases with 
you right now. Just a couple of simple questions that hopefully 
will have relatively simple answers.
    I understand that under President Obama's Executive Order 
13514 on the sustainability of federal agencies, detailed 
agency implementation plans are due in June 2010. How are those 
plans coming along, and could you give us some insight as to 
where you are headed?
    Ms. Jackson. Certainly. That is the order of sustainability 
and on reduction of energy and greenhouse gases and----
    Mr. Simpson. Right.
    Ms. Jackson. So EPA has already submitted to the White 
House, the Council on Environmental Quality, our initial plans. 
We are looking at greenhouse gas reduction for our agency on 
the order of 28 to 30 percent. We feel quite proud of our 
number. We are not the very highest, but EPA has for quite some 
time led the Federal Government on reducing energy use, and 
investing in green buildings.
    The next phase that you mentioned in June, our 
implementation plans, that are broader than just outlining our 
goals, and I believe we are moving along. I will be happy to 
update you, but the numbers that we selected are based on ideas 
that we have for things we will be able to do realistically 
within the timeframe of the plan.

                           HERBICIDE ATRAZINE

    Mr. Simpson. Okay. The EPA recently cited the herbicide 
atrazine for an additional scientific advisory panel review. 
This review is occurring after EPA only recently finished a 15-
year review of nearly 6,000 studies on atrazine chemistry and 
subsequently granted re-registration.
    What are the estimated costs associated with the additional 
SAP review?
    Ms. Jackson. I do not know whether I can give you the cost 
as we sit here, but I will get you that information.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647A.014
    
    Mr. Simpson. Okay.
    Ms. Jackson. I would be happy to get that.
    Mr. Simpson. Okay. I appreciate it.
    You mentioned during your testimony that you were 
undertaking the goal to reach out to communities and tribes and 
so forth to involve them in the decisions that you are making.
    Ms. Jackson. Yes.

                    ARSENIC LEVELS IN DRINKING WATER

    Mr. Simpson. I can tell you that I sat down with mayors all 
over southeast Idaho in my district last week, several 
meetings, just to talk about what was going on, what was on 
their mind, issues that were affecting them, let them ask 
questions about what was going on in Congress and stuff. Every 
one of the meetings turned into a ``what the hell is EPA 
doing'' meeting. And I can tell you having served at the local 
level I understand those concerns from the past.
    These meetings were different. These people are ready to 
hand you the keys to their cities and say the heck with it. We 
are done. It is frustrating. They sit out here, you take a 
community of 2,000 people, so we have got $20 million in what 
EPA has determined they are going to have to do to get their 
arsenic levels down. Their water rates are already $150 a 
month. Twenty percent of their community makes $15,000 or less 
a year. Twenty percent of their income goes to their water 
rates. In fact, a lot of these mayors are new mayors because 
the last mayors got beat in the last election because they had 
to raise water rates at the behest of EPA.
    And the new mayors are literally, I have never seen it 
before in my life, they said, we are ready to just say, you 
guys run the city. We are done, because we cannot do what you 
are asking us to do. And the amazing thing is, it is not like 
they are trying to get their arsenic level down from 55 parts 
per billion to ten. Or 20 parts per billion to ten. They are 
trying to get them down from twelve to ten.
    What is the EPA doing to address that? Is there any 
flexibility that you have where you work with these small 
communities, because I can tell you you are not only going to 
be the EPA Administrator, you are going to be the mayor of 
about 40 communities in southeast Idaho if something is not 
done, and that is true across this country, to help them.
    And the people are saying, why are we spending this ungodly 
amount of money to reduce our arsenic levels from twelve to ten 
and sometimes eleven to ten. Parts per billion. You can tell I 
am frustrated.
    Ms. Jackson. A couple of things. First off, it is the EPA's 
job to promulgate regulations, and the level of arsenic that 
are detrimental to human health are no different depending on 
which community you are in. The problem for rural and small 
communities is that they do not have a rate base to spread 
these costs out over. None of them are complete. We heard the 
Chairman speak about over a half a trillion dollars worth 
invested in water and water waste infrastructure. That is an 
EPA number that is a recognition of the fact that small 
communities have needs. Like trying to decide whether or not 
they can have water that meets the federal arsenic standard or 
not but they cannot afford it.
    Mr. Simpson. Exactly.

                         ARRA LOAN FORGIVENESS

    Ms. Jackson. Now, the American Recovery Act, the Stimulus 
Act added money. It is forgivable money, it is essentially 
grants, that could be used in small communities to help make it 
so you do not have to choose between clean water and rates that 
you cannot pay.
    Mr. Simpson. But most of those are matching. Most of them 
require matching funds.
    Ms. Jackson. The Recovery Act, as well as the money that 
was put into last year's budget, has provisions that match on 
the drinking water side especially. There is always room for 
meeting this criteria for smaller communities, because there is 
a recognition that smaller communities face a higher burden.
    So there are grants available.
    Mr. Simpson. But you do not get them----
    Mr. Dicks. Will you yield just for a second?
    Mr. Simpson. Sure.
    Mr. Dicks. This was one of our initiatives----
    Mr. Simpson. I know.
    Mr. Dicks [continuing]. Out of our committee.
    Mr. Simpson. I know.
    Mr. Dicks. We changed the law so that we took the same kind 
of forgiveness procedures that we have under the safe drinking 
water act and applied them to clean water. Our numbers on the 
forgiveness show 68 percent of the grants had some forgiveness.
    So we have now given them the authority where they can 
forgive some of these loans or make them grants or have better 
interest rates, so it was a recognition of exactly what you are 
talking about that we took that action. That had never been 
done before----
    Mr. Simpson. I know that.
    Mr. Dicks [continuing]. On the Clean Water SRF. So now we 
have a program, a very dynamic program, but I have already 
heard people out there saying that everybody wants to get in 
the loan forgiveness line, and for a lot of rural areas. They 
cannot afford to pay the rates, and this is, I think, a very 
major change that will be very helpful as we go forward, and it 
is in the President's budget.

                         REGULATORY FLEXIBILITY

    Mr. Simpson. And thanks for that answer, Mr. Chairman. I 
appreciate it.
    The problem is I could understand it to some degree if we 
were sitting here trying to say we are going to reduce the 
arsenic rates from levels from 50 parts per billion a certain 
amount, but the amount of money we are spending to reduce it 
from 11 and 12, when you have got a community of 50 people, 50 
people that have a community drinking water system, their 
average is 11 parts per billion. About half the time it is nine 
when they measure it, and then it bumps up to 12 sometimes, 
never above 12. Averages about 11. And we expect them to spend 
millions of dollars to remove one part per billion.
    At some point in time we have got to say, ``have we lost 
our minds?'' Is there not a better use for that money that we 
can do something else with? That is what these communities are 
facing. They want clean water just like everybody else does, 
but I can tell you the frustration out there is enormous, and 
it is that the EPA has got this huge stick, and they are going 
to beat us over the head with it. Nobody wants to work with us 
to try to solve any of these problems.
    Even our largest communities, Boise and Meridian or 
Caldwell and Nampa, when it comes to phosphorus, they have ways 
they believe that they can reduce the phosphorus level. EPA 
kind of says, no, we are going to regulate your point source 
because we can do that. We know how to do that. They have some 
innovative ways they think they could do exactly what the EPA 
wants, but there is no flexibility there. It is, ``We got the 
stick, and we are going to fine you.''
    And the other thing about that is one federal agency fining 
another government agency and the taxpayers are sitting back 
going, well, wait a minute. I am paying for both of you guys. 
This makes no sense.
    Ms. Jackson. The enforcement under the Safe Drinking Water 
Act is primarily action oriented, not fine oriented. That is 
the way the law is written.
    Mr. Simpson. Then will you return those fines to those 
people?
    Ms. Jackson. I do not know which people we are talking 
about.
    Mr. Simpson. Communities, not people.
    Ms. Jackson. I am happy to offer my staff, local or 
headquarters, to sit down and work with specific communities. 
You are talking hypothetically about cases, and I am happy to 
do that, but I think we would make progress if we would sit 
down with them there. Happy to do it, happy to visit and talk 
about it. Let me just say, the Safe Drinking Water Act is not a 
particularly punitive statute in terms of its enforcement, and 
it is primarily enforced through state and local health 
departments. That is the law.
    Those are faced with a population that oftentimes we as 
America, we want everything. We want clean water, but we do not 
want to necessarily have it cost too much, and that is 
understandable in these economic times.
    Mr. Simpson. Twenty percent becomes a pretty good level for 
that, but I have a whole bunch of questions that we will ask 
later.
    Mr. Dicks. We will have another round in here.
    Mr. Simpson. We will have another round, but I just want to 
say before you go there that announcing that greenhouse gases 
and the human cause of it is settled science tells me a lot 
about where we are headed in this Administration because I do 
not think a lot of people think it is settled science.
    Mr. Dicks. Everyone has a right to their opinion.
    Mr. Moran.

                            ARRA OBLIGATIONS

    Mr. Moran. Moving along here, EPA received over $7 billion 
in the Economic Recovery Act, a.k.a., the Stimulus Bill. As of 
now, mid February, what percent of those funds have been 
obligated?
    Ms. Jackson. I think the total percentage is somewhere well 
above 98 percent or 99 percent, and as far as the Clean Water 
Funds, 100 percent of those funds have not just been obligated, 
but they are under contract at the state level, which 
represents an enormous amount of work at the state level.
    Mr. Moran. So all that money is out there.
    Ms. Jackson. Seven billion dollars is out on the street and 
only in a few funds, the underground storage tanks is 89 
percent.

                           ARRA JOB CREATION

    Mr. Moran. Ninety-nine percent is pretty good. How many 
jobs have been created?
    Ms. Jackson. The actual reporting comes in from the state. 
Obviously a lot of them are not working right this second 
because it is not the construction season, but we estimate well 
above 6,500, maybe as high as 7,500 jobs, and right now we are 
reporting estimates of 6,800 jobs.
    Mr. Moran. Good for you.

                        PERKINS OKLAHOMA PROJECT

    We have gotten some feedback critical of some of these 
projects. One in particular, it was a waste water treatment 
plant in a place called Perkins, Oklahoma. Have you heard of 
this project?
    Ms. Jackson. Yes, sir. Well, I knew it was highlighted 
recently in a minority report.
    Mr. Moran. Well, first of all, how much did the people of 
Perkins, Oklahoma, have to pay back for this waste water 
treatment plant?
    Ms. Jackson. Well, Perkins received $2 million in the Arrow 
Principle Forgiveness, so what happened is that they received 
essentially a $2 million grant, and they had already received 
$5.2 million in a program loan, but the $2 million from the 
Recovery Act when to pay back the loan so that they would not 
have to raise rates.
    Mr. Moran. So the money they are complaining about was a 
grant with no requirement to pay back the principle or 
interest. One of the things that I have been told is that the 
cost for the Davis-Bacon and Buy America Provisions that we 
added in the committee, the claim is that that substantially 
increased the cost of the bids.
    Do you have some sense of the actual percentage of increase 
of the cost of the bids caused by the two provisions together?
    Ms. Jackson. Sure. Something is not adding up in the 
reports we are hearing about the city of Perkins. There were 
three other projects bid in the State of Oklahoma. They were 
bid twice actually; first before the Recovery Act and once 
after, so with and without Davis-Bacon, and the average 
difference between those two is 5 to 6 percent. And yet now 
reportedly we have this huge raised rate of 40 percent in 
Perkins. Some people are trying to say it is this big, and that 
does not make sense since other projects did not see a similar 
increase in project cost.
    Mr. Moran. They say utility costs went up. Did they raise 
utility costs after that project was put in?
    Ms. Jackson. No, sir. The utility cost did go up. There 
were rate increases. They went in a year before the Recovery 
Act passed.

                    THREATENED WATER BODIES--FUNDING

    Mr. Moran. A year before the money was made available. 
Well, that is useful to know. Thank you for clarifying that.
    There are a number of questions that I think we all want to 
ask, but one that I was particularly concerned about, I 
represent part of the Chesapeake Bay area, the Potomac River 
and the Chesapeake Bay, and I have some concerns about what may 
be red flags, or if you want to use the analogy, the canary in 
the coal mine. We have got almost 100 percent of the small 
mouth bass which is the principal species, which has got to be 
an aberration that should cause concern, although we do not 
know, you know, what the concern should be, but we know it is 
not right.
    But along with the Chesapeake Bay is another comparable bay 
that I actually, I will be quite honest, I watched a TV show 
that focused on the Chesapeake and Puget Sound, and both of 
them were very similar situations, but the Puget Sound request 
this year dropped from $50 to $20 million. Why would you have 
done that?
    Ms. Jackson. The money for the Puget Sound is reflective of 
funding an estuary program and not at all reflective, I have to 
say here for the record, of the excellent job that is 
happening. It is not just managing money but a real project to 
improve the estuary itself.
    There has been a focus on the Chesapeake Bay. The President 
issued, as you know, an Executive Order on the Bay. There is 
certainly a focus on the Great Lakes, 20, 25 percent of our 
freshwater in the world is in the Great Lakes system, and as I 
explained to Chairman Dicks, I know that we need to continue 
our discussions to ensure the Puget Sound program is adequately 
funded, but I have to say that that program is a marked state.
    Mr. Moran. Okay. That is nice to hear, although it does not 
seem to be reflected in your budget priorities, which is always 
where the rubber hits the road.
    I mentioned the Potomac River and the concerns about fish. 
Do you share that concern? Is EPA going to do anything about 
that kind of situation? There has got to be cause for concern.
    Ms. Jackson. Yes. You know, the nagging problem for many 
Americans is that we still have some of the same sort of 
conventional issues with drinking water, but we are learning. 
Our science does evolve, and we are learning that there are new 
threats to our treasury of water bodies; the Potomac, the 
Anacostia, estuaries around our country are still in trouble.
    We are looking at endocrine disrupters, emerging chemicals, 
big chemicals, mostly synthetic, organic chemicals, some from 
drug excretions and others. What is really needed now, in my 
opinion, is not regulatory actually. We do not know enough. 
There is more research needed, as well as some--I am an 
engineer by training, so I keep saying we also need a real 
focus on practical solutions that we can offer to folks in the 
meantime because trying to keep up with all the chemicals in 
our modern life is a difficult thing to do when you are chasing 
the wagon. But I think EPA also has some engineers and 
scientists who might be able to offer some technical assistance 
and advice to communities.
    Mr. Moran. Is that what it is you want?
    Ms. Jackson. Well, right now this year's budget I think for 
EPA has $7 million additional for star grants, all is for 
endocrine disruptors. We have $1.8 million additional in 
computational toxicology for the program, and so, you know, we 
can always use even more money, but I think the key----

                    RESEARCH THREATENED WATER BODIES

    Mr. Dicks. Is there no one doing anything on this? That is 
good for the EPA.
    Ms. Jackson. I would have to double check. I do not want to 
say no or yes at this point. They have a large increase, as you 
know, in their research budget, but I am not sure of any of the 
paperwork.
    Mr. Moran. Okay. We got to keep moving.
    Mr. Calvert.

                   GREENHOUSE GAS REDUCTIONS FUNDING

    Mr. Calvert. Thank you, Mr. Chairman.
    Without getting into whether climate change is caused by 
humans or natural phenomenon, I just wanted to ask you a few 
questions regarding that.
    How much funding is EPA requesting in fiscal year 2011 to 
develop and implement greenhouse gas reduction?
    Ms. Jackson. The total is somewhere north of $230 million I 
believe.
    Mr. Calvert. Are future requests in these activities 
expected to decrease, remain level, or increase from that 
level?
    Ms. Jackson. This is an increase over enacted of 
approximately $42 million, and just to be clear, this is all 
related to climate change.
    Mr. Calvert. Right. Right. So you believe in future years 
that you will be expecting to spend more money, the same, or 
less?
    Ms. Jackson. I would expect that needs will continue to 
grow as we move into a world with, hopefully new legislation, 
but possibly also with regulation of increasing activity on 
climate change.
    Mr. Calvert. Just recently you stated, and I am getting 
this from your testimony, that at least in the short term you 
expect the threshold for permitting will be substantially 
higher than the 25,000 ton limit that EPA originally proposed.
    Isn't it true that regardless of whatever threshold EPA 
proposes, once you go down that path, any federal judge will be 
able to overrule you and establish whatever threshold the law 
requires?
    Ms. Jackson. I really cannot speculate on law because I am 
not an attorney.
    Mr. Calvert. But is it possible?
    Ms. Jackson. It is certainly possible that there will be 
challenges to EPA's regulations.

                     GREENHOUSE GAS REGULATORY PATH

    Mr. Calvert. As you know in California we are in the 
process of implementing a bill called AB-32, which is a state-
based attempt to regulate greenhouse gas emissions. The state 
is in the midst of probably the worst economy I have ever seen 
and has many well-known budget challenges. State and local 
agencies are literally going bankrupt. We are being forced to 
use a substantial amount of resources to comply with AB-32.
    More alarming, I just went back to my district over the 
break, alarmed at the number of businesses that came to me and 
said they are moving out of the State of California, moving to 
places like Texas and other areas where the regulatory 
environment is less obscene in their minds.
    Based upon that reality and looking at what is happening in 
California, is that a preview of what is going to happen to the 
country if the EPA continues down this regulatory path?
    Ms. Jackson. California's growth from the clean energy 
sector is usually cited nationally and----
    Mr. Calvert. We have 12 percent unemployment in the state.
    Ms. Jackson. I understand that, sir, and the country is 
trying to find a way out of a serious recession as well, but, 
you know, I worked for a governor. I would hesitate to impinge 
on a governor's priorities and prerogatives in running a state. 
All I would say is that the California work on climate change 
and on energy efficiency has been some of the leading work in 
the country.
    Mr. Calvert. My good friend and colleague from the other 
side of the aisle, Colin Peterson, was recently quoted in the 
Wall Street Journal saying, ``I have no confidence the EPA can 
regulate greenhouse gases under the Clean Air Act without 
severe harm to all taxpayers.'' Another good friend, my 
colleague, Ike Skelton, was quoted in the same piece saying, 
``Simply put, we cannot tolerate turning over regulation of 
greenhouse gas emissions to unelected bureaucrats at the EPA.''
    Chairman Peterson, Skelton, and others are advocating for a 
simple two-page bill that would amend the Clean Air Act and 
strip the CO<INF>2</INF> and other greenhouse gases from 
statutory language. If such a bill was passed by Congress, 
would you advise the President to sign it or veto it?
    Ms. Jackson. The Murkowski bill that I think you are 
referring to, sir, would actually invalidate the endangerment 
finding. It would invalidate the science of the endangerment 
finding and would put this country's views towards greenhouse 
gas emissions in line with those of Saudi Arabia and China who 
were quoted as saying that this is an issue that the world 
commission address.
    I would not think it advisable to move back from a clean 
energy perspective or to move away from the opportunity that we 
would have if we would move toward----
    Mr. Calvert. So your answer is that you would ask the 
President to veto the bill?
    Ms. Jackson. I would certainly use my voice to weigh in on 
the side of not losing the California car deal and not amending 
the Clean Air Act.

                     COPENHAGEN CLIMATE SUMMIT COST

    Mr. Calvert. With regards to the last line of questioning 
on the Copenhagen Climate Summit, CBS news just conducted an 
investigation into the Climate Summit, and their findings was 
that the delegation spent a little over $1 million, about $1.1 
million.
    How much money did the EPA spend on the Copenhagen Climate 
Summit?
    Ms. Jackson. I do not know that I have that number in front 
of me, sir. I will be happy to get it for you.
    [The information follows:]

    Question: How much money did the EPA spend on the Copenhagen 
Climate Summit?
    EPA Travel Costs--Copenhagen Climate Summit: EPA spent $55,598.00 
on attending the Copenhagen Climate Summit.

    Mr. Calvert. What office within the EPA did the travel 
expenses come out of? What line?
    Ms. Jackson. My assumption is that they came out of various 
offices we had there. From my office I went as well as other 
office areas.
    Mr. Calvert. As you know the Congressional delegation to 
travel to Copenhagen was required to publicly disclose their 
expenses like all Congressional delegation trips do. Nowadays 
we are required to disclose and put up on our websites any 
requests to appropriate funding for projects in our own 
districts we support, and I think disclosures are a good thing.
    To that end do you plan on disclosing your expenses for 
trips like Copenhagen and other climate summits you may attend 
in the future?
    Ms. Jackson. I do not know that we have been requested to 
release the information, but I do not also know that we 
withheld it when we have been asked for it.
    Mr. Calvert. So you would be in favor of posting that on 
the web?
    Ms. Jackson. I believe it is already public but----
    Mr. Calvert. As far as I know it is not. If it is, that is 
good.
    Ms. Jackson. Then we will get it to you.
    Mr. Calvert. You will get it to us. Thank you. Thank you, 
Mr. Chairman.
    Mr. Dicks. We will have votes coming up here, so I am going 
to try to move this along.

               CLIMATE CHANGE REGULATORY IMPACT ANALYSIS

    Mr. Chandler. Administrator Jackson, I want to delve into 
another aspect of this climate change issue, but I am not going 
to question the science. As you know, we made an effort in the 
House, in fact, we passed a bill in the House to try to address 
the problem of climate change. It has not been followed up and 
now we have this specter of EPA moving forward and regulating 
the matter.
    My concern and the concern I think of a lot of people in 
different parts of the country is the geographic inequities 
that could result. Those I think were attempted to be addressed 
in the bill, but when the EPA goes about its business of 
regulating emissions, is there any thought being put into what 
happens to certain jurisdictions that are in coal, for 
instance, that will be hit hard? It very well may, in fact, I 
would suggest to you will result--if we do not take some 
account of it--in a transfer of wealth from some parts of the 
country to other parts of the country.
    And while there are many of us who live in some of these 
areas who think that climate change has to be addressed, we are 
also concerned that it be done in such a way that some regions 
of the country are not disadvantaged unfairly.
    And I am wondering if you could speak to that a little bit 
and if the EPA has any ideas about how to address it.
    Ms. Jackson. Yes. It is something that is of concern to me 
personally and, of course, to EPA through out regulations. When 
we put out any regulations, of course, they have to go through 
an impact analysis, and I would expect that those areas that 
are most greenhouse gas intensive, or rely either for energy or 
economy on greenhouse gas-intensive industries, are going to be 
twice as sensitive about regulatory structure.
    It is the essence of why, and one of the strong reasons why 
I believe so strongly that legislation is needed, that what 
happened in the House needs to be repeated in the Senate. 
Because through legislation there are many more opportunities 
to address geographic difference, industrial differences, 
international differences, as well as provide market incentives 
to price and allow the free market to do the real heavy lifting 
on this issue of clean energy and a transition of time, some of 
which we can regulate.
    Mr. Chandler. Are there tools available to you to deal with 
this issue and mitigate some of the effects that this may have 
on some of these regions of the country?
    You know, some of these areas, burn certain fuels for a 
number of different reasons. Historic reasons, reasons of 
availability of a particular fuel or a lack of availability of 
certain green fuels. So it is a concern, and we are going to 
see jobs leave certain areas. A whole lot of people I am 
afraid, may be dislocated if we do not deal with this.
    Ms. Jackson. There are certainly tools under the Clean Air 
Act, powerful and effective tools for addressing air pollution, 
and it has a proven history over many years.
    One of the things I pride myself on is that I consider 
myself a person who has, for good or bad, worked a long time in 
the regulatory field and with staff that the President 
appointed and who are here with the same mindset. We just try 
to do all we can to make a pragmatic path forward so that 
business gets regulatory certainty.
    One thing is for sure. Right now with federal actions but 
also with state and local actions in each and every direction, 
the one thing it does not have is certainty. The one thing I 
believe strongly is that the quickest path to get there is for 
Congress to act, for us to have the law to settle the question. 
But in the interim, in the time between now and then, because I 
am still hopeful that legislation will happen eventually, 
sooner rather than later, my pledge is that EPA will act in a 
manner consistent with long-term regulation in a commonsense 
manner, not in a manner meant to destroy any economy. In fact, 
history shows that EPA has not done that. Every single time 
business or the hindrance of business or the status quo say EPA 
regulations have destroyed the economy, they have, in fact, 
unleashed real economic growth with all of it and industries 
built around rising to environmental challenges.
    Mr. Dicks. Mr. LaTourette.

                   GREAT LAKES RESTORATION INITIATIVE

    Mr. LaTourette. Thank you, Mr. Chairman, and welcome, Madam 
Administrator. Sorry I was not here for your opening remarks, 
to have the opportunity to digest them. I previously remarked 
in this subcommittee that for the Stimulus Bill and going from 
fiscal year 2009, through the closing for fiscal year 2011, the 
EPA's budget has increased 31 percent. And so we were really 
buoyed by the President's announcement and you came before us 
last year and talked about the $475 million for the Great Lakes 
Restoration Initiative. But this year in your budget submission 
it is $300 million.
    Do you have anything to say about that other than tough 
choices had to be made? Because that is a big number.
    Ms. Jackson. Yes, sir. This one is one of management and 
pragmatic ability to put the money on the street. As you well 
know, by the time the money was authorized so that we could 
start to solicit grant proposals for the $475 million, we were 
almost near the end of calendar year 2009.
    And so I asked my staff just the other day how much of that 
$475 million do we now have and is authorized, that has been 
obligated, and it is still at zero. There are plans to move 
that money out. As you know, we have $53 million of it going to 
Asian carp, but the $300 million is simply just a reflection 
for this year only that we have quite a chunk still to spend.
    Mr. LaTourette. I read the document that you produced on 
Sunday, and it is a very well-written document, and there are 
asterisks in there that indicate, that assumes or presumes $475 
million and every year after this. I would just say to that, I 
mean, you understand what concerns those of us in the Great 
Lakes. I mean, it looks like $175 million for something that 
was really needed is taking a walk, but I know you have eight 
million things to do. When you came before the subcommittee I 
expressed my concern that the way this program was structured 
it was not going to get this zero amount obligated, it was not 
going to get to the people that are actually going to clear up 
the areas of concern, who are going to deal with the invasive 
species, that are going to take care of the problems that 
exist. And you said that was not true, and I will tell you in 
living there you have more money in your proposal going to EPA, 
$30 million, for outreach and education, than goes to any other 
agency; official wildlife people, coalmines, park service, and 
I am lucky in my part of the world to have an area that has 
recovered, and I've got to tell you that took 35 years. It took 
four Congressmen, and it took north of $60 million.
    But will a $300 million pie, EPA is keeping, for your 
discretion, $170 million, and that is 56.34 percent. The last 
time I checked, I mean, you are a regulatory and enforcement 
agency. You do not clean stuff up. Right?
    Ms. Jackson. We have a whole clean-up program called the 
Superfund Program.
    Mr. LaTourette. Well, yeah, you do, but, who implements the 
Superfund Program in terms of putting the shovel in the ground 
and restoring habitat and all the things this program is 
supposed to deal with?
    My concern and my only observation is, I think that under 
this proposal you are going to accept RFPs. You are going to 
have a lot of different announcements with big checks and the 
mayor of this town, and that town is going to show up and say, 
``hey, we have got $500,000 for this, $500,000 for that.'' This 
funding is a big deal to these areas of concern that really 
have choked the commerce and the commercial fishing in the 
Great Lakes.
    I think you have stovepipes, and so you are going to get 
all these proposals. Everybody is going to get a little bit, 
but because you have not put the money in the hands of the 
locals and because you put negligible money in the program, 
people in our Lakes where the fish are permitted, they cannot 
put fish back that have not been there for 30 years. They get 
just a tad bit more money than you have kept, not you 
personally, but the EPA, has kept for education.
    Now, I have to tell you the excitement in the Great Lakes 
was not only $475 million, it was that we had real money, we 
were going to be treated like the Everglades, and we were going 
to clean up the areas of concern. We were going to get the PCBs 
out, we were going to bring back our fish stocks. This proposal 
with all due respect, undid that, and I would hope that you 
would reconsider the direction of this RFP proposal. You are 
going to have a million announcements would be my observation.
    Mr. Dicks. One thing I just wanted to say, I raise 
questions about this program, and what we are doing with the 
Puget Sound Recovery Program in Washington state is we looked 
at the Great Lakes, and we looked at the Chesapeake Bay. I 
brought the GAO in, and I asked them why have they not 
succeeded, and they said, bottom line, no accountability. No 
plan, no accountability.
    And so I think what you have to do with the Great Lakes, 
you have to break this up a bit into action areas. But you do 
not have a plan, and what I worried about last year, the reason 
I was concerned about this is you have to have what we call an 
action agenda, and then you have to fund the items that are in 
the agenda. There is a lady out in our state who has done a lot 
of work on Puget Sound, and she always used to say, the way we 
are approaching this is random acts of kindness.
    And so, I think the last thing we want to do is throw more 
money--if we cannot spend the money we have already got. Then I 
think we have to be reasonable about this and say how long is 
it going to take. I was unhappy the time it took EPA to get 
Puget Sound out and yet it is now starting to get out, and we 
are doing projects that are part of the actual agenda.
    So all I am saying is I think we have to be a little bit 
reasonable. The Administration is totally committed to this, 
and if they do not think they can spend the money, then the 
effort will get undermined.
    Mr. LaTourette. Mr. Chairman, if you will permit me, and 
then I know the Administrator wants me back, I do not quibble 
with anything you said, but here 56 percent of the money is 
staying in-house at the EPA subject to the entire fees that are 
going to go out, and we need a plan. I am all for plans. We 
have got to treat all five Great Lakes as one big ecosystem 
that takes 200 years for water to come from the top of the 
Great Lakes down to the bottom. But some of these things we 
know what is going on. I mean, I do not know how to take the 
Chairman swimming with the sea lamprey and see what he is doing 
to our sports fishery industry. We know what has to be done 
with the sea lamprey. We have been doing it for years.
    Mr. Dicks. Well, let us do it.
    Mr. LaTourette. Well, that is my observation to the 
Administrator.
    Mr. Dicks. Bring in the Fish and Wildlife Service, we will 
talk to them, and let us go do it.
    Mr. LaTourette. Mr. Chairman, I look forward to your 
helping me readjust the EPA's budget submission, because that 
is exactly what I am talking about. Less money should be used 
for the education piece. $30 million EPA has for outreach, K 
through 12, which is great stuff, but it is not killing one sea 
lamprey. It is not killing one round goby. It is not going to 
keep one Asian carp from coming up the river and eating young 
people.
    Mr. Dicks. We are trying to make sure we have one round 
before the votes.
    You have an action plan?
    Ms. Jackson. We do, and not only that, but we have a 
strategic plan which you know the states and the tribes and 
working with the Canadian government because, of course, the 
Great Lakes involves national partners as well.
    Let me just say what I would love to do is have my staff 
come out and sit as we did with you, Mr. Chairman.
    Mr. Dicks. Right.
    Ms. Jackson. And walk you through how we came to this plan. 
I would ask for, you know, time to explain ourselves. The vast 
majority of the EPA money is in toxics cleanups. We are 
committing to clean up four or five areas of concern. You know 
them well. They have been sitting around--I am sorry. Toxic hot 
spots, forever just re-contaminating major parts of the lake. 
That costs money. I used to work on clean up. They are never 
cheap or non-complex. That is why there is a lot of money 
there. As far as education, it is there because that is one of 
the things the President's initiative invited, and we will be 
doing that, not by doing it ourselves at EPA, but by offering 
RFPs to communities to do that work, because that is how change 
happens.
    Lastly, since you mentioned the U.S. Fish and Wildlife 
Services it reminds me to just take a second to say that we 
absolutely treasure their resources, their assistance. They 
were critical and remain critical on the Asian carp and the 
loss of Sam Hamilton is, you know, just a tragedy, not only for 
his family, which I am sure it must, must be, but for us when 
so many things are all working.
    Mr. Dicks. We agree with that. All right. Thank you.
    Mr. Hinchey.

                          HYDRAULIC FRACTURING

    Mr. Hinchey. Thank you, Mr. Chairman. Administrator 
Jackson, I want to just thank you for all the things that you 
have done and all the progress that you are making, especially 
the renewed focus on the original mission of the agency to 
protect human health and the natural environment. All of those 
things I congratulate you for doing. I also want to express my 
appreciation for this committee and the leadership of Norm 
Dicks for providing the funding that we need and that you are 
using so effectively.
    There are a number of issues that are being dealt with. 
Some of that money has been used on waste water and water 
treatment facilities, billions of dollars gone out to local 
communities. All of that is having a positive effect upon them, 
on the national environment and also on the quality of the 
environment and probably the economy as well, strengthening the 
economy and creating jobs.
    So you are doing a lot of very good things. I want to 
express my appreciation to you for all of that.
    Hydraulic fracturing is one issue that I would like to 
focus on for just a few minutes, because I think it is 
something that is very important for a lot of people around the 
country. There have been controls on the way in which hydraulic 
fracturing was used up until recently, 2005. There was one bill 
here, which a number of us opposed but nevertheless it was 
successful, that eliminated a Clean Water Act requirement. And 
the fact of the matter is that there are a number of issues 
that are resulting from that legislation. Those issues are not 
very positive. They are very negative, and they are very 
serious.
    Also, your agency noted in a statement that came out last 
week, a quote that I would like to mention here, and it says, 
``There are compelling reasons to believe that hydraulic 
fracturing may impact ground water and surface water quality in 
ways that threaten human health and the environment which 
demands further study.'' And, of course, we believe that too. I 
want to thank you for including funds in your budget to 
initiate a study of hydraulic fracturing and the waste 
resources. That follows report language that we put out last 
year, which moved this issue in that right direction.
    So what do you think? What is the likelihood that EPA could 
begin this study some time within the next few months or the 
next few weeks?
    Ms. Jackson. The start of the study will depend on us being 
able to adjust our operating budget for the current fiscal 
year. So nothing is budgeted that we are here to present today, 
but the current fiscal year operating plan, to move some excess 
funds into funding for that study and we really look forward to 
working with this committee, with the larger Appropriations 
Committee here but also in the Senate to be able to get 
approval of the plans to move that money.
    What we have done is tried to fund the whole thing out of 
our budget this year, next year, but we would love to start it 
this year.
    Mr. Hinchey. Well, I hope you are successful. I hope that 
is successful, and I hope it moves forward very positively.
    I mean, the idea of drilling for natural gas is very 
important. It is very wise and sensible. Natural gas is a very 
good, high quality product that we should produce in effective 
ways, but it has got to be done in a way that is safe and sound 
and secure, that is not going to damage a lot of other people 
who may live somewhere in the vicinity where this drilling 
takes place.
    And the way in which this drilling has been engaged, we 
know, of course, is not just simple drilling. It is the 
injection of huge amounts of liquid materials. Not just water 
but sand and a whole host of things, including toxic chemicals, 
huge amounts of toxic chemicals. There is no honesty now that 
is required in the context of having to reveal what they are 
putting into the ground, including the toxic chemicals. All of 
that is critically important, and it is important primarily for 
people----
    Mr. Dicks. Would the gentleman yield?
    Mr. Hinchey. Yes.
    Mr. Dicks. Why is that? Why do they not have to----
    Ms. Jackson. They are not regulated federally under the 
Safe Drinking Water Act except for essentially diesel, 
hydrocarbon issues, which EPA regulates, and Mr. Hinchey is 
referring to several recent revelations. Most of the EPA 
studies to date, in fact, all of it has really been 
inconclusive in terms of a causal effect or contamination. It 
raises many questions. That is why the full study is needed, 
but recently there have been some facts that have come to life 
that show that there may well have been some--it is not just 
transparency but some inaccuracy. A company is not reporting 
what is going down the well or saying that there is not diesel 
and other chemicals going down the well when, in fact, they may 
be. I believe it is Chairman Waxman and Mr. Markey, who are now 
looking for information from these companies to get a much 
better sense of what is going on.
    Mr. Hinchey. And we are doing something, and it is very 
good, and it is something that needs to be done, and of course, 
this was regulated to some extent. Actually, it was regulated 
to the extent that you had to be honest about what you were 
putting in the ground up until 2005. When that bill passed here 
in 2005, it was based upon the false assertion that was made by 
your agency under previous Administrators, that there was no 
need to have this information out there.
    And, of course, then this 2005 bill was passed, and the 
2005 bill said if they inject chemicals into the ground in that 
fracturing, they do not have to tell anybody about it. They can 
keep that to themselves, and that is the situation that we are 
dealing with.
    Ms. Jackson. Mr. Hinchey is referring to a study that was 
done. It was a very limited study that really did no sampling 
or analysis. It was simply a literature review of fracturing 
techniques. Mostly it was with information submitted by the 
industry itself, which has widely, I think, been misquoted and 
misinterpreted, could be a much broader indication of the 
safety of fracturing than the data warrants. That is why a new 
study is needed.
    Mr. Dicks. Thank you.
    Mr. Hinchey. Thank you.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. I had not meant to go down that road, but I want 
you to finish a little bit. What evidence do you have that 
hydraulic fracturing does cause problems?
    Ms. Jackson. We have no data that shows--the limited 
studies we have done, for example, we have done some limited 
look at the request of citizens that drinking water wells 
concerns have been encountered, and we cannot make that 
connection at all. What I believe is we need to ultimately take 
a step back, recognize first and foremost, and I should have 
said this, states right now can certainly regulate hydraulic 
fracturing. It is not an unregulated activity. It is not 
regulated by EPA.

           CLIMATE CHANGE REGULATION--ENERGY SOURCE PROMOTION

    Mr. Cole. Okay. That was actually the next question I was 
going to go to. Again, I do not want to give the impression 
this was unregulated activity. It is not, and frankly, it is a 
technology that has been used for a lot of years and a lot of 
places and certainly my home state and a lot of others.
    We have a lot of data, and I think the study is prudent. I 
have no problem with that, but the weight of evidence at this 
point does not suggest that. The charges here I would suggest 
are overstated on the basis of what we know.
    Let me ask you this. Back to the question you raised or an 
issue, concern you stressed about in some sort of climate 
change legislation, that you would obviously much prefer to go 
that route, and I think probably all of us would much prefer to 
go that route, too. But I think it is very unlikely that is 
going to happen in the next 8 months. That is just my judgment, 
and I think it is probably less likely after that. So I think 
whether you want to or not you are probably headed down the 
road to having to discuss broadly what you envision as an 
appropriate regulatory framework to deal with climate change 
without legislation for it.
    Given that, I suspect you are thinking about that and 
planning that right now. What sort of regime do you envision 
would exist, what sort of regulatory powers would you need and 
what sort of energy sources would you try to push the country 
toward using?
    Ms. Jackson. It is too soon for me to speculate on the 
technical details of the determination, like which control 
technologies or which technologies in general should be used to 
try to mitigate greenhouse gas emissions, but let me just break 
it into two sources.
    I do think that we have a lot of clarity, and we think we 
can go for cars, for fuel efficiency combined with some very 
high-tech and targeted ways of dealing with non-fuel issues 
that would limit greenhouse gas emission. Central air 
conditioning systems come to mind, usually quite a bit because 
refrigerants can be so intense in terms of greenhouse gas 
potential.
    I think for cars, potentially for other mobile sources you 
can see the future where you start to use existing technology 
to make them much more efficient first and then to go after 
more emissions as technology continues to evolve. We are 
certainly getting there.
    This is the history of the Clean Air Act. So although I 
cannot speculate on stationary sources, my belief is that 
oftentimes with regulations, the history has been that when 
people are given time to know what regulation is coming and 
understand it, they believe in the certainty of it. It is not 
here today, gone tomorrow. It is not like so it is going to be 
an issue. Technology will find solutions that will make our 
society as a whole more efficient, and that is a very good 
thing. As well, business has already started down that track 
and then move towards control.

                  FUTURE ENERGY SOURCES AND INCENTIVES

    Mr. Cole. The President in the State of the Union address 
mentioned specifically nuclear power and natural gas in 
connection. I am just curious of what your thoughts are as to 
what the appropriate mix would be and whether or not those are 
appropriate avenues to move towards. How would you incentivize 
that?
    Ms. Jackson. I certainly take my lead from the Department 
of Energy in terms of working towards our country's energy 
future. As you know, we work very closely together, and the 
Secretary has been quite outspoken especially very recently, on 
his belief in the need for nuclear power to be part of our 
country's energy future.
    As to natural gas, my understanding is that the good news 
is that we have more of it than we realize, and obviously we 
need to make sure it is developed economically, excuse me, 
environmentally.
    Mr. Cole. I like that economically.
    Ms. Jackson. Well, economically would be good but since I 
sit here as EPA, I would say that----
    Mr. Cole. I have got other questions, but I yield back.
    Mr. Dicks. Thank you for helping here.
    Mr. Olver.

                      ENDANGERMENT FINDING--GASES

    Mr. Olver. Thank you, Mr. Chairman, and Ms. Jackson, I 
truly would like to commend you on developing somewhat 
different words and for your forthrightness in defense of what 
you are doing on the issue of climate change with some very 
good basis for doing it.
    I wanted to ask you about the endangerment finding. I have 
seen you characterize that endangerment finding as really 
applied only to six gases?
    Ms. Jackson. Yes, the endangerment finding looks at 
greenhouse gases, six gases, in terms of their greenhouse gas 
potential. It does not mean that those are the only greenhouse 
gases that are out there, but those are the six the findings 
address.
    Mr. Olver. I see. What are they? What are those six?
    Ms. Jackson. Of course, there is CO<INF>2</INF> and 
methane. It is SF<INF>6</INF>, sulfur hexafluorides. It is two 
different refrigerants. Right? As a class. I am missing one.
    Mr. Olver. Nitrous oxide.
    Ms. Jackson. Look at you. Thank you.
    Mr. Olver. But it is only those six?
    Ms. Jackson. Those six.
    Mr. Olver. And the fluorocarbons and hydrofluorocarbons, 
those are refrigerants.
    Ms. Jackson. Refrigerants.
    Mr. Olver. The others are all--nitrous oxide is largely 
from vehicles.
    Ms. Jackson. But also from soils. For example, a result of 
fertilization----
    Mr. Olver. Used as fertilizers.
    Ms. Jackson. Yes.
    Mr. Olver. My recollection is that 20 years ago the big 
battle was over the ozone layer, the destruction of the ozone 
layer, and I thought we had been pretty successful at limiting 
the refrigerants, which I thought were either the same 
compounds that were very related compounds, to the 
hydrofluorocarbons and perfluorocarbons that are now again the 
subject of the endangerment finding. Are we back to using 
those, and have I missed some sequence here? It is fairly 
successful even though in Australia and some parts of the 
southern hemisphere there is a great deal of concern. If they 
have any tendency towards light skin, an Irish skin or an 
orange skin or something like that, that they really lather up 
when they go to beaches because of the sun regeneration of the 
ozone layer. But that is certainly back to where it was.
    Ms. Jackson. But although I think you are absolutely right, 
sir, about the Montreal Protocol: the protocol that was put 
into place internationally to phase out the use of CFCs that is 
widely considered to be a success story. And in fact, the 
discussion of how to deal with the two classes of refrigerants 
that are considered to be greenhouse gases, which in some cases 
replaced the ozone. So now we move from one thing to the next 
and the next now needs to be dealt with.
    We are using the Montreal Protocol as the framework to 
guide the reduction of these gases because there was some 
success in reducing others.
    Mr. Olver. Okay. What are we finding now as the 
concentrations of these refrigerants, hydrofluorocarbons and 
perfluorocarbon refrigerants, in the atmosphere?
    Ms. Jackson. I do not know if I can give the atmospheric 
concentration, but I think your general statement that it is 
considered to have been a success in terms of phasing out the 
use of fluorocarbons generally and reducing the need for their 
uses has meant that we believe we have dealt with our 
stratospheric ozone, which is what CFCs were impacting. We can 
get you information. It is considered to be successful, but I 
do not know the concentrations.
    [The information follows:]
    Question: What are we finding now as the concentrations of these 
[HFCs and PFCs] in the atmosphere?

                       Atmospheric Concentration

  CURRENT ATMOSPHERIC CONCENTRATIONS OF HYDROFLUOROCARBONS (HFC) AND 
                        PERFLUOROCARBONS (PFCS)

    HFCs and PFCs presently have relatively low atmospheric 
concentrations measured in parts per trillion. However, concentrations 
of many of these gases increased by large factors (between 1.3 and 4.3) 
between 1998 and 2005. In 2005, these gases and sulfur hexafluoride 
(SF<INF>6</INF>) had a total radiative forcing of +0.017 
(<plus-minus>0.002) W/m\2\ but this is increasing by roughly 10% per 
year (Forster et al., 2007).
    Source: Technical Support Document for Endangerment and Cause or 
Contribute Findings for Greenhouse Gases under Section 202(a) of the 
Clean Air Act (http://www.epa.gov/climatechange/endangerment/downloads/
Endangerment%20TSD.pdf)

    Mr. Olver. Then is it possible for you to get us something 
that redistributes, that shows what the concentration was, 
about these endangerment gases that are in the atmosphere, and 
how has this changed over a period of time? In some cases, we 
have not been measuring them for very long, but we do have 
clear ideas of what the measurements have been, going somewhat 
farther back, at least for methane and nitrous oxide and 
CO<INF>2</INF>.
    And also if you would give us, in the same place, what is 
the relevant power as a heat-trapping gas, as an energy-
trapping gas, what the various ones are?
    Ms. Jackson. I am happy to do----
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647A.015
    
    [GRAPHIC] [TIFF OMITTED] T6647A.016
    
    [GRAPHIC] [TIFF OMITTED] T6647A.017
    
    [GRAPHIC] [TIFF OMITTED] T6647A.018
    
    [GRAPHIC] [TIFF OMITTED] T6647A.019
    
    [GRAPHIC] [TIFF OMITTED] T6647A.020
    
    Mr. Olver. I think the perforo items are by far the most 
powerful, but they are also probably the very smallest 
concentrations.
    Ms. Jackson. That is right, and the other factor that we 
will include in there is half-life because the thing about 
CO<INF>2</INF> as compared to the other five of them is that it 
has the longest half-life. For example, methane has over 20 
times more carbon than CO<INF>2</INF>, but it does not live in 
the atmosphere quite as long, but that is why methane is sort 
of next on the hit list. Nitrous oxide as well. You need all of 
those.
    Mr. Olver. When you say next on the hit list, what do you 
mean by that?
    Ms. Jackson. In many ways when we look at opportunities I 
mentioned the mobile source for methane opportunities around 
landfills, for example, which present real opportunities to see 
changes, whether they are considered as offsets so that they 
are not regulated or whether you happen to get advantages.
    Mr. Olver. We seem to be moving towards trying to capture 
methane that would otherwise be released from old landfills. A 
lot of places----
    Ms. Jackson. That depends on the advantage of also being--
--
    Mr. Olver [continuing]. Are doing that nowadays. You see 
them all the time, so it is possible to use that methane, to 
capture it, and make sure it does not go into the atmosphere. 
What are the key places where we get methane into the 
atmosphere?
    Ms. Jackson. Well, certainly agriculture operations with 
large livestock operations.
    Mr. Olver. Right.
    Ms. Jackson. There USDA certainly has opportunities, and I 
am sure, I mean, that by far is the largest, I think.
    Mr. Olver. What about the situation in the arctic where it 
is melting, and there is----
    Ms. Jackson. Permafrost----
    Mr. Olver. Tell us about that.
    Ms. Jackson. You know, the other place that we hear a lot 
about methane is when people talk about no-till farming. Part 
of the reason is that being stored in soil pores are gases like 
nitrous oxide and methanes that can be released. When you talk 
about the permafrost, what happens is at some point if you 
continue to see arctic melt, you lose the permafrost, which is 
a sort of seal, if you will, that will then allow a lot of 
methane to be released. Just keep in mind that, you know, 
everything you need to know you learn from Disney. So these are 
full of life. When something dies, this methane is just a 
natural part of decay, and so in the arctic all that decay 
potential is sitting there. That is what makes natural gas 
deposits, and that is what makes oil deposits.
    Mr. Olver. I think it might be very helpful if you named 
three major sources, one of them being landfills, which are a 
manmade issue in the first place. Second is the livestock, 
which I think all I could ask for is what we are doing in the 
United States in terms of how much methane we are producing 
from livestock, because that is basically going into the 
atmosphere in large measure until we figure out ways to really 
control that, even from livestock operations. Not quite sure 
what kind of diaper you were going to use on our livestock to 
deal with that, but then on the methane, we have billions upon 
billions, billions squared, tons of methane containing hydrates 
in the permafrost, and we have them in the ocean, and as the 
oceans warm, the permafrost melts. That is going to be 
released, and that is horrendously more dangerous as you 
pointed out.
    Ms. Jackson. It is a bit of a tipping----
    Mr. Olver. I thought it was 25 times more, but 25 and 40 
are the subdividers in 1,000, you know, so I may have just 
miscalculated.
    Ms. Jackson. I think methane is 39 times more.
    Mr. Olver. But if you could summarize that in some sort of 
a chart or some sort of a graph or something that would show us 
that graphically, it would be something that might help educate 
some of the people who you need to educate of this process.
    Ms. Jackson. Yes, I am happy to. Let me just point out that 
because of talking about points for technology, just changing 
feed has an enormous impact on agriculture. It is why my 
colleague, Secretary Vilsack, says that there is enormous 
opportunity in agriculture in dealing with climate change, 
especially since the piece of legislation passed by this House 
did not regulate agriculture. It did not in any way say what 
you must do. There are opportunities for additional increases 
by adjusting feed or changing how you manage your own ends. We 
will get that information.
    Mr. Olver. I would very much appreciate that summary. Thank 
you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647A.021
    
    [GRAPHIC] [TIFF OMITTED] T6647A.022
    
    [GRAPHIC] [TIFF OMITTED] T6647A.023
    
                          CARBON SEQUESTRATION

    Mr. Dicks. All right. Let me ask you one quick question 
then we are going to go to the Floor to vote. What about carbon 
sequestration? What are we doing there?
    Ms. Jackson. There are two things. First, the President 
recently asked me to co-chair a task force with Secretary Chu 
to move carbon capture and sequestration on ten projects 
commercially in the near future.
    Mr. Dicks. Is USGS involved in that?
    Ms. Jackson. Yes. We work closely with the USGS. EPA has 
besides a scientific role, a regulatory role----
    Mr. Dicks. Right.
    Ms. Jackson [continuing]. Under the safe Drinking Water Act 
for the injection of carbon dioxide and sequestering it 
geologically. It is going to be a regulated activity then, so 
EPA has money in the budget. I think it is a $2 million 
increase in this budget, but that is not a total amount to 
develop a framework for that carbon capture and sequestration 
so that the regulations are not a stopper when we finally get 
the technology deployed.
    Mr. Dicks. Dr. Mark Meyers, who was the head of USGS in the 
previous Administration, had some very important testimony 
where he said we have not done these sorts of pilot projects. 
We have done a lot of these in oil and gas fields, but we have 
not done it out in other areas. We are going to put this stuff 
in the ground to see, but there has not been much science here 
to base decisions on. So I am glad to hear you are going to do 
some projects and pilots on this to see how this really works.
    Ms. Jackson. Right. DOE will pay for most of the large 
pilots, and they have already announced one, at least one I am 
aware of, in West Virginia. You are absolutely right. It is 
done as part of the oil industry to enhance recovery of oil 
from the ground. The difference here is, of course, when you 
put the CO<INF>2</INF> in, you want to make sure it stays where 
you put it, does not impact someone else's land, does not cause 
enormous quantities----
    Mr. Dicks. And that is the point he was making. There is a 
lot of science there.
    Mr. Moran. I have a quick comment.
    Mr. Dicks. Yes. Go ahead. I yield.
    Mr. Moran. First of all, the exciting thing as a company is 
concerned is that if we could find a way to capture--that would 
be a real solution and maybe the only alternative. But the only 
other comment is I really was surprised that EPA does not list 
BPA in the six chemicals. All of a sudden it was dropped, and I 
will discuss that with you further. I want to ask you a 
question about it. Thank you, Mr. Chairman.
    Ms. Jackson. Thank you.
    Mr. Dicks. All right. I hate to hold you here, but I think 
several members want to come back. We will come back. We are 
going to go have three votes, and we will come right back and 
try to wrap this up.
    [Recess.]

                    SUPERFUND--CRIMINAL ENFORCEMENT

    Mr. Dicks. Last year EPA and the Department of Justice 
brought criminal charges against at least three individuals in 
a conspiracy of the federal Superfund site and the diamond 
alkaline site in New Jersey. On October 28, 2009, a New Jersey 
contractor pled guilty to defrauding the government. He 
admitted to kickbacks to former employees in exchange for the 
award of a subcontract and inflating prices on the subcontract 
so as to finance the kickback. This is unacceptable. This was 
just the latest in the string of events that have led to three 
companies and eight individuals pleading guilty.
    The Superfund Program manages clean-up contracts worth 
billions of dollars. In light of the recent findings, what 
measures are you taking to ensure that this type of fraud is 
stopped dead in its tracks?
    Ms. Jackson. I absolutely agree that kind of fraud is 
unacceptable. The Inspector General at EPA is proud of the fact 
that they helped to uncover the cases that you mentioned. A 
strong Inspector General is absolutely critical when you have 
programs like the Superfund Program. Just to add, Mr. Chairman, 
I think we spoke about this, a lot of times in the Recovery Act 
you see bids coming in less than they have ever come in before. 
So that means when in this economic climate we should start to 
see if not costs deescalate, certainly not costs escalating. 
And we have worked since the beginning of the Recovery Act to 
look at making our contracting mechanisms more efficient, even 
more transparent so that we can get the absolute most money for 
our federal dollars when it comes to this program.

                           BROWNFIELD GRANTS

    Mr. Dicks. Tell me about your initiative on the Brownfields 
grants. You are trying to help some poorer communities on 
those?
    Ms. Jackson. Well, the issue with Brownfields is that some 
communities are lucky enough not to have a major Superfund site 
near them, but they find themselves with old abandoned sites. 
And oftentimes they are in poor, underserved areas but not 
entirely. They can be in parts of rural America that are 
relatively small sites. One of the things that I did last year 
was go to the National Brownfields Conference. It happened to 
be my hometown of New Orleans, and that was one of the happy 
days, where mayors, came up to me over and over and said, we 
love the Brownfields Program, and it was, you know, mayors from 
all over the country.
    And so one of the things I take away from that was the need 
to advocate for this and they certainly agree on more money for 
the Brownfields Program, and I believe that indicates $41.5 
million, for Brownfields.

                         MEXICO BORDER PROGRAM

    Mr. Dicks. Good. For a number of years the request of the 
U.S., Mexico border program has decreased. At one time it was 
as large as $100 million. Your fiscal year 2011 request is $10 
million, a $7 million decrease from the fiscal year 2010 level.
    We have repeatedly expressed concerns about the high, 
unliquidated balances in this program. I am pleased to see that 
you have heard us, and the Office of Water has implemented new 
policies which seem to have had some success in bringing down 
the balances. In 1 year you have brought down a balance by 46 
percent.
    Please explain for the committee the changes you have made 
to the program to achieve this reduction. If you want to bring 
up one of your other people to do this----
    Ms. Jackson. Well, Pete, do you want to----
    Mr. Silva. Yes.
    Mr. Dicks. We have a lot of interest in this program.
    Ms. Jackson. Sir, Mr. Chairman, you know Pete Silva, Office 
of Water.
    Mr. Dicks. Yes.
    Mr. Silva. Yes, Mr. Chairman. As a matter of fact, I was 
around the back for awhile in El Paso.
    Mr. Dicks. Good.
    Mr. Silva. I am very familiar with the program, and there 
was a concern it was about $300 million about 3 years ago. The 
number of efforts primarily trying to put more money, design, 
and take care of the description side of it, we were able to 
bring that amount down to about $125 million.
    So we are below, I think, the target that we set for the 
program at about $140 million. We made a lot of progress in the 
last 3 years.
    Mr. Dicks. What are some of the things you are working on? 
This is waste water treatment facilities?
    Mr. Silva. Yes, sir. It is waste water. The bulk of the 
money goes into waste water and water treatment plants 
improvements and actually a lot of new plants both in Mexico 
and the U.S.
    Mr. Dicks. So do we work with the Mexican government on 
this?
    Mr. Silva. Yes, sir. As a matter of fact, the National 
Water Commission for Mexico provides an equal match, at least 
an equal match to the money that is put in by EPA and the U.S. 
government, so we actually leverage at least two to one for 
every project.
    Mr. Dicks. So why are we decreasing the funding?
    Mr. Silva. Well, sir, we went to see it. We cannot go out 
further. Again, I think it was partly because of the concern 
for the--but again, that has been changed in the last few 
years.
    Mr. Dicks. Okay. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. Surprisingly, I not 
going to go back into greenhouse gases except to say there is a 
change in the weather. I understand all the new things, and we 
do not talk about global warming anymore. We talk about climate 
change, and you know, we got to find things more acceptable to 
talk about.
    But it concerns me when the agency says it is settled 
science because what is, I think, probably settled is that most 
people agree that climate change is occurring. What is not 
settled is what impact man is having on it and what impact we 
can have in changing things, and I am not a climate change 
denier or anything like that----
    Ms. Jackson. Yes.

                        STANDARDIZED ENFORCEMENT

    Mr. Simpson [continuing]. But I think some of the time, in 
fact, not some of the time, almost all the time government 
reaction is almost an overreaction to things, and I am 
concerned about that, and I am concerned that because the 
impacts on our economy are tremendous. And so I get concerned 
when we say, well, it is settled science, and let us move on 
and do whatever, and that is the only place I am coming from is 
I do not believe that it is settled. Certainly man has an 
impact. The extent of that impact is what the debate is all 
about.
    A year ago we met in my office, and I talked to you about 
my concerns about different enforcement of EPA rules by 
different regions. Still there are companies that have 
facilities, organizations that have facilities and different 
parts regulated or under different EPA regions and different 
interpretations of rules and different working of rules.
    What are you doing to address that and try to get some 
standardization across the country, and do court decisions in 
different regions have an impact on that?
    Ms. Jackson. Yes. The answer to the second question is 
certainly they do. You will have a circuit court decision in 
one area that may be different. We try to take any decision in 
the circuit court and look at its national implications and try 
to make national policy and sort of keep a level playing field. 
I committed to you a year ago, sir, that there absolutely has 
to be a level playing field in this country. It is not fair to 
any business that they can look across to some other 
jurisdiction and see somebody doing something and making more 
money simply because environmental regulations are not 
enforced.
    We have made great progress. We are not done. The first 
parts of the progress were in getting together a management 
team, that includes my head of enforcement, Cynthia Giles, who 
is here, but it also includes getting regional heads. We have 
ten regional heads, and you know that Douglas McClarion just 
began this week actually in our Seattle regional office, and we 
still have three positions to fill. So we are not quite done, 
but I think we have made great progress.
    In addition, one of the things that Cynthia has done is 
come up with enforcement rules for the country. One of them 
stresses the need to make sure that there is accountability and 
partnership with the state. The vast majority of the 
enforcement is actually done by the state, and EPA's role is 
one of a partner that I like to call the partnership with 
accountability.

                         DAVIS-BACON PROVISIONS

    Mr. Simpson. One other issue, I think I heard that at this 
proposed budget you have proposed extending the little Davis-
Bacon provisions that existed that was authored by my good 
friend from Ohio. I am kind of agnostic about it. The fact is, 
though, there are 17 states that for whatever reason those 
states have chosen not to extend the little Davis-Bacon law. So 
there are 33 states, including my good friend's state of Ohio, 
that this does not impact whatsoever. It only affects those 13 
states that do not have little Davis-Bacon laws. So we decided 
to impose that on all those 17 states, for whatever reasons, 
that which state legislators have chosen not to do it. Some of 
them have had little Davis-Bacon laws and repealed them, and 
that was a decision at the local level.
    The question comes, first of all, for the Administration to 
include that in their budget seems rather strange to me in that 
it is really a policy decision that Congress ought to be 
making. Secondly, the interpretation that the EPA has put on 
that whether it is a calendar year or funds that were 
appropriated during a calendar year. Not calendar year but 
fiscal year. Because I hear from my DEQ people, Division of 
Environmental Quality, in Idaho that administer these grants, 
that there are grants that have been out for bid, the 
construction has not started on yet, but all of a sudden now 
Davis-Bacon is going to apply to those, the cost goes up, they 
have to re-bid them under Davis-Bacon requirements and so 
forth. I think the intent was that it applied to the funds that 
were appropriated in our 2010, appropriation bill, because 
there are funds that were appropriated the year before that 
just have not gone out yet in the 2010 time frame.
    Have you heard from any other states? Because I have heard 
from a couple others and a couple other legislators that 
actually voted, in fact, I think we all did. But said when they 
heard from their states, ``I would have never voted for this if 
I would have known that it was going to kind of effectively be 
retroactively applied.''
    Ms. Jackson. Right. Because of the language in the 
appropriations law last year, we had lots of attorneys look at 
this and tried to come up with as reasonable a path forward as 
frankly the law allowed. I think the intent was to really deal 
with money that was going to be spent, but just because of the 
way the process works, some people were trying to do a lead 
time on contracting before they actually signed the contract.
    Mr. Simpson. Right.
    Ms. Jackson. Requesting time for bids and potentially even 
challenging for bids, and some places there were local 
referendums they have to approve the bids and we did have a 
small, it is not a large number. You said a few, and I would 
agree with that. A few states there were some projects that got 
caught in that in-between.
    I do think it is fair to say that EPA's staff worked really 
hard on a retail level, project by project, with those states 
to try to resolve issues as we became aware of them, and I 
think by and large we have been quite successful.
    There are places we need to discuss, and those are the ones 
we would welcome knowing about. To be honest, the language this 
year is really in part a nod to two things. One, that it was 
very few states that had the problem, that in general we do not 
have any stories where a project cost went way up because of 
the Davis-Bacon requirements, and last but not least, some 
sensitivity to changing the rules back and forth is what causes 
the problem.
    Mr. Simpson. Right.
    Ms. Jackson. So I think if people just know what the rules 
are, they will go with that, and I suspect that there will be 
policy decisions that will happen.
    Mr. Simpson. Well, if this even goes forward and it goes 
forward in future years, then it will not be an issue because 
eventually all those projects will be done. So it is only a 
time when the policy is changing and the question is does it 
attach to dollars that are appropriated for a certain period of 
time, or does it attach to the fiscal year that the project 
starts, regardless of where the dollars come from.
    Ms. Jackson. Thank you.
    Mr. Simpson. And that is the real debate, and I understand 
that there are a few projects that, well, I am not willing to 
argue that Davis-Bacon adds, you know, 40 percent to the cost 
or whatever. The fact that they have had to go out and re-bid 
some of those because of the new requirement of Davis-Bacon 
that was not a requirement before when they did them is a cost 
in and of itself. So if there are projects there that are doing 
that, I would encourage you to see if we can resolve some of 
those because I think the intent of Congress is I know you are 
trying to carry it out, and it may be the language, the 
wordsmith to my right was not all that clear in his drafting.
    Ms. Jackson. Just one point----
    Mr. Simpson. The road to hell is paved with good 
intentions. I understand.
    Ms. Jackson. By and large the impact has been remarkably 
small. You are right. It is the transitions that get you, and I 
think it is probably fair, I guess, to say that we were through 
the worst of it because the year of the change is when we saw 
people raising their hands and saying, hey.
    Mr. Simpson. Okay. Thank you, Mr. Chairman.

                               SPRUCE ONE

    Mr. Mollohan [presiding]. Madam, everyone has welcomed you, 
and I would like to as well. I am from West Virginia, the first 
Congressional district in West Virginia. You have been very 
active in my state recently. Your agency has been very active 
in West Virginia, particularly in the southern area. I would 
like to just explore some of that activity.
    First of all, let me start out by thanking you for this 
process of your review. It is an important operation, so that 
proves that you can move forward and reach resolution in some 
of those extremely difficult issues.
    The first thing I would like to ask you about is the status 
of Spruce One. That is a situation where the EPA had previously 
under the previous Administration reviewed and came to terms 
and granted looking at it after an initial issuance. Can you 
give us any indication of where you are on Spruce and what kind 
of claim you might be working in that particular one?
    Ms. Jackson. Yes. I would be happy to. The Spruce One mine, 
when we announced that, I spoke with the chair, in trying to 
come to some accommodation, and those negotiations continue. It 
would probably not be proper for me in a public forum to 
divulge how they are going, and that is where things stand. We 
are rapidly, I think, at a point where we will be able to talk 
more publicly about it. And the only thing I will say about 
this one, that particular permit is that it is doing quite 
well, and EPA had concerns about the potential impacts of that 
permit, and so that is why we took the unusual step.
    Mr. Mollohan. This manifests itself subsequent to the 
original issuance of the permit?
    Ms. Jackson. EPA's comments pre-dates the initial permit. 
What happened in the past was that EPA issued concern and 
comment letters but then the permits were often issued without 
much change or the regard for the concerns the EPA was making. 
And what has also happened subsequent, this one has been tied 
up in litigation for a long, long period of time, so the reason 
this came to light, if you will, is that finally that 
litigation was moved, and the permit was about the move 
forward.

                             PERMIT PROCESS

    Mr. Mollohan. I hope it is fair to take your comments 
optimistically perhaps.
    I understand there are 108 pending permits and you 
announced 108 pending permits will require completion. I just 
share this with you not because it has not been shared with 
you, but I am going to share with you again in this forum 
concerns from the industry side, from the community side, and 
the miner's side, and from a citizen of the state. You know, it 
is one thing to be opposed to something and another thing to be 
for something, but West Virginia finds itself really scared of 
this process. When you are dealing with coal in West Virginia, 
you are dealing fundamentally with an economic issue, but you 
are really dealing with cultural issues, too. And so when you 
are looking at this process on such a wide-spread basis, it 
really starts vibrating every thread in the cultural fabric, 
and that is what is happening.
    So whatever the balance is and whether it is, in balance 
one way or not, understanding what the process is and what the 
rules of engagement are, who we are supposed to be talking to, 
who we are not supposed to be talking to, and while I am 
directly involved in the process, obviously, I am not going to 
operate any agency, there are expressions of those concerns.
    So to the extent that the Administrator can look at that 
process and say, to the extent possibly in certainty to how we 
are going to do this, who is going to speak for it, and then 
some reasonable timeframe to come to resolution. None of that 
is in a resource gentleman's question, and the State of West 
Virginia--just keeping in mind this is, while it is a big task 
undertaking of the agency, it is a big task with the company.
    Do you feel you can--that is not exactly a question, then 
if you can comment on your sensitivity to all of that it would 
be appreciated.
    Ms. Jackson. Yes. Absolutely. Not growing up or having much 
contact with West Virginia before, I am the daughter of a 
postal worker, so I want to be there to calm these wonderful 
people, people who just are concerned in a tough time. I am 
also duty bound, and this is probably one of the hardest issues 
we are dealing with at EPA, water quality for the country, and 
the science of what helps the water quality when still miles 
and miles of streams, not just stream but head-water streams 
because by definition they are the top of the mountain, and the 
water flows downhill, and what that means at the bottom our 
ability to mitigate that to restore the landscaping in a way 
where we do not have those problems, I think the science is 
showing that there are real severe concerns here. And I am 
worried about that, too.
    So I do believe that for many of these this is about 
transition and justice and certainty and what I have said is 
that we will get conditional clarity out in the form of process 
by giving more clarity as to what it is and science tells us 
what we are looking for. We are working on that right now very, 
very hard.
    I just want to remind you, these permits have been 
litigated in many cases for decades. Spruce is not an unusual 
situation, and the reason is because there are fierce battles 
over what this is doing to the water quality in West Virginia. 
And I want the people of West Virginia to know that this is not 
about anything other than that, meaning we have, as you well 
know, sir, in the streams in West Virginia that are saltier 
because of salt that is flowing into those. And that situation 
is one where we may have irreparable harm.
    Mr. Mollohan. Thank you, and perhaps we can follow up on 
that. I would love to follow up on that. I just want to mention 
before I go because I know your time is limited, I would like 
to talk with you perhaps on another occasion about the 
Administration's June '09 interagency action plan on 
Mountaintop Coal Mining which states ``Federal agencies will 
work in cooperation with the appropriate regional, state, and 
local entities to help diversify and strengthen the Appalachian 
regional economy and promote the health and welfare of 
Appalachian communities.''
    I would like to follow up and see what that means with you, 
and I would like to submit some comments from my line of 
questioning here.
    Thank you.
    Ms. Jackson. Thank you.

                        GREAT LAKES--DAVIS BACON

    Mr. LaTourette. Thank you, Mr. Chairman, and I wanted to 
talk to you just a couple more minutes about the Great Lakes, 
so let me just make a couple of observations.
    The EPA has been criticized for its interpretation of that 
language, which was watered down sadly by the Senate. The 
original Moran amendment would have had Davis-Bacon protections 
instated in perpetuity, but in the Senate we could only get one 
year, and that is why it is limited to one year in the law.
    EPA's determination is completely consistent with the 
intent of the United States Congress, and there were more votes 
to apply Davis-Bacon. One of the reasons we did not have any 
Water Research and Development Act for 7 years was because my 
leadership did not want to bring it forth because they know 
they got all those loans, and then they would look bad in front 
of people that they did not want to look bad in front of.
    But the fact of the matter is that when we regained the 
chairman in 2009, it exactly indicates that this could be 
Davis-Bacon coverage for subsequent rounds.
    The other thing I wanted to discuss--I do not know where 
Perkins, Oklahoma, is. I do not know that I care where Perkins, 
Oklahoma is, but it is not a federal wage, it is a local wage. 
For anybody that this concerns as a result of the Davis-Bacon 
protection in Perkins, Oklahoma, the taxpayers being gouged, I 
happen to have ratings for backhaul operators in Perkins, 
Oklahoma. It is $8.40 with no minimum.
    Now, that does not seem like a lot of money, and so I, as I 
said at the time we submitted the amendment, both Davis and 
Bacon were Republicans. People who came in and undercut the 
local labor market, but you want people who live in this 
facility and are going to pay taxes to support the police, the 
school, the fires, and everything else. So enough said. I am 
sorry for those 19 states that do not have little Davis-Bacon.
    Mr. Olver. I thank you, and I very much appreciate your 
offer to send folks to come see me. I do not want to be 
misunderstood as a troublemaker, but I spent 12 years in the 
transportation community. When we did the last bill, we had 
what I thought was a great idea, it was a great bipartisan 
idea. We set aside $17.5 million for projects that were 
regionally submitted, and the deal was that in order to qualify 
each one of those had to be at least half a billion dollars. So 
we are talking about really a billion something. We were not 
talking about spreading it on.
    I understood that that meant there was going to be about 30 
of them around the country. I mean, I get one. But what 
happened was it went over to the Senate, they decided to just 
can them all. What we do in my neck of the woods, we have a 
road that is going to have a bridged entrance and--in our 
center we got $200 million. Well, great, but it is still 
sitting there, and we are not going to build a building for 
$200 million, and that is my concern, that we do not create 
stovepipes. Mr. LaTourette committed real money, $85, $90 bucks 
to the areas of concern, that we really take care of areas of 
concern, not take care of, little pieces of different areas.
    So I look forward to meeting. I appreciate you. I think--
just so that people still think I am imposing, right. I was 
struck by the $7 million and 6,800 jobs, and you know, one of 
the satisfactions is the correlation of the dollars spent and 
jobs created. And 6,800 jobs is nothing to sneeze at, but 
$158,000 per job. We could employ a lot of backhoe operators in 
Perkins, Oklahoma, apparently for a lot less than $158,000.
    So we are looking for efficiency here and actually putting 
more money on the street in the way that creates the most jobs 
possible, and that is it, and I thank you for your attention 
and look forward to meeting.
    Mr. Mollohan. Okay. Thank you. Madam Administrator, I 
understand that you need to leave here fairly shortly, so we 
will take one round of questions from Mr. Price since he has 
not had a chance to ask and then we will close.

                           HOMELAND SECURITY

    Mr. Price. Well, thank you, Madam Administrator, Ms. 
Bennett, good to see both of you here. We were together, the 
Administrator and I in Durham, North Carolina, on a very joyous 
day when we announced a Recovery Act half billion dollar plus 
grant for high speed rail from Raleigh to Charlotte, and you 
were kind to come down to North Carolina to make that 
announcement, and indeed it was good news for the environment, 
good news for our transportation system, good news for jobs. It 
was a great day, and I appreciate your role in public attention 
to what we are doing in the state because we have invested a 
great deal in high speed rail, and it is satisfying to see that 
investment rewarded.
    I want to in the time I have here, and I appreciate the 
indulgence here at the end of the hearing, the time I have here 
I want to put on, partially anyway, put on my hat as Homeland 
Security Appropriations chairman and focus on the portion of 
your budget that is of particular interest to Homeland 
Security.
    I ask a question regarding the Water Security Initiative. 
That is a pilot program with five high priority cities designed 
to demonstrate an effective system for timely detection and 
appropriate response to drinking water contamination threats 
and incidents.
    And then on a parallel track, the Department of Homeland 
Security has developed a bio-watch system of monitors to detect 
airborne biological threats in 30 major U.S. cities. Congress 
has spent hundreds of millions on the Bio-Watch Program over 7 
years. The President's proposal this year is to double funding 
for that program from $89 million to $173 million in fiscal 
year 2011.
    Your budget, however, cuts the Water Security Initiative 
from $18.7 million to $10.4 million, basically maintaining that 
program at the pilot sites and no more. Now, the Bio-Watch 
Program has had its fair share of problems from program delays 
to technological challenges, and it may be that the comparison 
of the two programs is not--they are not precisely comparable. 
I will grant that going in.
    At the same time it is striking the contrast between the 
two aspects of the President's budget, and I wonder if the 
greater focus we placed on the airborne threat relative to that 
of the water supply as evidenced by these two programs and 
their fate in this year's budget is a wiser property balance 
course.
    So let me ask you two questions. First, can we rest assured 
that we are doing everything we can to protect the drinking 
water supply from intentional contamination with this proposal? 
Or to put it another way, is it right to directly compare these 
two initiatives and then draw conclusions about the 
government's emphasis on bio-surveillance?
    I know that that Bio-Watch Program, of course, they fall 
under our department, but I also know that some of the 
expertise involved in accomplishing the airborne surveillance 
system does rest with your department. So my second question is 
what has been the nature of EPA's involvement with DHS in the 
development of bio-watch sensors and their architectural 
design? Have you been able to leverage any of the research 
done? For example, at EPA's High Bay Facility in North 
Carolina, to support the Bio-Watch Program or other biological 
threat protection issues.
    Ms. Jackson. Thanks. Let me do one, Mr. Price, first, and 
the need for us to maintain vigilance with respect to our water 
supply has not diminished. The basis for the reduction, the 
proposed reduction in the President's budget is simply that we 
have full-scale pilots, and the idea was to keep an amount of 
money. I would say the funding of the pilot is done, but that 
does not mean the pilots are done, nor has the purpose of the 
pilot, which is to collect information, evaluate it, 
potentially disseminate it to the large public and private 
water systems so that that what we learn, the good of what we 
learn can be implemented and used for the protection of our 
people.
    So the reduction reflects the reality that we do not need 
as much money to initiate and fund the actual construction of 
the pilots and the sample. We have work yet to do to get that 
information evaluated and decide what worked and what did not, 
which is usually--which is the purpose of the pilot.
    The analogy to the air sector is not at all a bad one. 
There are quite different technical challenges for obvious 
reasons, and so there were approached quite differently. The 
Bio-Watch Program is not as much of a pilot as it was meant to 
be a source of vigilance. I believe it is right to say, correct 
me if I am wrong, but I believe we did everything including 
technical assistance, monitoring the systems in terms of 
helping to set up the right protocols and how to monitor for 
certain potential threats to our people. Because we manage air 
monitoring networks all over the country for air quality 
purposes, we have a built-in way to distribute and help ensure 
that states and local governments could locate monitors for 
anti-terrorism purposes.
    So I do believe that North Carolina just played a role in 
all of those areas.
    Mr. Price. Well, tomorrow we launch this year's cycle of 
hearings in Homeland Security and besides hearing from the 
Secretary we are also going to receive the results of a 
National Academy of Sciences study that we commissioned on Bio-
watch, and undertake a hearing on that program, and we are 
going to look at the President's budget. We are going to 
scrutinize it carefully. It does envision the widespread 
deployment of bio-watch sensors in maybe 50 U.S. cities. It is 
not clear what the optimal scope scale of that program is. 
Clearly, by its very nature it is limited and actually 
complemented by other modes of surveillance.
    But the contrast is striking, and I guess I am left asking 
you just to elaborate for another moment--is the difference in 
scale do you think just a function of where these programs are 
with respect to being deployment ready? Or is it likely 
something that if we looked at this budget five years from now 
we would still see much more widespread deployment of airborne 
surveillance programs as compared to the drinking water 
surveillance?
    Ms. Jackson. Well, let me clarify. I am just going to 
speculate here. This is more from my prior job as a state 
commissioner than my current one. I think you have to realize 
that the public water supply in this country is either run by 
private companies who, you know, long ago bought all the 
municipal systems and run them or municipalities, and so they 
are public systems. And in both cases there has long been a 
need in attention to monitoring as a fundamental job you are 
supposed to use clean water. After 9/11 certainly there was 
increased need to realize that someone might want to use the 
systems to purposely do us harm, and they are varied. You know, 
in some places we are talking about huge reservoir systems. 
They have had to be on top of this issue of trying to think 
about who might try to tamper with the quality for quite some 
time.
    And I have always been impressed as a sector how much work 
was done in the water sector. The air is different. No one owns 
the air, right, and so there is no one entity who has for a 
long time monitored air for today and today's governments for 
air quality purposes.
    So some of the difference may well be that there is no 
private imperative and no private sector that is matching that 
money up with the Bio-Watch Program. I am just guessing. Based 
on what I know it has really been a public investment.
    Mr. Price. Now, that is a theory of legitimate distinction, 
and so what I am inferring is that your assumption is that as 
these pilot programs in the Water Security Initiative go 
forward, then you expect this will be picked up by whoever is 
managing the water supply and in multiple locations.
    Ms. Jackson. And I would suppose the Department of Homeland 
Security would want that and might even require it in some 
cases of the owners and communities in existence. I should also 
mention that we have a big lab in Cincinnati, and there I know 
that that lab is quite proud of a lot of the work they do, the 
technical work to support issues, engineering issues of 
security.
    Mr. Price. Well, Mr. Chairman, I will submit other 
questions for the record. I appreciate the chance to have this 
exchange and yield back.
    Mr. Olver. Thank you. Madam Administrator, thank you very 
much for being here with us today, and as I promised we will 
get you out of here a few minutes later than perhaps you 
wanted, but thank you for your testimony and for your service.

[GRAPHIC] [TIFF OMITTED] T6647A.024

[GRAPHIC] [TIFF OMITTED] T6647A.025

[GRAPHIC] [TIFF OMITTED] T6647A.026

[GRAPHIC] [TIFF OMITTED] T6647A.027

[GRAPHIC] [TIFF OMITTED] T6647A.028

[GRAPHIC] [TIFF OMITTED] T6647A.029

[GRAPHIC] [TIFF OMITTED] T6647A.030

[GRAPHIC] [TIFF OMITTED] T6647A.031

[GRAPHIC] [TIFF OMITTED] T6647A.032

[GRAPHIC] [TIFF OMITTED] T6647A.033

[GRAPHIC] [TIFF OMITTED] T6647A.034

[GRAPHIC] [TIFF OMITTED] T6647A.035

[GRAPHIC] [TIFF OMITTED] T6647A.036

[GRAPHIC] [TIFF OMITTED] T6647A.037

[GRAPHIC] [TIFF OMITTED] T6647A.038

[GRAPHIC] [TIFF OMITTED] T6647A.039

[GRAPHIC] [TIFF OMITTED] T6647A.040

[GRAPHIC] [TIFF OMITTED] T6647A.041

[GRAPHIC] [TIFF OMITTED] T6647A.042

[GRAPHIC] [TIFF OMITTED] T6647A.043

[GRAPHIC] [TIFF OMITTED] T6647A.044

[GRAPHIC] [TIFF OMITTED] T6647A.045

[GRAPHIC] [TIFF OMITTED] T6647A.046

[GRAPHIC] [TIFF OMITTED] T6647A.047

[GRAPHIC] [TIFF OMITTED] T6647A.048

[GRAPHIC] [TIFF OMITTED] T6647A.049

[GRAPHIC] [TIFF OMITTED] T6647A.050

[GRAPHIC] [TIFF OMITTED] T6647A.051

[GRAPHIC] [TIFF OMITTED] T6647A.052

[GRAPHIC] [TIFF OMITTED] T6647A.053

[GRAPHIC] [TIFF OMITTED] T6647A.054

[GRAPHIC] [TIFF OMITTED] T6647A.055

[GRAPHIC] [TIFF OMITTED] T6647A.056

[GRAPHIC] [TIFF OMITTED] T6647A.057

[GRAPHIC] [TIFF OMITTED] T6647A.058

[GRAPHIC] [TIFF OMITTED] T6647A.059

[GRAPHIC] [TIFF OMITTED] T6647A.060

[GRAPHIC] [TIFF OMITTED] T6647A.061

[GRAPHIC] [TIFF OMITTED] T6647A.062

[GRAPHIC] [TIFF OMITTED] T6647A.063

[GRAPHIC] [TIFF OMITTED] T6647A.064

[GRAPHIC] [TIFF OMITTED] T6647A.065

[GRAPHIC] [TIFF OMITTED] T6647A.066

[GRAPHIC] [TIFF OMITTED] T6647A.067

[GRAPHIC] [TIFF OMITTED] T6647A.068

[GRAPHIC] [TIFF OMITTED] T6647A.069

[GRAPHIC] [TIFF OMITTED] T6647A.070

[GRAPHIC] [TIFF OMITTED] T6647A.071

[GRAPHIC] [TIFF OMITTED] T6647A.072

[GRAPHIC] [TIFF OMITTED] T6647A.073

[GRAPHIC] [TIFF OMITTED] T6647A.074

[GRAPHIC] [TIFF OMITTED] T6647A.075

[GRAPHIC] [TIFF OMITTED] T6647A.076

[GRAPHIC] [TIFF OMITTED] T6647A.077

[GRAPHIC] [TIFF OMITTED] T6647A.078

[GRAPHIC] [TIFF OMITTED] T6647A.079

[GRAPHIC] [TIFF OMITTED] T6647A.080

[GRAPHIC] [TIFF OMITTED] T6647A.081

[GRAPHIC] [TIFF OMITTED] T6647A.082

[GRAPHIC] [TIFF OMITTED] T6647A.083

[GRAPHIC] [TIFF OMITTED] T6647A.084

[GRAPHIC] [TIFF OMITTED] T6647A.085

[GRAPHIC] [TIFF OMITTED] T6647A.086

[GRAPHIC] [TIFF OMITTED] T6647A.087

[GRAPHIC] [TIFF OMITTED] T6647A.088

[GRAPHIC] [TIFF OMITTED] T6647A.089

[GRAPHIC] [TIFF OMITTED] T6647A.090

[GRAPHIC] [TIFF OMITTED] T6647A.091

[GRAPHIC] [TIFF OMITTED] T6647A.092

[GRAPHIC] [TIFF OMITTED] T6647A.093

[GRAPHIC] [TIFF OMITTED] T6647A.094

[GRAPHIC] [TIFF OMITTED] T6647A.095

[GRAPHIC] [TIFF OMITTED] T6647A.096

[GRAPHIC] [TIFF OMITTED] T6647A.097

[GRAPHIC] [TIFF OMITTED] T6647A.098

[GRAPHIC] [TIFF OMITTED] T6647A.099

[GRAPHIC] [TIFF OMITTED] T6647A.100

[GRAPHIC] [TIFF OMITTED] T6647A.101

[GRAPHIC] [TIFF OMITTED] T6647A.102

[GRAPHIC] [TIFF OMITTED] T6647A.103

[GRAPHIC] [TIFF OMITTED] T6647A.104

[GRAPHIC] [TIFF OMITTED] T6647A.105

[GRAPHIC] [TIFF OMITTED] T6647A.106

[GRAPHIC] [TIFF OMITTED] T6647A.107

[GRAPHIC] [TIFF OMITTED] T6647A.108

[GRAPHIC] [TIFF OMITTED] T6647A.109

[GRAPHIC] [TIFF OMITTED] T6647A.110

[GRAPHIC] [TIFF OMITTED] T6647A.111

[GRAPHIC] [TIFF OMITTED] T6647A.112

[GRAPHIC] [TIFF OMITTED] T6647A.113

[GRAPHIC] [TIFF OMITTED] T6647A.114

[GRAPHIC] [TIFF OMITTED] T6647A.115

[GRAPHIC] [TIFF OMITTED] T6647A.116

[GRAPHIC] [TIFF OMITTED] T6647A.117

[GRAPHIC] [TIFF OMITTED] T6647A.118

[GRAPHIC] [TIFF OMITTED] T6647A.119

[GRAPHIC] [TIFF OMITTED] T6647A.120

[GRAPHIC] [TIFF OMITTED] T6647A.121

[GRAPHIC] [TIFF OMITTED] T6647A.122

[GRAPHIC] [TIFF OMITTED] T6647A.123

[GRAPHIC] [TIFF OMITTED] T6647A.124

[GRAPHIC] [TIFF OMITTED] T6647A.125

[GRAPHIC] [TIFF OMITTED] T6647A.126

[GRAPHIC] [TIFF OMITTED] T6647A.127

[GRAPHIC] [TIFF OMITTED] T6647A.128

[GRAPHIC] [TIFF OMITTED] T6647A.129

[GRAPHIC] [TIFF OMITTED] T6647A.130

[GRAPHIC] [TIFF OMITTED] T6647A.131

[GRAPHIC] [TIFF OMITTED] T6647A.132

[GRAPHIC] [TIFF OMITTED] T6647A.133

[GRAPHIC] [TIFF OMITTED] T6647A.134

[GRAPHIC] [TIFF OMITTED] T6647A.135

[GRAPHIC] [TIFF OMITTED] T6647A.136

[GRAPHIC] [TIFF OMITTED] T6647A.137

[GRAPHIC] [TIFF OMITTED] T6647A.138

[GRAPHIC] [TIFF OMITTED] T6647A.139

[GRAPHIC] [TIFF OMITTED] T6647A.140

[GRAPHIC] [TIFF OMITTED] T6647A.141

[GRAPHIC] [TIFF OMITTED] T6647A.142

[GRAPHIC] [TIFF OMITTED] T6647A.143

[GRAPHIC] [TIFF OMITTED] T6647A.144

[GRAPHIC] [TIFF OMITTED] T6647A.145

[GRAPHIC] [TIFF OMITTED] T6647A.146

[GRAPHIC] [TIFF OMITTED] T6647A.147

[GRAPHIC] [TIFF OMITTED] T6647A.148

[GRAPHIC] [TIFF OMITTED] T6647A.149

[GRAPHIC] [TIFF OMITTED] T6647A.150

[GRAPHIC] [TIFF OMITTED] T6647A.151

[GRAPHIC] [TIFF OMITTED] T6647A.152

[GRAPHIC] [TIFF OMITTED] T6647A.153

[GRAPHIC] [TIFF OMITTED] T6647A.154

[GRAPHIC] [TIFF OMITTED] T6647A.155

[GRAPHIC] [TIFF OMITTED] T6647A.156

[GRAPHIC] [TIFF OMITTED] T6647A.157

[GRAPHIC] [TIFF OMITTED] T6647A.158

[GRAPHIC] [TIFF OMITTED] T6647A.159

[GRAPHIC] [TIFF OMITTED] T6647A.160

[GRAPHIC] [TIFF OMITTED] T6647A.161

[GRAPHIC] [TIFF OMITTED] T6647A.162

[GRAPHIC] [TIFF OMITTED] T6647A.163

[GRAPHIC] [TIFF OMITTED] T6647A.164

[GRAPHIC] [TIFF OMITTED] T6647A.165

[GRAPHIC] [TIFF OMITTED] T6647A.166

[GRAPHIC] [TIFF OMITTED] T6647A.167

[GRAPHIC] [TIFF OMITTED] T6647A.168

[GRAPHIC] [TIFF OMITTED] T6647A.169

[GRAPHIC] [TIFF OMITTED] T6647A.170

[GRAPHIC] [TIFF OMITTED] T6647A.171

[GRAPHIC] [TIFF OMITTED] T6647A.172

[GRAPHIC] [TIFF OMITTED] T6647A.173

[GRAPHIC] [TIFF OMITTED] T6647A.174

[GRAPHIC] [TIFF OMITTED] T6647A.175

[GRAPHIC] [TIFF OMITTED] T6647A.176

[GRAPHIC] [TIFF OMITTED] T6647A.177

[GRAPHIC] [TIFF OMITTED] T6647A.178

[GRAPHIC] [TIFF OMITTED] T6647A.179

[GRAPHIC] [TIFF OMITTED] T6647A.180

                                       Thursday, February 25, 2010.

      FISCAL YEAR 2011 BUDGET REQUEST FOR THE U.S. FOREST SERVICE

                               WITNESSES

THOMAS TIDWELL, CHIEF OF FOREST SERVICE
KATHLEEN ATKINSON, DIRECTOR OF STRATEGIC PLANNING, BUDGET AND 
    ACCOUNTABILITY

                   Opening Statement: Chairman Dicks

    Mr. Dicks. The committee will come to order.
    Today we welcome the Chief of the Forest Service, Tom 
Tidwell, and the Budget Director, Kathleen Atkinson. I believe 
this is the first time for both of you in front of this 
subcommittee, and thank you for coming today.
    I have a longstanding interest in the Forest Service. This 
agency is important in my district and in the State of 
Washington. We had oversight hearings last year on Forest 
Service management and on the wildfire program, and I am sure 
the committee will continue this oversight.
    Last year's budget was pretty generous to the Forest 
Service. The American Recovery and Reinvestment Act also 
focused an additional $1.15 billion for various important 
projects. These projects are fixing federal assets and 
improving our environment while creating many jobs, especially 
in rural areas. Chief, you will need to explain your agency's 
accomplishments.
    This year, all of our budgets will have to be tighter and 
more focused. We need to use this hearing and other 
opportunities to understand what it is in the budget request 
and to look for areas where savings might be realized. This 
committee will look at GAO and Inspector General reports and 
other sources for information concerning Forest Service waste, 
performance and efficiency but we are glad that the Forest 
Service budget can be balanced now and verified, and we 
appreciate the good work that has been done there.
    The new budget request has a couple of big changes. I want 
to hear your rationale for these items. We need to carefully 
examine and evaluate how you are planning to restructure your 
national forest system budget. Although I certainly support 
your goals of improving watersheds and restoring forests, it is 
not at all clear that this big funding bucket with less 
accountability is needed. Just last year at our oversight 
hearing, the GAO once again raised concerns about your data 
collection for performance and environmental monitoring. We 
need to see if your newly merged budget has meaningful 
performance measures.
    The Forest Service has an ongoing problem demonstrating 
that it is not wasting or improperly prioritizing funds. People 
think that you fund internal administrative functions first and 
use what remains for your core conservation and forestry 
mission. I hope you can explain why you feel it is so necessary 
to reduce the Legacy Road and Trail remediation program so 
dramatically. It is vital for fixing roads which damage 
sensitive watersheds. This is a key aspect of watershed 
restoration, but it is left out of your new restoration focus.
    You also need to explain how the Service will be able to 
maintain access to the national forests without funding for 
road improvements and we will need to take a careful look at 
the proposed funding reduction for the Forest Service Research 
Program, which does very high-quality science, helping public 
and private managers nationwide.
    I cannot finish without a comment on the wildfire program. 
The request has a very large sum for wildfire suppression, well 
in excess of recent expenditures, and the budget has reductions 
for several important cooperative wildfire programs. I am 
pleased to see that the request has funds for the newly 
established FLAME account, but I am interested in hearing how 
the additional suppression reserve account will work and why we 
need three separate wildfire suppression accounts.
    People here in the room also know that I am concerned about 
the long-range impact of global warming. Our forests, both 
public and private, are important parts of the carbon and water 
cycles. Land managers need to take a longer view as they plan 
ahead. This must be based on solid, sound science. The national 
forests and grasslands were originally established to protect 
watersheds and guarantee the steady flow of water. Western 
America gets over half of its rain and snow from the national 
forest system. Nationwide, state and private forestlands 
provide the water for over 125 million people. As climates 
change, the treatment and condition of all these forestlands 
will be even more vital for America.
    I look forward to a good discussion at this hearing.
    Mr. Dicks. First I want to offer Mr. Simpson an opportunity 
to make opening remarks.

                     Opening Statement: Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman.
    Chief Tidwell, thank you for joining us this morning. I 
believe this hearing marks your first appearance before this 
subcommittee, and I promise that Chairman Dicks will not hold 
it against you that you grew up in Boise, attended the 
University of Idaho and began your Forest Service career on the 
Boise National Forest. The chairman may, however, take some 
exception to the fact that you attended Washington State 
University instead of his beloved University of Washington. I 
do not know if you have made that public yet to him.
    I want to begin my remarks by thanking you and your staff 
for your willingness to work with my office on a variety of 
complex Forest Service issues in Idaho over the last year. 
Working together, we were able to roll up our sleeves and 
resolve a longstanding issue relating to the location of a 
historic marker, the Darby Monument, located in the Jedediah 
Smith Wilderness. More recently, the House unanimously approved 
legislation we developed with your staff over the last year to 
address more than 20 separate water diversion issues on the 
Forest Service lands throughout the state. I am grateful for 
this collaboration and the Service's desire to solve problems. 
We will have an opportunity to talk about even more challenges 
in our hearing today.
    For many years, this subcommittee and the Congress as a 
whole has struggled with the issue of budgeting for wildfires. 
Much to the credit of Chairman Dicks, last year's conference 
report included historic changes in the way we budget for 
wildfire suppression. More importantly, we took steps to 
prevent borrowing from non-fire accounts to pay for fire 
suppression. Judging from this year's budget request, it is 
pretty clear that our friends at OMB did not pay any attention 
to our work creating a credible, sustainable wildfire budget 
last year. This is another issue that I would like to take up 
and explore today.
    But before closing, I want to make one additional 
observation. As most of you here know or have heard the reports 
that Chairman Dicks will soon be stepping down, and when the 
Democratic Caucus approves it, become chairman of the Defense 
Subcommittee, and I want to publicly thank Chairman Dicks for 
his fine work, his sense of fairness and his steady hand 
leading this subcommittee in recent years. We all know that 
Chairman Dicks is passionate about our natural environment, and 
while we have not agreed on every issue, that is okay, my wife 
and I do not agree on every issue either. But I have learned to 
respect her opinion more and more as the years go by, and I 
have learned some new terms from Chairman Dicks, things like 
ocean acidification, previous Administration, things like that.
    Mr. Dicks. And in that order.
    Mr. Simpson. But working together, we have made a sincere 
effort to find common ground on many issues.
    Mr. Dicks. And why Idaho should be concerned about Puget 
Sound, too, is another one.
    Mr. Simpson. Oh, we figure that we are going to have 
oceanfront property before too long.
    It is in this spirit that I applaud Chairman Dicks for his 
leadership and wish him well when he takes on his new 
assignment, and thank you, Mr. Chairman.
    Mr. Dicks. Thank you very much for those very kind words, 
and I have enjoyed it.
    I want to offer Mr. Lewis a chance to make a few comments 
here, and also to thank Mr. Lewis for the high-quality people 
he sent to this subcommittee. I want you to know that not only 
Mike but Ken and Steve and Tom have been here almost every 
single hearing, and it is very impressive, and we appreciate 
their participation. We have always run this committee so 
everybody works together, and it is the way we do it on Defense 
and I think it is the best way to do it. I think that is what 
the American people want to see. Mr. Lewis, I want to thank you 
for your leadership and your support of the Forest Service and 
your concern about these issues, which is longstanding and very 
constructive.

                      Opening Statement: Mr. Lewis

    Mr. Lewis. Thank you very much, Chairman Dicks.
    Chief Tidwell, I appreciate as well your being here today. 
You and I have not had a chance to meet each other but it is my 
understanding that our careers in public affairs very much run 
on a parallel. You were entering your distinguished work with 
the Forest Service about the time I came as a freshman member 
from California, and I am very pleased to have a chance to get 
to know you personally. Our staff is very impressed by the work 
that has been done between Norm Dicks and Mike Simpson, and my 
colleagues on the committee have been very impressed with the 
responsiveness to their interest and concern about our forests.
    Over the years, it is apparent that we have been working, 
you and I, at the forest problems from different avenues but 
with the same goals in mind. My home State of California 
presents you and your team some very complex issues with our 
great national forests. I think you probably know that I have 
the privilege of representing the beautiful mountain 
communities that make up the San Bernardino National Forest, 
and over the years the office has worked closely with the 
Forest Service. I mean, they have really been fantastic and 
responsive to us. We are attempting to do what we can to lay 
the foundation to help you make sure the forest is better 
managed, the business of clearing the underbrush is so 
critical.
    I particularly came this morning because of the prospects 
of Mr. Dicks working even more closely with me on another one 
of our subcommittees, but I will wait for the Democratic Caucus 
regarding that before we jump from the ceiling. But he is going 
to remain on this subcommittee, I might mention, regardless of 
that and will continue with his interest in your work. Over the 
years, I had hoped we would take the long view and make every 
effort to see that we help you better manage the forest.
    Now, one last comment. There is a lot of presumption out 
there about what is sound science. I just wanted you to know 
that I do have or look with interest at a website called 
fightglobalwarming.com. Now, I have reserved a website that is 
going to have very, very high stock market here in the years 
ahead, I predict. It is called fightglobalcooling.com.
    I look forward to working with you, sir. And I will have 
questions for the record, Norm.
    Mr. Dicks. Okay, Chief Tidwell, you may go ahead and 
proceed with your statement.
    Mr. Tidwell. Thank you.
    Mr. Dicks. You are welcome.

                     Testimony of Chief Tom Tidwell

    Mr. Tidwell. Mr. Chairman, members of the subcommittee, it 
is a privilege to be here today to discuss the President's 
budget request for the Forest Service. I appreciate the support 
this committee has shown the Forest Service in the past and I 
look forward to working with you to provide more of the things 
that Americans need from their forests and grasslands.
    The President's budget request is designed to support the 
Administration's priorities, and Secretary Vilsack's 
priorities, to maintain and increase the resiliency of 
America's forests. This budget supports these priorities 
through five key objectives. The first one is to restore and 
sustain the forest and grasslands by increasing collaborative 
efforts to build support for restoration activities that are 
needed to increase the resistance and resiliency of these 
ecosystems. This budget provides a request for full funding for 
the Collaborative Forest Landscape Restoration Fund. It also 
proposes an Integrated Resource Restoration budget line item 
that I believe will help facilitate an integrated approach to 
developing project proposals and will optimize multiple 
benefits from these projects.
    Second, it increases the emphasis on protecting and 
enhancing water resources and watersheds. We do that with a 
proposal of a new watershed initiative which we call the 
Priority Watershed and Job Stabilization Initiative. This would 
be a pilot program that would fund fairly large-scale projects, 
over 10,000 acres, and it will focus on watershed restoration 
and job creation. We will also use statewide assessments where 
they are available and our own watershed assessments, jobs, and 
biomass utilization for the criteria to select these projects.
    The third key objective is that we will continue to manage 
our landscapes to be more resilient to the stressors of climate 
change. We will do this by applying our science, a lot of the 
science developed by Forest Service research to help us 
increase the adaptive capacity of the ecosystems. We will also 
use science to determine how our management needs to change in 
order to increase ecosystems' resistance to the increasing 
frequency of disturbance events like fire, insect and disease 
outbreaks, invasives, flood and drought.
    The fourth key objective of this budget provides full 
funding for wildland fire suppression. First, it includes 
preparedness funding so we can continue our success of 
suppressing 98 percent of our wildland fires during initial 
attack. It provides a realignment of preparedness funding and 
suppression funds that more accurately displays the true cost 
for preparedness. It provides for a FLAME fund that will 
increase the accountability and transparency for the cost of 
large fires. It also provides for a contingency reserve fund 
that, in my view, will significantly reduce the need to 
transfer funds from other programs, other critical programs, if 
we have a large fire season. It also increases the emphasis on 
hazardous fuel projects to reduce the threat of wildfire to 
homes and communities by doing more work in the wildland-urban 
interface.
    The last objective of this budget is to create jobs and 
increase economic opportunities in our rural communities. We do 
this with our proposed Priority Watershed and Job Stabilization 
Initiative. By doing more of our work with stewardship 
contracting, we want to build off the American Recovery and 
Reinvestment Act projects encouraging biomass utilization. We 
want to continue to work with our states using our state and 
private forestry programs to address conservation across all 
lands. Through job development with our 28 Job Corps centers, 
our partnership with the Department of Labor, and the work that 
we are able to accomplish with the Youth Conservation Corps 
across this country. Our goal is to; increase the collaborative 
efforts to build support for science-based landscape-scale 
conservation, taking an all-lands approach to conservation, to 
build a restoration economy that will provide jobs and economic 
opportunity for the communities across our Nation.
    Again, thank you for the opportunity to address this 
subcommittee and I look forward to answering your questions.
    [The statement of Tom Tidwell follows:]

    [GRAPHIC] [TIFF OMITTED] T6647A.181
    
    [GRAPHIC] [TIFF OMITTED] T6647A.182
    
    [GRAPHIC] [TIFF OMITTED] T6647A.183
    
    [GRAPHIC] [TIFF OMITTED] T6647A.184
    
    [GRAPHIC] [TIFF OMITTED] T6647A.185
    
    [GRAPHIC] [TIFF OMITTED] T6647A.186
    
    [GRAPHIC] [TIFF OMITTED] T6647A.187
    
    [GRAPHIC] [TIFF OMITTED] T6647A.188
    
    [GRAPHIC] [TIFF OMITTED] T6647A.189
    
                  ROADS FUNDING IN THE FY 2011 BUDGET

    Mr. Dicks. Chief Tidwell, I am interested in your emphasis 
on restoration as a focus for the Forest Service, but I am 
confused by certain aspects of your request. You eliminate all 
road improvement funds and reduce the Legacy Road and Trail 
Remediation program by 44 percent. I understand that you do not 
want to spend money on new roads when you already have more 
roads than you can care for. But how will the Forest Service 
take care of its roads without any road improvement funding? 
How are you going to take care of existing roads that we still 
need if there is no money for road improvement? And we know 
that there are many roads out there that need to be improved.
    Mr. Tidwell. Mr. Chairman, thank you for the question, and 
I also want to thank you for your support for addressing the 
right sizing of our road system. With this budget request, the 
focus is to not build more new roads, not to upgrade existing 
roads, but to use the funds to really focus on maintaining the 
system that we need. Where we have the opportunity to, we may 
reduce the maintenance level on some of our roads which are 
mostly used by high-clearance vehicles. We will really 
prioritize doing the work that we need to maintain our road 
system. The shift in this budget request is to not be building 
new roads and not be upgrading roads. That is the difference 
from what we have had in the past. We still want to focus on 
addressing the environmental effects of our road system.
    Mr. Dicks. But what about maintenance? If you have a 
certain area where you have a problem, you have a washout or 
something like that, do you have emergency funds? You know, 
sometimes roads wash out. I have seen this many times in the 
Skokomish River valley up on Hood Canal in Washington State.
    Mr. Tidwell. With this budget request, I feel we have 
adequate funds to address those maintenance needs. We are just 
not going to be funding new construction or upgrading, but 
between the various programs that we have, we can do the 
maintenance. Also, through our legacy roads request, we will be 
able to address the environmental concerns dealing with 
culverts or where there are drainage problems on roads. We will 
be able to decommission roads, the roads that are no longer 
needed, to help reduce the deferred maintenance backlog that we 
have with our road system.

                            ROAD MAINTENANCE

    Mr. Dicks. How will the public be able to access the 
national forests and how will management activities such as 
fire prevention or timber activities be conducted absent any 
road improvement funding?
    Mr. Tidwell. Mr. Chairman, I feel this budget request 
provides for the road maintenance that we need to do. We----
    Mr. Dicks. How much is in there for road maintenance?
    Mr. Tidwell. Kathleen, can you pull that number out for us?
    Mr. Dicks. We will come back to that. How will you be able 
to accomplish your timber sale or stewardship contracting goals 
in 2011 with no road improvement funding? We are worried about 
whether there is any--is there any maintenance money at all? So 
$164 million. That is pretty good. That alleviates my concern.
    The current budget for 2010 is $70 million for road 
improvements including engineering support, and the request has 
zero. During fiscal year 2010, your budget indicates that only 
10 miles of new roads will be built with this funding. Can you 
please explain how the bulk of the road improvement funding is 
spent in fiscal year 2010?
    Mr. Tidwell. The bulk of the money will be spent on doing 
the maintenance that you have addressed as a concern, providing 
that appropriate level of maintenance to address the 
environmental concerns. What we will not be doing in our 2011 
request will be building additional roads, and like you 
mentioned, we expect to build 10 miles in 2010. The other key 
part of it, we will not be upgrading roads. We are really 
focused on using----
    Mr. Dicks. So you make a distinction between new roads and 
upgrading versus maintenance of existing roads?
    Mr. Tidwell. Yes.
    Mr. Dicks. We are going to do the maintenance but we are 
not going to be upgrading or adding new roads?
    Mr. Tidwell. Yes.
    Mr. Dicks. And do you think you can execute your forest 
plan and do the fire issues without new roads?
    Mr. Tidwell. With the 10 miles of additional roads, yes.

                     LEGACY ROAD AND TRAIL FUNDING

    Mr. Dicks. As you know, I have a lot of interest in the 
Forest Service watersheds and the impact of roads on sensitive 
streams and fisheries. I note that your request has reduced 
Legacy Road and Trail Remediation by $40 million to a total of 
$50 million down from $90 million last year. You can also say 
that restoration is going to be the agency's focus. Can you 
help me understand why you are reducing this program by this 
large amount?
    Mr. Tidwell. Mr. Chairman, our budget request is the same 
as what we asked for last year at $50 million. I feel that is a 
very adequate level of funding to do this very important work 
to help us right-size our road system and be able to 
decommission roads and also address some environmental 
concerns, culvert replacements, drainage on our roads. I feel 
the $50 million request is adequate for us to be able to 
continue to make progress in this area.
    Mr. Dicks. Your budget says the road backlog is $3.2 
billion down from $3.4 billion in last year's budget book. Can 
you give us a feel for the backlog of deferred road 
maintenance? I mean, how are watersheds, community water 
systems and fisheries affected by road failures? This is what 
we are worried about.
    Mr. Tidwell. Well, often it is one of the number one 
contributing factors to the condition of our watershed is our 
road system where we have roads that are close to the streams 
or we have not been able to implement the best management 
practice to ensure drainage, so we are going to continue to 
focus on reducing that deferred maintenance backlog. We have, 
right now, about 45,000 miles of roads that we no longer need. 
Some are no longer needed to provide access to the national 
forests, and we need to move forward to decommission those, to 
remove environmental effects from those roads. That is going to 
continue to be our focus, to right-size our road system, and to 
maintain the road system that we need so that it does not 
contribute to watershed quality concerns. That is going to 
continue to be our focus.
    [Additional agency information follows:]

                      Right-Sizing the Road System

    We have approximately 45,000 miles of unauthorized roads, most of 
which are user created. In addition to the unauthorized roads we have 
unneeded roads that are currently part of the Forest Service Roads 
System.
    The total miles of unneeded roads, both unauthorized and system 
roads, have not been determined. The agency will continue to complete 
travel analysis, based on current land management plan objectives, over 
the next several years. The result of the analysis will be a 
recommendation for changes to the current transportation system.

    Mr. Dicks. Mr. Simpson.

                             AGENCY MORALE

    Mr. Simpson. Just on that, as you know, when you start 
decommissioning roads, there has to be an appropriate reason to 
do so. The public needs to be made aware of that appropriate 
reason because oftentimes we will hear complaints from 
constituents that you are trying to decrease access to the 
forests, and they think we are trying to make it so the public 
does not have the use of them. So when you decommission roads, 
you need to have a good reason to do it and you need to make 
the public aware of it, but that is not the question I was 
going to ask.
    One of my largest concerns as we have talked about in my 
office, and I want to give you an opportunity to answer for the 
record, is the report that came in 2009 on morale within the 
Forest Service where they were rated, I think, 206th out of 216 
agencies. If there is an agency where you would think the 
employees would love to get up and go to work, it would be the 
Forest Service. What are we doing to address that and the 
concerns we have looking down at the various areas where the 
Forest Service seemed to be lacking, and this was last year, 
strategic management, effective leadership in terms of 
empowering the employees, performance-based rewards and 
advancements, work-life balance. Those things are of concern to 
us. What are we doing to address that?
    Mr. Tidwell. Mr. Congressman, I appreciate that question. 
When I first came into this job, it was right after that report 
had come out, and I can assure you that it was the first thing 
that Secretary Vilsack asked me about. He also shares your 
concern about addressing this. The first thing that we did is 
take a look at those survey results to really find out what was 
driving that. Then I also spent a lot of time talking to our 
employees. I personally have a group of folks that I visit with 
every month throughout the agency, a cross section of the 
agency, to hear from them. There were a lot of things that I 
thought we needed to change, but before we just jumped into 
that, I wanted to hear from our employees. Our leadership 
throughout the agency is doing the same thing. Based on that 
feedback, some of the actions that we are taking are to improve 
our delivery of the human resource services for this agency. We 
made a decision a few years ago, it did not work out. We now 
made a new decision that I feel will better help address that. 
That was probably one of the number one concerns that I was 
hearing from our employees.
    We also have concerns about our computer systems and using 
information technology. We are also going to be addressing 
that. We want to ensure the technology that we need to use for 
our jobs works for us, it increases our capacity, it does not 
create work. We have some problems in this area, so that is the 
other thing that we are addressing.
    The other thing I am doing with this group that I visit 
with each month, we capture their thoughts and we actually have 
a website now where I post them. Here are the concerns that we 
are hearing, here are the actions that we are taking, and when 
there are things that we just cannot change, we are also saying 
that too. If there are some things that they raise that I 
disagree with, I also post it on there. I am confident that by 
continuing this approach--and this is something that we have to 
constantly keep focus on. We just cannot do it for a short 
period of time. It will always be my number one focus to take 
care of what I feel is the most dedicated, committed workforce 
in Federal Government by far. I can assure you that our 
employees are still just as dedicated and committed to carrying 
out our mission. They are just probably not quite as happy 
about it, and when they have to spend their weekends and their 
evenings to meet with community leaders, et cetera, you know, I 
want them to continue to feel just as good about that as they 
possibly can.

                 COST RECOVERY: OUTFITTER GUIDE PERMITS

    Mr. Simpson. Well, I appreciate that. You are right. It is 
something that you continually work on. You never achieve the 
goal. It is something that you work on, so I appreciate that.
    Let me ask another question, and I need to read the intro 
into this because I want it the background for the question. In 
February 2006, the Forest Service issued a cost recovery rule 
designed to recover costs for the processing, monitoring and 
special use permits including those issued by outfitters and 
guides. The issuance of these permits has become more 
complicated due to the consultation requirements under the 
Endangered Species Act and the increased analysis under the 
National Environmental Policy Act. Today, cost recovery 
threatens to create significant hardships for small businesses 
in Idaho and other states, especially in the current economic 
climate. The scale of the analysis required to issue outfitter 
and guide permits is now exceeding the economy of scale for 
many of these small businesses and threatens to put them out of 
business. In response to this challenge, the Forest Service 
provided an exemption for cost recovery for 50 hours or less of 
work on the application and processing of an outfitter and 
guide permit. The problem is that once the amount of time 
required to process the permit goes over 50 hours, the Forest 
Service charges full cost recovery back to the very first hour. 
In other words, no credit is given for the first 50 hours of 
work. This problem could become an ever bigger issue nationwide 
since many permits are scheduled for renewal or transition in 
the coming year under the Forest Service permitting directives. 
According to my constituents in Idaho, appeals from the Forest 
Service to abate cost recovery or make adjustments to this rule 
have fallen on deaf ears. What steps, if any, can the Forest 
Service to lessen the impact of this cost recovery room on 
outfitters and guides, and would you support legislative 
language to make adjustments to the cost recovery regulation 
that now threatens to put many small outfitters and guides out 
of business?
    Mr. Tidwell. Thank you for the question. Our cost recovery 
has been very helpful for us to deal with the backlog of 
applications, and for the larger operators, they have been able 
to see a much more timely response to their applications. They 
probably appreciate cost recovery. Definitely for the smaller 
operators, it is a challenge and that is why we have the 50-
hour breakpoint there.
    Mr. Simpson. Does it take longer to do an analysis for a 
large operator than it does a small one, or do we essentially 
do the same analysis for either one?
    Mr. Tidwell. It depends on the type of operation and the 
environmental concerns at the place where they are operating. 
It could be the same level of analysis for a small operator as 
it is for a large operator. One of the things that I would 
offer is that I will ask my staff to take a look to see how we 
could maybe take a different approach, especially with some of 
the smaller operations. Maybe there is a way that we can pull 
those together and do them as a group instead of each separate 
one. We may have to think ahead about permits that do not 
expire for 2 years, or so, to group permits in order to be more 
effective in our process. I would hope that many small operator 
permits would take less than 50 hours but any more with the 
environmental concerns, especially if the permit is for 
operating in a place where we do have threatened and endangered 
species the work may take more time. I would like to get back 
to you after we have taken a look to see if there are some 
things that we could do internally to address this concern. 
Cost recovery really has helped eliminate the backlog, and I 
know that since we have had this opportunity, that it really 
has helped with the larger operators. Our small business folks, 
if it is anything under 50 hours, it is great, but when we get 
over that--and anymore it does not take too much. You have one 
or two issues and you are over 50 hours.
    [The agency provided the following additional information:]

              Outfitter Guide Permits and Small Operators

    The Forest Service recognizes the financial impact of cost recovery 
on small operators and is committed to ensuring the cost of processing 
an application is kept to a minimum. A letter will be issued to the 
regions clarifying our policy and encouraging creative solutions, such 
as grouping permit reviews to reduce impacts on small operators.

    Mr. Simpson. Well, I appreciate that, and I appreciate the 
fact that you understand that it is those small operators that 
we are really concerned about. I think you are right, that it 
has helped to address the backlog in trying to get to these 
earlier, so I appreciate that.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Chandler.
    Mr. Chandler. Thank you, Mr. Chairman.
    Welcome, Chief Tidwell.
    Mr. Tidwell. Thank you.

                         FOREST LEGACY PROGRAM

    Mr. Chandler. Good to have you here. I have got a couple of 
questions that I am interested in. One has to do with the 
Forest Legacy program. I am a big supporter of it. I very 
strongly believe that we need to preserve whatever we can in 
our national forests. I see that you have that amounts to a 
request for a 32 percent increase in the Forest Legacy program 
and I was wondering if you could just give me some idea about 
why you felt like you needed an increase of that sort at this 
time? And again, I am very supportive of the program but I am 
curious about where you all want to go with that. Is that just 
a normal effort to increase the focus of that program or is 
there something special about what you need to do this year?
    Mr. Tidwell. I would be glad to respond to that question. 
Our request for additional funds in Forest Legacy is based on 
being able to use that program to address restoration needs and 
address watershed concerns, and it is just a key part of our 
overall effort, and when we look especially at lands where 
there is a potential for development and being able to keep 
these lands in an open space setting to provide for wildlife 
habitat, to help us with restoration, to address watershed 
concerns, I just feel it is a key part of our overall program. 
That is why we are requesting additional funding, because it is 
a program that fits very well with our focus on restoration and 
improving watershed conditions. It keeps lands working. These 
lands that have a potential to be developed, through Forest 
Legacy we can keep those in the working landscape to help get 
the restoration work done, we can increase the resiliency and 
improve watershed conditions. It is part of our overall effort, 
and we just feel that is a very valuable tool and that is why 
we are asking for the additional funding.

                           EMERALD ASH BORER

    Mr. Chandler. The other thing I would like to talk to you 
about is an invasive-species issue which my home State of 
Kentucky is particularly concerned about, and I guess it is a 
problem throughout the eastern United States. I see that you 
have actually requested a decrease in forest health management 
and in invasive-species research and development. One of the 
great trees in the history of the eastern United States that 
was used by lots of the pioneers, you see it in some of the 
older homes in our area, late 1700 vintage homes, because the 
wood lasts a long time, it is a very hard wood, is the wood of 
the ash tree, and the ash tree, as I am sure you know, may be 
headed toward extinction because of the emerald ash borer. It 
is a huge problem and we are very, very concerned about it. 
Could you give me some indication of your view of where that 
problem is, how concerned you are about it and what the Forest 
Service is doing to address it?
    Mr. Tidwell. Thank you for that question. I share your 
concern about ash. The emerald ash borer, it has been a 
challenge for us and we are continuing our research to find 
ways that will help us to control this ash borer. What we know 
today is that we do not have anything in place where we 
actually can control it and so we are focusing on developing 
strategies to really slow the spread. In order to slow the 
progression of this exotic species we continue to do research 
to find some way to actually be able to suppress the borer. We 
are researching into the genetics of ash to see if there is a 
different ash that we can be planting that is more resistant to 
this ash borer. We are going to be continuing that work. We use 
all the USDA programs and are working with the other agencies 
to take more of a collaborative effort on this, in order to 
really focus our funds on the best place we can continue to 
attack this. This is going to be a challenge. I wish I had a 
more positive response to you. At this point in time we 
recognize that what we need to really focus on now is 
developing a strategy so that we can really slow the 
progression and build more time for our research to hopefully 
be able to find solutions to stop this.
    Mr. Chandler. Please do everything you can do.
    Mr. Dicks. How much are we cutting forest health research?
    Mr. Tidwell. We do have a slight reduction in our budget 
request this year from what we had in the past, and it is----
    Mr. Dicks. Three point seven million, about 4.3 percent.
    Mr. Tidwell. So there are hard decisions that we have to 
make if we look at our entire budget, but when I look at our 
various programs in state and private forestry, with research--
--
    Mr. Dicks. You know, I am a big supporter of the Forest 
Legacy program and I am also a big fan of water conservation, 
but if I had to choose between buying another piece of land and 
taking care of important research issues like this, I am not 
sure I would make big increases in buying more land and not 
deal with these things. I am not saying you cannot deal with 
this at this funding level, but it seems that research should 
be the priority. There are bark beetles, and Colorado has 
issues, and this is a national issue. I think also it is a 
manifestation of climate change. You have a longer fire season, 
and you have a lot more of these infestations that are not 
dealt with because of the weather, and these problems are going 
to get more and more serious.

                  STATUS OF EMERALD ASH BORER EFFORTS

    Mr. Chandler. Well, Mr. Chairman, we are about to lose the 
ash tree. That is a big deal.
    Mr. Dicks. Has it been listed?
    Mr. Tidwell. It has not been listed yet but we recognize 
that----
    Mr. Dicks. Do we have a discrete program aimed at working 
on the emerald ash bore?
    Mr. Tidwell. Well, we do now have a program that is aimed 
on the emerald ash borer. We are working in conjunction with 
the other agencies to look at how we can slow the progression 
and at the same time to continue our research efforts to find 
solutions, some way to be able to suppress this or to find an 
ash tree that is more resistant to this ash borer. It has been 
frustrating. I am confident. I have a lot of confidence in our 
research, and not only our research, but the research 
throughout the country that is done. I think, hopefully, with a 
little more time we will be able to find some solutions to it. 
In the near term, we are going to continue to lose ash and one 
of the things we want to look at is a strategy to be able to 
slow the progression. That may mean getting out in front and 
removing the ash to create some barriers to spread. These are 
some of the concepts that we are working on right now in 
developing this strategy.
    Mr. Dicks. Our staff says that you submitted a report to us 
this year, and it was a very good report that laid out what you 
are doing on this, so we think it is being taken seriously.
    Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Chief Tidwell, I have not heard about the ash problem 
before Mr. Chandler raised his question but it is a pretty 
fundamental question, and I think about the bark beetle in the 
same terms. It is a threat to our existing forest and its 
relatively near-term future involves getting a handle on these 
infestations, and it sure seems to me that identifying the 
personnel who are doing breakthrough work in these areas of 
research and rewarding them for success is one of the 
strategies that someone ought to look at. To lose the ash would 
be ridiculous. If you have to clear some land, that could very 
well be one style, but getting a handle on these infestations 
is fundamental. So anyway, I want you to know from both sides 
of the aisle we are concerned about this very much.

                  HAZARDOUS FUELS FUNDING DISTRIBUTION

    I read in your proposed budget all 2011 hazardous-fuel 
funds will be given to regions using the new prioritization 
allocation system. Are there regions that are not using this 
system?
    Mr. Tidwell. Mr. Congressman, our focus with our hazardous-
fuels work will be in the wildland-urban interface and we will 
be using that system to help identify where are the highest 
priorities for the best use of these funds. We have increased 
our focus on wildland urban interface, so that is one of the 
programs that we use to help identify those priorities.
    Mr. Lewis. You might guess I am familiar with that 
priority.
    Mr. Tidwell. Yes, I know you are.
    Mr. Lewis. Did you arrive at the $340 million figure based 
on the number on funds or the funds you think can be expended 
in the fiscal year ahead of us?
    Mr. Tidwell. We are asking for a slight increase this year 
from what we received in 2010 with a recognition that there is 
more work to be done. I feel our budget request is based on the 
capability we have, based on all of our other programs that we 
have available, that this is a good balance, especially with 
our increased focus on the wildland-urban interface. We are 
estimating a reduction in acres treated from what we have done 
in the past and that is based on this focus on wildland-urban 
interface. More of the work has to be done through mechanical 
treatment. We cannot use as much prescribed burning. We are 
still going to be doing some work in the back country. We 
definitely will be using the projects that are selected for the 
Collaborative Landscape Forest Restoration Fund, which has a 
focus on reducing the hazardous fuels, changing the fire regime 
back to a class I or II. There are a combination of things that 
I feel if you look at them together provide a very good 
balanced program and we can continue to make the progress that 
we have in the past.

                FIRE SUPPRESSION: AIRCRAFT AVAILABILITY

    Mr. Lewis. As we attempt to deal with that interface and 
problems elsewhere in the forest, we are doing the best we can 
to avoid having the major fire, but in the meantime, when one 
does occur, one of the major assets that is most important--I 
ask this question almost for Mr. Calvert, who had to go to a 
Homeland Security meeting. The aircraft availability is an 
important thing and we are in the business right now of looking 
at certification of the C-130-J as well as the Metz-F. Can you 
give me an idea of where we are in terms of that certification 
and will those kinds of aircraft be in larger volume available 
to tend fire season?
    Mr. Tidwell. Well, for this year we have what we call our 
eight airborne firefighting systems that are available. Two of 
them are located in your part of the country. So we have eight 
of those planes that are available as kind of our surge 
capacity to fill with the large air tankers that we have under 
our contract along with the large helicopters. In addition, we 
have the call-when-needed contracts for the very large air 
tankers, the DC-10, the 747s. Overall, the Forest Service will 
have the same capacity and same capability we have had for the 
last couple of years. We are just starting to work with this 
integrated working group with the Department of the Defense and 
the Department of the Interior to look at the C-130-Js. We have 
a commitment to Congress to be able to give you a report back 
in 90 days about the aviation platform we need available for 
firefighting in the future. We recognize that our large air 
tankers, these are old military craft. They are very expensive 
to maintain. Our contractors do an excellent job to keep those 
aircraft flying and to do that job. We recognize that those 
planes are not going to be available forever and so we do need 
to be thinking about a strategy to move forward.
    Mr. Lewis. Thank you for that.
    Mr. Chairman, thank you.
    Mr. Dicks. That is very good.
    Mr. Hinchey.

                               WATERSHEDS

    Mr. Hinchey. Thank you very much, Mr. Chairman, and thank 
you, Chief. Thanks very much for your statements and your 
response to the questions. There is very little federal public 
land in the state that I represent, but nevertheless, it is 
something that we are all deeply interested in, and I want to 
express my appreciation to you for what you are doing.
    The forestland issue is critically important but one of the 
things that you mentioned is the watershed issues. Watersheds 
in the context of these open federal lands are very important. 
They are important for the wildlife, particularly various forms 
of wildlife that are endangered. It is also, as I understand 
it, very important for public properties and for cities even 
where the water goes into. So you're focusing on the watershed 
conditions. Can you tell us a little bit about that, how deeply 
important this is, what you are doing and what the effects are 
likely to be?
    Mr. Tidwell. Well, thank you for that question. Even though 
there is not a lot of national forest in New York, New York has 
set the standard for recognizing the importance of watersheds. 
They have done a great job on the watershed for New York City 
and the benefits for that. That is one of the examples we 
continue to point to.
    Mr. Hinchey. Adirondack Park is the largest in the world.
    Mr. Tidwell. We recognize the importance of water and 
watersheds. It has been the foundation of this agency since we 
started. We want to increase, though, our efforts to care for 
the watersheds, to ensure that we are doing everything we can 
to provide that clean, abundant flow. So that is one of the 
purposes of our Integrated Research Restoration budget line 
item so that we can take an integrated approach to doing 
restoration that will ensure watershed condition improvements. 
It will produce commodity products that so many of our 
communities rely on. It will address the need for wildlife 
habitat. It will do it in a way that we can put an integrated 
project together and actually increase the benefits and 
actually increase the jobs. So that is one focus.
    The second focus is through our Priority Watershed 
Initiative. We want to really select some projects throughout 
the country, use a pilot approach, develop models about how we 
can take a look at these large landscapes, and these will be 
landscapes that include all lands, not just national forest 
system lands. We want to be able to show how we can increase 
the watershed health, improve watershed conditions, put people 
to work doing the restoration work that needs to be done there 
and use these as models to help us really show what we can 
accomplish by taking more of a landscape-scale approach to 
management. This is something that we have been doing in the 
eastern forests, the eastern states, for a while and it is 
something we want to be able to use across the country.

          PRIORITY WATERSHED AND JOBS STABILIZATION INITIATIVE

    Mr. Dicks. You mentioned the Priority Watershed and Jobs 
Stabilization Initiative. Are people going to be able to apply 
for grants or is this going to be done by the Forest Service?
    Mr. Tidwell. It will be done by the Forest Service. We will 
have our regions work together with their states to submit 
project proposals and it will be on a competitive basis so 
the----
    Mr. Dicks. So the regions will submit proposals?
    Mr. Tidwell. Yes, and the Forest Service--at this time I 
will be making the selection of which of these projects are 
selected for this funding.
    Mr. Dicks. Mr. Hinchey.
    Mr. Hinchey. You were finishing?
    Mr. Tidwell. I think I was about done.

                             ROADLESS RULE

    Mr. Hinchey. Well, thanks very much. Thanks for your 
response to the question. It is a very important issue that you 
are dealing with. The connection between that issue of 
maintaining these water-quality areas and the roadless 
operation is directly connected and it is deeply important. The 
roadless rule was adopted back in the Clinton Administration. 
As a result of that, there are nearly 58\1/2\ million acres of 
roadless wilderness that are in the United States Forest 
Service, and the benefits of that are very, very high, and they 
are increasing. So we have a number of areas that are 
interested in stopping that. I understand that there are some 
legal issues that are being engaged in now to try to stop that 
roadless rule generally and then specifically in some areas. 
Can you give us some idea about what the Forest Service is 
doing to ensure that that roadless rule remains intact and that 
it is not going to be weakened, it is going to continue to be 
just as strong and effective as it has been?
    Mr. Tidwell. Thank you for the question. The Administration 
has been very clear that we are going to continue to protect 
the roadless values of these areas. At this point in time you 
mentioned there are ongoing court cases, and before we do 
anything, we are going to wait and see what plays out in the 
court system.
    In the interim, though, Secretary Vilsack put out an 
interim directive to help ensure that we are going to be 
protecting roadless values, any projects that propose road 
construction, that involve tree cutting, or tree harvesting in 
roadless areas, he wants to take a look at those first to see 
if it is really something that needs to be done and can be done 
in a way that we still can protect roadless values. So that is 
the additional assurance that has been in place. I am 
optimistic that maybe in the next 6 months that the courts will 
finish their work and then we can be able to move forward.
    Mr. Hinchey. In the next 6 months?
    Mr. Tidwell. Well, I am optimistic. That is being 
optimistic.
    Mr. Hinchey. Well, that would be great if that happens. 
None of these legal actions have been successful against that 
operation which was set up, as I understand it.
    Mr. Tidwell. Well, there have been various stages of 
success. I mean, we are still----
    Mr. Hinchey. I mean, your success has been clear, but the 
people who are bringing these lawsuits, I do not think there 
has been any success on those lawsuits, has there?
    Mr. Tidwell. Well, there has been in some courts, yes, and 
so we are not finished yet. Even the Idaho roadless rule that 
we completed last year and has strong support across the board 
from conservation groups, from the state and from the countries 
and industry, that too is being challenged and we are working 
through that too. Roadless has just been very contentious. I 
have been working for the Forest Service for 33 years and I 
think I have spent 30 years of that dealing with roadless in 
one way or another. I think it is past time for us to be able 
to move on, recognize the importance of the values of roadless 
areas, be able to have the flexibility we need to have in place 
to be able to address some concerns from communities, but to be 
able to really appreciate those values. You mentioned 
watershed. That is one of the primary benefits of these areas 
that remain undeveloped, still open for recreation use, 
hunting, a lot of hiking, some motorized activities. They 
remain intact, they provide tremendous watershed benefits, and 
really those are the areas that we are not focusing our 
restoration activities on.
    Mr. Hinchey. Well, thanks very much, and I know that that 
issue is very important to the watersheds. It is also very 
important to air quality and to a host of other things. I 
understand also that there is a movement to recommend more than 
3 million acres of national forest for wilderness designation 
in the context of this Administration.
    Mr. Tidwell. There are various wilderness bills that I know 
of in Congress right now. I am not sure of the total acres.
    Mr. Hinchey. Thank you very much.
    Mr. Dicks. Mr. Cole.

                           TRAVEL MANAGEMENT

    Mr. Cole. Thank you very much, Mr. Chairman.
    I have got a local issue, then a couple of broader 
questions for you. The local issue really relates to the 
Ouachita National Forest in southeast Oklahoma. It is not in my 
district, it is in my good friend, Congressman Boren's 
district. But this has caused a great deal of concern in all of 
Oklahoma, not just by Congressmen. Both Senators have weighed 
in on it. Recently there was an effort to develop a trail and 
road usage plan for the forest. As I understand it, there was 
close collaboration by the local and regional forest service 
officials, really excellent collaboration, quite frankly, the 
local community. They developed a plan, and it went to D.C. for 
final approval and at that point 90 percent of it was basically 
thrown out. We are talking about really significant reductions 
in access, 70 miles in Le Flore County, which is a very large 
county in Oklahoma in the southeast, 300 miles in McCurtain 
County. These are places that are being shut off now that 
heretofore had been open, and this is historically the poorest 
part of the state. It is very rural. These communities depend 
on tourism and access, and I mean, there is a great deal of 
discomfort about the decision-making process. I have no doubt 
that we are in the appeal phase now and you will hear a lot of 
local appeals. But I would like to know if you have any reason 
why we are seeing access at that level cut off.
    Mr. Tidwell. Well, thank you for the question. I am very 
aware of the situation. I have had the opportunity to talk to 
several folks on it. We did receive 27 appeals on that 
decision, and we may even receive a couple more that are in the 
mail as I speak. We will go through on those appeals and look 
at the concerns that are raised to see within the decision if 
there is some opportunity to address that. We put the draft 
plan out and received comments on that and based on the 
comments, and some environmental concerns, the decision was 
made to reduce some of the trails. There are still over 3,000 
miles of roads and trails that are available depending on what 
community you are in. It does not help if there are a lot of 
roads in Arkansas that are available if they are not available 
right there and so that is some of the challenge. It is 
essential that we get these travel management plans in place. 
This is an effort we started a couple years ago. It is 
essential that we are able to get to where we have a dedicated 
system of routes across all the national forest and grasslands 
so folks know they have a place to go ride, a place where they 
can enjoy motorized recreation. I think by getting this in 
place it will ensure that we will be able to sustain that 
recreational opportunity. It has been controversial in places 
where we have had a lot of cross country travel. Motorized 
recreation can be an environmental concern. One of the things 
we want to focus on is having this dedicated system of routes 
and dedicated areas where people can ride, and do it in a way 
that reduces the environmental effects.
    Mr. Cole. I know this area actually very well, and first of 
all, you know, there would be no cross country travel here to 
speak of, but it is an exploding recreational area for north 
Texas and it brings a lot of people into Oklahoma, so I would 
ask you to just really carefully review that. We have all dealt 
with these kind of issues before where communities are used to 
having essential unhindered access and then all of a sudden 
somebody from a long way away said no, you are going to change 
the things have worked for decades. So I think it is going to 
be a big issue.

                             FOREST ACCESS

    Secondly, I was frankly very concerned at the opening round 
of questions just listening to Chairman Dicks because I am 
wondering if I am not seeing here a local manifestation of 
broader conflict that is shaping up just in terms of roads and 
access into national forest. Each of us have local 
constituencies that, if you try to impose something too heavy-
handed from here and you try to cut back on access are just 
going to explode. Is there some sort of design to dramatically 
reduce the access that people currently enjoy into national 
forests? Is there a sense that the current level of activity is 
simply too much to sustain the forests in the condition that 
you would want to sustain them?
    Mr. Tidwell. The focus with our budget request is to 
provide the funds for maintaining the road systems that we need 
and also we have provided funds for reducing the road system 
for places where we no longer need that access.
    Mr. Cole. How do you define ``no longer need that access''? 
Who makes that decision and why?
    Mr. Tidwell. That decision is made through working with 
local communities, working with the counties, working with the 
states. We have a lot of roads that were built over the last 
20-30 years that were built for one purpose, to go in to do 
timber harvest, and that was the only purpose of that road. Now 
there is no longer a need to get back into that piece of 
country, or in the future we would be able to go in there and 
be able to access that through a temporary road or something 
like that. These roads are very expensive to maintain. What we 
are trying to do is to right-size our road systems so it does 
maintain the roads so the public can have access to have 
recreational opportunities, but the ones that are no longer 
needed can be removed. We go through a public process. We ask 
the public. We get comments. I can assure you, we do not close 
a road or decommission a road without listening to the public.
    Mr. Dicks. Will the gentleman yield?
    Mr. Cole. Yes.
    Mr. Dicks. This is a very important point, because 
sometimes these roads are very important to these counties and 
to these local areas. I mean, they are the transportation. So I 
am glad you brought this up and I am glad to hear the answer 
because I do believe that we have got to make sure that where 
these things are essential to the local people that they are 
sustained.

                           TRAVEL MANAGEMENT

    Mr. Cole. Well, I do have that concern in this case, and I 
really do--because again, we evidently had very good 
cooperation from local Forest Service people who obviously 
intimately know the area and know the communities, who worked 
together the common plan. We got a very different response 
evidently and I am told people were very surprised at it. I 
would just ask you to re-look at that but also to look at the 
broader question because I do not want to cut off access 
without a really big discussion. If you close the roads and the 
trails and the aim is look, to limit people in these areas 
basically, that is going to be a problem. And I am not 
suggesting----
    Mr. Dicks. You are not closing down any trails, are you?
    Mr. Cole. They certainly are in our area.
    Mr. Tidwell. Under this travel management plan, we are 
closing some trails that are causing some environmental effects 
and impacting water quality. In places we are also having an 
effect on endangered species. That is one of the concerns we 
are trying to work through.
    Mr. Dicks. Why was that not taken into account when the 
trails were put in in the first place?
    Mr. Tidwell. A lot of these trails have occurred over the 
years. They are user-created trails.
    Mr. Dicks. Okay. They are not necessarily Forest Service 
trails?
    Mr. Tidwell. Some would be Forest Service and some would be 
user-created. Our goal is to be able to have a system in place 
that year after year there is a place for you to go ride, 
whether you ride in your pickup or your ATV or your motorcycle, 
and that is what our goal is. To be able to have a system that 
we can maintain, so we do not have the criticism about it is 
impacting the water quality, it is having effects on endangered 
species because we considered that when we put the system in 
place. It is a system we can maintain and continue to provide 
those opportunities. In your case, on the Ouachita, there is 
going to have some change. We are going to have to do what we 
can to be able to address those concerns to see if there are 
opportunities to build new trails.
    Mr. Dicks. Do you have a public process on the trails as 
well as the roads?
    Mr. Tidwell. Yes. All the trails and roads go through this 
public process.

                      TRAVEL MANAGEMENT: OUACHITA

    Mr. Cole. I am just skeptical if it really is, and this has 
come to me rather recently. Again, it is not my district. But 
it really is a 90 percent different decision here as opposed to 
local people and local officials, and that suggests to me 
either a really profound philosophical difference as to what is 
going to go on or a really big disconnect, and I would be happy 
to continue this. I do not want to take too much of the 
committee's time on this, but it concerns me locally and it 
really will concern me if it starts popping up in a lot of 
other places because again it suggests a desire to really 
dramatically reduce access.
    Mr. Tidwell. We received I think over 800 comments on the 
draft and had numerous public meetings. I do recognize that 
what was put out in the draft versus the final decision, there 
was significant change, and it was based on having to address 
the concerns that were raised. That is one of the things that 
our folks have to take a look at is to see how much change 
occurred between draft and final and also to be able to look to 
see if there is some opportunity to be able to address these 
concerns either through this decision or through another 
decision to be able to continue to provide--
    Mr. Cole. And just to make one point, and I want to pick up 
again on the chairman's point in his opening round of 
questions. I would also want to make sure that this is not 
because we simply are not spending enough money on roads and 
access, in other words, does this become a consequence as 
opposed to a policy? Are we underfunding something we ought to 
be funding with a pretty dramatic reduction? Are we going to 
make one size fit this budget whether or not it makes sense. I 
do not know that you can address that question here. It is easy 
to think, okay, if we are having this kind of cut, we are 
paying for it by reduced access in a lot of different places, 
particularly here.

                     FIRE SUPPRESSION: AIR TANKERS

    Let me just end with--and you can answer that--the chairman 
has been very generous with time. I just wanted to touch on one 
other thing, and not with a series of questions but just to 
pick up on something Mr. Simpson said. The air fleet of--or Mr. 
Lewis, I guess. The air fleet of firefighting units you have, 
that is such a national treasure, an asset, and I do not have 
national forests in my district but I sure have wildfires, and 
the ability of the Forest Service to redeploy those in times of 
great need has been an enormous help to us over the last 
several years, so I wanted to express my appreciation for what 
you have done in that regard and also let you know again we 
want to work with people that sort of normally have this kind 
of concern with forests because we want that capability to be 
very robust, not just in forest areas but the ability to deploy 
in really what are prairie fire-type situations. We have had a 
lot of them in Texas and Oklahoma in the last few years.
    Mr. Simpson. Will the gentleman yield?
    Mr. Cole. Certainly.
    Mr. Simpson. We were supposed to have a report in November 
of 2009 on the air tanker fleet. Where is it? Is it coming? 
When can we expect it?
    Mr. Tidwell. It is coming. One of the things--we are taking 
a look at the report and doing another review on it and working 
with the Department of Interior. I also want to touch base with 
the National Association of State Foresters to look at the mix 
of aviation resource, the number of helicopters, the number of 
small air tankers, the number of large air tankers that we 
need. The other thing that I also would like to factor in what 
will come out of this interagency aviation working group to see 
if that does not need to be part of many of our overall 
recommendations. But we are----
    Mr. Dicks. So these are separate initiatives, separate 
reports?
    Mr. Tidwell. Yes, the report that the Congressman is 
referring to is one that we owe the Congress and it is late. So 
there actually will be two reports and we will get both of 
those reports to you, but we will get our aviation strategy 
report up to you as soon as we can complete this, what I think 
hopefully will be the last review.
    Mr. Cole. If I can add just one thing to Mr. Simpson, and 
maybe you are thinking about this, but you mentioned the 
problem of maintenance. These are very old aircraft in many 
cases, and we do have three great air logistics centers in this 
country. One of them is at Tinker Air Force Base but also at 
Hill Air Force Base in Ogden. A lot of those facilities have 
workforces that have literally worked on these planes before 
you ever got them, and I would just suggest, I do not know if 
there is some way for a partnership here but I know these are 
bases that keep 50-year-old KC-135s in the air and performing 
under combat conditions. There ought to be some way that they 
could work with you that might, number one, save money as 
opposed to private contractors, but those workforces at those 
installations really have a unique understanding of those 
airplanes which at that age are not routine maintenance 
anymore. I mean, it is almost like having to have artisans work 
on them because the wear and tear on the air frame is different 
with each one individually. So you might see if there is some, 
and we might be able to facilitate somewhat, particularly given 
where the chairman is headed.

                           AIR TANKER OPTIONS

    Mr. Dicks. Is the C-130-J a potential aircraft?
    Mr. Tidwell. Yes. I mean, we have used that plane and we 
feel it is definitely one of the options that we need to look 
at. It has the capability to deliver the payload that we feel 
is necessary. It also has the speed. It is also quite--it is 
much more efficient airplane than what we have been using in 
the past so it is definitely one of the options that we need to 
look at.
    Mr. Dicks. Is there a way to work this out with the 
National Guard where they would have these planes part of the 
year and then when you need them you get them? Is that 
possible?
    Mr. Tidwell. It is. It is one of the things we are looking 
at. I think it is one of the options that we need to look at. I 
also think the option of having a private contractor continue 
their role in a way too. So I think they----
    Mr. Dicks. Would they buy the planes and then we charter 
them?
    Mr. Tidwell. That would be one option. I mean, we are 
looking at options of----
    Mr. Dicks. Lease?
    Mr. Tidwell. A lease, or government providing planes that 
are privately operated, potentially using the Air National 
Guard to have these planes too. Those are the options we want 
to work through and then have the discussion with you about 
what is the best way to go forward. The one thing that is sure 
is that our existing fleet of large air tankers, and we still 
have 19 that are operational with our contractors, is going to 
be very difficult to maintain under any situation. It is 
something we need to work together on to develop a strategy 
about where we need to be. We have some time and we continue to 
use the large helicopters to basically fill in some of the lost 
capability that when we lose one of the large air tankers it is 
no longer serviceable and so we do have that. And so in the 
short term, we are in good shape. It is the more long term of 
where we really need to go, and I think we have the opportunity 
of a little bit of time and I think we have some options, and 
we can look at all these different options and come together 
with a good mix that will address this concern. These are 
planes that operate all over, and the Forest Service, we 
average over 10,000 fires a year and we burn over I think 1.3 
million acres a year. Across the entire Nation we burn close to 
over 6 million. Fire is not just on national forest system 
land, this is an all lands issue. It is definitely in your 
state. The large air tankers, any time you are more than 25 
miles from a water source or from where the ship is located, 
that is when the large air tanker is more efficient than the 
large helicopters. The large helicopters, if you are within 25 
miles of where they are located and where you have water, that 
is a very efficient tool. But in your case, if we have, say, 
planes that are in Ogden, Utah, it will take a long time to get 
a helicopter----
    Mr. Simpson. You have to fly a long ways to find water in--
--
    Mr. Tidwell. Especially with the C-130-Js, the are pretty 
fast.

                            FIRE SUPPRESSION

    Mr. Dicks. Well, and is it not true that it is 2 percent of 
the fires that get to be mega fires, and that is where the real 
cost is? So having a strategy to deal with that fact is very 
critical.
    Mr. Tidwell. Yes. Our aviation resources are a key part of 
our initial attack success, but you are correct. We average 2 
percent. Two percent of our fires escape, and not all of those 
get very large but it just takes a few large fires. I wish I 
could tell you that if we had this resource or another of this 
that we would not have large fires, but I would be misleading 
you. We will have large fires from time to time. I think 
through a combination of our hazardous-fuels work, and having 
the initial attack resources, that we can really make a 
difference and reduce the threat to communities when we do have 
these large fires. Our large air tanker resources are a key 
part of our suppression strategy, both initial attack and on 
large fires.

                    INTEGRATED RESOURCE RESTORATION

    Mr. Dicks. Okay. Let's move on here. Chief, I commend you 
for your interest in integrated forest management but I want 
you to explain in more detail how this new Integrated Resource 
Restoration budget item would work. You say you are focusing on 
watershed conditions. Certainly, one of the greatest impacts on 
Forest Service watersheds is excessive or poorly maintained 
roads. You propose to get rid of the Wildlife and Fisheries 
program, the Forest Products program, and the Watershed and 
Vegetation Management budget items. Can you explain why you 
chose these three items and not other budget line items that 
also have major impacts on the ground such as grazing 
management, hazardous fuels or inventory and monitoring?
    Mr. Tidwell. Thank you for the question. We chose these 
three budget line items, these three programs to consolidate 
these into an Integrated Resource Restoration budget line item 
because our forest products, watershed, vegetation work, 
wildlife, fisheries and habitat work all share the same 
objectives and when we do restoration, all three benefit. The 
majority of our forest products work is on restoration, so by 
putting these three together, it provides a more integrated 
approach to program development, to planning and project 
development. The focus will be on restoring acres to be able to 
show an improvement in watershed condition. We will also be 
able to show you that we will produce the same level of biomass 
that we have in the past. In fact, we are predicting estimating 
that we will produce 2.4 billion board feet. In 2010, it was 
2.5. I think the 2.4 is a conservative estimate. I am very 
confident that we will be able to accomplish that along with 
similar acres of wildlife habitat improvement, fisheries 
improvement, and we will show you, we will continue to track 
those outputs. What we want to be able to do is to take a focus 
on looking at the outcomes for the landscape. Having this 
integrated budget line item, it will help facilitate that. Now, 
can we get the same thing accomplished with keeping the budget 
line items the way they are? We can. But I will tell you by 
doing this, it will help facilitate it. It will help us 
internally. Folks can work together in the initial project 
planning. And so it will help facilitate this work, and I also 
believe it will allow us to be able to get more work done on 
the landscape. It will allow us to have more jobs, especially 
the restoration.
    Mr. Dicks. Okay. Now, this came as a bit of a surprise to 
us. Did you have a chance to talk to your constituent groups 
out in the countryside about this, and what was their reaction?
    Mr. Tidwell. We did not have that opportunity, you know, 
with our budget process. This is a budget request and so we 
have put that forward in our budget request and we are having 
those discussions with interest groups as we speak.
    Mr. Dicks. What has the reaction been?
    Mr. Tidwell. It has been mixed so far. Some groups say 
well, it sounds like a good idea but they are concerned. They 
want to make sure that we will continue to have the focus on 
wildlife, to continue to have focus on fisheries. There is some 
concern from the timber industry that we will continue to be 
able to produce the outputs that they are interested in. Many 
of the folks that I work with in the timber industry, they 
recognize that the work they do is restoration and so they 
actually can see well, okay, this lines up with what you have 
been telling us. Right now we are getting questions. I am 
confident we will be able to address those in a way that we can 
reassure folks that we will continue that focus, and I want to 
work with the committee to be able to address your concerns of 
accountability.

         INTEGRATED RESOURCE RESTORATION--PERFORMANCE MEASURES

    Mr. Dicks. Right. We want to work with you on this.
    Each of the three former line items has a set of 
performance measures but those measures are all absent in this 
new integrated budget. I am particularly concerned about the 
lack of performance measures in the request. You rely almost 
entirely on the number of watersheds in one of the three 
condition classes. Can you please explain to us what these 
condition classes are, how they are measured and how annual 
progress would be measured?
    Mr. Tidwell. With our watershed condition criteria that we 
use, we have 12 criteria that we use to be able to classify 
watershed conditions across the country. They are things like 
the quality of water itself, the quality of fisheries' aquatic 
habits, the quality of terrestrial habitats. There are things 
like the condition class of the forest vegetation. What fire 
regime is it in? What is the risk of having a catastrophic 
fire, also with the roads. How many roads are within 100 meters 
of streams or lakes? Are we able to implement best management 
practices with that road system? These are the criteria that we 
use to be able to have a systematic approach across the country 
and be able to evaluate the conditions of watersheds across the 
national forest and grasslands.
    Now, in addition to that, we also have to factor in where 
is the watershed located and what else is going on. Is this a 
municipal watershed? What is downstream from that? What is 
going to be the cost? In some of our watersheds we can make a 
small investment and make a significant improvement. In others, 
it is going to take a much larger investment. These are the 
things that we are going to----
    Mr. Dicks. So you are not going to do this based on just 
how many watersheds are in--for example, region 4 has 1,098 
watersheds in condition class 3. Region 6 has 536. But these 
would be completely different, I would think, in terms of their 
characteristics. So I hope you are going to make some judgments 
and not just do this on the basis of numbers.
    Mr. Tidwell. Yes, we will. We also want to work with you on 
performance measures so that we can have your confidence, your 
support that we will be able to continue to provide the 
accountability that we have in the past.

                           TIMBER PERFORMANCE

    Mr. Dicks. Going back to the numbers for timber, is it 
harvest or your sales? How do we characterize this, when you 
talk about 2.4 billion. Are you talking about sales?
    Mr. Tidwell. We are talking about offered.
    Mr. Dicks. Offered?
    Mr. Tidwell. It is offered. It is actually--you know, sales 
have gone through all the appeals and everything and they are 
actually offered.
    Mr. Dicks. Okay, 2.4 billion. Now, how much of that is 
thinning or what we would consider preventive or hazardous 
fuel-type work?
    Mr. Tidwell. You know, most of our timber sales are 
designed to accomplish restoration goals and so depending 
where--and so I would say many of those are thinning but it 
depends on what is the objective, what needs to occur on the 
landscape.

                    UNPLANNED FIRES: HAZARDOUS FUELS

    Mr. Dicks. You know, again we get back to this 80 million 
acres backlog, and that is for fire prevention.
    Mr. Tidwell. Yes, or condition classes. We look at where we 
have the highest risk for having a catastrophic fire.
    Mr. Dicks. In this budget, how much will be spent on trying 
to deal with some of those 80 million acres? Will that number 
come? I am trying to think of the right word. Because the trees 
are growing back, are we going to have that number go up or is 
it going to come down?
    Mr. Tidwell. Well, we estimate that we will treat 160,000 
acres with our hazardous-fuels funding, and then we are 
projecting our 2011 budget and especially with our focus on 
stewardship--excuse me--1.6 million acres.
    Mr. Dicks. One point six million?
    Mr. Tidwell. Yes. I am sorry. I am surprised that I did not 
see a reaction across the table.
    Mr. Dicks. We were feigning.
    Mr. Tidwell. Okay, 1.6 million is what we will do just with 
hazardous fuels.
    Mr. Dicks. Is this strictly because of money? I mean, the 
fact that we are not doing more, is it just because of money?
    Mr. Tidwell. Well, we focus on----
    Mr. Dicks. Because this is a great way to create jobs too.
    Mr. Tidwell. It is. It is an excellent opportunity to 
create jobs. So we look at where we need to do the work, and 
one of the things with this focus on wildland-urban interface, 
we will be creating more jobs because more of this work will 
have to be done with mechanical treatments so we will be 
increasing more jobs than we have in the past with just the 
hazardous-fuels reduction. But that is just a piece of it, 
because with our Integrated Resource Restoration funds, we will 
also be changing the condition class out there. You know, for 
instance, in 2009, we reported that we treated close to 3.4 
million acres across all programs where we made a difference on 
reducing the concern with wildfire on the landscape.
    And Mr. Chairman, going back to your question. Can I tell 
you at the end of 2011, that the total backlog of acres that 
need to be treated will be less? Well, based on our treatments, 
they will be less. At the same time, our vegetation keeps 
growing and so it is something I think we really need to focus 
on is where we do this work. There is no way--well, first of 
all, we do not need to treat every acre.
    Mr. Dicks. Right.
    Mr. Tidwell. We do not need to treat every acre so it is 
more about where we put the placements on the landscape that 
are essential. The other key part of this is also to be able to 
use wildfire, especially in the back country, allow wildfire to 
play a role in the ecosystem to also help reduce some of this 
fuel buildup that has just occurred naturally. We need to be 
able to be in a place where we have the support of our 
communities. We have done the planning. We have worked with 
them so that they know when we do get a fire in the back 
country, we can manage that. We do it in a way that we can 
assure that it is not going to be threatening their 
communities, and when I say manage, it is not we just leave it 
alone. We do not do that. We are up there, we have folks that 
are monitoring and working on it. We can do that in a way to 
accomplish some of these resource benefits, reduce costs, and 
at the same time use that as a very effective tool.
    Mr. Dicks. Well, I think the case there is very strong. I 
know in eastern Washington, it has been suggested that this is 
a great way to deal with understory and then it also helps you 
on bug infestation, all these other things as well. So I think 
it is an appropriate tool. Even the Park Service does it in 
certain situations, and I think it is proper there as well.
    Mr. Simpson.

                WILDLAND FIRE AND COMMUNITY PREPAREDNESS

    Mr. Simpson. Thank you, Mr. Chairman.
    It is really an interesting question, one that we were just 
talking about here that I have tried to deal with over the 
years. Nobody likes wildfires but the reality is, that is part 
of management of a forest and fire is necessary. Have we been 
too successful in putting out fires? I mean, I know that we 
want to put them out around communities and so forth and that 
is why we do the fuels reduction program around communities. 
How many states have adopted wildfire building standards for 
that urban-wildlife interface, which would seem to make sense 
for me?
    Mr. Tidwell. I believe many states have adopted and 
encouraged construction to be done in a way that the buildings 
can survive wildfire. We provide a lot of information through 
our Fire Wise program to help folks understand clearings and 
what that they need to do. Also, the construction techniques, 
construction material that they need to use can make all the 
difference from having a situation where we lose homes and 
where we do not, and we have many examples of that across the 
country. So it takes a combination of doing what we need to do 
on private land, also doing the field treatments that we need 
to do on the adjacent public lands, and then to be able to 
allow fire.

                   UNPLANNED FIRES: RESOURCE BENEFIT

    Mr. Simpson. When you say we put out 98 percent of the 
fires that start on Forest Service lands, is that being too 
successful? I mean, should some of these fires be able to--
otherwise you are going to have the undergrowth, you are going 
to have the fuel loads build up, which right now in many 
forests, fuel loads are so large that when it does have a fire, 
it is going to be a catastrophic fire.
    Mr. Tidwell. With each fire we need to take a look at it, 
where it occurs, the time of year, the conditions, the planning 
that we have done ahead of time so that we know that this is a 
fire that we can manage. We have had a lot of success 
throughout the country where we have been able to do this. It 
is one of the things we want to continue to work on. Whether it 
should be 98 or 97, I think it is more of just being able to 
make the right decision at the right time. We are going to 
continue to have aggressive initial attack, so I do not expect 
that number is going to change. I expect by all indications, we 
are probably going to burn more acres every year, especially 
with the effects of the warming climate. We have a longer fire 
season now than we had in the past. It is going to continue to 
expand so we will continue to just work with that.

                        BACK COUNTRY AIR STRIPS

    Mr. Simpson. A couple other quick questions. Back-country 
air strips. We have some concerns about some of them not being 
maintained or closed down in some areas, and as you know, this 
committee has been very insistent that those back-country air 
strips remain accessible. Is Forest Service policy changing at 
all or are you going to maintain those?
    Mr. Tidwell. There is no change in our policy. We are going 
to continue to work with the groups that are very willing to 
help maintain these strips, and we recognize that these strips 
are important not only to provide access but are also a 
recreational opportunity. Folks like to fly into these. It is a 
very unique recreational opportunity to fly into a back-country 
strip.
    Mr. Simpson. I think they are nuts, but----
    Mr. Tidwell. We are going to continue to maintain those 
where we can and with, their support. From time to time there 
will be issues on certain strips that we will have to work 
through.
    Mr. Simpson. Two up in Idaho, the Reed Ranch Air Strip and 
the Seminole Creek and Grangeville Air Strip, there is concern 
that they have either been closed or threatened to be closed by 
the Forest Service, so I would like to work with you on that.

              LAND MANAGEMENT PLAN RECOMMENDED WILDERNESS

    One other thing. We treat recommended wilderness areas as 
wilderness areas in general. We do not allow mechanized 
vehicles, snow machines, et cetera, et cetera, in there. There 
is some indication, at least I hear from the Idaho Snow Machine 
Association, that it appears the Forest Service may be changing 
its guidance as related to mountain bikes in recommended 
wilderness areas. Is that true or not true?
    Mr. Tidwell. I have not had any discussions about changing 
the guidance. Our recommended wilderness areas, it is part of 
our forest planning process, and as to how those areas are 
managed until Congress acts on the recommendation is part of 
the decision that this made. We are required to maintain the 
wilderness characteristics of those areas until Congress has an 
opportunity to act. So in some cases we have continued to allow 
snowmobiling in recommended wilderness. We have continued to 
allow mountain biking to continue. I will share with you----
    Mr. Simpson. Just in the areas that were recommended, that 
were used before it was----
    Mr. Tidwell. Before, yes. It is through the forest planning 
process.
    Mr. Simpson. Right.
    Mr. Tidwell. I will share with you, though, that I believe 
we do a better job if we look at those areas and when we are 
making the recommendation, we factor in the current uses that 
are occurring. When we make a recommendation to Congress to 
consider these areas, I think it is better if we really look 
at, and if there are areas that there is already a lot of 
established snowmobile use or motorcycle use, we ought to 
factor that into our recommendation. Then when we do make a 
recommendation that we do everything we can to maintain the 
area as conditions are, not encourage these noncompatible uses, 
until Congress has the opportunity to address our 
recommendations.
    Mr. Simpson. Well, I appreciate that, and as you know, I am 
working on a Boulder-White Clouds wilderness bill, have been 
for several years, and one of the reasons is because I think 
Congress needs to do its job and not just complain about them 
sitting out there as recommended wilderness areas, ``de facto 
wilderness'' is what we call them, and Congress needs to do its 
job and step up and say what is going to be wilderness and what 
is not going to be wilderness. If there are areas even if they 
have recommended that Congress decides no, we do not want to 
make that wilderness, then you release it. If there are areas 
that are recommended that Congress agrees, then we ought to 
pass the wilderness legislation. That is what we have been 
working on for a number of years, and in fact, in our bill we 
took out an area that was within the recommended area that was 
highly used by snow machine advocates for high-altitude snow 
machining and we took that portion out, and it makes sense. We 
actually added in some area that the Forest Service did not 
recommend in order to make a continuous area. But it is a 
collaborative effort, and I appreciate the comments or the 
questions from my good friend from New York, Mr. Hinchey, on 
the watershed areas, the roadless rule, those types of things. 
As you mentioned, doing this in a collaborative way is the way 
to do it, and with the Idaho roadless rule, it was worked on 
from the left and the right, by the state government, Federal 
Government, local people, the conservation groups, the industry 
groups, and they came up with a pretty darn good rule.
    It used to be that the only thing certain in life was death 
and taxes. The only thing certain in life anymore is that no 
matter what decision the Forest Service makes, they are going 
to be sued, not only from the left or the right, but most of 
the time from both of them at the same time, and that is the 
tough thing about a collaborative effort is that the extremes 
on both sides are never going to be happy, and there are going 
to be lawsuits. I once asked Chief Bosworth how much of the 
money that you spend on making a decision for whatever it is, 
whether it a timber cut or whatever, how much of the money is 
spent actually making what you believe to be a good, sound, 
scientific decision that you can defend and that you think is 
the right thing to do and how much of the money is spent trying 
to make it bulletproof from a lawsuit. He said depending on the 
situation, probably 25 to 50 percent of the money is spent 
making what they believe to be a sound, scientific decision, 
and 50 to 75 percent is spent trying to make it bulletproof.
    Think of what it would be like if we could use those 
resources--and I know, we are always going to have lawsuits and 
I do not want to take away people's rights to have their voice 
and so forth, but think if we could use those resources we 
spend trying to make something bulletproof actually managing 
the forest and doing a better job and addressing some of the 
backlogs we have. We would be a lot further ahead. But I 
appreciate your questions, and they are important questions 
about all of this because they are going to be sued no matter 
what decision they make. I want to emphasize again, as Mr. Cole 
and the chairman did, about when we closed some roads in the 
forest in Targee National Forest when I first came, and it was 
by building tank traps in the middle of the roads, and the 
local population just kind of went nuts, and it was--you know, 
you are trying to take away our right to use our national 
forest, et cetera, cetera, et cetera. There really needs to be 
a good reason when you do this and it needs to be explained 
adequately to the public and they need to have their input into 
it, so I just want to emphasize that. But thank you for being 
here today and thanks for the job you do.
    Mr. Tidwell. Thank you.
    Mr. Dicks. Do you need a break?
    Mr. Tidwell. No, I am good.
    Mr. Dicks. Mr. Hinchey.
    Mr. Hinchey. Mr. Chairman, thank you, and as you are 
walking out, I just want to say we commend you going off to 
Defense--he is gone but I just want to say it anyway. He is 
going to be chairing the Defense Subcommittee, and we very much 
welcome that. He is doing a very good job there, but, you know, 
the fact is, we are going to miss him here chairing this 
subcommittee as well. Thanks very much for your leadership on 
the other side of the aisle and the focus of attention that you 
have put on the most important issues that have to be dealt 
with here.
    Mr. Dicks. Thank you.
    Mr. Hinchey. It is very much appreciated, and it is one of 
the reasons why a number of us enjoy being here on this 
subcommittee because of all of those things and the things that 
can be done in a positive way to get something accomplished 
here.
    Mr. Dicks. I appreciate that. Thank you.

              LAND MANAGEMENT PLAN RECOMMENDED WILDERNESS

    Mr. Hinchey. Thanks very much for everything you are doing 
and saying. I guess we are pretty much running out of time but 
I just wanted to go back to that issue of the 58\1/2\ million 
acres of roadless lands and the fact that there is now the 
recommendation of more than 3 million acres to be put into that 
very high quality of protected areas. Those 3 million acres are 
spread across this whole country from Alaska to Vermont, which 
is really amazing. Nevertheless, it is a great thing to do and 
I am very excited about it. I very much want to see it happen. 
But at the same time that this is being proposed and projected, 
there are issues that are taking place apparently that are 
trying to undermine the ability of various areas of those more 
than 3 million acres to be eligible for the recommendation and 
the successful achievement of getting into that high-quality 
preservation area under your jurisdiction. So maybe you could 
tell us how your agency is handling these areas, what is being 
done, what are some of the challenges that are taking place and 
what you think the outcomes are going to be as a result of your 
attention to it?
    Mr. Tidwell. Thank you for that question. Through our 
forest planning process, we are required to look at the 
roadless areas and other areas of that forest or grassland and 
make a recommendation about which of these areas we believe 
Congress should consider to put into the wilderness system. 
When we make that decision, we are also required then to 
maintain the wilderness characteristics of that area, the 
things that we feel justify that recommendation. And so that is 
also part of the decision. In some cases it does mean that we 
take steps to eliminate some motorized activity, we take some 
steps to address snowmobiling. But, each of those decisions are 
made through that forest plan decision. So our guidance, our 
direction is to maintain the wilderness characteristics until 
sometime Congress will act. The challenge is that sometimes we 
make these recommendations and it is years before Congress has 
the opportunity to consider these areas. Over any period of 
time things can change on the landscape and there is more and 
more pressure either for motorized recreation, for 
snowmobiling, or for mountain biking. It becomes a more 
difficult job and more of a challenge for Congress if we do not 
do what we can to really stop any growth in those noncompatible 
uses of a proposed wilderness area. I think by aggressively 
limiting noncompatible use it helps. It helps not only assure 
that we are maintaining the wilderness characteristics, but 
that we are able to provide you the opportunity, the decision 
space.
    I also appreciate Mr. Simpson's comments about the benefit 
of Congress acting. I think that if we could address these 
recommended wilderness areas in a more timely fashion, I think 
there would be less concern about wilderness as a whole. It 
leaves us with an unknown, especially for the communities and 
the concerns around the area and so they are just never sure. 
By Congress taking action to address these recommendations, it 
brings some certainty to the issue. It also would help with our 
management. So I appreciate your comment, Mr. Simpson, and Mr. 
Hinchey.
    Mr. Simpson. Would the gentleman yield for just one moment?
    Mr. Hinchey. Yes.

                PROPOSED WILDERNESS: AGENCY DIFFERENCES

    Mr. Simpson. Are the requirements different--as I 
understand it, the requirements are different for the Forest 
Service than the BLM in recommended wilderness areas? The BLM 
has to maintain it essentially as if it were wilderness so if 
there is recreation use there, it has to be taken out. They 
essentially have to treat it more strictly than the requirement 
of the Forest Service by the statutes we put in. You have to 
maintain the characteristics, you cannot degrade the 
characteristics that would make it wilderness. So if there is 
recreation going on there now, it can be maintained. Is that 
accurate?
    Mr. Tidwell. I have to get back with you on that. It has 
been my experience with many of the areas in the BLM lands, 
they are Wilderness Study Areas. There is action by Congress 
that actually establishes the type of use that can occur on a 
designated Wilderness Study Area until some time in the future, 
so I would have to get back to you on that.
    Our policy is to maintain those wilderness characteristics 
that justify the area to be recommended. I do feel that we need 
to consider the current uses that are in the area. We need to 
factor that into our recommendations. Then we should do what we 
can to limit the growth expansion of these noncompatible uses 
until Congress has an opportunity to address our 
recommendation.
    [The agency provided the following additional information:]

               Treatment of Recommended Wilderness Areas

    The Forest Service has planning direction that: ``A roadless area 
being evaluated and ultimately recommended for wilderness or wilderness 
study is not available for any use or activity that may reduce the 
area's wilderness potential. Activities currently permitted may 
continue, pending designation, if the activities do not compromise 
wilderness values of the roadless area.'' (Forest Service Manual 
1923.08.2)
    We are in the process of responding to a request we have received 
from members of the House of Representatives to issue national guidance 
on the management of agency-recommended wilderness. The request is 
timely as we are in the process of reviewing the policy for recommended 
wilderness areas. All land management and policy decisions will 
incorporate extensive public involvement. We will continue to work with 
members of Congress as the process moves forward.

              Bureau of Land Management Wilderness Policy

    The Department of Interior has asked that the Committee contact 
their agency for the details of BLM management of recommended 
wilderness.

    Mr. Simpson. I agree with you.
    Mr. Tidwell. I think that is a better way. But every place 
is different, and that is the value of our forest planning 
process that we can factor in the local concerns of the 
communities within those areas. I think that is one of our 
strengths. I think there is some benefit to having some 
flexibility in the system to be able to address local concerns.
    Mr. Hinchey. There are a lot of organizations and a lot of 
groups that are very supportive of this wilderness designation 
for these areas, the 3 million, and I understand now that the 
International Mountain Biking Association has come out strongly 
in favor of this. Have you heard that?
    Mr. Tidwell. You know, I have not heard that. I have met 
with the mountain biking organizations over the years and have 
had a lot of good discussions with them about wilderness 
recommendations and also to understand their concerns about 
loss of opportunity for riding too, so we continue to work 
closely with them.

              LAND MANAGEMENT PLAN RECOMMENDED WILDERNESS

    Mr. Hinchey. Well, there are a number of bills here in the 
Congress to try to achieve these designations. A number of them 
are pending now and we are hoping that they will get passed 
because this is something that really, really needs to be done. 
I appreciate your interest in it and my assumption is that you 
are going to continue to be devoted to this and to try to do 
everything you can in the meantime to make sure that there is 
no erosion of these specific areas so that they maintain the 
ability to be designated in this way.
    Mr. Tidwell. We are going to carry out our responsibility 
to maintain these wilderness characteristics until Congress has 
an opportunity to act.
    Mr. Hinchey. Thanks very much.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.

               FEDERAL LANDS RECREATION ENHANCEMENT FUND

    Just one area that sort of caught my eye, and maybe you can 
educate me on it a little bit. In the President's proposed 
budget on the Federal Lands Enhancement Fund, there is a pretty 
substantial reduction. I think you proposed $67 million and 
that is a decrease of 32.2, so about a third. Is that because 
things are where you want them to be? I know in some of these 
areas you have the ability to charge fees and you may have 
other income coming in now, but why that big a reduction and 
what will be the impact of that again on users, visitors to the 
Forest Service system?
    Mr. Tidwell. Well, the Federal Lands Recreation Enhancement 
Act allowed us to retain fees that we collected, and this 
program, it has really made a difference in areas where we have 
been able to maintain facilities----
    Mr. Cole. I just have to interrupt for a second for Mr. 
Simpson's benefit. That was actually passed under the previous 
Administration in 2005. I knew you would want to know.
    Mr. Dicks. I thought we did this before that when Mr. 
Regula was chairman, we are thrilled they did something about 
it.
    Mr. Cole. I am sorry.
    Mr. Tidwell. This authority has been very helpful for us to 
maintain some key recreational facilities and also to upgrade 
to ensure that we can provide for public safety and health on 
these, primarily in higher use areas. I know that there is 
controversy with fees.
    Mr. Cole. I am a big proponent. I mean, I really do believe 
in user fees in a variety of areas, and I am delighted to see 
you doing it, and if you have been able to reduce the demands 
on the Treasury and still maintain where you wanted to go 
because you are using fees, I think that is a good thing, not a 
bad thing. I am just curious if maybe the fee structure had 
helped you to be able to pull back a little bit on what you 
normally need because there is another source of income or if, 
again, there was just some other reason.
    Mr. Dicks. Would you yield?
    Mr. Cole. I will certainly yield.
    Mr. Dicks. We do not understand, are the fees going down? I 
mean, why would that be?
    Mr. Tidwell. This is what our request is, is the budget 
authority to be able to use what we have collected.
    Mr. Dicks. Okay.
    Mr. Simpson. Let me just ask along that same line----
    Mr. Dicks. So you actually are going to collect more than 
the $67 million?
    Mr. Tidwell. We may.
    Mr. Dicks. So what happens? Does the rest of the money go 
to the Treasury?
    Mr. Tidwell. No, it is my understanding that we can then 
request that.
    Mr. Dicks. So it goes into a fund?
    Mr. Tidwell. A fund.

               PROPOSED REDUCTION ON CAMPGROUND DISCOUNT

    Mr. Simpson. Let me ask along the same line if I could, 
because we are hearing quite a few comments, as you might well 
imagine, regarding proposed reduction or elimination in the 
deduction that seniors and disabled people get for use of these 
fees. Are you proposing that, and if so, why?
    Mr. Tidwell. We did propose changing the amount of 
discounts available to seniors in our concessionaire-operated 
campgrounds. We also, as part of that proposal, looked at 
changing some of the discounts through the passes. We did that 
to look at a way to maybe provide a little more consistency and 
also for the concessionaire operators to collect more funds to 
be able to put back into the facilities. We put that out there 
and the comment period closed a few weeks ago, and I can tell 
you that by far the majority of the comments were not 
supportive of that.
    Mr. Simpson. I can imagine that.
    Mr. Tidwell. And we have not released the decision yet but 
I am pretty sure we are going to be looking at some other 
options.
    Mr. Simpson. I appreciate that, because my phone has been 
busy, I know, in all of my district offices.
    Mr. Tidwell. Well, I think it is part of the process. We 
put out a proposal, we get a lot of good feedback and we are 
listening.
    Mr. Simpson. Appreciate it. Thank you.

               FEDERAL LANDS RECREATION ENHANCEMENT FUND

    Mr. Cole. Reclaiming my time quickly. Just to make sure I 
understand, because I may not have understood correctly, is the 
$67 million the amount of money you expect to come in through 
fee activities so you expect that to be down by a third or is 
that the amount of money that you are requesting that, you 
know, because you have fees, you do not need as much directly 
from the Treasury?
    Mr. Tidwell. It is what we expect, at this time, to 
collect.
    Mr. Cole. Tell me why you expect that big a reduction. 
Again, that is an awfully dramatic decline.
    Mr. Tidwell. The reason for the decline is that what we 
requested and received in 2010. That reflected funds that had 
been collected over the previous years and so we had that on 
the books. We requested that additional authority. Now we are 
moving forward with what we feel will expect to collect. I 
mean, we will not request more than we expect to collect. So in 
the future like potentially in 2012, we might be able to ask 
for more.
    Mr. Cole. So would this reflect a decreased usage or was it 
because we had built up a surplus in the system and you 
basically had used that surplus and now you are returning to a 
pay as you go sort of program?
    Mr. Tidwell. It is a reflection of not so much a surplus. 
We collected more in the past than what we requested to spend, 
so then we kind of caught up this year. We are catching up. And 
so we will kind of have to see where we are in 2011.
    Mr. Dicks. Do you have a surplus of funds? You have $99 
million in 2010, $102 million in 2009, and then all of a sudden 
it drops to $67 million. Is that lack of income coming in or is 
it just a limitation on expenditures of the money that is 
available? And if so, what is the overage? I mean, how much is 
still there?
    Mr. Tidwell. We request what we feel is available and what 
we can use this year. Next year, based on collections, if there 
are additional funds there, we will be requesting additional 
authority to use those. It is one of the things we have to 
factor in, everything that is going on and give our best 
estimate about the level of collections. This money is very 
beneficial, and I think we have done a good job to be able to 
show where we have made a difference to be able to improve 
sites, especially for public health and safety, and really make 
a difference.
    Mr. Dicks. This originated here in this committee. Mr. 
Regula, when he was chairman, was the person who created this, 
and then in 2005, we made it permanent law. We did what in 
essence had to be done to make it permanent. So we are strongly 
committed to this.
    Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    Well, again, just to educate me, the income levels are 
obviously dramatically different from last year. Do you expect 
usage to be down or do you expect it to be comparable? Have we 
changed the structure? That is just a big number for a drop, 
and I cannot quite get my head around why. I am all for you 
keeping the money and I think it is a great idea and using it 
in ways to enhance the forest, so that is terrific.
    Mr. Tidwell. Our request is just based on what we feel that 
we will collect. In the past we have been able to request more 
because we had kind of a buildup over the years and we kind of 
caught up to that. I do not have any information that indicates 
that recreational use is going to go down. In fact, some 
indicators would show that folks are going to want to stay 
closer to home, so we may actually see an increase.
    Mr. Cole. That is certainly what we have seen in our state 
parks in Oklahoma. As times get tough, people do not go as far.
    Mr. Dicks. This is not on budget. This is off budget. So I 
do not think you even need the authority. If you got more 
money, you could not spend it, I believe. I want them to do the 
projects on the forest that keep the forest in good shape.
    Mr. Tidwell. The permanent funds are not part of our budget 
request. We are requesting the authority to be able to spend 
that, to be transparent, to let you know what we are doing.
    Mr. Cole. That is great.
    Mr. Dicks. Well, I am still interested to know whether we 
are going to collect more than $67 million in 2011.
    Mr. Tidwell. That is what we estimate.
    Mr. Dicks. It is an estimate. Was $99 million in 2010 an 
estimate too?
    Mr. Tidwell. No, the estimate was more based on the 67 but 
we were able to use other funds that had been collected in the 
past.
    Mr. Dicks. But is there a surplus in this account?
    Mr. Tidwell. Not that I am aware of, and if we collect 
more, we will be requesting the authority to spend more because 
there is an ongoing need.
    Mr. Dicks. Give us a record, a clear history here, if you 
would. How much is this--where did this $67 million come from? 
Are there carryover funds that have not been expended yet, and 
what is your plan? Where are you going to spend this money? Do 
you have a rule where any percent of it has to stay in the 
forest where it is collected?
    Mr. Tidwell. Yes, 80 percent is returned right back to the 
site where it is collected.
[GRAPHIC] [TIFF OMITTED] T6647A.190

    Mr. Dicks. Let me just give you a little bit of a warning 
here. The committee in the past where there has been excess 
funds with the Park Service has taken those funds and used them 
for other things, so I suggest you ought to keep the program 
moving forward.
    Mr. Tidwell. We will. Well, there is a----
    Mr. Dicks. Not all of it, just a little bit. Some of the 
parks had huge backlogs and these are the mega parks. They had 
huge numbers.
    Mr. Tidwell. We will stay on top of this.
    Mr. Cole. I was going to say, Chairman, since we are 
finding this new money, can we like reopen trails and roads in 
southeast Oklahoma?

                         STATE FIRE ASSISTANCE

    Mr. Dicks. That could be used for that.
    Let me go on to a couple other quick things. State fire and 
forestry assistance, now, this is one that just is really hard 
for me to accept. We have been hearing from state foresters 
that this budget request has some alarming cuts to state and 
private forestry, and in particular cuts to state fire 
assistance. Can you explain this? I mean, is this OMB driven? I 
hope it is. To what extent is the state and private forestry 
mission important to the Service? It seems to me on something 
like this, this is where we have to work together, and for us 
to cut off the funding when the states are in terrible 
financial condition is just hard for me to fathom.
    Mr. Tidwell. Mr. Chairman, our overall request for our 
state and private programs has an increase but there is a 
reduction in state fire assistance.
    Mr. Dicks. This is the most important program. Why would we 
do that?
    Mr. Tidwell. Well, we look at it, the way to provide that 
assistance to the states, we can provide that through a 
combination of programs. One of those programs is actually 
through hazardous fuels in forest health funds that we provide 
to the states. Funds used to factor in where we need to be 
reducing the threat, changing the conditions so our suppression 
actions are more effective. Our states are key partners. In 
fact, our states are more than a partner for us. It is 
essential when it comes to wildland fire that we work together, 
all the agencies work together with the states and local fire 
to be able to have this coordinated response.
    Mr. Dicks. So what is the state fire assistance used for?
    Mr. Tidwell. It is funds that are given to the states and 
they used to provide the support and equipment for wildland 
fire with local communities and also through the states. It is 
a very important fund. What we are able to accomplish through 
that is very essential work. I can also use that for some 
planning to help address the situation, I mean just with the 
concern with wildland fire.
    Mr. Dicks. Do you think $50 million is enough?
    Mr. Tidwell. I think we have to look at our total budget 
request and look at all the programs together, and I feel that 
this is a good mix for our overall program. On any one piece of 
it, there may be one of the budget line items that is reduced 
and another that is increased. I think we have to look at the 
entire budget request, in total, and look at the mix of 
everything that we can provide. I do feel this is an adequate 
level of funding.

                        STATE FOREST ASSESSMENTS

    Mr. Dicks. The last Farm Bill required all states to 
conduct a statewide forest assessment if they wanted to 
continue to receive federal forest assistance. These plans will 
be done this year. How do these plans look to you?
    Mr. Tidwell. The couple that I have been able to look at 
are doing exactly what we were hoping for. The states were able 
to take a look at all the lands across their states and be able 
to establish priorities where they want to use the state and 
private program authorities. I think this helps us to really 
prioritize where we need to do the work, where we can really 
make a difference on the landscape. It will help us with our 
all-lands approach to conservation. It is something I think 
that we are on track for every state to have those completed by 
the due date. One of the things I hear from the states is that 
they want to make sure that we use this information. One of the 
ways we want to use this information is when we establish our 
priorities for funding under our Priority Watershed Initiative 
and Jobs Stabilization. We want to use the information from the 
statewide assessments to help inform which projects are the 
best projects if we are taking an all-lands approach to this, 
the assessments are going to be a really key part. It will be 
my intent, my expectation, that we will be able to come back to 
you. To be able to demonstrate, by using the statewide 
assessments, that we are being more effective with the funding 
that you provide in our state and private programs. That we are 
using these funds to help address the concerns about all 
forestlands, not just the national forest system lands. So I am 
very optimistic. I can tell you in my discussions with our 
state foresters that it was a task for them to get the work 
completed but they are on board and they are seeing the value 
of these statewide assessments.
    Mr. Dicks. On your fixed costs, are you covering your fixed 
costs in the budget or are you absorbing it in the various 
programs, increases for cost of living and things of that 
nature?
    Mr. Tidwell. We have that covered in our budget request.
    Mr. Dicks. You have covered it?
    Mr. Tidwell. We have covered that.

                     FOREST AND RANGELAND RESEARCH

    Mr. Dicks. Okay. That is good. Do you have any concerns on 
the research program? I want to go back to that. Can you do the 
kind of research that is necessary with all these issues we 
have heard about today with the budget you have?
    Mr. Tidwell. Mr. Chairman, I feel that our budget request 
is an adequate level for our research and development. You 
know, our scientists just do an outstanding job. We have to 
look at our request along with everything else and find the 
balance between the research that we need, not only to address 
the problems that we face today but also to address the 
problems we are going to face 10, 20 years from now. The record 
of our research scientists is outstanding. The idea that 20 
years ago, maybe 25 or 30 years ago our scientists had the 
foresight to be thinking about the effects of climate change on 
vegetation. Today we are in a position to be able to apply that 
science to really guide our management. I think that is one of 
the examples of the incredible work that our research 
scientists do. So I think this budget----
    Mr. Dicks. So what are you seeing out there on climate 
change?
    Mr. Tidwell. What we are seeing on climate change is an 
increase in the frequency of disturbance events. And depending 
where you are in the country, increases in temperature 
fluctuations and precipitation. These are things that we have 
to factor in to our decisions. Our research scientists, they do 
a very good job of working with our managers so we can apply 
that science on the landscape. When we are designing projects, 
we can factor in the effects projects may have on greenhouse 
gases. We also can factor in the effects of a warmer climate 
on, for instance, what type of species mix should we use in our 
restoration work. Should we consider a different tree species 
on this site for reforestation based on what is occurring with 
the changing climate? I think we are in a good position to be 
able to use the science to adapt our management to increase the 
resistance and resiliency of these ecosystems. It is essential 
that we continue to do the research not only around climate 
change but also as we mentioned earlier with the invasives 
issue.

                       ENERGY FROM FOREST BIOMASS

    Mr. Dicks. What about biomass? How are you addressing that? 
That is an important issue and something we are concerned 
about. We think this is an area of potential for the Forest 
Service and for the Department of Energy and other agencies, 
Interior. What is your thinking on that?
    Mr. Tidwell. Our budget request includes an increase in our 
biomass response and we are looking at it not only with the 
research part of biomass but also to use some of our state and 
private funds to be able to provide more grants. We are working 
with the Department of Energy and with other USDA agencies to 
increase the opportunities for biomass utilization. I agree 
with you that I feel it is an area that is essential for us to 
find ways to be able to use the material that needs to be 
removed through our restoration efforts. We have the option of 
piling it up and burning it or finding use for it to be able to 
create energy or other use from this biomass.
    Mr. Dicks. And it can be done in a way that does not add to 
CO<INF>2</INF> emissions. Is that not correct? I mean, there 
are systems that----
    Mr. Tidwell. Yes. The technology is advancing as we speak. 
We have examples of systems whether it is the small operation 
that heats a school to larger facilities. The technology is 
improving so there are very low emissions, and it is definitely 
one of the management options. When I talk about the material 
that we need to find a use for, it is not the saw log material, 
there is a higher use for that. It is the smaller diameter 
residual material, the brush, the small trees that we need to 
remove for a variety of reasons, and we need to find a way that 
it is economically viable to be able to haul it out of the 
woods or at least----

              TRANSPORTATION COSTS AND BIOMASS UTILIZATION

    Mr. Dicks. They tell me we are doing that in Washington 
State, that you can only go so far out because then the 
trucking costs are getting it back to the place where you are 
going to--unless you were processing it out in the woods 
somehow.
    Mr. Tidwell. That is some of the work that we want to 
continue to do. We are exploring the opportunity for smaller 
facilities that can be moved from location to location. There 
is also, I think, an opportunity to create ethanol and to be 
able to have facilities, that are potentially smaller 
facilities, so that we can address the transportation costs. 
Transportation cost is one of the biggest challenges we have.
    Mr. Dicks. That is the problem. That is the issue.
    Mr. Tidwell. We are increasing our efforts to find ways to 
utilize biomass and it is one of the things included in our 
budget request, and I hope we will have your support for that.
    Mr. Dicks. I am very interested. I think it can make a 
major contribution.
    Any other questions? Members have 3 days to submit 
questions for the record, and thank you, Chief, good job, and 
we look forward to working with you.
    Mr. Tidwell. Mr. Chairman, I want to thank you not only for 
today's hearing but I too want to thank you for all your 
support that you have shown the Forest Service being the chair 
for this subcommittee. We look forward to continuing to be able 
to work with you as a member of the subcommittee. I just want 
to personally thank you for not only your support, but the time 
that you have taken to learn about our issues, to be able to 
take the time to go out on the ground and work with our forest 
supervisors. That is important, and we appreciate it.
    Mr. Dicks. Thank you. 

    [GRAPHIC] [TIFF OMITTED] T6647A.191
    
    [GRAPHIC] [TIFF OMITTED] T6647A.192
    
    [GRAPHIC] [TIFF OMITTED] T6647A.193
    
    [GRAPHIC] [TIFF OMITTED] T6647A.194
    
    [GRAPHIC] [TIFF OMITTED] T6647A.195
    
    [GRAPHIC] [TIFF OMITTED] T6647A.196
    
    [GRAPHIC] [TIFF OMITTED] T6647A.197
    
    [GRAPHIC] [TIFF OMITTED] T6647A.198
    
    [GRAPHIC] [TIFF OMITTED] T6647A.199
    
    [GRAPHIC] [TIFF OMITTED] T6647A.200
    
    [GRAPHIC] [TIFF OMITTED] T6647A.201
    
    [GRAPHIC] [TIFF OMITTED] T6647A.202
    
    [GRAPHIC] [TIFF OMITTED] T6647A.203
    
    [GRAPHIC] [TIFF OMITTED] T6647A.204
    
    [GRAPHIC] [TIFF OMITTED] T6647A.205
    
    [GRAPHIC] [TIFF OMITTED] T6647A.206
    
    [GRAPHIC] [TIFF OMITTED] T6647A.207
    
    [GRAPHIC] [TIFF OMITTED] T6647A.208
    
    [GRAPHIC] [TIFF OMITTED] T6647A.209
    
    [GRAPHIC] [TIFF OMITTED] T6647A.210
    
    [GRAPHIC] [TIFF OMITTED] T6647A.211
    
    [GRAPHIC] [TIFF OMITTED] T6647A.212
    
    [GRAPHIC] [TIFF OMITTED] T6647A.213
    
    [GRAPHIC] [TIFF OMITTED] T6647A.214
    
    [GRAPHIC] [TIFF OMITTED] T6647A.215
    
    [GRAPHIC] [TIFF OMITTED] T6647A.216
    
    [GRAPHIC] [TIFF OMITTED] T6647A.217
    
    [GRAPHIC] [TIFF OMITTED] T6647A.218
    
    [GRAPHIC] [TIFF OMITTED] T6647A.219
    
    [GRAPHIC] [TIFF OMITTED] T6647A.220
    
    [GRAPHIC] [TIFF OMITTED] T6647A.221
    
    [GRAPHIC] [TIFF OMITTED] T6647A.222
    
    [GRAPHIC] [TIFF OMITTED] T6647A.223
    
    [GRAPHIC] [TIFF OMITTED] T6647A.224
    
    [GRAPHIC] [TIFF OMITTED] T6647A.225
    
    [GRAPHIC] [TIFF OMITTED] T6647A.226
    
    [GRAPHIC] [TIFF OMITTED] T6647A.227
    
    [GRAPHIC] [TIFF OMITTED] T6647A.228
    
    [GRAPHIC] [TIFF OMITTED] T6647A.229
    
    [GRAPHIC] [TIFF OMITTED] T6647A.230
    
    [GRAPHIC] [TIFF OMITTED] T6647A.231
    
    [GRAPHIC] [TIFF OMITTED] T6647A.232
    
    [GRAPHIC] [TIFF OMITTED] T6647A.233
    
    [GRAPHIC] [TIFF OMITTED] T6647A.234
    
    [GRAPHIC] [TIFF OMITTED] T6647A.235
    
    [GRAPHIC] [TIFF OMITTED] T6647A.236
    
    [GRAPHIC] [TIFF OMITTED] T6647A.237
    
    [GRAPHIC] [TIFF OMITTED] T6647A.238
    
    [GRAPHIC] [TIFF OMITTED] T6647A.239
    
    [GRAPHIC] [TIFF OMITTED] T6647A.240
    
    [GRAPHIC] [TIFF OMITTED] T6647A.241
    
    [GRAPHIC] [TIFF OMITTED] T6647A.242
    
    [GRAPHIC] [TIFF OMITTED] T6647A.243
    
    [GRAPHIC] [TIFF OMITTED] T6647A.244
    
    [GRAPHIC] [TIFF OMITTED] T6647A.245
    
    [GRAPHIC] [TIFF OMITTED] T6647A.246
    
    [GRAPHIC] [TIFF OMITTED] T6647A.247
    
    [GRAPHIC] [TIFF OMITTED] T6647A.248
    
    [GRAPHIC] [TIFF OMITTED] T6647A.249
    
    [GRAPHIC] [TIFF OMITTED] T6647A.250
    
    [GRAPHIC] [TIFF OMITTED] T6647A.251
    
    [GRAPHIC] [TIFF OMITTED] T6647A.252
    
    [GRAPHIC] [TIFF OMITTED] T6647A.253
    
    [GRAPHIC] [TIFF OMITTED] T6647A.254
    
    [GRAPHIC] [TIFF OMITTED] T6647A.255
    
    [GRAPHIC] [TIFF OMITTED] T6647A.256
    
    [GRAPHIC] [TIFF OMITTED] T6647A.257
    
    [GRAPHIC] [TIFF OMITTED] T6647A.258
    
    [GRAPHIC] [TIFF OMITTED] T6647A.259
    
    [GRAPHIC] [TIFF OMITTED] T6647A.260
    
    [GRAPHIC] [TIFF OMITTED] T6647A.261
    
    [GRAPHIC] [TIFF OMITTED] T6647A.262
    
    [GRAPHIC] [TIFF OMITTED] T6647A.263
    
    [GRAPHIC] [TIFF OMITTED] T6647A.264
    
    [GRAPHIC] [TIFF OMITTED] T6647A.265
    
    [GRAPHIC] [TIFF OMITTED] T6647A.266
    
    [GRAPHIC] [TIFF OMITTED] T6647A.267
    
                                         Wednesday, March 10, 2010.

 SCIENCE FOR AMERICA'S LANDS, WATER AND BIOTA; U.S. GEOLOGICAL SURVEY 
                          2011 BUDGET REQUEST

                               WITNESSES

MARCIA K. McNUTT, DIRECTOR, U.S. GEOLOGICAL SURVEY
SUZETTE M. KIMBALL, DEPUTY DIRECTOR, U.S. GEOLOGICAL SURVEY
CARLA M. BURZYK, DIRECTOR, U.S. GEOLOGICAL SURVEY OFFICE OF BUDGET AND 
    PERFORMANCE
MATTHEW C. LARSEN, ASSOCIATE DIRECTOR FOR WATER, U.S. GEOLOGICAL SURVEY
BRENDA S. PIERCE, ACTING CHIEF SCIENTIST FOR GEOLOGY U.S. GEOLOGICAL 
    SURVEY
SUSAN D. HASELTINE, ASSOCIATE DIRECTOR FOR BIOLOGY, U.S. GEOLOGICAL 
    SURVEY
WILLIAM H. WERKHEISER, EASTERN REGIONAL DIRECTOR, U.S. GEOLOGICAL 
    SURVEY
DAVID APPLEGATE, SENIOR SCIENCE ADVISOR FOR EARTHQUAKES AND GEOLOGICAL 
    HAZARDS, U.S. GEOLOGICAL SURVEY

                   Opening Statement: Chairman Moran

    Mr. Moran. The US Geological Survey actually has a very 
strong request, over $1 billion, and given the fact that there 
has been a freeze across all domestic discretionary programs, 
the relatively modest increase is nevertheless significant and 
shows a substantial level of support on the part of the 
Administration and I know the American people. There are a few 
targeted reductions, and all of the fixed costs, over $13 
million, have to be absorbed, and I know that is going to be a 
substantial challenge for you.
    I think we are going to want to talk about climate change 
science, the WaterSMART program, and endocrine disruptors, but 
the first thing we want to mention is that this is the very 
first budget hearing for our new Director, Dr. Marcia McNutt, a 
highly esteemed scientist, the first woman director in the 131-
year history of the USGS. 131 years, that is a long time. Took 
them a long time to figure it out, did it not?
    The USGS is the Nation's leading natural science agency, 
conducts fundamental and applied scientific research in 
monitoring in a wide array of fields. Besides its famous 
geology expertise, it also has major responsibilities for the 
National Map, the National Streamflow Information Program, 
water quality and quantity investigations, on-shore fossil 
energy and mineral resource inventories, wildlife, fish, plant 
science and conservation and many, many other things. This 
bureau has a great history of accomplishment. It goes all the 
way back to the land classification work of John Wesley Powell 
in 1878, and then the Congress established it in 1879. We do 
need an active, engaged and competent assembly of scientists to 
ensure that the Federal Land Management agencies make 
responsible policy decisions as stewards of our public lands 
and water.
    So it is critical and even more critical as our Nation 
grows in population and in challenges and as we confront the 
effects of climate change.
    I am going to offer another moment of Zen. This is your 
moment of Zen, Mr. Simpson, if you want to focus on this----
    Mr. Simpson. I thought that was a moment to contemplate and 
think?
    Mr. Moran. You can do that----
    Mr. Simpson. Oh.
    Mr. Moran [continuing]. As I share with you another quote 
from John Muir.
    Mr. Simpson. Oh, good. Let's all put our hands together 
and----
    Mr. Moran. We are not going to sing Kumbaya, but you are 
going to listen to this quote now. Follow this now. ``Nature is 
ever at work building and pulling down, creating and 
destroying, keeping everything whirling and flowing, allowing 
no rest but in rhythmical motion, chasing everything in endless 
song out of one beautiful form into another.''
    Now that we have been edified, we are going to go into the 
specifics of the budget request. I want to mention the 
noteworthy increases. An $11 million increase to climate change 
science, including an $8 million increase for the National 
Climate Change and Wildlife Science Center. This is something 
that Mr. Dicks has championed in the past. A $9 million 
increase for the WaterSMART Initiative to develop a sustainable 
water strategy, although in order to do that, other water 
resource science activities have been cut by $3.5 million. 
There is an increase of $3.3 million for natural hazards 
research on earthquakes and volcanoes. An increase of $8 
million for program support and continued development of the 
next Landsat satellite ground system for remote sensing. There 
is a small funding increase for ecosystem science on the 
Chesapeake Bay in fulfillment of the executive order. And I 
think one thing we are going to get into as we should in each 
of our hearings is the collaboration, cooperation among 
relevant agencies. USGS does get funds through the EPA to 
conduct important scientific investigations, particularly as 
part of the Great Lakes Restoration Initiative.
    Mr. Moran. So with that, let me turn to the Ranking Member, 
Mr. Simpson, for your remarks.
    Mr. Simpson. Ohm.
    Mr. Moran. That is okay.

                     Opening Statement: Mr. Simpson

    Mr. Simpson. I am just kidding. You had a beautiful quote. 
Good morning, Director, and thank you for joining us today. I 
always look forward to discussions with USGS because it is one 
of the few agencies in our bill where we are able to divorce 
ourselves from regulatory policy and focus on the underlying 
science.
    It seems that today more than ever as this country is 
embroiled in a heightened debate over ways in which we use and 
conserve our natural resources and as we debate the question of 
how much is sustainable, we need science agencies not only to 
find the answers, and I, this is critical, believe we need to 
clearly communicate the answers to the public. The science is 
never settled until the people understand the science.
    The fiscal year 2011 budget request for the USGS is $1.1 
billion which is $21.6 million or 1.9 percent above the 2010 
enacted level. Those numbers belie the fact that the USGS is 
forced to claim $11.7 million in management efficiencies that 
do not yet exist in addition to absorbing $13.5 million in 
fixed costs. Given the strength and clarity of your strategic 
plan, I have little doubt that you could have found smarter 
ways to make those cuts if you had been given the opportunity.
    As this week is National Groundwater Awareness Week, I am 
pleased to see the increased emphasis in the budget on 
groundwater. And being from a western state, I fully subscribe 
to the notion that water is the new gold. That is why I am 
particularly interested in better understanding the rationale 
for some of the increases and decreases in this budget for the 
various water programs, particularly those that emphasize 
partnerships with the states. I do not understand how the USGS 
can have a water initiative when total funding for water 
programs was cut by nearly $3.5 million.
    Another area of the budget that puzzles me is the rapid 
increase in climate change funding. I have seen firsthand the 
impacts of a changing climate in my state, and I do not dispute 
that changes are occurring. What bothers me is what I see as a 
rush to throw money at the problem without a clear 
understanding of what we do not know, why we do not know it, 
what we need to know, and how we intend to find out. Very 
little information has been presented to this Subcommittee as 
to what we have learned with the funds we have invested in 2008 
and 2009. I am hoping that you can shed some light on that 
today.
    Finally, I am interested in hearing today about the $13.4 
million increase for the Landsat Data Continuity Mission and 
with coupled with a corresponding decrease of $3.5 million for 
the National Map, how the fiscal year 2011 geography budget 
proposal gets the USGS closer to achieving its goals.
    I look forward to hearing your testimony this morning and 
working with you on the fiscal year 2011 budget. Thank you.
    Mr. Moran. Thanks very much, Mr. Simpson. Now perhaps we 
can hear from Dr. McNutt, and we will go to questions.

                        Testimony of Dr. McNutt

    Dr. McNutt. Wonderful. Good morning, everyone. It is a 
pleasure to be here this morning, and I want to congratulate 
Chairman Moran on his official appointment to head this 
Subcommittee, and I want to thank Mr. Dicks for his service. We 
certainly enjoyed your leadership, and we know that the 
Subcommittee for Armed Services is certainly going to be 
blessed to have your leadership just as we have in the past few 
years.

                  INTRODUCTION OF USGS MANAGEMENT TEAM

    I am ably assisted this morning by other leaders of the 
USGS. On my right is my Deputy Director, Suzette Kimball, and I 
know that you have met Suzette who was the Acting Director for 
the USGS. On my left is Carla Burzyk who is our Director for 
the Office of Budget and Performance. Also in the room with me 
we have Dr. Matt Larsen who is the Associate Director for 
Water, and my Eastern Regional Director is Bill Werkheiser. 
Then we have the Acting Associate Director for Geology, Linda 
Gundersen, who is in the second row there, and Dr. Bryant 
Cramer, who is the Associate Director for Geography, next to 
Linda. Also in the next row is Kevin Gallagher, who is the 
Associate Director for Geospatial Information, and then Dr. Sue 
Haseltine who is the Associate Director for Biology. And we 
have Karen Baker, the Associate Director for Administrative 
Policy and Services and also Kaye Cook, the Acting Associate 
Director for Human Capital. I think I got everyone then.

                            BUDGET OVERVIEW

    First of all, I want to thank you, Mr. Chairman, all the 
members of the Subcommittee, and everyone here for the 
unwavering support and energy in maintaining and also enhancing 
USGS programs under your guidance.
    When I was confirmed last November, I knew that the USGS 
was an organization that was held in high esteem by the staff, 
the constituents and most of all, by the members of this 
Subcommittee. Yours and Mr. Dicks' interest has manifested 
itself in many positive and exciting ways. I look forward to 
working with you in the years ahead as together we apply the 
talents of the USGS, which is the Nation's only integrated 
natural science agency, to find scientifically defensible 
solutions to the challenges that lie at the nexus between 
water, energy and climate, while bequeathing an environment to 
our children and grandchildren that is healthy and sustainable.
    On behalf of the women and men of the USGS, I am proud and 
humbled to appear before you today to testify in support of the 
Administration's 2011 budget.
    Our budget reflects Secretary Salazar's commitment to 
science as the first consideration and a cornerstone for 
natural resource decisions and policy guidance. A very vivid 
example of an application of USGS science to help reduce the 
vulnerability of populations that are increasingly at risk from 
acts of nature is illustrated by the two recent earthquakes in 
Haiti and Chile.
    After correcting for the differences in magnitude and 
location of those two earthquakes, a citizen of Chile exposed 
to this same level of ground shaking, was 400 times more likely 
to survive than a resident of Port-au-Prince subjected to the 
same level of shaking. And the difference in survival rate for 
those two citizens was thanks to decades of risk reduction in 
Chile built on a foundation of earthquake hazard assessment 
that was pioneered at the USGS.
    The science methods and standards were shared with our 
South American friends through partnerships and capacity 
building. The USGS has provided substantial information and 
technical support in the aftermath of both disasters and will 
bring home important lessons to better prepare us here at home 
when such a calamity strikes any of the 39 states that are our 
own ``earthquake country''.
    The 2011 budget for the USGS follows our Science Strategy 
by prioritizing research that will keep Americans safe from 
natural hazards, secure our supply of natural resources such as 
water, minerals, fossil fuels and also protect our ecosystems. 
Of course, a few difficult decisions had to be made so that 
high priority programs could thrive. We identified potential 
savings through management efficiencies and programmatic 
reductions, which were, of course, very difficult choices.
    In summary, the 2011 budget request for the USGS is $1.1 
billion which is an increase of $21.6 million from the 2010 
enacted level. Programmatic increases in the budget total about 
$52 million. Each increase is well aligned with the science 
priorities defined by the USGS Science Strategy.

                       ENERGY FRONTIER INITIATIVE

    I will go through what those increases are now. The New 
Energy Frontier Initiative is $3 million, and that $3 million 
meets and matches the $3 million that this Committee 
appropriated last year to seed a program in alternative energy 
in the USGS. We will expand existing efforts on the impacts of 
wind development on ecosystems. We will study the causes and 
identify solutions that will minimize risk and the ecological 
impacts of projected large-scale development of wind farms. 
Pilot projects in the Great Plains and off-shore Cape Cod will 
provide data and methodologies that can be applied nationwide.

                       CLIMATE IMPACTS INITIATIVE

    You mentioned the Climate Impacts Initiative, which is $11 
million. We believe there is a critical need to adapt 
management approaches to changes on the landscape, and that we 
believe is the niche for the USGS, not in climate modeling. We 
believe that is the purview of other agencies, but rather 
taking those projections of what climate is going to do and 
say, what are the impacts actually where people live, in the 
land, in the ecosystems. The USGS will support accelerated 
assessment of biological carbon sequestration, and we will 
create and staff two new DOI Climate Science Centers to enrich 
the science with new funding for that aspect of the National 
Climate Change and Wildlife Science Centers which Mr. Dicks, of 
course, has supported, adding to the three Climate Science 
Centers that will be established in 2010. We will also develop 
decision support tools to enable resource managers and 
policymakers to adapt to a changing climate, and that is what 
they are asking for help in. They are having to make decisions 
right now on the landscape, and they need to know what are the 
changes that are coming down the pike and how can they make 
decisions for changes that will be affecting them 20, 30 years 
down the road.

                           WATERSMART PROGRAM

    In the WaterSMART program, there is $9 million of new 
funding that will allow the USGS to begin to implement the 
requirements of the SECURE Water Act of 2009 to determine the 
quantity, quality and use of the Nation's water supply, both 
surface and groundwater, that will integrate data collected at 
the local, regional, State and national level. And Mr. Simpson, 
you have already mentioned the importance of groundwater and 
the Nation's water supply, particularly in the West. One 
hundred million Americans rely on groundwater, and yet, where 
do you go to see how your aquifer is faring? You can go out and 
see how a reservoir is doing or how a stream is flowing, but 
where do you go to see how your aquifer is doing? The number of 
states is not uniform in terms of their reporting of aquifer 
health. We need to make information on the health and water 
levels of those aquifers readily available. It has been 30 
years since there was a water census.

                     TREASURED LANDSCAPE INITIATIVE

    In terms of the Treasured Landscape Initiative, $3.6 
million is requested. Mr. Chairman, this increase supports 
President Obama's executive order of May 12, 2009, calling on 
the Federal Government to lead restoration of the Chesapeake 
Bay which as you well know is the Nation's largest estuary. The 
time to do this work is now in order to repair, restore and 
preserve this awesome and wonderful national treasure.

                        NATURAL HAZARDS FUNDING

    In Natural Hazards, we have $4 million of new funding which 
is an important increase to leverage the $45 million in 
Recovery Act (ARRA) funds in upgrading the seismic and volcano 
hazard monitoring network. The U.S. appreciates the long-term 
support of our important work in this area from Mr. Dicks. The 
increase in 2011 will enhance the USGS hazards effort, focusing 
on increased community resilience to those hazards. We will 
extend existing work in California communities and expand to 
the Pacific Northwest and Alaska. We agree with the concerns 
that Mr. Dicks has expressed for many years calling for more 
vulnerability assessments for volcanoes, improved monitoring 
for earthquakes and volcanoes, improved forecasting 
capabilities, better decision support tools, and better 
training for emergency responders and new studies to address 
urban and wildland fires. USGS possesses the understanding of 
where these natural hazards will occur and how best to prepare 
for them.

                    LANDSAT DATA CONTINUITY MISSION

    Mr. Simpson, you mentioned the Landsat Data Continuity 
Mission, $13.4 million. This increase will implement new ground 
station requirements that are now necessary because of the 
free-flyer satellite that will hold the new sensors. The USGS 
is partnering closer with NASA in planning for this free-flyer 
satellite, and we eagerly look forward to the launch.

                  COASTAL AND MARINE SPATIAL PLANNING

    In coastal and marine spatial planning, a $4 million 
increase is proposed. This increase supports the 
Administration's National Ocean Policy. We will be engaging 
with other DOI bureaus and Federal agencies such as NOAA in 
implementing the soon to be finalized framework for effective 
coastal and marine spatial planning. This plays an important 
part in furthering our understanding of coastal change and how 
to provide communities with information they need to protect 
coastal areas.

                     COLLABORATIVE DOI SCIENCE WORK

    And finally, there is support of $4 million to increase the 
number of USGS scientists available to work collaboratively 
with the Fish and Wildlife Service, the Bureau of Land 
Management, and the National Park Service, a total of $4 
million on bureau-defined resource and management issues where 
they need our science.

                       PROPOSED BUDGET REDUCTIONS

    Now the complementary side of developing this agency is 
having to identify savings to ensure that each Federal dollar 
is very wisely spent and not duplicative of other work being 
conducted at the State or Federal level. We had to make some 
difficult decisions in collaboration with the Secretary and the 
Administration. The decreases that we are putting forward are 
$12.4 million in reductions in IT, travel and acquisition 
costs; a reduction of $3.5 million in National Map 
partnerships, leaving approximately $10 million still in that 
budget category; a reduction of $3.3 million in cost savings as 
requested in the Administration's memorandum in planning for 
the President's fiscal year 2011 budget and performance plans. 
We have also been asked to not include $13.5 million in fixed 
costs as Mr. Simpson already mentioned.

                   BUDGET SUMMARY BY BUDGET ACTIVITY

    In sum, our budget includes as a roll-up here, $153.4 
million for our geography programs; $253.8 million for geology 
activities which is hazards, energy, minerals; $228.8 million 
for water research and monitoring; $201.3 million for biology 
activities; $72.1 million for global change activities, $223.8 
million for science support, enterprise information and 
facilities.
    Mr. Chairman, I would like to thank you again for the 
support this Committee has provided for the USGS over the 
years. We believe we have a good budget that addresses the 
greatest needs for the Nation. It positions us where science 
needs to be, always looking to the future. Thank you for 
allowing me to testify today, and I would be happy to respond 
to your questions.
    [The statement of Dr. Marcia McNutt follows:]

    [GRAPHIC] [TIFF OMITTED] T6647A.268
    
    [GRAPHIC] [TIFF OMITTED] T6647A.269
    
    [GRAPHIC] [TIFF OMITTED] T6647A.270
    
    [GRAPHIC] [TIFF OMITTED] T6647A.271
    
    [GRAPHIC] [TIFF OMITTED] T6647A.272
    
             CLIMATE CHANGE: ROLE AND LEVEL OF COORDINATION

    Mr. Moran. Thank you very much, Dr. McNutt. That was a 
comprehensive and yet concise statement. I fully appreciate it, 
and we appreciate your leadership.
    Doctor, there is some concern by some Members of Congress 
that various federal agencies are using the current focus on 
climate change as the basis to get increased funding for the 
kinds of activities that they would be doing anyway. There is 
also concern that there may be a proliferation of climate 
change science going on in lots of different federal agencies 
and programs. So I wonder if you could just step back for a 
moment and explain what exactly is the role of the USGS in 
climate change science and then explain how you are 
coordinating with other Federal departments and agencies, 
including academia.
    Dr. McNutt. Great. Thank you for that question. First of 
all, there are two very distinct roles of the USGS. One of them 
is that the USGS, as a geological and a natural science agency, 
has the responsibility for looking back into time. We are one 
of the few agencies within the Federal Government that has the 
perspective of time for understanding what can happen in the 
future by the perspective of what has happened in the past. 
Now, that is not distinct from what the academic community can 
do because the academic community can do that as well. But by 
integrating that within the Department of the Interior with the 
land management agencies, we can then take that information and 
help our fellow land management agencies to understand what the 
future might be for their land management responsibilities.
    The way the Department of the Interior has taken the 
responsibility to build the budget this year is rather than 
build a budget individually, bottom-up from the agencies, they 
have taken a very top-down view and said, what are our goals in 
climate change and how do we achieve those goals department-
wide and then how do we apportion the specific tasks to the 
various bureaus within the Department of the Interior and who 
best can accomplish this. That way, the Department of the 
Interior has avoided duplication of effort and made sure that 
every dollar is very wisely spent. Sometimes there was, of 
course, competition among the bureaus in order to accomplish 
those tasks, but I think in the end, we worked it all out and 
came up with a very good division of responsibilities with USGS 
taking on a lot of the science responsibilities for these 
Climate Science Centers which are the cornerstone of what we 
want to do for the Department of the Interior with the land 
management agencies, then taking that science, much of which 
will be done at universities, and then applying it to 
management practices on the landscape to help them actually 
apply the best practices to understand how to prepare land 
managers for what is coming ahead.
    Let me give you a specific example. I think that the 
experience that the USGS has had with earthquakes and 
understanding risks is extremely important in climate change. 
We understood in the earthquake group that predicting 
earthquakes specifically would be a very difficult thing to do. 
But what we could understand was where earthquakes would happen 
and that we needed to prepare the population for the inevitable 
earthquake that would happen.
    Dr. McNutt. We believe the same is true for climate change, 
that it will be difficult to predict at the local level exactly 
what will happen with climate change, but we will be able to 
say in broad terms that there will be changes in climate, some 
of it will be natural because of natural cycles in climate. 
Some of it may be caused by man's activities. But there will be 
certain parts of the landscape system that will be most 
sensitive to changes in climate. Those will be equivalent to 
the faults, the parts of the landscape that are most likely to 
change. We can identify those features and say, What do we need 
to do to prepare communities for those weaknesses in the 
system? Water in the west is the San Andreas Fault of the 
climate system. That is the part that we know for sure is a 
weakness in the climate system. We know already that there are 
changes happening because of climate change that have caused 
communities, agriculture, natural ecosystems to feel the 
effects of changing climate, both the natural part and the 
anthropogenic part.
    So we identify those parts and then we say, what do we do 
to prepare industry, agriculture, communities, individuals, for 
those coming changes and make them more resilient to those 
changes? That is the kind of science that the USGS can do and 
then work with those managers to make them better prepared.
    Mr. Moran. Thank you. I was going to ask another question, 
but given the comprehensive nature of the answer, I think not. 
Thank you very much for putting all of that on the record, Dr. 
McNutt.
    But at this point, let's turn to Mr. Simpson.

               CLIMATE CHANGE: APPROPRIATE FUNDING LEVEL

    Mr. Simpson. Following on what the Chairman just mentioned, 
because I ask these questions, some people think I do not 
believe that climate change is happening or think it is some 
kind of fake science out there. I think there is a real issue 
there. My question has been all along and continues to be this 
year--well, let me give you this example. After September 11, 
2001, virtually every agency that came to my office and almost 
every interest group who came to my office that wanted to do 
something said we have got to do this because of homeland 
security, and almost every budget request had money in there 
for homeland security. Now the catchphrase is climate change, 
global warming, whatever you want to call it. And I see more 
and more money being spent on global warming. My question is 
not whether it is appropriate to spend the money. I think we do 
need to spend some money to study this. The question is 
coordination. And I noticed that you mentioned in your 
testimony that you will study wind farms, potential impacts of 
wind farms and so forth, remarkably similar testimony as to 
what the BLM said yesterday. And forest fires, wildfires, 
impacts, remarkably similar testimony to what the Forest 
Service says. What is the coordination, and this has been my 
debate all along, what is the coordination between the agencies 
on what we are spending, and why are you studying wind farms 
instead of BLM or are you coordinating with BLM or the Forest 
Service? And beyond that I guess is the report. Is this the 
guide that we are using in terms of where we are going on 
climate change in this country? Is this the roadmap for the 
adaption, research and management on federal lands and how does 
that translate into the USGS climate change adaption budget? Do 
you understand my concern? It is not that we are studying 
climate change, it is whether we are doing it wisely.
    Dr. McNutt. Okay. A couple questions there, Mr. Simpson. 
First of all, to get at the broader issue about is the USGS 
just climbing on some popular bandwagon with climate change? 
Certainly I do not think so. Climate change is an important 
issue certainly for our agency to work on for the following 
reason. We are absolutely certain that climate change, if not 
an issue that Congress demands answers from our agency today 
about climate impacts, you will be demanding answers from us 
about climate impacts within the foreseeable future. And when 
you haul us in front of you to ask us for answers to those 
questions, there will be no time for us to write the proposals, 
put together the definitive studies, and gather the appropriate 
data sets because you will want the answers yesterday, or at 
best, tomorrow. We will have to have had the studies already 
ongoing, and we will have to have the answers for you. Our land 
managers will have to have already been using the best 
practices to preserve those ecosystems. The land managers are 
already seeing the effects out there on the landscape, and they 
say to preserve these places, we have to have those answers 
now.

                        INTERAGENCY COORDINATION

    Mr. Simpson. I do not disagree with anything you just said. 
The question is, when I call and say how are the wind farms 
impacting--why should I call you instead of BLM?
    Dr. McNutt. There is excellent coordination there. There is 
a very simple answer to that. The BLM will use the USGS 
science, and they will then apply that science because the wind 
farms will be on the BLM land. There has to be a handoff there 
so there has to be funding in both budgets because the USGS 
does the scientific study, it hands off the science to the BLM, 
and then the BLM land managers apply that science in order to 
properly site the wind farms and do the applications of the 
science to best site the wind farms. So there is the general 
scientific study and then the application of that science to 
the specific issue of that wind farm.
    Mr. Moran. If the gentleman would yield?
    Mr. Simpson. Sure.
    Mr. Moran. Could I just follow up on that a bit? I had a 
conversation with the Fish and Wildlife Service yesterday, and 
they said without this kind of data that they are getting from 
USGS and other scientists, they can not predict what habitat, 
for example, they are going to need for fish and wildlife and 
in fact, when they do the overlap, only 3 percent of what they 
were preserving was relevant to the future because of the 
change in the fauna, the flora, the flow of water and so on. 
They have got to build all of this in into their future 
planning so they can effectively preserve fish and wildlife. It 
was fascinating but I think----
    Mr. Simpson. Again, I do not disagree with what you are 
saying, and I do not suggest that USGS should not be doing the 
study, should not be doing the science. But I wonder when we 
put tens of millions of dollars into the BLM to study science 
on the impacts of global warming or climate change, where wind 
farms would be located. It sounds to me like they are doing an 
awful lot of the same work you are doing, and maybe it is just 
that I do not understand it. But my concern has been all along 
that we are throwing hundreds of millions of dollars budget-
wide across the agencies, not just in Interior but in almost 
every budget you look at there is money for climate change 
study. And I am wondering if there is any government-wide 
coordination of all this money that we are spending or if it is 
the new catchphrase. And I am not suggesting people are doing 
it saying we can get more funding because I am sure that 
everybody thinks that they need to study it. Do we need a 
climate change agency?
    Dr. McNutt. I would suggest that for the record we respond 
in collaboration with the Bureau of Land Management to show how 
those two amounts of funding work together because let me tell 
you, the Secretary was so keen on finding any amount of 
duplicated funding that he could cut from the budget that had 
that been a possibility, he would have loved to have been able 
to do that.

              CLIMATE CHANGE: GOVERNMENT-WIDE COORDINATION

    Mr. Simpson. Do we need a climate change agency that could 
coordinate all of this government-wide?
    Dr. McNutt. You know, that possibility has been discussed, 
and the problem is exactly drawing the line because climate 
change is so pervasive when you look at atmosphere, oceans, 
ecosystems. Climate change even impacts energy. It would be 
monstrous.
    Mr. Moran. I do not think we are looking for a climate 
change czar.
    Mr. Simpson. I am just saying that I feel very 
uncomfortable with the amount of money we are spending and how 
we are spending it and nobody has yet been able to give me the 
vision for the coordination between all of these agencies. And 
we have a responsibility to make sure that the taxpayer dollars 
are spent efficiently. I am not suggesting that we should not 
be spending it or anything like that.
    Dr. McNutt. OSTP also did an incredible job this year of 
coordination in the climate arena, and anything that was 
labeled as climate funding, they questioned each of the budget 
offices extensively in terms of that.
    Mr. Simpson. Well, I know that we had our staff put 
together a briefing that we were going to have and have all of 
the agencies within the Department of the Interior that got 
climate change money, we were going to have a briefing on how 
this is all working together, and it so happened that the 
snowstorm came and cancelled it.
    Dr. McNutt. It got snowed out. I remember that.
    Mr. Simpson. It is just one of those things. I have decided 
the only way to get enough snow in Idaho is to have a meeting 
there on climate change.
    Mr. Moran. If the gentleman would yield again, the Council 
on Environmental Quality does have responsibility to coordinate 
this. It might be useful to have a briefing, if not a hearing, 
from CEQ and see how they are ensuring that there is 
collaboration but not overlap.
    Mr. Simpson. I would kind of like a briefing rather than a 
hearing because, we could have informal discussions with all 
these different agencies. And I am just saying that as an 
appropriator, I have to be responsible for taxpayer money, as 
you do. I think we need a better effort to at least educate me 
as to how it is being coordinated and spent, that it is being 
done in the most useful way.

                       STREAMGAGE PROGRAM: VISION

    Let me ask one other question before we go to Mr. Cole. I 
think all of us here understand the value of streamflow 
information provided by the nationwide network of streamgages 
and we are aware of the significant investments we have made in 
the program through the stimulus bill and the fiscal year 2010 
budget. We have a tendency to provide increases and then 
sometimes walk away thinking we have fixed the problem, and I 
caution us against doing that in this case.
    The fiscal year 2011 budget proposes management efficiency 
cuts and fixed cost absorptions that add up to almost a $3 
million erosion of the streamgage budget. The USGS has set a 
measureable goal of having roughly 4,700 streamgages in its 
nationwide network, and yet it is only 64 percent of the way 
there. I wonder whether we are setting ourselves up to again 
walk away. Can you tell me what your vision is for the 
streamgage program, where it is now, where it needs to be and 
how were are going to get there?
    Dr. McNutt. I can say just personally as the Director of 
the USGS, I am a huge advocate of the water program and of the 
streamgage network. I have been from day one concerned about 
the fragility of the mechanism that we have used to fund the 
streamgage program. In the beginning it was built on this 
partnership, and for a while because of erosion in the USGS 
budget, the partners were shouldering more than their 50 
percent of the program. Now there has been hard times with the 
State budgets. That has led to challenges in keeping 
streamgages funded. I personally think that we need to find a 
more bullet proof way to keep a solid national backbone of 
streamgages in the national interest so that we have a regular, 
year-to-year national picture of the health of our stream flow 
in the Nation.
    But I want to refer to Dr. Matt Larsen and let him talk a 
little bit more about the state of this. So Matt, you want to--
--
    Mr. Moran. Please come up to the table.
    Dr. Larsen. Thank you for the question.
    Mr. Moran. There is a microphone to your right there that 
you can turn on.
    Dr. Larsen. This is an ongoing challenge for us, and as our 
Director acknowledged, we have many partnership agreements 
across the country and many of those, alluding to your previous 
question, are done in close coordination with other Federal 
agencies, the Army Corps of Engineers and Bureau of Reclamation 
are key partners in funding our overall streamgage network 
which is about $135 million a year total cost.
    It is not an easy budget scenario to be in. We heard the 
President talk about austere budgets in the coming years. We do 
everything we can to maintain the network. We have been able to 
make substantial progress in the last few years as Director 
McNutt acknowledged in her opening remarks. We saw a $5 million 
increase in fiscal year 2010, a $2 million increase in fiscal 
year 2009 for our National Streamflow Information program. We 
also were able to put about $14.2 million in ARRA funds into 
upgrading the network.
    We have made some improvements in the budget scenario, and 
our plan this year is to try to put a bit more attention into 
our National Water Census, what the Secretary is now calling 
WaterSMART, to help leverage that program and use those data 
and interpret those data and provide a better product for the 
Nation in terms of what water managers throughout the country 
will need to manage water.
    Mr. Simpson. Well, I appreciate that. The streamgage 
information is, as you know, vitally important particularly in 
the West. I guess it is in the east also. But let us not let 
that deteriorate because of the budgets or the efficiencies you 
have to create within the Department, you know. It is always 
easy to say we are going to create efficiencies. It is like 
saying we are going to save money by finding waste, fraud and 
abuse. But let's not let the system go.
    Mr. Moran. We agree. Thanks for raising that, Mr. Simpson.
    Mr. Cole.

                  STREAMGAGES: REDUCED FUNDING SUPPORT

    Mr. Cole. Dr. Larsen, do not run away because that was 
actually, as Mr. Simpson so often does, that was an area that I 
was very interested in and I want to pursue a little bit 
further. I think Mr. Simpson makes an excellent point about 
maintaining this particular program over time, and I know you 
are interested in doing that. But I do not know how you 
maintain the program while you cut it. We have got other new 
initiatives here which, again, I would agree with Mr. Simpson 
are good and interesting initiatives, but I would rather see 
them funded a little bit less. And this one, which is an 
ongoing, proven cooperative program, funded at least the same 
level or frankly enhanced because again, we are well below what 
our targets were in terms of this data. And over time, I think 
this data is going to be useful in a whole variety of areas.
    So I would ask you this question, I guess after my little 
sermonette. How many water gauges do you expect, if any, to 
lose this year because we are not funding at current level? And 
what sort of pullback are you seeing from particularly state or 
tribal governments, other governmental units that are under 
financial pressure that actually stepped up and sort of helped 
us a few years ago in this program but now do not have the 
wherewithal and are pulling back?
    Dr. Larsen. Excellent question, and it is always a moving 
target because as our Director noted, our streamgage network, 
in addition to the large Federal partners I mentioned, is 
operated in partnership with all of the 50 States at the local, 
municipal and water utility level. Right now we have somewhere 
between 100 and 200 streamgages around the country that we call 
our threatened gauge list, and that is a number that varies 
with State budget and Federal funding every year. We always 
have some number on that list, and I can provide that for the 
record by State so you can see exactly what I am talking about.
    Mr. Cole. I would appreciate that.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647A.273
    
    [GRAPHIC] [TIFF OMITTED] T6647A.274
    
    [GRAPHIC] [TIFF OMITTED] T6647A.275
    
    [GRAPHIC] [TIFF OMITTED] T6647A.276
    
    [GRAPHIC] [TIFF OMITTED] T6647A.277
    
    [GRAPHIC] [TIFF OMITTED] T6647A.278
    
    [GRAPHIC] [TIFF OMITTED] T6647A.279
    
    [GRAPHIC] [TIFF OMITTED] T6647A.280
    
    [GRAPHIC] [TIFF OMITTED] T6647A.281
    
    [GRAPHIC] [TIFF OMITTED] T6647A.282
    
          DATA COLLECTION VERSUS ASSESSMENT: FUNDING CHALLENGE

    Dr. Larsen. You have highlighted an ongoing challenge for 
us, and this is true not just in the streamgaging program but 
all of our data programs. How do we support our basic data 
collection which is a key role of our agency--we are not 
regulatory, we are a science agency--at the same time being 
able to interpret and assess those data? We have long had a 
challenge with both collecting but also assessing and 
interpreting the data for the user community. This year's 
budget is an attempt to try to balance both of those 
priorities, both of those challenges for us across all of our 
programs. You heard the Director talk a bit about volcanoes and 
earthquakes in particular but equally important in the water 
management arena. We will provide more information for the 
record.
    Mr. Cole. I would hope, Mr. Chairman, that we would look at 
this pretty carefully because this is a really valuable, 
ongoing program that I would argue actually needs additional 
funding. You do have a tough decision to make and I am the last 
one to be critical of the people that are trying to make hard 
choices economically. But if we are going to spend money in new 
areas, I think we ought to make sure that the ones that we have 
a bipartisan agreement that are really foundational stay 
adequately funded so you can get quality research and provide 
us with the information we need.

              NATURAL GAS: HYDRAULIC FRACTURING TECHNIQUES

    Second question, and this is probably more appropriate to 
you, Director, and this is just a simple question. We do a lot 
of discussion with other agencies around here, and it is going 
to be a hot topic on water quality about hydraulic fracturing 
technique in natural gas. I am curious what, if anything, your 
agency is doing in that area, and do you have ongoing programs 
that you see need to be active there? How do you look at that 
going forward?
    Dr. McNutt. Very good question. Yes, this has been 
certainly a hot topic. At this point, the USGS has been 
involved in assessing the potential for reserves, but right 
now, we have not been asked to do what you might call a full 
environmental study on the impacts of resource recovery on, for 
example, how it would impact groundwater and contamination and 
things of that sort.
    We are, with our John Wesley Powell Center, looking at the 
possibility of a pilot project to see whether the USGS might 
look at something of that sort. I might ask Brenda Pierce, our 
Acting Chief Scientist for Geology. Brenda is involved in our 
energy program. Brenda, maybe you would like to answer that 
question.
    Ms. Pierce. Thank you. As Director McNutt said, we have not 
done a full-blown study, but we are looking at natural gas 
resources as well as some of the environmental impacts of 
development. We actually have a produced waters project both in 
the Energy Resources Program and in partnership with the Water 
Resources discipline, and we are actually increasing that to 
look specifically at Shale gas and some of these other 
unconventional resources. So we are looking at the produced 
waters and the geochemistry of that. Those data will become 
publicly available. We are looking specifically at the 
Marcellus shale. It is not a large project, but we do have some 
studies on that. I can pull that together and send to you.
    Mr. Cole. I would love to see it because I think it is 
going to be an issue we are going to be revisiting again and 
again here going forward.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647A.283
    
    Ms. Pierce. It is certainly on our radar screen, and we 
have increased some of the studies we are looking at so we can 
certainly provide that through the Director's office.

                   GROUNDWATER COORDINATION WITH EPA

    Mr. Cole. If I could ask one last question, Chairman, 
actually also deals with water, and it is just a coordination 
issue, back to Mr. Simpson. EPA has a terrific lab in my 
district, Enid, Oklahoma, the Kerr lab which focuses on 
groundwater studies, and I know that, looking at your water 
census is a big undertaking, and I agree with you, a very 
important one for the country. I am just curious what degree of 
coordination, if you will, there are with these other agencies 
that also have resources to bear that might be helpful to you 
as you go about making that census?
    Dr. Larsen. If I might answer that. It is one of the areas 
I am particularly proud of because although the President 
called for greater collaboration, coordination among Federal 
agencies at the beginning, the day after he was inaugurated, we 
have been at it for quite a while in our water programs just 
because water is such an integrator across so many programs. 
There are two dozen Federal agencies that have some purview 
over water, so it is not an easy task. We meet quarterly with 
the Army Corps of Engineers, the Bureau of Reclamation, and 
NOAA to coordinate programs. We meet semesterly, every four 
months, with EPA headquarters to make sure that we are 
coordinating programs and not duplicating effort. We work 
particularly closely with them to provide water quality 
assessments and data so that when they are moving forward on a 
particular regulation or thinking about regulation and policy, 
they have our science behind them to help inform their 
decisions.
    Mr. Cole. Okay, thank you.
    Thank you, Mr. Chairman.

                          ENDOCRINE DISRUPTORS

    Mr. Moran. Good. Thank you, Mr. Cole, for the questions. In 
the past, the USGS has done some very important research on the 
presence of bioactive endocrine disruptors. It is a very 
important water quality issue. We are finding out that it is 
far more pervasive across the country than we initially 
recognized.
    But USGS has had inadequate funding to even do chemical 
analysis on samples that have been obtained, so I would like to 
understand what you plan to do to deal with the backlog of 
detailed chemical analyses of specimens and also, of course, I 
would be interested in when the USGS study of the intersex fish 
in the Potomac River might be completed?
    Dr. McNutt. Okay. Thank you for that question, Mr. 
Chairman. As you point out, we are finding this to be a wider 
problem than perhaps originally suspected, and we are also 
finding that the causes might be broader than originally 
suspected. I will defer to Dr. Sue Haseltine for a more 
detailed response to the specific questions about the level of 
effort and of course our challenges in getting enough funding 
for this very important research.
    Mr. Moran. Dr. Haseltine.
    Dr. Haseltine. Good morning. We are, as you know, actively 
working in the Potomac Watershed as we are across the country 
on this and in particular working on the relationship of 
chemicals, disease and intersex fish occurrence there in 
several fish die-offs. We have money to work on the backlog of 
samples this year. I hope they will be completed by the end of 
the year. But I would like to emphasize that we are in the 
process of doing several new studies with the money that the 
committee allocated to us last year. While we will complete the 
backlog and have some products this year, I think going forward 
we will have a continuing challenge to understand all the 
issues in the Potomac Watershed.
    Mr. Moran. Well, thank you. I agree with you. I think we 
are going to find more and more members that have problems 
within their water supply----
    Mr. Simpson. Talking about fish.
    Mr. Moran [continuing]. Dealing with the endocrine 
disruptors.
    Mr. Simpson. You are talking about fish when you say 
members?

                      MERCURY CONTAMINATION STUDY

    Mr. Moran. We will allow that distracting comment because 
it was so witty. We understand that the USGS conducted a study 
of the Shenandoah River showing that a textile manufacturing 
plant in Waynesboro, Virginia, continues to contaminate the 
South Fork with serious amounts of mercury. Can you very 
briefly summarize that study and explain what the implications 
are for downstream communities such as Washington, D.C.?
    Dr. McNutt. Yes, this is a problem of mercury contamination 
which as we know----
    Mr. Moran. Very toxic.
    Dr. McNutt. Produces methylmercury which becomes 
bioavailable and is concentrated up the food chain. When people 
eat contaminated fish, they can become ill over time. There is, 
I understand, a mercury advisory out for eating fish from this 
river. I am going to defer to our Eastern Regional Director, 
Bill Werkheiser, to talk about the work that the USGS has done, 
including cooperative work with the State of Virginia on this 
very important problem.
    Mr. Moran. It is not in my district but a number of other 
members, it is in their district, and eventually it will be in 
ours in Washington, D.C., too, as we have to deal with this 
problem.
    Mr. Werkheiser. That is exactly right. This study was 
conducted in partnership with the State of Virginia at their 
request. The study we conducted showed that 90 percent of the 
contamination was actually preexisting, dating back almost 50 
years. The problem is that the mercury is in the sediments and 
in the soil from that operation so long ago, and then we have 
flooding and erosion that gets mobilized downstream. We are 
working with the State of Virginia to look at what are the 
potential remediations and so far, my understanding is that we 
do not think it is a water supply issue as far as drinking 
water health for humans, but it is an ecological issue for fish 
health, particularly.
    Mr. Moran. How do you fund such a study?
    Mr. Werkheiser. This was funded through our Cooperative 
Water Program where we had funds from the State of Virginia as 
well as our funds from the Cooperative Water Program that was 
allocated to our Virginia office.
    Mr. Moran. Thank you. We have another hearing coming up 
with surface mining but----
    Mr. Simpson. Let me just follow up on this.
    Mr. Moran. Yes.
    Mr. Simpson. Why is the USGS doing this study instead of 
the EPA, just out of curiosity?
    Mr. Werkheiser. Because we looked at the distribution of 
mercury, and mercury is such a complex chemical. It is not 
well-understood and we do a lot of water sampling, a lot of 
sediment sampling. That is kind of our routine analysis, and we 
have close working relationships with many States on water 
quality issues. So it came about through that route.
    Mr. Simpson. We do have another hearing right now. I am 
going to have several questions that I would like to submit for 
the record. Many of them will be questions about coordination 
and so forth. But I want to tell you, and really, the employees 
that are here behind you, USGS does great work. It is one of my 
favorite agencies within the government, and I think it is one 
of the most respected agencies by the public and by Members of 
Congress. So if I have one piece of advice to you, Director, do 
not let it slip.
    Mr. Moran. Relatively speaking, it is not an agency that 
gets a whole lot of money, and so I have a great deal of 
appreciation----
    Mr. Cole. Why, it is one of Mr. Simpson's favorites. That 
is a very short list.
    Mr. Moran. I was hoping that Mr. Dicks might be able to 
return from his meeting, but let me at least get to one of the 
questions I know he wanted to ask before we conclude the 
meeting.
    Dr. McNutt. Sure.

                        PUGET SOUND ACTION PLAN

    Mr. Moran. The USGS also has important responsibilities 
under the Puget Sound Action Plan. I wonder if you would give 
us an update on that, and if there are important action items 
for the USGS that you were unable to accomplish due to lack of 
adequate funding? Do we have an expert on the Puget Sound here, 
other than Mr. Dicks himself?
    Dr. McNutt. David, do you want to mention work on the 
multi-hazard program, Puget Sound?
    Dr. Applegate. I certainly can.
    Dr. McNutt. Dr. Dave Applegate is our Senior Science 
Advisor for Earthquakes and Geologic Hazards.
    Dr. Applegate. Well, Puget Sound is very important from a 
number of different aspects, and the work in the Puget Sound in 
particular really underscores the importance of working across 
the different disciplines and capabilities that we have. The 
Puget Sound Action Plan specifically is looking at work that 
has been done by our Washington Water Science Center, continued 
collaboration there both with the State and local government. 
We are also focusing on more broadly the range of hazards that 
are experienced there. We have been able to use some of the 
support that has been provided from the Subcommittee to be able 
to enhance the flood pathway modeling, look at the way that 
extreme events have an impact on the area, and in particular to 
be able to strengthen our work in the earthquake areas, 
understand the range of the hazard. It is not just the shaking 
at large but particularly in areas like the Puget Sound you 
have a lot of what we call microzonation, very broad 
differences and therefore a wide range of impacts. And so in 
order to be able to understand it better, we need to have more 
instrumentation, and that is exactly what has been enabled in 
partnership with the University of Washington and Washington 
Department of Emergency Management.
    Mr. Moran. Okay. I know that we want to make sure that that 
is adequately funded, but with that, I think we need to move 
onto the next hearing.
    I have before me some extraordinarily well put-together 
questions that really deserve answers. And so what we are going 
to do----
    Dr. McNutt. You stayed up all night writing.
    Mr. Moran. So we are going to submit these for the record, 
and we appreciate timely answers but most importantly, we 
appreciate the quality of the answers that you have been giving 
us in oral testimony. And Mr. Simpson has indicated he has some 
questions as well. Mr. Cole may as well. So we will submit 
those for the record.
    And at this point we will conclude this hearing, and 
congratulations on your first hearing. It was superb.
    Dr. McNutt. Thank you.
    Mr. Moran. And thank you to all your very capable staff. 
Thank you.

[GRAPHIC] [TIFF OMITTED] T6647A.284

[GRAPHIC] [TIFF OMITTED] T6647A.285

[GRAPHIC] [TIFF OMITTED] T6647A.286

[GRAPHIC] [TIFF OMITTED] T6647A.287

[GRAPHIC] [TIFF OMITTED] T6647A.288

[GRAPHIC] [TIFF OMITTED] T6647A.289

[GRAPHIC] [TIFF OMITTED] T6647A.290

[GRAPHIC] [TIFF OMITTED] T6647A.291

[GRAPHIC] [TIFF OMITTED] T6647A.292

[GRAPHIC] [TIFF OMITTED] T6647A.293

[GRAPHIC] [TIFF OMITTED] T6647A.294

[GRAPHIC] [TIFF OMITTED] T6647A.295

[GRAPHIC] [TIFF OMITTED] T6647A.296

[GRAPHIC] [TIFF OMITTED] T6647A.297

[GRAPHIC] [TIFF OMITTED] T6647A.298

[GRAPHIC] [TIFF OMITTED] T6647A.299

[GRAPHIC] [TIFF OMITTED] T6647A.300

[GRAPHIC] [TIFF OMITTED] T6647A.301

[GRAPHIC] [TIFF OMITTED] T6647A.302

[GRAPHIC] [TIFF OMITTED] T6647A.303

[GRAPHIC] [TIFF OMITTED] T6647A.304

[GRAPHIC] [TIFF OMITTED] T6647A.305

[GRAPHIC] [TIFF OMITTED] T6647A.306

[GRAPHIC] [TIFF OMITTED] T6647A.307

[GRAPHIC] [TIFF OMITTED] T6647A.308

[GRAPHIC] [TIFF OMITTED] T6647A.309

[GRAPHIC] [TIFF OMITTED] T6647A.310

[GRAPHIC] [TIFF OMITTED] T6647A.311

[GRAPHIC] [TIFF OMITTED] T6647A.312

[GRAPHIC] [TIFF OMITTED] T6647A.313

[GRAPHIC] [TIFF OMITTED] T6647A.314

[GRAPHIC] [TIFF OMITTED] T6647A.315

[GRAPHIC] [TIFF OMITTED] T6647A.316

[GRAPHIC] [TIFF OMITTED] T6647A.317

[GRAPHIC] [TIFF OMITTED] T6647A.318

[GRAPHIC] [TIFF OMITTED] T6647A.319

[GRAPHIC] [TIFF OMITTED] T6647A.320

[GRAPHIC] [TIFF OMITTED] T6647A.321

[GRAPHIC] [TIFF OMITTED] T6647A.322

[GRAPHIC] [TIFF OMITTED] T6647A.323

[GRAPHIC] [TIFF OMITTED] T6647A.324

[GRAPHIC] [TIFF OMITTED] T6647A.325

[GRAPHIC] [TIFF OMITTED] T6647A.326

[GRAPHIC] [TIFF OMITTED] T6647A.327

[GRAPHIC] [TIFF OMITTED] T6647A.328

[GRAPHIC] [TIFF OMITTED] T6647A.329

[GRAPHIC] [TIFF OMITTED] T6647A.330

[GRAPHIC] [TIFF OMITTED] T6647A.331

[GRAPHIC] [TIFF OMITTED] T6647A.332

[GRAPHIC] [TIFF OMITTED] T6647A.333

[GRAPHIC] [TIFF OMITTED] T6647A.334

[GRAPHIC] [TIFF OMITTED] T6647A.335

[GRAPHIC] [TIFF OMITTED] T6647A.336

[GRAPHIC] [TIFF OMITTED] T6647A.337

[GRAPHIC] [TIFF OMITTED] T6647A.338

[GRAPHIC] [TIFF OMITTED] T6647A.339

[GRAPHIC] [TIFF OMITTED] T6647A.340

                                         Wednesday, March 17, 2010.

 BRIDGING CULTURES: THE NATIONAL ENDOWMENT FOR THE HUMANITIES FY 2011 
                             BUDGET REQUEST

                                WITNESS

JAMES A. LEACH, CHAIRMAN, NATIONAL ENDOWMENT FOR THE HUMANITIES

                   Opening Statement: Chairman Moran

    Mr. Moran. Chairman, colleague, friends, this is exciting. 
This is your first official budget hearing where you are on the 
other side of the dais, the hearing table at least. We do look 
forward to your leadership of the National Endowment for the 
Humanities. I know we both have a history of working with you 
and it is a very positive and constructive history. We miss you 
in the Congress, but we do look forward to the opportunity to 
continue a relationship. Unfortunately, a lot of our colleagues 
do not have the opportunity we have in being able to work with 
you as chair of the Endowment. Back in 1965, our Nation 
committed to the progress and scholarship of the humanities by 
enacting Public Law 89-209 and the National Foundation on the 
Arts and Humanities Act, and that states that democracy demands 
wisdom and vision in its citizens. It must, therefore, foster 
and support a form of education and access to the arts and the 
humanities designed to make people of all backgrounds and 
wherever located masters of their technology and not its 
unthinking servants.
    This statement is particularly relevant at this point in 
time. Each year our technology is expanding exponentially and 
all are exposed to a greater diversity of ideas, people, and 
places. This technology has the potential to be a great unifier 
of ideas. How we use, analyze, and manage information is 
critical. As the Pope reminds us, the act of citizenship is the 
very essence of democracy and requires that we understand how 
to think creatively, analyze critically, and communicate 
effectively.
    So, Mr. Chairman, it is within this context that we are 
particularly interested in learning more about your Bridging 
Cultures initiative and civility tours and what you hope to 
accomplish with these initiatives. Overall, your budget is 
fiscally restrained but it still sustains our Nation's 
commitment to the humanities. It is $6 million less than what 
was provided by the Congress last year. In the past several 
years, this subcommittee made increases to restore funding that 
was cut from the budget in the 1990s. From fiscal year 2007 to 
fiscal year 2010, we provided $24 million above what the 
current and prior administrations have proposed. Chairman Dicks 
has arrived at a perspicacious point because he was largely 
responsible for that leadership in restoring that funding, and 
I know all involved with the humanities appreciate his efforts.
    The Endowment has done an exceptional job with these 
resources, but we really do want to hear how and why the $6 
million cut was appropriate. And at this point, perhaps we 
could hear from Mr. Simpson.

                     Opening Statement: Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman. And, Chairman Leach, 
it is great to see you again. I invited you to sit on this side 
of the table. You chose not to. Jim, your service in the House 
is noteworthy for many legislative achievements, but to me your 
enduring legacy remains your unfailing sense of humility and 
civility. Some may question whether it is appropriate to spend 
dollars from the NEH budget addressing the issue of civility, 
but one thing is for certain. After 30 years of service in 
Congress, you are probably among the most qualified people in 
the country to embark upon a 50-state civility tour. Your focus 
on the needs for civility in our public life and the underlying 
Bridging Cultures initiatives are among the issues I look 
forward to discussing with you today.
    I think you know that I have been a long-time supporter of 
both the National Endowment for the Arts and the National 
Endowment for the Humanities. The success of both these 
organizations in recent years is largely the result of both the 
endowments making a conscious effort to provide a selection of 
quality educational programs reaching diverse cross sections of 
America without making over arching political statements. In 
recent years, the work of the NEA and NEH has enjoyed strong 
bipartisan support in Congress. My hope is that that will 
continue. As you well know, my home State of Idaho benefits 
directly from a close working relationship with the NEH. For 
many years, I have been an enthusiastic supporter of the Idaho 
Humanities Council.
    The IHC has a long history of awarding grants to 
organizations throughout our state to develop humanities 
projects and programs on the local level. About one year ago at 
its winter meeting in Pocatello, Humanities Council awarded 24 
grants totaling $53,000 to a variety of educators and public 
humanities organizations. I am grateful for the ongoing 
successful collaboration between the NEH and our State 
Humanities Council. In fact, if you plan to spend any time in 
Idaho this year, I would love to personally introduce you to 
the work of the Idaho Humanities Council. Thank you for being 
here today. I look forward to your testimony.
    Mr. Moran. Very good. Thank you, Mr. Simpson. Mr. Dicks, 
did you want to make a comment?

                          Remarks of Mr. Dicks

    Mr. Dicks. I just want to make a comment. Our colleague, 
Jim Leach, is one of the best members we had in the House of 
Representatives, and I know he is going to do an outstanding 
job as the chairman of the National Endowment for Humanities. 
And I really want to say how much I enjoyed having him in 
Washington State. He was snowed in, could not get back, and we 
toured Tacoma and Seattle, and I enjoyed it very much. We are 
glad to have you here, and we know you are going to do a great 
job in this new responsibility. Thank you, Mr. Chairman.
    Mr. Moran. Would you like to make a statement, and I know 
we are going to have some questions, Mr. Chairman.

                    Testimony of Chairman Jim Leach

    Mr. Leach. Thank you very much, Mr. Chairman. First, let me 
pass out a few of these civility pins, and I would like you to 
have one too. I am honored to be with you, and I am 
particularly pleased to learn that two great friends have been 
promoted through the cardinal ranks, and so, congratulations, 
gentlemen. And I must say one of the interesting things when 
you come to the other side of the table, you come to learn 
about members you did not know about--the other side of the 
table meaning the executive versus legislative branch. This 
committee, for instance, has an artist in its midst. Michael, I 
was very impressed with what I saw of your work. I do not know 
if all of you know your ranking minority member is a really 
fine western artist, and this is something I was honored to 
find out about.
    In any regard, I have a larger statement, I would like your 
permission, sir, to put it in the record. Let me just read a 
few minutes worth of that statement. After 30 years in 
Congress, I do find it awkward to be sitting on this side of 
the hearing table, but I could not be more honored to come 
before a panel of former colleagues whom I hold in such high 
regard to testify on behalf of the National Endowment for the 
Humanities. In seven months as its chairman, that is, as the 
NEH's chairman, I have been constantly reminded of just how 
important this small, but very vital, agency is to the 
humanities in the United States. The budget justification we 
submitted to Congress last month describes in some detail our 
current activities and our plans for the next fiscal year, and 
I would like to take a moment simply to discuss some of the key 
features of our request and offer a perspective about the 
agency and how the humanities fit into the fabric of American 
society.
    My view of the humanities is rather straightforward. They 
are about bringing perspective to the personal and public 
challenges of the day. History, literature, philosophy and 
related disciplines illuminate the human condition. Values, for 
instance, cannot simply be understood as abstract concoctions. 
They take on meaning as individuals address enduring questions 
about life's purposes. Such examinations are made possible by 
the study of civilization's greatest literary and cultural 
works--that is, by engaging in humanistic inquiry and 
reflection. In carrying out duties as NEH chairman, I have come 
to see that culture can be used to either unite peoples of 
different backgrounds or magnify it as a lightning rod to 
accentuate differences. At issue are not only problems of 
social cohesion at home but also direct challenges deliberately 
leveled at our values and capacities abroad.
    It is in this overall context of a challenged America that 
the NEH has launched an initiative we are calling Bridging 
Cultures. The initiative is being designed to help American 
citizens gain a deeper understanding of our own rich and varied 
cultural heritage, as well as the history and culture of other 
nations. There is abundant evidence of the need for Bridging 
Cultures initiative. Numerous reports indicate that many 
Americans lack even a cursory knowledge of other nations, not 
to mention our own history. Such lack of knowledge has serious 
and ultimately dangerous ramifications--incivility at home, 
misunderstandings detrimental to our national security abroad, 
and an inability to compete effectively in the global economy.
    As President Obama said in his address last June to 
students at Cairo University: ``There must be a sustained 
effort to listen to each other, to learn from each other, to 
respect one another, and to seek common ground.'' The NEH's 
Bridging Cultures initiative is intended to reflect the 
concerns the President so eloquently expressed. As a key 
component of this initiative, I have begun a 50-state civility 
tour to try to make clear that coarseness in public manners can 
jeopardize social cohesion. Civilization requires civility. 
Words matter. Just as polarizing attitudes can jeopardize 
social cohesion and even public safety, healing approaches such 
as Lincoln's call in the closing days of the Civil War for a 
new direction with malice toward none can uplift and help bring 
society and the world closer together.
    To some, the connection of civility to the humanities may 
not be immediately apparent. The Oxford English Dictionary 
helpfully reminds us that among the original definitions of 
this word is training in the humanities. Through humanities 
studies it was believed citizens could acquire a depth of 
understanding of history and culture that readily allows civic 
engagement free of the rancor that often characterizes the 
expression of ill-informed opinions. These notions of civility 
form the background for the civility tour. Little is more 
important for the world's leading democracy in this change-
intensive century than establishing thoughtfulness and decency 
of expression in the public square. The exchange of ideas and 
consideration of other viewpoints are central not only to 
understanding the disciplines that fall under the rubric of the 
humanities but to improving the human condition.
    Thus far, I have traveled extensively around the country 
and spoken at venues ranging from university museum lecture 
halls to hospitals for veterans. The response has been 
overwhelmingly positive. There is a hunger in America for 
thoughtful dialogue and balanced debate on the issues of the 
day. While Bridging Cultures will be a special emphasis of our 
next activities in the next fiscal year, the Endowment will 
continue to pursue its primary mission of providing support for 
high quality projects in the humanities, programs that improve 
instruction in the humanities in the nation's schools and 
institutions of higher education, efforts of the State 
Humanities Councils to bring the humanities to citizens in 
their states, public programs that creatively draw people into 
the humanities, scholarly research that creates new knowledge 
and insights and preserves and makes successful the best works 
and ideas of the past, and efforts to leverage non-federal 
support for the humanities.
    On the assumption that over the next decade the need to 
restore fiscal order will consume families, cities, states, and 
the federal government, where does the case for continued 
public support for the humanities fit in? The real world irony 
that Congress faces is that demand for governmental programs 
increases in trying economic times, i.e., when the governmental 
resource base weakens. This is as true for programs that 
provide perspective and uplift for citizens as those that 
provide other basics. Indeed, hard times have increased demand 
and utilization of many cultural institutions at the same time 
resource capacities have been reduced.
    In this context, I am convinced that the American people 
have been well served by NEH projects and programs and ask that 
Congress continue its support of this small agency committed to 
expanding the idea base of America. Hard times require 
attention not only to recovery but to avoidance of their 
repetition.
    There is historical precedent for consideration of 
humanities during other difficult periods in American history. 
In the middle of our country's most traumatic conflict, 
President Lincoln in 1862 signed the Morrill Act establishing 
land grant universities in every state in the union. Likewise, 
in the darkest days of the Great Depression Franklin Roosevelt 
foresaw that support for the humanities and the arts through 
the WPA, the Federal Writers Project and other federal 
programs, would be a unifying act, providing work for some and 
enlightenment for all. There is, of course, cost involved in 
any federal program and in many cases a cost as well to not 
meeting certain social obligations.
    While public expenditures for NEH programs can be measured 
precisely, the indirect cost to society of not paying attention 
to the disciplines that bring perspective to the most pressing 
issues of the day are more conjectural. While the magnitude of 
that cost is incalculable, it is not slight. A citizenry that 
does not understand its unique heritage, as well as foreign 
cultures, will not benefit from the lessons of history, the 
stimulus of literature, the values that philosophy can 
illuminate and clarify. It will struggle in the global economy 
and be prone to foreign policy mistakes. In a world where 
leadership will continually be tested, America cannot afford to 
ignore the humanities. They are us. Thank you.
    [The statement of James A. Leach follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.001
    
    [GRAPHIC] [TIFF OMITTED] T6647B.002
    
    [GRAPHIC] [TIFF OMITTED] T6647B.003
    
    [GRAPHIC] [TIFF OMITTED] T6647B.004
    
    [GRAPHIC] [TIFF OMITTED] T6647B.005
    
    [GRAPHIC] [TIFF OMITTED] T6647B.006
    
    [GRAPHIC] [TIFF OMITTED] T6647B.007
    
    [GRAPHIC] [TIFF OMITTED] T6647B.008
    
    [GRAPHIC] [TIFF OMITTED] T6647B.009
    
                 TANGIBLE RESULTS OF BRIDGING CULTURES

    Mr. Moran. Thank you, Mr. Chairman. We appreciate your 
commitment to the humanities and to civility and to bridge-
building between people, organizations, and cultures of 
different perspectives. Having said that, you have taken $3 
million from what has been a successful initiative called We 
The People, and you have used that to partially offset a new 
initiative, as you referred to, Bridging Cultures. The capstone 
of this national tour that you plan to conduct is going to be a 
series of conferences and forums. I think we would like to know 
what tangible results you might expect from these meetings.
    Mr. Leach. Well, tangibility and scholarship are difficult 
to quantify but we expect to continue the maintenance of very 
high quality programming. I must stress that ``We the People'' 
has been a very successful rubric for NEH programming, but it 
must be understood that it is a rubric. That is, in many 
regards much of what occurs under ``We the People'' can occur 
under the rubric of Bridging Cultures and vice versa. And so it 
is not quite the differentiation of one program versus another. 
It is a continuation in some regards of the work that NEH does. 
Congressman Simpson mentioned earlier the work of the Idaho 
Humanities Council, and I want to reference that in the sense 
that traveling around the country I have met with the councils 
from every state that I visit, and I am extremely impressed 
with their work. Many of the things that one might consider to 
be under the civility label are work that state humanities 
councils are doing. And to some degree when I announced a 
civility tour, when I talked about Bridging Cultures, I really 
am taking as a model much of the work of the state humanities 
councils. They are ahead of Washington. Washington is not 
leading them. It is almost a reverse relationship.
    I would only say that the terminology is intended to be one 
of emphasis with programmatic initiatives potentially coming 
under any terminology you want to use, but this is the emphasis 
that we are applying.
    Mr. Moran. Mr. Chairman, perhaps it is not fair to use the 
word tangible when we are dealing with the humanities but we do 
need to be able to evaluate the success of an initiative. Do 
you have any kind of evaluative criteria that would enable us 
to determine has this been a successful initiative?
    Mr. Leach. Well, it is an initiative that has just been 
broached so it is hard to evaluate in advance. I agree with you 
totally in your concerns. As I entered the agency, I found that 
we have not done as much on the evaluation issue as perhaps we 
could. In fact, we have been working with OMB in that regard. 
Part of it relates to the fact, which is a real positive, that 
we have this incredibly highly competitive grant-making process 
in which about one in five, this year it has been fractionally 
less than that, prevail in the decision making and so the 
greatest evaluation comes from the initial valuation. That is, 
very highly qualified people are applying in circumstances that 
one has confidence in their outcome. In terms of Bridging 
Cultures or civility, one can say abstractly if peace breaks 
out the world over it is a wonderful thing for the country, and 
that is a positive, but that is the type of thing that is a 
little hard to attempt to measure.
    All I can say is that we will do our very best in the 
highest quality kind of way to raise issues of concern to the 
American people in as decent a way as possible and bring 
attention to certain things that may be considered breaking 
down in American society. In terms of evaluations, we will 
attempt to move forward in ways that other departments and 
agencies have proceeded, particularly the Department of State, 
which is an impressive model. I sometimes have thought that 
State does better evaluations then most but few read them in 
any institutions of government. But we are going to be spending 
more time thinking through how you evaluate programs as they 
unfold. But I must say in the area of scholarship, it is hard.
    One measurement that NEH is quite proud of are the number 
of awards that are won by works that we have helped produce. 
The highest prizes in history and literature have gone to work 
that we have supported, and if you sometimes hear of 
institutions, whether it be the University of Chicago or 
Cornell or U.C. Berkley that talk about numbers of Nobel 
prizes, well, we have incredible numbers of works supported 
that have won the highest prizes in their field, and that is a 
manner of evaluating but it is only one kind.
    Mr. Moran. But that is a tangible expression.
    Mr. Leach. Yes, it is.
    Mr. Moran. Of the $2.5 million additional that you are 
asking for, how much goes to the tour versus programs and 
projects?
    Mr. Leach. The tour is cost-wise incidental, and partly, 
frankly, as an individual, I do not travel with big entourages 
and try to keep costs under control. In terms of projects, we 
have not exactly parsed that out because we are talking about a 
fiscal year beginning next September, but we will be having 
conferences on national and international subjects and these 
will be centered in university communities and will be 
involving some of the greatest experts in American society.
    Mr. Dicks. If you would yield just a second. Would you 
consider doing reports on the conferences themselves?
    Mr. Leach. We would expect to have follow-ups and so, for 
example, one of the aspects of the conferences we want to do, 
it is not exactly a report. We want to develop material that 
can be used by others, and so we will follow on the day after 
the conference to develop approaches that can be used, for 
example, by any state humanities council. And so if one takes 
the subject matter, whether it be related to a region of the 
world or an American domestic issue, we will try to develop the 
kinds of tools that can then be used by others to advance the 
subject, and that will involve presumably some of the papers 
that will have been presented at the conference, as well as 
process techniques that can be replicated elsewhere. And, by 
the way, we do intend, in tangible ways to be looking at films, 
not of the conferences themselves but movies on various 
subjects. They may be historical and might have direct 
relevance to issues of the day.

                     CIVILITY AND AMERICAN HISTORY

    Mr. Simpson. Thank you, Mr. Chairman. It is a huge task you 
have taken on. Is the world less civil today than it was a 
hundred years ago?
    Mr. Leach. Let us go to the American world and then----
    Mr. Simpson. Is America less civil than it was a hundred 
years ago?
    Mr. Leach. In many regards there were incidents in the 19th 
Century far more uncivil in some measurements than today. The 
classic is that the Vice President of the United States shot 
and killed the greatest Secretary of the Treasury we ever had, 
which is a pretty bizarre phenomenon in a legal act of 
incivility. That is, it was a duel legal in the state in which 
it occurred although there are modern indications that are less 
than a couple decades old that the dueling pistols had been 
filed to a hair trigger and that only one of the participants 
may have known, which makes it a little less civil than might 
otherwise be the case.
    Mr. Dicks. Predetermined the outcome.
    Mr. Leach. At the time there was kind of a national 
movement that it was a murder perhaps because people identified 
more with Hamilton than Burr, but if this information was 
known, there might have been a trial on that subject.
    My favorite reference is to Walt Whitman, who once defined 
America as an athletic democracy. He meant by that that 
feelings were pretty strong on issues that were far greater 
cleavages than any today in America. I mean after all we had 
slavery. And there was an anti-immigrant movement in America of 
gigantic proportions, and symbolically I have to point to a New 
York alleged renaissance man named Samuel F.P. Morse who 
developed the Morse Code and the telegraph and also was a great 
portrait painter.
    But he led an anti-immigrant, pro-nativist and pro-slavery 
movement called the Copperheads. That is an aspect of American 
history we forget, just how many identified with this. But I 
want you to know, Mr. Hinchey, seeing you are from New York, 
there were many on the other side of this issue too in New 
York. New York was a real teeming center of pro-immigrant 
feelings and anti-immigrant feelings, and so we have had a lot 
of that divide in our history. Now, what I would also suggest 
is a little different are changes in communications technology 
that have really caused issues to gravitate in ways that we 
have never seen before. By the way, I think it has caused 
movements to accelerate and trends to accelerate in American 
society. And you have some issues of true gravity. One, despite 
all the problems in American society other than the first years 
of the 19th Century, we have always felt protected by oceans. 
Now it is clear that we have terrorism, which has existed 
throughout history, but the first time has been globalized, and 
the most developed societies are often the most vulnerable.
    And so that is a very new phenomenon for us. And at the 
opposite end of the power structure, we are the first 
generation or two that can destroy civilization entirely with 
nuclear weapons and also biological agents. And so the gravity 
of the issues are new.
    And then the globalization of the economy puts a sense that 
people are up against forces beyond their control. It used to 
be, for example, in my state and your state and actually much 
of upstate New York, which is like the Midwest, the great force 
outside of anyone's control was nature. Now there are forces 
that are man-made but not locally man-made, and this causes, I 
think, an angst in our society that has never existed before.

                         CIVILITY AND CONGRESS

    Mr. Simpson. The reason I ask the question is we hear all 
the time that Congress, since we are in Congress, is more 
uncivil than it has ever been. I do not know that this is true 
when I start reading history. I mean we have not caned anybody 
on the floor in a long, long time. And I tell people when I 
talk to them that, you know, if all they did was watch TV and 
their impression of how Congress acted, it would be totally 
different than the reality because while we go there and we 
fight for things we believe in, and we argue and we yell and 
all that kind of stuff, that is what we are expected to do is 
to defend the position that we believe in. But, yeah, we like 
each other, and I have got several examples of stories that I 
always tell that I will not tell here but if you saw a couple 
of us on TV arguing a point, you would probably walk away from 
that saying, man, these guys really hate each other. They do 
not know that we are out in the Speaker's lobby afterwards 
laughing with each other. But you have to effectively represent 
your position. That does not mean you have to be a jerk about 
it and you have to be personal about it, and 99 percent of the 
time we do not do that. But I think the public has a 
misperception of the partisanship up here. I do not think it is 
as great as a lot of people think. Are the differences in our 
philosophies and what we think is best for the country 
different? Yeah. But you got to remember this is the most 
diverse country in the world.
    And so the thing that I guess bothers me is what you 
mentioned, the new technologies and stuff. We all get e-mails 
from people that if they actually had to sit down and write a 
letter, they would never send it. They would never sign it and 
send it. But it is so easy now to type it out and press send, 
and they see things on television at night and, you know, with 
the cable news and all that kind of stuff, it seems to me that 
if that is all you saw you are going to think the world is 
pretty uncivil. I think people get a wrong impression of what 
we do up here and of the country in general because there is 
24-hour news focused on isolated incidents and you think the 
world is moving that way.
    And the thing that also concerns me more is I used to tell 
a story about a speech I gave one time about my grandfather 
born in 1900, died in 1988. When he first moved into the Cache 
Valley in southern Idaho, northern Utah, he used to get on his 
horse. He was a student. Every male student had to do this for 
like a two-week period of time and ride to the one house school 
and put wood on the fire to heat the one-room schoolhouse. And 
during his lifetime in the Cache Valley, he saw the first 
automobile come, saw the first plane fly overhead, saw a man 
land on the moon and come back during his lifetime. Think what 
a child today is going to see in his lifetime, the changes that 
are going to occur. And that puts tremendous pressure on 
society because we are animals that like stability. We like to 
know that the sun is going to come up tomorrow pretty much 
where it did today, that the job we had yesterday is going to 
be the job we have tomorrow.
    But things are changing so rapidly, and the average student 
today is going to have to be retrained for a new job an average 
of seven times in his lifetime. That is not just updated 
skills. That is completely retraining. The pressure that puts 
on our social, our political, our education, our religious 
institutions is tremendous. To me, we have got to address that 
somehow. And I do not criticize what you are doing. I am saying 
you have taken on a hell of a task to address civility in the 
country but it is something that needs to be done.
    Mr. Moran. Good comments. Thank you, Mr. Simpson. Thank you 
very much. Mr. Dicks.
    Mr. Leach. Before you begin, may I just in response note 
that I think what you say is very profound, Mr. Simpson. And 
let me stress, and I do not mean to fawn, if you were to take 
this subcommittee and replicate it in every legislature in the 
country, I do not think you would see a real problem anywhere, 
but we do have problems in Congress that have changed. I cannot 
relate it in any personal sense to the 19th Century but in my 
time here they did get a little bit worse. But your tying this 
to the job change issue, I think is deep as any problem in the 
country today; it is one that cannot be easily changed. It can 
only be dealt with and how we do it is a real challenge. I am 
sorry, I did not mean to interrupt you, Norm.
    Mr. Dicks. No problem at all, and I agree with a lot of 
what Mr. Simpson has just said. I think part of this is the 
competitiveness between the two parties for control of this 
place. When I first got here, there were 295 Democrats, and the 
Republicans were about 140, so there was no chance that they 
were going to be a majority. I remember Ron Chandler and I, we 
would be going to the gym. I said ``where are you going?'' He 
said ``I am going to the class of '92 meeting.'' And I said 
what is that, and he said, well, we are planning on taking over 
the House in '92. But since things now are closer and more 
competitive, there is a little more stress. And another thing I 
think that has really changed things is so many people go home. 
And when I first got here, there was a lot more socializing 
between the members during the week as people stayed here They 
did things together, and there was just less stress.
    And I do think what you said about the economic 
circumstances of the country, the demands. People's lives are 
really on the line right now. You have places, I know, in my 
district where there are fights in food lines to get food 
because they think we are not able to provide the jobs, and so 
this is a very stressful time. And so to me what you are trying 
to do, I think is important that even as bad as it gets we have 
to remain civil and there has to be a civil discourse between 
people and we have to try to help people. Screaming at people 
just does not further things. It makes it harder for people to 
help somebody if it is done with that kind of an approach. So I 
think this is a good idea. I do think DVDs trying to capture 
some of these discussions, and with so much we have been doing 
on digital humanities maybe that is the way to take some of the 
best statements made by people and present it to the rest of 
the country as you go through this tour.
    I am trying to think of ways to tangibly pull together the 
rewards of what you are out there trying to do. But I support 
it. I think it is a good idea. And I also think Bridging 
Cultures, is a way to have more understanding in this country 
of a lot of the cultures around the world. I think that is a 
fundamental thing especially when you have such a diverse 
society in our own country. I support what you are doing on 
digital humanities, Bridging Cultures. And I think you really 
hit on it. When we had that meeting out there with Humanities 
Washington, I was really impressed by the quality of people, 
the projects that they are working on so I think again I would 
say we have got to continue to support and help these state 
programs. And I would love to see a number of states take on 
some of these initiatives as you suggested. It is not just Jim 
Leach doing this but having the local states talk about 
civility and Bridging Cultures. I think that would be a 
tangible result of what you are trying to do.
    And, again, we are going to continue to be supportive on 
the budget. We have tried to do our best. And I have always 
said I want to do this on a bipartisan basis. Whatever 
increases we have made, we have done it together, both the 
Democrats and the Republicans on the committee. We are 
comfortable with what we have done. Spending the money wisely 
and having a good record is very important.
    Mr. Moran. Thank you, Mr. Dicks. Mr. Cole.
    Mr. Cole. It seems to me, Jim, you have already succeeded. 
We are much more civil and thoughtful than we normally are, so 
your presence alone does that. I want to make a couple 
comments, and then I actually have a couple things I wanted to 
ask you about in terms of your presentation. But I want to pick 
up on something Mr. Simpson said because I could not agree with 
it more as an old historian. American society is not better in 
every way, but, believe me, I was born into a much better 
America than my parents, and my son was born into a much better 
America than I have been born into. You look at the sweep of 
the 19th Century. This country was as close to ethnic cleansing 
and removal of Indians from the southeast and as close to 
genocide if you talk about Native Americans during the Gold 
Rush in California as it ever has been in its history.
    And even in the 20th Century, the difference between how 
Japanese Americans were treated in 1942 and Muslim Americans 
were treated in 2002 is dramatically different and better. And 
I think sometimes we lose the fact that at least the American 
people, what goes on in the institution, that is another 
interesting point, but the American people are enormously more 
decent and civil to one another and internally than they were 
at earlier points in their history, and that does not even 
touch the question of race and African Americans.
    So the broad sweep here has been in the right direction, no 
matter how tragic individual incidents have been. But I do 
think those kind of conflicts continue today. You know, we have 
got a new kind of immigrant issue, obviously, a new kind of 
immigrant culture in some ways. That is actually a big debate 
with what goes on, and we will be plunged into a very difficult 
debate over immigration. In previous Congresses and the 
previous Administrations and it was actually one that divided 
members on party lines. It is very easy to play the race card 
one way or the other in that particular debate. I think it will 
be a real test of congressional civility, if you will, and a 
real test honestly for the Administration because it is an 
opportunity for bipartisanship, a missed bipartisanship.
    I think we will actually look back on the Bush 
administration and give him a lot of praise for what he did not 
succeed in doing, an immigration bill where he actually really, 
really tried, and there was really, really bipartisan support. 
Frankly, this includes his efforts to deal with entitlement 
reform. I think honestly we are going to be dealing with that 
again too, so we better find some ways to operate in a 
bipartisan fashion, and we better reflect the very basic 
decency of the American people as we go forward. I think what 
you do is enormously important. I am a huge supporter. I see 
this, of course, in my state, but I see it around the country, 
and this is one of those cases where a little bit of money goes 
a long way.
    And while we are in a very tough fiscal environment, and I 
commend you for being a wise steward to the resources that the 
Congress has given you, and I understand the Administration 
trying to make a broad statement, the reality is, and we all 
know it, the big things are going to be when do we get to 
entitlement reform and programmatic expenditures across the 
board. You are not going to balance the budget on the back of 
this particular program. And I know this committee will be 
awfully thoughtful about looking at these sorts of things 
because these are relatively small amounts of money with 
enormous payoff and leveraging power around the country. You 
know, $36 million is an awful lot of money but it is not an 
awful lot of money in the context of what this committee deals 
with or let alone what the entire Appropriations Committee 
deals with, so your money has been well spent.
    The particular initiative you have that I wanted to ask you 
because I am a big believer in this. I come from a particular 
perspective. But you are documenting endangered languages 
program. We probably have more endangered languages in Oklahoma 
of all places than any place else in the country. As a matter 
of fact, there have been articles to that effect. And I could 
look at my own tribe, 42,000 people, my grandmother was fluent 
in the language, my mother knew quite a bit of it. I know my 
name, that kind of thing. And we still have a few hundred 
native speakers out of the 42,000 that are fluent, and there is 
now a major tribal effort underway. We have the resources 
finally, and actually as tribes develop resources you find that 
they actually go back and begin to reinvest, but a lot of 
tribes do not. There are maybe 50, 60 tribes in the country 
that actually have put themselves in a position economically to 
do things beyond just what do we do to keep our kids healthy 
and get them educated sort of thing.
    So these kind of programs where you are developing 
bilingual dictionaries, grammars, helping people find native 
speakers are very important and very, very desirable. I would 
like you to just talk a little bit about what you see going 
forward with those kinds of programs that help not just the 
indigenous cultures, we have a lot of different cultures in 
America. It is one of the wonderful things about the United 
States of America. You name it, we got it, and so what do we do 
to both preserve (because each one of those cultures wants to 
in some way hang on to their own sense of identity) and at the 
same time, you know, make sure they always understand they are 
part of a much larger whole and they need to be integrated and 
part of a very diverse and vibrant America. Is your Bridging 
Cultures aimed as much at our internal cultures as it is at 
helping Americans understand the world beyond America?

                    DOCUMENTING ENDANGERED LANGUAGES

    Mr. Leach. Well, you have given a very thoughtful, 
historical review, and I find not only no fault, I am very 
impressed with the framework you have given and I will try to 
reflect that in my talks. Having said that, we are a country 
that has an unique national culture and we are a mosaic of 
thousands of sub-cultures. We are both. And we are rubbing up 
against many other countries that have different cultures, and 
then are also mosaics of sub-cultures, and we have a real 
national interest in trying to understand that phenomenon. We 
also have all throughout the world what I consider to be 
competition between globalism and localism. That is globalism 
is affecting everybody. At the same time, there is a desire for 
local control. It is a hard combination to match.
    With regard very specifically to the indigenous language 
issue, this is something that NEH has taken on for nearly a 
decade and we are going to continue to attempt to in a very 
steady way record as many as we can languages that have just 
gone out of existence or in danger of going out of existence 
and not from the point of view of necessarily stopping the use 
of languages because that is beyond any government's control. 
But the idea of trying to document languages that are going out 
of existence relates to the fact that language is often how one 
captures the history of thought, so it is not just how you 
pronounce, how you define, how you conjugate a word or put 
together a sentence. It relates to what is the thinking that 
went into the formation of those words and those sentences, and 
what kind of thought can be captured as you look at these 
languages, whether they be myths, whether they be stories, 
whether they be histories that are important for all of us, in 
terms of an outsider looking at another culture for some sort 
of meaning, and then as a son or daughter of that culture 
having a sense of from whence they have come.
    Now we are partnering with the National Science Foundation 
in this endeavor, and we are going to continue it. In your 
state, Tom, we have a program at the University of Oklahoma. We 
have another one with the University of Nebraska in which we 
attempt to document particular tribal languages. Around the 
world we are coordinating with UNESCO, which has this as an 
international phenomenon. The statistics and languages going 
out of existence are really very large. We are looking at 3,000 
that we think may go out of existence in the next half century 
or century. That is a rather gigantic task to consider, but we 
think it is important to look at this. And then there are some 
languages that do not really have structures to them. This is a 
new kind of dilemma that is even harder. I consider it a very, 
very important endeavor.
    Mr. Cole. And I am sure you do. I just add while you are 
doing this, spend a little time with tribal authorities, and 
again I think you will find particularly in places where there 
are resources, there are people very interested in helping you 
in leveraging your work and investing some of their own 
resources in these kind of programs. But, again, you guys just 
do great things, so thank you. Sorry, Mr. Chairman. I yield 
back.
    Mr. Moran. Thank you, Mr. Cole. Mr. Chandler.

                       STATE HUMANITIES COUNCILS

    Mr. Chandler. Thank you, Mr. Chairman, and Mr. Chairman. 
Welcome to you, Mr. Leach. Always good to have you back. I 
admired very greatly your work on the Foreign Affairs Committee 
for all those years, and I see that you have taken a lot of 
that with you. You feel very strongly about it. This 
conversation that we have had today has been very interesting, 
I think, and it points out the importance of the humanities. It 
causes us to think about ourselves as a people, what kind of 
people we have been, what kind of people we are and want to be, 
and those are the kinds of discussions and thoughts we ought to 
be having, if we want to continue to develop our society in the 
right kind of way.
    I heard somebody say, I guess it may have been Mr. Simpson, 
that things have been getting better than they had been in the 
past, and while that I am sure in many respects is true, in 
some respects I am concerned that we might not be heading in 
the best of directions. And one thing that worries me is that 
we do not seem to know each other like we used to because of, 
for example, the television, the ability of people to be 
entertained in their own living rooms. They do not need to go 
out and visit with other people as much as they did. The 
Internet, while it is a wonderful tool in so many ways, it is a 
very anonymous tool in many ways, and people have the ability 
to attack other people, to say whatever they want to on the 
Internet without having to look them in the eye, and there is, 
I think, a real danger in that and a real danger in us not 
really mixing and getting to know each other and socializing 
like we used to. That could have long-term repercussions on the 
civility of our society, which is one reason I think the 
humanities and what you are trying to do are crucial to where 
we are going.
    So to the extent that you can get people to use your 
programs, to get people to come out, to learn about themselves, 
to mix with each other and talk about these issues, I think it 
is just absolutely critical to where we are. I was going to ask 
a little bit about We The People but Chairman Moran has already 
discussed that, but I do think that has been a tremendous 
program, and it has done some of these things. [It] has caused 
these kinds of programs on a local level in all 50 states to 
occur, and of course the state councils are very interested in 
it, and they are interested in the support that they get from 
the National Endowment.
    If you could give me a little bit of an idea about how you 
expect to support the state councils, because I think they are 
very important to all of us in our respective states. I would 
appreciate that. I do not know if you have been to Kentucky yet 
on your tour, but I would certainly like to be there when and 
if you come.
    Mr. Leach. Well, thank you very much. We will let you know. 
We are in the process of trying to set something up with 
Kentucky, and when and if that comes to be, we will definitely 
let you know. I like your analogy a lot on looking someone in 
the eye. And when you think of civility or manners, it is not 
etiquette in the full sense although that is a slight part of 
it, but it is respectful engagement, and what you are saying is 
that people are not looking other people in the eye enough. And 
I think that is a good metaphor for true problems in our 
society. Regarding the state councils, I am a strong advocate 
of the state councils. We give approximately 37 percent of our 
budget when you total all aspects of how we support the state 
councils, and this is a very important aspect of our work.
    NEH basically is two phenomena--at the risk of pigeonholing 
and some exaggeration--we are the academic humanities and we 
are the public humanities. The academic humanities are 
disproportionately run out of Washington where we bring in 
scholars from around the country and experts from around the 
country to peer review projects and academic research and film 
making, et cetera. And then the state councils are 
disproportionately the public face. They reach out to the 
general public although they do some academic work too. It is a 
terrific mix and it is a balance that we strive to maintain. So 
in a way one can look at it as the national headquarters 
helping facilitate the creation of ideas while the state 
councils serve as kind of a transition belt to the public 
itself.
    I am a big believer in the work of the councils, and I am 
trying to meet with all 50 state councils on their territory. 
We have a national kind of assembly where all the councils come 
and I address that, but I want to meet people in their states. 
And I will note that in terms of percentage impact the 
importance of the council is almost an inverse proportion to 
size of state, and so, for example, in Mr. Hinchey's state you 
have a terrific state council, but you have all of these other 
cultural institutions in the state of a size and magnitude that 
overwhelm the council, and so the percentage hit on the average 
citizen is not quite as large whereas in a smaller state it can 
be absolutely extraordinary.
    I was in Maine a few months back and they had done a survey 
that approximately 60 percent of the people of Maine had had 
direct contact with a program of the state council and knew it. 
That is an astonishing statistic and something that is to me 
incredibly impressive. So I am impressed with the work of the 
councils, the innovation of the councils, the differences of 
the councils. Every state is different. There are lots of ways 
to say we are different cultures, and one is by state. And then 
within states there is not any state that does not say we have 
got this group and that group and another group that are very 
different whereas we think of one state versus another state, 
and so only these councils know how to handle that in credible 
ways. So I respect very much what you are suggesting.

                    COOPERATION AMONG STATE COUNCILS

    Mr. Simpson. Will the gentleman yield for just a minute? As 
an example, southwestern Idaho is the largest Basque population 
outside of Spain. Does the Nevada and Idaho humanities council 
work together to speak to that community because it is not 
divided by a state line.
    Mr. Leach. Well, I do not know that precise answer. I will 
tell you that one of the things the state councils do has an 
analogy in my mind to many state legislators. That is, as you 
know, if you are in the Judiciary Committee of the state 
legislature there is a national meeting and you pick up what 
other states do. Likewise, there is a lot of communication 
between the councils. They see what other states are doing but 
on your precise question on the Basque, I will have my people 
query this in the next few days and we will get back to your 
office on it. I do not know the answer, but it is a great 
example.
    Mr. Simpson. Kind of how we used to look at conservation 
issues, you know, as if mountains were divided by state lines 
and stuff, and we find out that there are watersheds and things 
that cross state lines, and the same thing, I guess, with these 
cultural identities and so forth.
    Mr. Moran. Good point. Mr. Hinchey.

                      TWO-YEAR COLLEGE INITIATIVE

    Mr. Hinchey. Thank you very much, Mr. Chairman. Jim, it is 
a pleasure. This has been a very interesting pleasure this 
morning to listen to you and to listen to your statements and 
your response to the questions that were put to you. And it 
just reminds me how much I miss you.
    Mr. Leach. Thank you, sir.
    Mr. Hinchey. We very much appreciate what you are doing and 
your work on the humanities is very, very important. It was 
very insightful for the President to ask you to do this job, 
and I am awfully glad that you agreed to do it. So thank you. 
Thanks very much. We are expecting a lot of positive things to 
come out over the course of the time that you are there. I also 
want to thank you for your mentioning of New York several 
times. It is a very interesting place, and it has been very 
much involved in initiatives of various kinds over the history 
of this country. But as you point out the complexity of that 
state in many ways makes it more difficult for those 
initiatives to be fully understood and appreciated by so many 
people.
    We just did the 400th anniversary of Henry Hudson's trip up 
the river, and the context of that re-engagement with Amsterdam 
and the Dutch. For many people it drew a clearer understanding 
of how the initiative of the international complexity of New 
York starting in lower Manhattan was so important for that city 
and for the state and for the rest of the country and how that 
was initiated actually by the Dutch in the context of 
Amsterdam. In any case, all of these aspects of humanities are 
all very, very important and very critical to all of us to be 
engaged in. And, again, I very much appreciate the fact that 
you are there and all the things that you are doing.
    One of the things that is mentioned in the context of some 
of the changes that are being made is the focus of attention on 
two-year colleges, and community colleges. I can very much 
appreciate that, and I see it all across the state that I am 
in, New York. So many people are going to colleges now in two-
year schools at the community colleges, and the effort of that 
is to try to get some education and to use that as a means of 
getting into a very high level four-year school. And I see that 
this something that you are interested in and engaged in, and 
it is just another example of the kinds of interesting and 
positive things that you have been involved in and continue to 
be so. So maybe you could just tell us a little bit about that 
and what you are hoping to do and what the outcome is likely to 
be.
    Mr. Leach. Well, thank you very much, and let me first 
mention something historically and then come to the two-year 
colleges. The NEH has supported over the years among other 
things some translations from the Dutch of New York State 
papers, and one of the surprising revelations has been that 
many of the ideas that we identify with Jefferson et. al. were 
also reflected earlier in some of the Dutch writings in the 
State of New York, and that is a real surprise to historians. 
And then with New York history you have with the New York 
Historical Society, an NEH-supported exhibition today that is 
really astonishing about Lincoln in New York. It is part of 
some of the stuff we are starting to work on in the Civil War. 
I had never given the least thought of Lincoln in New York as 
any consequence because we think of Lincoln as a Midwesterner, 
Indiana, Illinois, et cetera, but they have some pictures at 
the exhibit that are very reflective.
    There are pictures in this exhibit of the 1860 election. 
One is of a group called the Brooklyn Soparifics, a rally of 
30,000 that were pro-slavery, very anti-Lincoln, and then there 
are pictures of a group of brown-shirted people marching down 
the street with lanterns, and they were called Wide Awakes, and 
they were pro-Lincoln. So you see this vitality and when we 
think of, for example, the Tea Party, Coffee Party, et cetera, 
there may be no one-to-one analogies here of any nature, but it 
is not as if no predecessor groups naturally formed that are 
concerned with things in our history. Public engagement is a 
terribly interesting phenomenon.
    As far as community colleges go, right now a little over 
half of the people in post-secondary education are in community 
colleges or their equivalent. Because we as a society tend to 
think of almost everything that does not go perfectly, we 
forget we invented this notion of community colleges. People 
around the world are now looking at the American model of 
community colleges. When first established they were almost 
exclusively trade oriented and almost exclusively oriented 
towards particular kinds of work in particular communities. So 
they are very adaptive. It was initially considered by many in 
the education field absolutely wrong to offer the general 
academic disciplines, now that has changed. Community colleges 
have evolved in many of the structural ways that you have 
indicated. So we are trying to figure out approaches to expand 
and strengthen humanities offerings in community colleges.
    And, frankly, we are exploring. We have made no final 
decisions, so if any of you have any particular idea or 
approaches we are very open to listening in that regard. We are 
going to do this year some kinds of matching grant approaches 
for endeavors at community colleges related to the humanities, 
and we are taking a grant-making format that we have that 
community colleges could apply for in the past that have not 
done well in competitions and taking the community college 
component out and making it exclusively for community colleges. 
And we have some general criteria on certain kinds of grants 
that are matching that have been 3 to 1 in the past. For 
community colleges, we are going to make it a 2 to 1 match and 
make the length of time needed for meeting the match a little 
bit longer. We are trying to do as much as we can to encourage 
a strengthening of traditional humanities teaching at community 
colleges. And this is not natural to every community college 
but is found to be something that there is increasing demand 
for.
    Mr. Moran. Very good. We applaud that effort. I think at 
this point we ought to move on to the Holocaust Museum. Thank 
you very much, Chairman Leach.
    Mr. Leach. Thank you, sir. 

    [GRAPHIC] [TIFF OMITTED] T6647B.010
    
    [GRAPHIC] [TIFF OMITTED] T6647B.011
    
    [GRAPHIC] [TIFF OMITTED] T6647B.012
    
    [GRAPHIC] [TIFF OMITTED] T6647B.013
    
    [GRAPHIC] [TIFF OMITTED] T6647B.014
    
    [GRAPHIC] [TIFF OMITTED] T6647B.015
    
    [GRAPHIC] [TIFF OMITTED] T6647B.016
    
    [GRAPHIC] [TIFF OMITTED] T6647B.017
    
    [GRAPHIC] [TIFF OMITTED] T6647B.018
    
    [GRAPHIC] [TIFF OMITTED] T6647B.019
    
    [GRAPHIC] [TIFF OMITTED] T6647B.020
    
    [GRAPHIC] [TIFF OMITTED] T6647B.021
    
    [GRAPHIC] [TIFF OMITTED] T6647B.022
    
    [GRAPHIC] [TIFF OMITTED] T6647B.023
    
    [GRAPHIC] [TIFF OMITTED] T6647B.024
    
    [GRAPHIC] [TIFF OMITTED] T6647B.025
    
    [GRAPHIC] [TIFF OMITTED] T6647B.026
    
    [GRAPHIC] [TIFF OMITTED] T6647B.027
    
    [GRAPHIC] [TIFF OMITTED] T6647B.028
    
    [GRAPHIC] [TIFF OMITTED] T6647B.029
    
                                         Wednesday, March 17, 2010.

                UNITED STATES HOLOCAUST MEMORIAL MUSEUM


                               WITNESSES

SARA BLOOMFIELD, DIRECTOR, UNITED STATES HOLOCAUST MEMORIAL MUSEUM
JAMES RICHARD GAGLIONE, BUDGET OFFICER, UNITED STATES HOLOCAUST 
    MEMORIAL MUSEUM

                   Opening Statement: Chairman Moran

    Mr. Moran. It is now time to begin the hearing on the 
United States Holocaust Memorial Museum. It opened in the 
District of Columbia in 1993 as a living memorial to the 
Holocaust created to remember the victims of the Holocaust, to 
stimulate leaders and citizens to confront a legacy of hatred. 
The Museum and its education and research programs worked to 
prevent genocide and to promote human dignity. Today we welcome 
Sara Bloomfield, who has been director since 1999. Ms. 
Bloomfield has an outstanding reputation as an educator and has 
led many important efforts throughout the country and the 
world. It is important that this story be told. As then-General 
Eisenhower wrote after encountering the Ohrdruf concentration 
camp, and I quote, ``I have never felt able to describe my 
emotional reactions when I first came face to face with 
indisputable evidence of Nazi brutality and ruthless disregard 
of every shred of decency.''
    Last June, a tragic hate crime occurred at the Holocaust 
Museum where a white supremacist shot and killed Museum 
security guard Stephen Tyrone Johns. We are here again wanting 
to recognize and remember Mr. Johns.
    I understand that the Museum and its outreach efforts 
continue to reach a wide audience. Over 30 million have visited 
the Museum so far including over 1.7 million just this past 
year.
    It will be interesting to hear Ms. Bloomfield explain 
highlights of the Museum's recent activities and its 2011 
budget request. I note that the Museum has continued to be 
successful at raising private funds to expand exhibits and 
widen public outreach all over the world.
    Mr. Moran. Mr. Simpson, do you have any opening remarks?

                     Opening Statement: Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman. Good morning, 
Executive Director Bloomfield. Thank you for being here today 
to testify for the important work that you do for the Nation 
and the world to combat hate and genocide.
    Only 9 months ago, as the chairman mentioned, hate barged 
through the doors of the Museum and took an innocent life. It 
was a critical reminder that the Museum's work is as much about 
the world's future as it is the past.
    Mr. Chairman and Executive Director Bloomfield, it seems to 
me that this is one area of the bill where the collective we 
seems to be getting it right. Thanks to modest appropriations 
by Congress and sound management by the Museum's staff, the 
Museum is able to plan and budget for the high start-up costs 
of new exhibitions. The Subcommittee is not in a position of 
having to fund sudden increases for mission-critical but vague 
ID and other equipment, and there is no maintenance backlog at 
the Museum. All this and still the Museum's unobligated 
balances are less than 5 percent of annual appropriations.
    The Museum's proposed fiscal year 2011 budget appears to 
have been untouched by OMB. It contains no new initiatives to 
be paid for by absorbing fixed costs in the so-called 
management efficiencies. This budget fully funds fixed cost 
increases for salaries and expenses in order to maintain 
current services. The Museum proposes a modest cut to its 
exhibition accounts even while it proposes to rename and expand 
the scope of the account in order to take advantage of online 
exhibition opportunities.
    I look forward to hearing about this proposal today and 
about the many ways in which you are helping people to 
understand that history is not necessarily destined to remain 
in the past.
    Thank you, Mr. Chairman, for calling this hearing today. 
While the Museum's budget is relatively small in this bill, $50 
million still deserves our attention. Fortunately, the 
Holocaust Memorial Museum seems to need little Congressional 
tinkering at the moment but eventually that may change, 
particularly as the building ages and the maintenance costs are 
likely to increase. I have little doubt that the collective we 
will have the foresight to address these and other items in a 
responsible fashion. Thank you.
    Mr. Moran. Thank you, Mr. Simpson.
    Ms. Bloomfield.

                    Testimony of Sara J. Bloomfield

    Ms. Bloomfield. Thank you, Mr. Chairman and Mr. Simpson. 
Thank you for your great support of our institution and your 
excellent articulation of what we are trying to achieve. It is 
an honor to report to you today on behalf of the Museum and on 
behalf of the millions of Americans who benefit from its 
programs. I want to thank you for the support of the Committee 
over many years.
    As you stated, the Museum's request is $50,520,500. The 
proposed increase over fiscal year 2010 is $1.4 million, which 
just covers pay raises and inflation and allows us to continue 
our operations at the current level.
    As you said so eloquently, we do more than teach the 
Holocaust. The Museum was really built to inspire people to 
learn the lessons of the Holocaust and act on them, and as a 
living memorial, we seek to inspire people worldwide to promote 
human dignity, confront hate and prevent genocide. If I may 
add, listening the previous conversation here about civility, I 
feel that we in a way make our own contribution to this in 
promoting human dignity among different groups for people to 
see the consequences of when you look at people who are 
different and treat them that way, there are great consequences 
for any society.
    As you said, we were a victim of hate ourselves last year 
when on June 10th a white supremacist shot and killed Stephen 
Tyrone Johns, one of our security officers. Mr. Johns was a 
wonderful man, beloved by all his colleagues who had worked for 
our museum for 6 years. He will always be remembered for the 
lives he saved that day. There were young schoolchildren in the 
area, and thanks to his actions and other security officers, 
our tragedy was not worse. We are establishing a privately 
funded summer youth leadership program in his memory.
    We are Congressionally mandated to lead the Nation in 
Holocaust remembrance, and this year is the 65th anniversary of 
the end of the war, and so we will be honoring all the soldiers 
who liberated the Nazi concentration camps. We are delighted 
that we have 120 liberators coming from all over the country 
for this event. And since you referred to General Eisenhower, 
you should know that he is memorialized in our Museum in many 
ways but most prominently our plaza is named after Eisenhower.
    President Obama delivered the address at last year's 
remembrance ceremony, and he invoked the obligation not just to 
honor the memory of the dead but to resist injustice and take 
action against atrocities wherever they occur. On the issue of 
contemporary genocide, we have opened a new exhibit called From 
Memory to Action to help visitors understand the continuing 
problem of genocide. We sponsored a Genocide Prevention 
Taskforce with the U.S. Institute of Peace, which was co-
chaired by former Secretary of State Madeleine Albright and 
former Secretary of Defense William Cohen. The taskforce issued 
a report outlining how our government can be better positioned 
to respond to and prevent future genocides.
    The Museum has a strong focus on the role of leaders and 
professions and maintaining a democratic society. We conduct 
programs for law enforcement, the judiciary and the military to 
help these professions better understand their roles in 
ensuring a just and humane society. Among our many partners are 
the military service academies, the FBI and the Federal 
Judicial Center. Last year, we trained all 50 State chief 
justices.
    In response to the rising power of the Internet and the 
pervasiveness of misinformation and online hate, we opened a 
special exhibition on Nazi propaganda that shows how the Nazis 
themselves used the most modern technologies of their day to 
sway millions to their ideology. Our own website is the leading 
online authority on the Holocaust. Last year, we had some 34 
million visits from every country except North Korea. With 
private funding, we have translated parts of our website into 
more than 10 different languages including Arabic, Chinese, 
Farsi, Turkish and Urdu.
    Over 30 million people have visited our museum since we 
opened 17 years ago including probably our most important 
visitors, 9 million schoolchildren and about 90 heads of state. 
Our Center for Advanced Holocaust Studies won three awards for 
the first volume of its groundbreaking encyclopedia of camps 
and ghettos. This project has so far identified 20,000 sites of 
Nazi incarceration across Europe.
    The Museum's collection now includes unusual documentation 
such as interviews, rare interviews we are getting with 
bystanders, collaborators and even perpetrators in Nazi crimes. 
Digitizing our collection will be a major priority to ensure 
its accessibility.
    Thanks to Federal funding, as you said, of our repair and 
rehabilitation program, we are able to meet all of our 
maintenance needs for the building, the museum building and its 
administrative center. We are currently evaluating our offsite 
storage for our collection facility to assess the long-term 
ability to meet the needs of our collection.
    As a public-private partnership, we are aggressively 
fundraising for both annual funds and to build an endowment. 
Fundraising has been off by about 25 percent since the 
recession began but the Museum is still very much supported by 
our donors. Last year we raised over $33 million.
    In closing, we deeply appreciate the support of the 
Committee and Congress. As the world continues to confront hate 
and threats to democratic values, we feel our mission is both 
timely and urgent and we are grateful to Congress and the 
American people who share that mission.
    [The statement of Sara Bloomfield follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.030
    
    [GRAPHIC] [TIFF OMITTED] T6647B.031
    
    [GRAPHIC] [TIFF OMITTED] T6647B.032
    
    [GRAPHIC] [TIFF OMITTED] T6647B.033
    
                           SECURITY CONCERNS

    Mr. Moran. Good statement. Thank you, Ms. Bloomfield.
    How have you responded to the security concerns after the 
shooting of security officer Johns? You mentioned you have 
responded in other appropriate ways, the scholarship fund in 
his name and so on, but what have you done to make sure that 
this cannot occur again?
    Ms. Bloomfield. Well, we took a variety of security 
measures immediately after the incident happened but we also 
asked the Department of Homeland Security to come in and do a 
whole review of our security program, which they did for us, 
and they have just issued a report. We are now discussing it 
with our governing board. They, by the way, praised the Museum 
for its high level of security and made several recommendations 
and we are discussing with our board which of these 
recommendations we think we can implement and which we are not 
able to. I would say that last year the Committee very 
generously gave us an extra $550,000 to support security. When 
we are done assessing this report, if we think we need more, we 
will come back to you but for now that looks fine.
    As for the specific recommendations that Homeland Security 
made to us, I am glad to talk to you about it in private. We 
generally do not discuss the security measures we take.
    I would just add also parenthetically that as a result of 
the strong support of the Committee for our security program 
over the years, I think they helped make this incident much 
less tragic because we do have armed officers. They were able 
to take down this assailant. This whole incident happened 
within 6 seconds and it was over, so we thank you for really 
helping us out in a real crisis for our museum.
    Mr. Moran. That is considered National Park property, is 
it?
    Ms. Bloomfield. It is Federal property. I think it belongs 
to the Museum, not the Park Service, but I can verify that for 
you.
    Mr. Moran. I am just wondering if people are entitled to 
legally carry weapons on the perimeter of the building, for 
example.
    Ms. Bloomfield. Well, they are not allowed to bring them 
into the building, and----
    Mr. Moran. Because that is a Federal facility.
    Ms. Bloomfield. Right. Exactly. This individual actually 
had his--it was a rifle, I believe, and had it hidden under a 
jacket and so it could not even be seen. In fact, the officer 
who was killed did not even see that this man had a gun. He was 
an elderly man. He was 88 years old. So the officer actually 
held the door open to let him in, so he had really concealed 
this weapon quite well.
    Mr. Moran. I am just wondering how the concealed carry 
would apply there, although since it is D.C. and not Virginia, 
they are different laws.
    Ms. Bloomfield. We could get back to you on that.

                      ETHICAL LEADERSHIP PROGRAMS

    Mr. Moran. It is fine. I am sure that you have responded in 
appropriate ways in terms of security at the Museum.
    If you could share with us just a few minutes on the 
ethical leadership programs that you conduct, whether you are 
able to meet the demand, and where the demand comes from?
    Ms. Bloomfield. Yes. We do a lot of these programs for many 
professions but I would say the primary ones are law 
enforcement, the military and the judiciary, and the programs 
are all based on the same premise. It is really an examination 
of how these professions behaved during the Nazi period, 
particularly during the transition from Weimar Germany, which 
was a democracy, a struggling democracy but certainly a 
democracy, into the early Nazi period when Hitler was 
consolidating his power and then into war and genocide. And so 
by studying their own profession and the history, it provokes a 
lot of conversations for their role today and particularly in 
post-9/11 America, a lot of these institutions are having a lot 
of questions about their responsibilities, their moral 
responsibilities. So to give you just one quick example, the 
German army was one of the most respected armies in the world 
before the Nazi era, and many people thought for a long time 
that the German army in World War II was engaged primarily just 
in winning the war, but we now know through scholarship that 
they were, parts of the army in Eastern Europe were involved in 
mass executions of civilians. So one of the programs we do for 
the military, and this is a program for all the military 
service academies, the defense war college, the defense 
intelligence agencies, is they take one case study, one 
battalion and look at the orders that were given to them, given 
to three different commanders to massively shoot civilians, 
just go out and execute them for no reason at all. One 
commander said, ``I would like to see the order in writing.'' 
It was given to him verbally. One commander just followed the 
order, did not ask any questions, and the third said, ``I am 
not going to follow it.'' So we use this as a case study to 
see, well, what were the consequences, what happened to those 
commanders, what happened obviously to the civilians in each 
case, and it prompts a very lively discussion for them in their 
roles today.
    We do have much more demand than we can respond to, 
particularly I will give another example. In the judiciary that 
we train, we have trained about 1,600 judges, State and Federal 
judges, but we have been asked to train all 11,000 State and 
Federal judges in the country, and right now we are seeking 
private funding for that. We will not be coming to you for that 
but would love to report to you on that after I find a private 
donor to make that possible.
    Mr. Moran. Very good. Thank you, Ms. Bloomfield.
    Mr. Simpson.

                          OUTREACH INITIATIVES

    Mr. Simpson. Your fiscal year 2011 budget proposes a small 
reduction in the Exhibitions Development Fund and proposes to 
rename it to the Outreach Initiative Fund. Please tell us about 
the scope of this fund in prior years and how and why you are 
proposing to change the scope.
    Ms. Bloomfield. Well, the fund was originally set up, I 
believe back in 1995, when our primary form of, I would say 
creating content and educating people, was through exhibitions. 
Of course, as you have been discussing all morning, the 
Internet has become very big and what we find is the content we 
create for a physical space can also be replicated in 
cyberspace and therefore we can use the same content and 
educate millions more people, and of course, an exhibition you 
eventually have to take down. Something you put up on your 
website stays up there forever. We have a philosophy at the 
Museum called COPE, Create Once, Produce Everywhere. It is a 
very efficient way to reach as many people as we can. So given 
the fact that we do not want to create anything without having 
opportunities to make online versions, to get our collections 
digitized and put them online because to give you an example, 
last year we reached about 1.7, 1.8 million came through our 
physical doors but 34 million people came through our cyber 
doors. So it is a way to really maximize the dollars that you 
are helping us with to educate the country.
    Mr. Simpson. Do most of the people that come to the Museum 
know that it is more than a museum?
    Ms. Bloomfield. No, they do not.
    Mr. Simpson. I mean, because I look at my own experience. I 
thought it was a memorial to the Holocaust but it is much more 
than that.
    Ms. Bloomfield. It is much more than that, and we 
actually--really, people think of it as people used to a 
museum, you go and you see stuff, and we are really not about 
stuff, we are really about a larger idea, and we try to do 
things, like our exhibition on Nazi propaganda is designed to 
meet our visitors where they come from so everybody is on the 
Internet today and this exhibit kind of makes the point that 
Hitler himself said propaganda is a terrible thing in the hands 
of an expert. Well, with the Internet, everybody can be an 
expert, unfortunately. So this exhibit is really geared to 
young people to get them to think about, you know, as I say 
very kind of glibly, what if Nazis had cell phones. I mean, 
that is a very scary thing. And we know we are living in a 
world with some pretty evil people. So young people have to 
learn to question what they get. We actually give young people 
a definition of what propaganda is. With the Internet, with the 
24/7 news cycle on TV, I mean, you know, it is a pretty 
dangerous world.

                       MILITARY TRAINING PROGRAMS

    Mr. Simpson. And I guess that is why I was so fascinated to 
learn about the training that you do with the chief justices of 
the States, with the military personnel, with medical personnel 
and others. Do the military personnel that you train then take 
that training back to their commands? Because a lot of the 
instances we hear about are troops on the ground, and I 
oftentimes wonder, because we are always told, you know, you 
are given an order, you follow it out in the military. And not 
having been in the military, I do not know how much training 
goes into determining what is a legitimate order, what is not a 
legitimate order, when do you say no and so forth.
    I have a soldier from my district, I happen to know his 
family, who is in jail now from Iraq. He was prosecuted for 
murdering an Iraqi civilian. The circumstances are--and as I 
walk through it, I am sitting there going I do not know if I 
was a young soldier, 19 years old, that I would have done 
anything different than he did. And I worry about the training 
that these people get and sometimes it is almost like they are 
the scapegoats for some of the decisions that are made higher 
up.
    So taking that training back to the troops and training the 
troops would be, I think, important too.
    Ms. Bloomfield. Right. It is a really good point. One of 
the things we have learned over the years in our training is 
first of all, it is who can we realistically reach, given our 
resources, and where can we have the most impact, and we 
believe, and from our evaluations of these programs, that 
reaching leadership is where you can have the most impact. So I 
can get you more information to what extent so, you know, we 
know we are reaching the future leaders because we are going to 
the military service academies and they are going to become 
leaders in the Army, and with our work with the defense 
colleges, we know again we are reaching the leadership. But I 
can get back to you on specifically how much this is filtering 
down. There is no way we can train everybody in the military. 
But the leaders, if you do not have your leadership support, 
you are not going to have it down in the ranks. After Abu 
Ghraib, you can imagine that conversation came up a lot in 
these discussions, and I know there were some comments. Again, 
I am not an expert on what happened in Abu Ghraib but a lot of 
those soldiers were in the Reserves, and one of the questions 
that came up was the training for Reserves as much as the 
training for the regular military. But I will get back to you 
on how much this is filtering down.
    Mr. Simpson. Thank you. I appreciate that.
    Mr. Moran. Thank you, Mr. Simpson.
    Mr. Hinchey.

                     GENOCIDE PREVENTION TASK FORCE

    Mr. Hinchey. Mr. Chairman, thank you very much. These 
hearings have been very fascinating and it has been great 
listening to you. I too appreciate all the work that you have 
done for so long there on that very important project, as you 
say, it is not just a Museum, it is a facility that does a lot 
more than that. A lot of it has to do with education and 
understanding the periodic perversity of human behavior and how 
it needs to be dealt with and hopefully even prevented. So 
thank you very much for everything that you are doing.
    I just have a couple of questions. The Genocide Prevention 
Taskforce report, can you tell us a little bit about that? I 
understand that you are directly involved in it and have some 
educational operations.
    Ms. Bloomfield. Yes. We convened this with the U.S. 
Institute of Peace and co-chaired, as I mentioned, by Madeleine 
Albright and William Cohen, and then they convened a group of 
leaders and then experts in various areas looking at the 
problem of genocide. Both Secretary Albright and Secretary 
Cohen, of course, were in government during the Rwandan 
genocide, and I think both felt great failures. Genocide is a--
once genocide breaks out, it is very hard to stop, and you 
really want to figure out, how can you anticipate it and do 
things ahead of time. So one of the things this report was 
designed to look at, could the government be better structured 
so that when these things happen, it is not always so much 
panic but we have systems and people in place to deal with them 
early on, prevent the eruption but then deal with the eruption 
more effectively.
    So some of the recommendations, for example, include having 
an interagency taskforce on genocide prevention and response 
with all the agencies that would have to deal with, so the 
Pentagon, State Department, CIA, NSC, and just have a group 
that is going to meet regularly on these issues and be prepared 
if something happens. It seems obvious but that was not in 
place and we are pleased that that recommendation has been 
adopted.
    Another one is to look at the threat of mass atrocities in 
doing the intelligence reporting, and I understand that this 
has also been adopted, that that will now become part of what 
they are looking at when they do that, and in the Quadrennial 
Defense Review, there will be some effort to begin to do some 
training in preparation for dealing with mass atrocities. So 
these are three of our bigger recommendations that we are 
pleased seem to be getting some traction.
    Mr. Moran. If I could interject for just a moment on the 
logistics here, we have three votes, which means that it is 
going to be 11:45 before we can get back. If we could 
accelerate this, maybe we can get the Eisenhower Commission in. 
These folks have been waiting all morning, I know, and so I 
think out of consideration to them, we might want to do that, 
but I do not want to cut short your questions, Mr. Hinchey.
    Mr. Hinchey. That is fine, Mr. Chairman. It has been very 
good and we deeply appreciate it. Thank you very much.
    Mr. Moran. Thank you very much, Mr. Hinchey. Thank you very 
much, Ms. Bloomfield.
    Ms. Bloomfield. Thank you. Thank you for the opportunity.
    Mr. Moran. We appreciate it.
    Ms. Bloomfield. Come visit us any time.

    [GRAPHIC] [TIFF OMITTED] T6647B.034
    
    [GRAPHIC] [TIFF OMITTED] T6647B.035
    
    [GRAPHIC] [TIFF OMITTED] T6647B.036
    
    [GRAPHIC] [TIFF OMITTED] T6647B.037
    
    [GRAPHIC] [TIFF OMITTED] T6647B.038
    
    [GRAPHIC] [TIFF OMITTED] T6647B.039
    
    [GRAPHIC] [TIFF OMITTED] T6647B.040
    
    [GRAPHIC] [TIFF OMITTED] T6647B.041
    
    [GRAPHIC] [TIFF OMITTED] T6647B.042
    
    [GRAPHIC] [TIFF OMITTED] T6647B.043
    
    [GRAPHIC] [TIFF OMITTED] T6647B.044
    
    [GRAPHIC] [TIFF OMITTED] T6647B.045
    
    [GRAPHIC] [TIFF OMITTED] T6647B.046
    
    [GRAPHIC] [TIFF OMITTED] T6647B.047
    
    [GRAPHIC] [TIFF OMITTED] T6647B.048
    
    [GRAPHIC] [TIFF OMITTED] T6647B.049
    
    [GRAPHIC] [TIFF OMITTED] T6647B.050
    
                                           Tuesday, April 13, 2010.

 THE TRANSFORMATIVE IMPACT OF ART: THE NATIONAL ENDOWMENT FOR THE ARTS 
                         FY 2011 BUDGET REQUEST

                               WITNESSES

ROCCO LANDESMAN, CHAIRMAN, NATIONAL ENDOWMENT FOR THE ARTS

                   Opening Statement: Chairman Moran

    Mr. Moran. Good morning and welcome to everyone. Before we 
begin today's hearing, I want to explain the agenda for this 
morning. First we are going to hear from that larger-than-life 
impresario by the name of Rocco Landesman, our new chair for 
the Endowment for the Arts and we are going to talk about the 
NEA's request for 2011.
    At the conclusion of the NEA budget hearing, we will 
adjourn and then we will hear from the cochair of the 
Congressional Arts Caucus, Louise Slaughter from New York.
    And once we have heard from Louise, we will hear from an 
esteemed panel of witnesses on the value of Federal support for 
the arts and arts education.
    I think Jeff Daniels and Kyle McLachlan and a number of 
people are coming over. We have a busy schedule. As a result, I 
don't have too long of a statement. Steve LaTourette came just 
in time for my statement. I thought I would be finished.
    I, of course, want to welcome Mr. Landesman. This is his 
first appearance before our subcommittee. We are here today not 
only to discuss your proposed budget but to celebrate the arts 
in America. This is one of the most fun days of the year in the 
Congress. Of course, some days it is not keen competition. 
There are some days when they are anything but fun. But we are 
going to talk about the influence that arts has in building and 
transforming our community.
    Every year the nonprofit arts and culture industry 
generates $166 billion in economic activity; almost 6 billion 
jobs, more than $100 billion in household income, and over $28 
billion in Federal, State and local tax revenue.
    Today has been designated as Arts Advocacy Day by Americans 
for Arts. They put together information on how far-reaching the 
arts are in developing and maintaining robust communities. They 
also improve student performance when art is incorporated into 
the curriculum. It is an industry where I think the word 
``transformational'' is appropriate.
    We all know stories about people seeing or hearing 
something truly motivating and changing their lives as a 
result. Denise Graves was an example where she told us in this 
hearing, actually, that she grew up in Washington but the 
Kennedy Center could have been the other end of the world until 
the NEA gave her an opportunity to hear her first opera. 
Someone picking up a paintbrush or finding new ways to 
communicate changes their lives, and, of course the lives of 
others.
    Arts are and remain an important part of our Nation's 
economy and it is a reflection of our culture. This Congress 
recognized the importance of the arts to the economy by 
providing the National Endowment for the Arts $50 million in 
Recovery Act funds. Not all of that money has been completely 
spent, but all of it has been obligated. It has gone out 
throughout the country. It has assisted arts organizations in 
all 50 States and the territories. We congratulate the 
Endowment for seeing to it that that money went out 
immediately, where and when it was needed.
    The budget request is $161 million. It is a reduction of 
more than $6 million from last year's enacted level. That is 
the President's request, as it was the previous year in fiscal 
year 2010.
    While I understand the fiscal constraints we are facing, we 
are going to want to ask you about the impact these reductions 
will have on your grant programs. In addition, we want to 
discuss your $5 million request for your new initiative, ``Our 
Town.'' Jeff Daniels was just telling me he started this Purple 
Rose Studio and he is putting on ``Our Town'' in Michigan. I 
understand this initiative is intended to revitalize 
communities by enhancing the presence of arts in those 
communities. And we share your vision of strengthening 
communities through the presence of arts, and are interested in 
hearing about this initiative.
    Mr. Moran. One other thing. This is so important. Steve, I 
hope you are focusing on this.
    Mr. LaTourette. Absolutely. Like a laser beam.
    Mr. Moran. Mr. Landesman won the Trifecta in the Kentucky 
Derby. Can you believe that? Talk about being in awe of 
somebody.
    Mr. LaTourette. What did it pay?
    Mr. Moran. $1.3 million.
    Anyway, moving along, let us hear from Mr. Simpson, who is 
a respected artist in his own right. And, in fact, Mr. 
Landesman was just in Idaho. I read about it in The New York 
Times. And Mr. Simpson, I know, would like to--they spelled it 
I-D-A-H-O. I think that is pretty close.

                     Opening Statement: Mr. Simpson

    Mr. Simpson. Do they know where it is? I am just kidding. I 
actually had an opening statement, but after that comment I am 
not sure I can get it out, Mr. Chairman.
    Chairman Landesman, I want to join Chairman Moran in 
welcoming you to testify today on your fiscal year 2011 budget 
request. We look forward to learning more about the important 
work the NEA is undertaking across the country. I also want to 
thank you and Anita for making time in your busy schedule to 
join me in Idaho last week for a whirlwind tour of the finest 
that the Idaho arts community has to offer.
    During the course of a very busy day, you had the 
opportunity to see firsthand the value of the arts in rural 
Idaho. The Big Read, Shakespeare in American Communities, and 
other NEA programs are the lifeblood of the arts in Boise, 
Jerome, and many other communities. And in fact, I picked up 
the paper the day after you were here, and the Shakespeare 
Festival--the play we saw was in Blackfoot, in my hometown, the 
next day. And they were on the front page of the paper there 
the next day. So they do a great job. I really appreciate the 
NEA's efforts to work with State art organizations because this 
is how we reach rural communities in Idaho and across the 
country.
    As you know, the NEA found itself at the center of a 
political firestorm in the mid-1990s because it began to stray 
from its central mission. It was a time when the NEA was 
receiving national attention not because of the quality of its 
initiatives, but because a specific grant became the subject of 
some controversy. After a period of introspection and 
congressional reforms instituted by this subcommittee, and with 
strong leadership, the Arts Endowment found its footing again 
and Congress has responded with more robust budgets.
    In recent years, the NEA has been successful because of its 
emphasis on promoting arts for all Americans rather than 
individual artists.
    Fifteen years ago, the NEA was fighting for its very 
survival. Today Democrats and Republicans provide broad 
bipartisan support for the NEA. A very important strategic 
decision was made some time ago, which I encourage you to 
continue, for the NEA to provide grant fundings to art 
organizations and local communities in every congressional 
district in the country. Local arts organizations, particularly 
those in rural areas where opportunities to experience the arts 
are often limited, welcome the opportunity to partner with the 
NEA on large national initiatives like The Big Read and 
Shakespeare in American Communities.
    Today the arts are prospering in both rural and urban 
settings and reaching a greater cross-section of our country 
than ever before.
    I want to close by expressing my support for The Big Read, 
arguably one of the most popular and successful initiatives 
ever developed by the NEA. The Big Read has worked largely 
because the NEA created partnerships across the country 
involving public, private, nonprofit and corporate entities.
    Created in 2006, this national initiative to encourage 
literacy and the art of literary reading has been hosted by 
more than 400 towns and cities in all 50 States, with over 
21,000 local and national organizations supporting this effort. 
This initiative is popular because it has broad reach across 
all segments of society, urban and rural, rich and poor, and is 
widely supported by both Democrats and Republicans.
    The Big Read makes literature a topic of conversation in a 
community and creates synergy between educators, civic leaders 
and citizens. Local libraries and school libraries are 
transformed from book lending institutions to community 
cultural centers. Because of its proven success, I look forward 
to working with Chairman Moran and members of the subcommittee 
to ensure The Big Read receives adequate levels of funding 
going forward.
    Thank you for being here again today. I really enjoyed your 
time out in Idaho and I thought it was a good experience for 
all of us. Thanks for being here today.

                 Testimony of Chairman Rocco Landesman

    Mr. Landesman. Thank you, Congressman. Before I begin, 
speaking of art in rural areas, they told me I was visiting 
Congressman Simpson's district. They neglected to tell me that 
basically his district is the whole State of Idaho. And we are 
in Boise, and they say we are going to go on to the next town. 
Well, the next town is 200 miles away. And then we are going to 
the next town after that, that is another 150 miles away. So we 
did spend a lot of time in the car, but it is a gloriously 
beautiful State and I was very glad to be there.
    Mr. Moran. It takes a big man to represent a big State.
    Mr. Simpson. You had a good 2 days, didn't you?
    Mr. Moran. Mr. LaTourette, did you have any comments?
    Mr. LaTourette. I have nothing to say at this point.
    Mr. Moran. Mr. Landesman, we would love to hear from you. 
Thank you.
    Mr. Landesman. Mr. Chairman and distinguished members of 
the subcommittee, I am pleased to be appearing before this 
subcommittee for the first time as Chairman of the National 
Endowment for the Arts. I look forward to discussing with you 
the President's fiscal year 2011 budget request of 
$161,315,000, which includes support for our ongoing 
activities, as well as $5 million for a new initiative we refer 
to as ``Our Town.''

                          USE OF FY2010 FUNDS

    Before I speak about the President's budget, I would like 
to briefly bring you up to date on what we have been doing 
since I joined the agency this past August. As you know, in 
fiscal year 2010, we expect to invest nearly $140 million in 
support of the arts throughout the Nation. Through the more 
than 2,000 direct grants expected to be awarded, we can 
anticipate reaching nearly 100 million people.
    But our reach and impact go even further. Through the 40 
percent of our grant-making funds awarded to the State arts 
agencies and their regional arts organizations, thousands of 
additional grants are awarded to support worthy projects in 
communities throughout the country. In fiscal year 2010, we 
have almost an $8 million budget for Learning in the Arts 
grants, and we will invest well over $4 million in arts 
education through our access to artistic excellence grants and 
State partnerships. In addition, I have challenged my staff to 
find at least one arts education project in every congressional 
district.
    In order for the NEA to invest most effectively, it is 
important that arts organizations and creative communities 
across this country feel closely connected to us. We are using 
technology to connect even more Americans with the agency. We 
have launched an agency blog on our Web site, www.arts.gov, and 
a Twitter account at NEA Arts. We will shortly launch a 
Facebook page to continue to broaden our reach and keep the 
public informed in real time. And we have begun Webcasting 
agency convenings. Most recently, we Webcast the March 2010 
public meeting of our National Council on the Arts which helped 
ensure even greater transparency into the work of the agency.

                          ``ARTS WORKS'' TOUR

    Technology is no substitute for in-person meetings. So last 
October I announced I would begin an ``Art Works'' tour. When I 
say ``art works,'' I have three meanings for those two words. 
One, they a noun that refers to the creation of artists, works 
of art. Two, they remind us that art works on audiences and 
viewers to transport and inspire them. And three, they are a 
reminder that arts workers have real jobs and are a vital part 
of this country's economy.
    I was in Pennsylvania last week and the Governor cited the 
Pennsylvania cultural data project which reports that, in 
Pennsylvania alone, nonprofit cultural organizations and their 
audiences had direct expenditures of $1.99 billion, which 
supports over 48,000 full-time equivalent jobs and means over 
900 million in resident household income.
    I began seeing how art works in Peoria, Illinois last 
November; and most recently, just last Monday in fact, I had 
the pleasure of joining Congressman Simpson in his district to 
see how art works in Boise, Jerome, and Twin Falls, Idaho.
    Everywhere I go, I see how the arts help create the sorts 
of places where people like to live, work, and play. In fact, 
Chairman Moran recently wrote in the Falls Church News Press 
about how the arts have transformed communities ranging from 
New York Mills, Minnesota, to Paducah, Kentucky. Thank you for 
that.
    Mr. Moran. You are a wide reader.
    Mr. Landesman. And Professor Mark Stern, along with his 
colleagues from the University of Pennsylvania and the 
Reinvestment Fund, has discovered that the presence of the arts 
has three main effects:
    One, the arts are a force for social cohesion and civic 
engagement. People who participate in the arts are more likely 
to engage in other civic activities, leading to more stable 
neighborhoods. I consider that very important.
    Secondly, the arts are a force for child welfare. Low-
income populations with high cultural participation are more 
than twice as likely to have very low truancy and delinquency 
rates.
    Three, the arts are a poverty fighter. They do this through 
direct employment and they do this by leveraging other jobs: 
the restaurants, retail stores, and hotels that spring up 
alongside cultural districts.

                          FY11 BUDGET REQUEST

    This brings me to the President's 2011 budget request for 
the National Endowment for the Arts. As you know, the NEA has a 
threefold mission: to support excellence in the arts, both new 
and established; to bring the arts to all Americans; and to 
provide leadership in arts education.
    The President's budget request maintains the NEA's positive 
momentum in providing support to this country's nonprofit arts 
organizations.

                   AMERICAN MASTERPIECES AND BIG READ

    There are two changes that I would like to highlight for 
your attention. In April 2005, the NEA launched a funding 
initiative called ``American Masterpieces'' that was designed 
to ensure audiences the opportunity to see classic American 
repertoires. As we reviewed these grants, we realized that the 
sorts of projects and organizations being funded through this 
program were largely redundant to the support being offered 
through our core discipline grants, the one notable exception 
to this being The Big Read which provides communities the 
opportunity to read, discuss, and engage with one another 
around a shared reading experience. This program will continue, 
and will continue as the agency's largest national initiative.
    In fiscal year 2010, the NEA's budget contained $10 million 
in American Masterpieces funding. In our 2011 budget, you will 
see that we have proposed instead to have $5 million to fund 
``Our Town,'' which I will discuss in a moment; $1.5 million to 
continue The Big Read; and the balance to contribute toward 
offsetting any differences between our fiscal year 2010 and 
2011 allocations for our direct grants.

                        ``OUR TOWN'' INITIATIVE

    We are extraordinarily proud of the success of our programs 
and the benefits that accrue to the American people. We 
believe, however, that there is an element of our grant-making 
program that has been missing, an element that is particularly 
important today. This is, of course, the ``Our Town'' 
initiative presented in the fiscal year 2011 budget. This 
initiative is built upon solid fact-based research, such as 
that of Professor Stern; personal firsthand observations and 
the recognition that all Americans have an investment in the 
places they live. Through Our Town, we anticipate investing the 
proposed $5 million in up to 35 communities to support planning 
and design projects and arts engagement strategies. The funded 
projects might include the mapping of a cultural district along 
with its development potential; the integration of public art 
into civic spaces; a community waterfront festival; affordable 
housing for low-income artists; rehearsal spaces to serve as 
research and development space for our performing arts 
companies; outdoor exhibitions and performances to enliven 
civic spaces and engage citizens and so on.
    Almost every Federal agency under this administration is 
looking at its role in helping to create sustainable 
communities. And I have been meeting with other Federal agency 
heads to talk about ways that our agencies might partner in 
deep and meaningful ways. It is my hope that as Our Town 
recipients are selected, we can look at the other Federal 
agencies working in those same places to discover areas of 
mutual interest and overlap.
    Everywhere I have gone over the past 9 months, I have been 
encouraged by the resilience and adaptability of our arts 
organizations as they strive to fulfill their mission in the 
midst of a challenging economy. They remain active and 
optimistic. And I remain eager to enjoy their work and offer 
the NEA support as effectively as we can.
    A thriving arts sector brings with it economic and cultural 
vitality that helps drive community stability. In short, art 
works. That is my story and I am sticking to it.
    Let me end by thanking the chairman and the distinguished 
members of the subcommittee for your ongoing support of both 
the agency and the arts. I look forward to our discussion and I 
am happy to answer any questions that you may have. Thank you.
    Thanks very much, Mr. Chairman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.051
    
    [GRAPHIC] [TIFF OMITTED] T6647B.052
    
    [GRAPHIC] [TIFF OMITTED] T6647B.053
    
    [GRAPHIC] [TIFF OMITTED] T6647B.054
    
              INCREASED BUDGET AND IMPACT OF ARTS FUNDING

    Mr. Moran. Because we have other witnesses, this is not 
going to be as long as I wish it could be, because this is one 
of the most exciting aspects of the entire appropriations bill 
that we have to consider.
    But your request is for a reduction, and yet your 
initiative is to create jobs all over the country, new jobs, 
jobs that are designed to serve as a magnet for further 
economic development. I see the Ford Foundation is trying to do 
the same thing, again with limited resources, but they have 
looked at the research and understood that a theater or any 
kind of performing facility invariably serves as a magnet, and 
you get restaurants and retail and so on.
    Maybe you could share with us, if you had your druthers, 
what would this budget look like? I mean, don't get too carried 
away. But if you were asking for money that you know could be 
very well spent, spent within the ensuing fiscal year, and 
spent to create more jobs and economic development throughout 
the country, what would you be asking for?
    Mr. Landesman. Of course, I am here to defend the budgetary 
request.
    Mr. Moran. I know. That is why I asked you to look beyond 
the parameters of the administration, and we are asking you 
directly, if this were possible.
    Mr. Landesman. If it were possible, of course I would love 
to see a restoration of at least last year's numbers. That is 
not really my call. I am here to defend the budget that is 
submitted before us. I do know that the Our Town money, in my 
belief, is highly leveraged money; that that money is going to 
have a ripple effect through all the communities where we take 
this initiative. I am convinced of that. Because it is only $5 
million to start, we are going to have to start in very limited 
fashion in only a few places. I think we are talking about 35 
communities to begin with.

                         WORK WITH FOUNDATIONS

    But you mentioned something else that I think is very 
interesting here; you mentioned the Ford Foundation. They 
recently announced a $100 million new strategic initiative in 
the arts that is very exciting to me. And I am hoping we can 
work alongside them in some of the things that they are doing, 
which are very enlightened.
    One of the things I did when I was nominated for this 
position, long before I was confirmed, was to meet with the 
heads of the major foundations that have interest in funding 
the arts, to talk to them about what they were doing. I met 
with Luis Ubinas at the Ford Foundation and Rip Rapson at 
Kresge in Detroit and Jim Canales with the Irvine Foundation in 
California and Don Randel with Mellon. They are very interested 
in the arts and they seem to be very interested in what the NEA 
is planning to do strategically in the arts. And I am hoping 
that one way we can leverage our very limited resources is 
through close cooperation with the private sector foundations, 
individuals, corporations. I think that would be very 
meaningful for us going forward.

                    ECONOMIC IMPACT OF ARTS FUNDING

    Mr. Moran. Let us just conjecture, if we were able to 
restore your budget to last year's level, how much additional 
economic activity do you think that would generate given the 
fact that it is highly leveraged?
    Mr. Landesman. The Our Town program, as we have conceived 
it, has a very high multiplier effect. One of the things we 
have learned is that as you bring art and artists into the 
center of town, it changes that town profoundly in every way, 
but certainly in an economic way. You know that expression in 
Field of Dreams: If you build it, they will come.
    We are doing the reverse of that. We are saying that if you 
come, they will build it; that if you bring art and artists 
into town, businesses will follow, because people don't follow 
businesses; businesses follow people. And businesses are 
looking for an educated, committed, enlightened workforce. And 
that kind of workforce, if you poll them about where they want 
to be, they cite two things again and again: education and 
culture. Where you have culture in a community, you attract 
people, and those people attract businesses, and those 
communities start to change. We believe passionately that the 
arts revitalize neighborhoods and communities. And we are very 
committed to that.
    Mr. Moran. That is a compelling argument. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman, and thanks for the 
coffee.
    Mr. Moran. You are welcome.
    Mr. Simpson. Now I owe you one. Geez, I am sure you are 
going to get even at some point in time.
    Mr. Moran. There will be opportunities.

                        ``OUR TOWN'' INITIATIVE

    Mr. Simpson. As I said, thanks for being here today.
    Let us talk a little bit about Our Town. Five million 
bucks. What can you do with $5 million dollars in terms of, I 
think you said, planning and design? Give me an example of what 
you might do. Grants are going to go out for a quarter of a 
million dollars, up to a quarter of a million dollars, I think.
    I guess the reason I ask this is I agree with what you say 
and what you are trying to do. I wonder what you can do with 
such a limited amount of money in terms of such a big scope of 
planning and designing, especially when I look within the 
budget request. And not for the NEA but for the National Park 
Service, there was a program that has gone on for years called 
``Save America's Treasures.'' We have used that funding for 
seed money to restore theaters in communities, a place where 
you go to watch plays and movies, those kind of things.
    I seem to have lost my train of thought here. But the 
problem is, we are reducing the budget here for that, and I 
have seen the great work that it does. Reducing the budget over 
here, the proposal to eliminate that, and now we are starting a 
new program over here--which I am not opposed to--I am just 
wondering how it is different, what it is going to do to 
promote the arts in communities.
    Mr. Landesman. The three components will be planning, which 
might be the mapping of cultural assets in an area.
    Mr. Simpson. Give me an example. What do you mean, mapping 
of cultural assets?
    Mr. Landesman. Finding out what is there, where they are, 
what their needs are, how they relate to the communities and 
each other. Basically to take stock of what is there.
    Another element is design. That is a big component of this, 
which is encouraging partnerships that link compelling 
architecture, energetic streetscape, sustainable parks and 
landscapes.
    There is a great example of that in my hometown of St. 
Louis, Missouri, where it used to be people would come down 
from the suburbs to see a ball game at Busch Stadium, park in 
the parking lot, drive right back to the suburbs. Now there is 
something there called City Garden, which is an open, public 
sculpture garden. The people now take time to mill through, to 
visit and enjoy. And what happens is they end up milling around 
downtown and engaging the rest of the city. They are not just 
making a one-shot to the ballpark.
    A lot of this involves preservation and creative reuse of 
buildings. Boy, did I see that in Boise. The Egyptian Theater 
is almost a poster child for this and its effect on the economy 
of downtown. Look at the past development in that block which 
is both preservation and creative reuse involved. This has a 
direct, demonstrable effect on local economies.
    In Old Town, taking a torpedo factory and making it into 
one of the most engaging collections of art galleries that you 
could possibly imagine. This is exactly what we are talking 
about with Our Town. To me, it is not only wonderful for the 
arts, but it is wonderful for the economies of every community 
that we bring it to. And I feel very strongly about this.

                    ECONOMIC IMPACT OF ARTS FUNDING

    Mr. Simpson. Are we being counterproductive in your 
opinion--and maybe you do not want to answer this because it 
deals with other areas of the budget--in eliminating a program 
over here that I think is very important in terms of saving 
historic treasures in this country, on the one hand, and 
starting a program to do maybe the same thing but more broadly, 
on the other hand?
    Mr. Landesman. The historical treasures, that is out of my 
department, really.
    Mr. Simpson. That would probably be a good thing not to 
comment on.
    Mr. Landesman. That would be out of my league, I think. I 
do know that these funds leverage very powerfully into the 
economy. One great example is in Detroit where you have the old 
General Motors Design Center that has fallen into disuse. It 
has now been reborn as the Taubman Center where they are 
training kids. There is an arts charter school and a college 
there to train kids in the new economy. They are training them 
in industrial design for the present day. It is the reuse of a 
building, and it is the training for the new economy in 
Detroit.
    Mr. Simpson. Would it be like in Idaho Falls, where I am 
from? Right along the river, by the falls, there is a nice 
parking area and there is a road that goes by it, one of the 
main roads. And the city is considering closing it down. They 
have some nice artwork, outdoor artwork all along there, and 
they are thinking about closing down the road, making it a 
walking area, and connecting it with the Willard Theater which 
is a performance arts center downtown. And they are looking to 
do that to revitalize the downtown, the old downtown historic 
community.
    Mr. Landesman. That is exactly right. I think the good news 
is that the administration gets this, how these engagements go 
across the typical Federal agency guidelines. The Secretary of 
Transportation, Ray LaHood, doesn't view the Department of 
Transportation just as an engineering and road building agency. 
He views it directly related to the quality of life in a 
community.
    So things like you have just described are very much in the 
wheelhouse of the Department of Transportation and I think that 
is a very exciting development.

                              THE BIG READ

    Mr. Simpson. On another subject, just one more question 
before we go on to Steve. The Big Read program, as we talked 
about when you were out in Idaho, the program is very popular 
throughout--Congress with Members of Congress throughout the 
country.
    We had looked at, I guess, the goal at the time when it was 
started as 10 pilot programs, and our goal was to reach 334 
communities and stuff. With the $1.5 million we have, it has 
been substantially reduced. You are looking at 75 communities 
to do The Big Read in this year's budget. A substantial 
reduction, refocusing. And I understand a new administration 
has come in, they have different priorities, things they would 
like to do a little differently, and you have every right to do 
that, to put your emphasis on things that you think are 
important like Our Town. But successful programs are successful 
programs. And I think we all understand that The Big Read has 
been a very successful program. Talk about what is going to 
happen with that, if you would.
    Mr. Landesman. The Big Read is a very, very popular NEA 
program and it is popular with me. If I wasn't committed to The 
Big Read, I would abolish it. We are maintaining it as the 
largest funded NEA program.
    What typically happens with these programs is they get 
started up at a small level with seed money and maybe a few 
pilot programs at first. An example of this would be 
Shakespeare in American Communities or the Jazz Masters 
Program. The Big Read is another example. They get ratcheted up 
to a very high level as you are building awareness of it 
throughout the country and you do a build-out to scale. And 
then they tend to go to a maintenance level where you feel you 
can have strong presence throughout the country at a very high 
level on more of a maintenance commitment. And our $1.5 million 
is dedicated to that. And I think it is going to maintain The 
Big Read as a very, very strong program throughout this 
country.
    Mr. Simpson. Do you expect, with the reduction that is 
going on, communities seeing that this is a successful program, 
to pick up the slack and move this program forward in other 
communities without necessarily having the NEA involved in it, 
just by seeing that it has been a successful program?
    Mr. Landesman. That is the hope with every NEA program. If 
the programs are that good, they are going to be sustained one 
way or another. Certainly with our help, we have a major 
commitment to it. But I think The Big Read is a program that 
has been taken on by local communities everywhere and I am very 
hopeful about its future.
    Mr. Simpson. Thank you.
    Mr. Moran. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Landesman, nice to see you. I very much appreciated the 
courtesy you provided by coming to see me a little while ago. I 
didn't know you were a Trifecta winner. You hid that from me, 
and maybe a little bit later if you are thinking of any lottery 
numbers, you can share that with us.
    I would like to pick up where Mr. Simpson dropped off. I am 
a big fan of The Big Read program as well. Could you just--
because I don't know--tell me things like how often you swap 
out the books, and how are the new books selected?
    Mr. Landesman. We would have to get back with some staff 
input on that. I am not familiar enough with the actual 
mechanics of the program to be very enlightened. But we can get 
some information for the record for sure.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.055
    
    [GRAPHIC] [TIFF OMITTED] T6647B.056
    
    Mr. LaTourette. I appreciate that.
    Over my spring break I toured a company called ``Play 
Away'' and I was blown away. They basically have developed the 
technology where they have an MP-3 player that plays on a AAA 
battery that is completely dedicated to a book. So they have an 
agreement with the publisher, and it is very popular with 
libraries and it is also very popular with the troops. Because 
if you think about it, you can take it in a little thing like 
this, a little tin, and you get one entire audio book with a 
AAA battery.
    Mr. Landesman. I am a theater guy. I love literature. So 
did my predecessor. I think literature is going to have a very, 
very strong place in the NEA going forward.

                          CONTROVERSY AND NEA

    Mr. LaTourette. Good. I appreciate that.
    Mr. Simpson in his opening remarks talked a little bit 
about some of the controversy at the NEA in the 1990s and so 
on. And I am real familiar with that. And I said at last year's 
hearing--and it is worth repeating--that there wouldn't be an 
NEA if my mentor, Ralph Regula, hadn't stood up in the 1990s, 
in the face of some pretty serious pressure on my side of the 
aisle to defund it.
    I can remember running for the first time in 1994, and you 
would go to these very conservative groups that wanted to be 
supportive. And they would say, the first thing you have to do 
is eliminate the NEA, the NEH, and Public Broadcasting and 
defund them. And there were certainly voices in the United 
States Congress in 1995 that were on that track. And I fully 
believe that Ralph Regula would have been the chairman of the 
full committee if he had not taken that position back in the 
1990s. I know that you know that, and I know you appreciate it.
    But the purpose of that long introduction, because I really 
don't want to suck up too much to Ralph because he is not 
here--when he is here, I am really going to give a whole big 
presentation. After last year's hearing there was, in fact, a 
little dust-up going on.
    We had a hearing, and I can remember hearing some of the 
same voices. You go to a town hall meeting and say, wait a 
minute, there is somebody at the NEA that is sending e-mails 
around saying that the NEA should be there to support President 
Obama and his policy. I don't know how you have a play about 
cap and trade, but I suppose you could do that. But I am just 
wondering what the status of that is relative to mission, and 
what happened to that employee, and anything you want to tell 
us.

                     HATCH ACT AND ETHICS TRAINING

    Mr. Landesman. Well, the fact is that it is my own personal 
view that the arts should not be politicized in any way, shape 
or form, particularly the NEA. And in fact, there was a period 
before the time when I was confirmed, when I sent a very sharp 
e-mail to a staff member that I knew at the NEA, expressing 
alarm that there had been a meeting that seemed to have a 
political purpose. The reference that you are making is to some 
conference calls that the communication director of the NEA 
attended without the authorization of the then-acting NEA 
Chair. In fact, she had specifically instructed him not to go. 
He went anyway, and the result is the dust-up that you are 
talking about.
    There are a couple of things I can report. Number one, that 
individual no longer works at the NEA. This occurred just 
before I arrived, and I dealt with that after I got there. And 
more specifically, I have instructed our general counsel to 
conduct training sessions about the Hatch Act with all of our 
staff at the NEA, including the senior staff and including 
myself. That session was held in October and that is going to 
be an annual thing, along with continual ethics instruction 
from the general counsel. Ethics training is going to be part 
of what you do when you get to the NEA, and I am going to do 
everything to make sure nothing like that happens on my watch.
    Mr. LaTourette. I really appreciate that answer. And I 
think that that answer and that kind of attitude will make it a 
lot easier for people on this side of the aisle to be 
supportive of what it is you are doing. If any agency is seen 
as an extension of either political party, it is not good for 
the agency, and it is not good for the arts and so on and so 
on. So I appreciate that answer. I wish you good luck.
    Did you say you went to Twin Peaks, Idaho?
    Mr. Landesman. Pardon?
    Mr. LaTourette. Did you go to Twin Peaks, Idaho?
    Mr. Landesman. I did.
    Mr. LaTourette. Is that the TV show?
    Mr. Landesman. Twin Falls. Twin Peaks is a TV show.
    Mr. LaTourette. That is what I thought. I was just 
wondering. And Twin Falls----
    Mr. Landesman. I can say this about Twin Falls. It is far. 
They are very good at distances there.
    Mr. LaTourette. And they apparently have a theater there as 
well.
    Mr. Landesman. There is a new theater and arts center being 
built there, with one of the most amazing views of the Snake 
River you are ever going to see.
    Mr. LaTourette. I appreciate it. Thank you for being here. 
And I wish you good luck in what you are doing.
    Mr. Simpson. If I might respond, Mr. Chairman. I went down 
to the Smithsonian the other day--and have any of you seen the 
art collection down there; the framing of the West, of the 
early photographs taken of the geological expeditions that were 
done? The most photographs of any one site are of Twin Falls, 
Idaho, and Shoshone Falls, and their beautiful theater.
    Mr. LaTourette. I actually have that--the Librarian of 
Congress gave me that book. It is on my coffee table and I will 
look at that this week.
    Mr. Simpson. Do that.

                          STATE ARTS COUNCILS

    Mr. Moran. I am glad we have pursued that and clarified it. 
Thank you, Mr. LaTourette and Mr. Simpson.
    Let me just ask a couple of things. First of all, the State 
Arts Councils are sort of disparaged in the way they are 
dealing with the current recession. Some are maintaining their 
budget. Others are cutting back on their budget. As far as I am 
concerned, since this is very much a matter of leveraging, it 
would be unfortunate to enable the States to supplant their own 
contribution with Federal funds, so I would hope that not be 
done.
    In other words, if a State is willing to hang in there and 
provide its own resources, then it should be more likely to get 
support. And those States that don't make it a priority, 
perhaps the NEA ought to be going around the States to the 
local levels that do understand how important art is to their 
communities. That is just a comment.

                           RECOVERY ACT FUNDS

    I have one question that I think is useful for the record. 
Mr. Simpson, Mr. LaTourette, being enlightened people, they are 
not going to raise these kinds of questions. But there will be 
some who----
    Mr. Landesman. You will.
    Mr. Moran. No. No, I am probably not going to, to be honest 
with you. But I want to be prepared to respond to those who 
bring up questions that are unsubstantiated by the facts. And 
one issue that they might raise is some of the performances or 
shows or whatever that were funded by the Recovery Act funds, 
the $50 million that was in the Recovery Act, you can't and 
don't try to control those. And I want to make it clear for the 
record, what you did was to enable people who are currently 
employed in large part to be sustained in their efforts to 
maintain artistic activities. So you were providing jobs, not 
funding specific projects or shows or whatever. That was up to 
the discretion of the individuals.
    You might want to elaborate on that for just a moment, Mr. 
Landesman.
    Mr. Landesman. Yes indeed, and thank you. The process for 
our grants was similar to the normal grant-making process. 
There is a panel review submitted to the council and to the 
chairman, except in this case it was somewhat accelerated. We 
had readers, because there was a very condensed time frame that 
we had to get these grants out. But the criteria were 
different. What the panelists were looking at in terms of the 
ARRA-related proposals was one thing--job preservation and 
creation. That was the evaluation metric. If it preserved a job 
or created a job and it could be proven and established, that 
proposal would get a high mark. If not, not. That was the sole 
criteria. This was about jobs.
    Mr. Moran. Good for you. Well, that is what it was intended 
to do. And I am glad you clarified that so that any criticism 
of activities that were funded would be misdirected at the NEA. 
If the criticism is proper, then it should be at those local 
activities and the judgment of individuals that were not under 
your control, of course.
    With that, Mr. Simpson did you have any further questions?
    Mr. Simpson. Yeah, I do. Let me follow up on what you just 
said, though. The American taxpayer looks at it as their tax 
dollars. They don't care if it goes to the NEA, the local 
people, or who it goes to. They look at it as my taxdollar 
going to something that they think might be inappropriate.
    So the NEA has to be--even though you put it out as a grant 
and the grantee makes the final decision, et cetera, that 
doesn't sell with the American public that might be opposed to 
some of the stuff. And I think that is how we get ourselves 
into the situation that occurred in the 1990s.
    So the NEA has to be responsible for those grants by 
putting some type of, I don't know, guidelines on what some of 
this stuff can be done. Because what I don't want to do, I 
don't want to go through the 1990s again, and I am sure you 
don't either. We want to move the arts forward in the country.
    Tell me about where our country stands in terms of public 
support for the arts versus other countries, if you would. 
Because I know you have had some comments on that in the past, 
and, fortunately or unfortunately for you, your comments always 
get reported.
    Mr. Landesman. Well, there are really two questions there. 
One is, as you know, we have a very thorough review process for 
our normal grant-making efforts that have a lot to do with the 
proprietary quality of the individual grants and the 
appropriateness of them. And I think we do a very good job of 
monitoring that. The ARRA grants were specifically about jobs 
and were in a different category, really.
    Mr. Simpson. They are in a different category. But the 
public is going--if they think something is inappropriate and 
they are funded with their tax dollars, they don't care what 
category it is in or whether it is about jobs or anything else. 
They are going, ``What the hell is going on with my tax 
dollars?'' And ultimately we have to be responsible for it. 
Ultimately we are responsible in Congress.
    Mr. Landesman. But going forward, the NEA grants with the 
budget that we have been given are going to be given according 
to the processes that we have been using all along. I think you 
have seen in recent years those have been very effective.
    Mr. Simpson. Before you answer the second question on that, 
are you going to recommend changes to the guidelines that 
Congress has put in place? You suggested that before, because 
supporting the arts is supporting artists, and, of course, we 
have gone a different direction in years since the 1990s. And 
you suggested maybe that we need to be changing direction a 
little bit.

                  AMERICAN PUBLIC SUPPORT FOR THE ARTS

    Mr. Landesman. That is not part of my agenda this year.
    The other question is an interesting one--and I have to be 
a little careful how I answer, because I am here to defend the 
present submitted budget, which I very much believe in. If you 
are talking about the United States and how it compares to the 
rest of the developed world, there is a sharp contrast in the 
level of public arts support. There is no question. England is 
the country in Europe that is the worst supporter of the arts 
in terms of public dollars and their budget for the arts is 
$900 million. That would translate in the United States to $4.6 
billion alone per capita basis. We are not going to see that in 
my lifetime or yours. And we are not exactly comparing apples 
and apples here, because we have a much stronger private sector 
engagement with the arts and support of the arts in the United 
States than they do in Europe. But from a purely public 
perspective, there is no question that support of the arts is 
much greater in Europe.
    Mr. Simpson. Does Europe have, or other countries have the 
same type of tax benefits that we have in this country for----
    Mr. Landesman. Not always. We have a system that encourages 
private giving, and that is one of the reasons we have such 
strong private participation and support for the arts, no 
question.
    Mr. Simpson [continuing]. Well, thank you. And thanks for 
being here today. I look forward to working with you to try to 
advance the arts in this country. You do an important job.
    Mr. Landesman. Thank you very much.
    Mr. Moran. Thank you, Mr. Simpson.
    Mr. LaTourette, did you have anything? Okay.
    Very well done, Mr. Chairman, in your first appearance. I 
hope there are going to be many, and we look forward to seeing 
the impact that you are going to have on this country. We fully 
understand that there is no finer person with more 
qualifications, but, more importantly, more motivation and 
insight into how to make the arts defining of our civilization 
than you, Mr. Chairman. So, Mr. Landesman, thank you very, very 
much.
    Mr. Landesman. Thank you very much, Mr. Chairman.
    Mr. Moran. Thank you. Very good.
    We are going to recess for just a few moments. I think that 
what we will do is wait for Chairwoman Slaughter. As soon as 
Chairwoman Slaughter arrives, we will begin hearing from her, 
and then we will hear from the Arts Advocacy Council. Very 
good. Thank you very much.
    [Questions for the record begin on page 659.]
                                           Tuesday, April 13, 2010.

                       CONGRESSIONAL ARTS CAUCUS

                                WITNESS

CONGRESSWOMAN LOUISE M. SLAUGHTER, CO-CHAIR, CONGRESSIONAL ARTS CAUCUS

                   Opening Statement: Chairman Moran

    Mr. Moran. Chairman Slaughter, it is nice to have you with 
us.
    Ms. Slaughter. Thank you very much. Are you----
    Mr. Moran. Waiting for you, yes.
    Ms. Slaughter [continuing]. If I could find my way into the 
chair, that would be impressive, wouldn't it?
    Mr. Moran. Which chair do you want?
    Ms. Slaughter. I should have brought one with me, it looks 
like. Okay, are you ready for me?
    Mr. Moran. We have been waiting for you.
    Ms. Slaughter. Well, that is not good. I hope you don't 
hold that against me.
    Mr. Moran. You are well worth the wait.
    Ms. Slaughter. Thank you so much.
    Mr. Moran. It is a privilege to have you here today as the 
cochair of the Congressional Arts Caucus. You have been a 
tireless champion of the arts. Even during the dark days, you 
were there.
    Ms. Slaughter. Especially those days, yes.
    Mr. Moran. Yes. But we are not going to focus on those 
days. We are going to focus on the future. And we want to thank 
you for your ongoing support, your leadership among our 
colleagues. And we look forward to hearing your remarks.
    But before that I would like to call on Mr. Simpson, the 
ranking member of the subcommittee. Mike.
    Mr. Simpson. Thank you for being here today. We look 
forward to your testimony.
    Ms. Slaughter. Thank you very much.
    Mr. Moran. Very good. Louise, it is all yours.

                   Testimony of Ms. Louise Slaughter

    Ms. Slaughter. I appreciate that. Thank you, Chairman 
Moran, Ranking Member Simpson, for the opportunity to testify 
before the subcommittee today on an issue that everybody in the 
House I think knows is very important to me: the promotion of 
arts and culture through the support of the National Endowment 
for the Arts.
    Mr. Chairman, it is a pleasure to work with you and Mr. 
Simpson, and we appreciate all the support that you have given 
us. And I also want to thank Congressman Todd Platts for 
joining me in leading the Congressional Caucus in the 111th 
Congress.

                      ECONOMIC IMPACT OF THE ARTS

    Our creative industries have not been immune to the ongoing 
economic crisis. In fact, they have been particularly hard hit 
as corporate donations decrease, consumer spending on arts and 
culture activities dwindle, organizations struggle to maintain 
their budgets, and arts and humanities funding decline as 
States struggle to manage their own fiscal challenges.
    As our Nation continues to shift from an industrial 
manufacturing economy to one based on ideas and information, 
cities and States increasingly recognize that arts and culture 
are important economic assets. These industries create jobs, 
attract investment, generate tax revenues, and stimulate local 
economies through tourism and urban renewal. And that is why 
both the National Governors Association and U.S. Conference of 
Mayors agree that investing in art and culture and related 
industries provides important economic benefits to local and 
regional economies.
    It is also no surprise that America's overall nonprofit 
arts and culture industry generates $166.2 billion--that is 
with a ``b''--in economic activity every year. The national 
impact of this activity is significant. It supports 5.7 million 
jobs and generates $29.6 billion in government revenue. And 
gentlemen, it is my belief that we do not invest in anything in 
the House or the Congress that brings back that kind of return 
into the national Treasury.
    Moreover, in fiscal year 2009, the NEA awarded more than 
$110 million through almost 2,400 grants, reaching all 435 
congressional districts.

                               NEA BUDGET

    While the NEA's budget represents less than 1 percent of 
total arts philanthropy in the United States, the NEA grants 
have a powerful multiplying effect. And each grant dollar 
typically generates seven to eight times more money in the 
matching grants. And, again, no other Federal agency or private 
organization facilitates the nationwide access to exceptional 
art to this extent.
    As you know, NEA's funding was slashed by 40 percent in 
1995, in 1996, and we have never recovered from the cuts that 
were sustained. We appreciate the $10 million increase for the 
NEA in fiscal year 2009 and the $12.5 million increase in 
fiscal year 2010. Nevertheless, its invaluable programs remain 
seriously underfunded and the agency continues to struggle to 
meet the growing demand for its popular programs.
    From the work of nonprofit art agencies to the impact of 
cultural tourism, the creative sector is important to State 
economies all across this country. Federal support for 
America's nonprofit cultural organizations must go on if we 
hope to continue to enjoy the substantial benefits that they 
bring.

                             ARTS EDUCATION

    In addition to the economic benefits, we must continue to 
expose our children to the arts. This is essential if we ever 
hope for them to reach their fullest potential. We know from 
studies--that have been quite surprising to numbers of us--the 
great benefits of the arts, but the exposure to the arts 
fosters learning, discovery, and achievement in the country.
    Research has proven that participation in arts education 
programs stimulates the creative, holistic, subjective, and 
intuitive portions of the human brain. Now employers today, 
both in America and abroad, are looking for creative and 
dynamic young men and women to fill their rosters. Learning 
through the arts reinforces crucial academic skills in reading, 
language arts, and especially math which is a fascinating 
thing, the connection between the mind and the keyboard. But 
just as important, learning through the arts gives young people 
the skills that they need to analyze and to synthesize 
information and to solve complex problems. Educating children 
early and continuously in the arts will prepare them for work 
in today's innovative and creative post-industrial society.

                          BENEFITS OF THE ARTS

    But these benefits are not what ultimately draw people to 
the arts. People seek experiences with arts for emotional and 
cognitive stimulation. We know the transformative power of a 
great book, a painting, or a song. You only have to mention 
``Amazing Grace'' to me and I start to blubber. A work of art 
can evoke extraordinary feelings of captivation, deep 
involvement, amazement, and wonder. This evocative power is so 
rare in a world where we tend to grasp things almost 
exclusively in terms of their relationship to practical needs 
and purposes.
    Stimulating this mental and intellectual activity not only 
enhances our creativity and imagination but also strengthens 
our ability to empathize with others, deepens our understanding 
of the human spirit. In today's globalized world, these factors 
must not be ignored. We cannot assign a price tag to the 
intrinsic benefits the arts bestow on both individuals and 
across communities and society as a whole.
    I know that there are lots of important requests for money 
before your subcommittee this year, and I know that many 
Federal agencies are struggling to overcome funding shortages. 
But I am compelled today to ask that you take into 
consideration the returns we get on our investment in the arts.
    American artists share with us a piece of their spirit and 
their soul with every creation. It is a labor of love for 
artists and it brightens the life of each of us, bringing us 
joy and comfort and enlightenment and understanding in ways 
impossible to find otherwise. The arts and artists of America 
are a national treasure and we should revere them. They and 
they alone tell us who we are, who we were, and who we aspire 
to be. This great Nation needs, deserves, and must support art 
as do other nations around the globe.
    Again I thank you for the opportunity to testify before you 
today and urge you to continue the support for the NEA funding.
    Mr. Moran. Thank you very much, Madam Chairwoman. That was 
a superb statement and consistent with the insight that you 
have provided us for years.
    I don't know whether the audience is aware of this, but Ms. 
Slaughter is the chairperson of the Rules Committee, which 
means everything that gets to the floor has to go through her. 
She has enormous responsibility, particularly with regard to 
the health-care bill that was just passed. It really had to 
come out of her committee. But with all that she has to do, 
this is and has been and will continue to be a priority, and we 
really appreciate that, Ms. Slaughter.
    I have asked Mr. Landesman to, as long as he can afford the 
time this morning, to sit at the table, because it is the 
National Endowment for the Arts, as well as the Endowment for 
the Humanities which is the opportunity the Congress has to put 
its money where its mouth is. And Mr. Landesman provided just 
superb testimony and responses to our questions today.
    Ms. Slaughter. He is so remarkable. Yes, he is. I think we 
are so lucky to have him. We look forward to some really quite 
remarkable things under his leadership.
    Mr. Moran. We could not find anyone finer for this position 
or responsibility.
    Mr. Simpson.
    Mr. Simpson. Thank you for your statement. Everyone should 
know that it is not because you are Chairman of the Rules 
Committee and everything has to go through you that we treat 
you with such respect. It is because you are a great Member.
    Ms. Slaughter. Oh, no. I understand that Rules has nothing 
to do with that.
    Mr. Simpson. It is because you are a great Member of 
Congress.
    Ms. Slaughter. Sure.
    Mr. Simpson. And I appreciate your opening statement and 
your support for the arts. Thank you for being here.
    Ms. Slaughter. Thank very much.
    Mr. Moran. And Ms. Slaughter, one more thing. Not to be 
crude here, but do you think you could open your jacket a 
little to show your ``Will Power Shirt''? It is all by Will 
Shakespeare.
    I love it. And all color coordinated.
    Ms. Slaughter. Thank you.
    Mr. Moran. Well done. Thank you, Madam.
    And I know you, too, Mr. Lynch, would want to be 
accompanied by Mr. Landesman at the table.
    Thank you very much.
    Mr. Lynch. Absolutely.
    Mr. Moran. And then for logistical purposes, each 
subsequent speaker, if you don't mind, would sit between you 
and Mr. Landesman while they give their testimony.
    Mr. Lynch. That is perfect.
    Mr. Moran. Okay. Thank you, Mr. Lynch. Please proceed.


                                           Tuesday, April 13, 2010.

        PUBLIC WITNESS HEARING: AMERICAN ADVOCATES FOR THE ARTS


                               WITNESSES

ROBERT L. LYNCH, PRESIDENT AND CEO, AMERICANS FOR THE ARTS
MICHAEL NUTTER, MAYOR OF PHILADELPHIA, PENNSYLVANIA
KYLE MacLACHLAN, EMMY-NOMINATED TV, FILM, AND STAGE ACTOR
TERRI ALDRICH, EXECUTIVE DIRECTOR, MINOT AREA COUNCIL OF THE ARTS 
    (NORTH DAKOTA)
BRIGADIER GENERAL NOLEN V. BIVENS, U.S. ARMY (RET.)
CHARLES SEGARS, CEO, OVATION TV
JEFF DANIELS, GOLDEN GLOBE-NOMINATED FILM AND STAGE ACTOR

                       Testimony of Robert Lynch

    Mr. Lynch. Well, first of all, I want to just say it is an 
honor to follow Louise Slaughter, the great leader of the 
Congressional Arts Caucus, the co-chair.
    And it is wonderful to be sitting with Rocco Landesman. 
What a wonderful choice as the new chair for the National 
Endowment for the Arts. And I am very much impressed with his 
energy and ideas, coming faster than a lot of us can actually 
anticipate them, and I love that. I think that is exactly what 
is needed.
    I want to say congratulations, first of all, to Chairman 
Moran as the new committee chair. We have had the wonderful 
opportunity to work together for years, but it is great to have 
you in this role. And, also, I don't see Congressman Dicks, but 
convey our thanks to him for his great work. Also, to be able 
to work again with Ranking Member Simpson. Thank you so much 
for all that you have done. And all the other honorable Members 
here.
    I have a unique privilege in that I have actually been to 
every one of the congressional districts in my work and had a 
chance to see the artwork, the arts organizations in each one 
of the congressional districts of each one of the committee 
members. I have some favorites, but I am not going to say what 
they are.
    What I want to say also, if this is okay with you, is that 
I have given written testimony, and rather than read from 
that----
    Mr. Moran. It will be included in the record, and if you 
wouldn't mind summarizing, that would be great, Mr. Lynch. 
Thank you.
    Mr. Lynch. Thank you.
    So, in the written testimony, the main point is that we are 
hoping that the committee would consider an increase for the 
National Endowment for the Arts, and the figure that we put 
forward is $180 million for fiscal year 2011 for the National 
Endowment for the Arts.
    There are a few key points that I would make, and then I 
will amplify them, but they are this. The first is that I thank 
you and we thank you, and those two words are not said enough, 
but we thank you on behalf of 100,000 nonprofit arts 
organizations in America for what you have done. Because money 
that is given to the National Endowment for the Arts is the 
fulcrum that leverages all the rest of the money in a $63 
billion nonprofit arts industry.
    The second point that I would make is that the arts today 
are more important and necessary than ever in the United 
States. And we have submitted creative industries data for each 
congressperson here to show exactly what is going on in each of 
your districts in terms of numbers.
    The third point for me is that support for the arts in 
America, particularly right now, last year, this year and going 
into next year, is at risk. It is not anyone's fault; it is the 
economy. But that economy, just like every other industry, 
affects our industry--public-sector dollars, private-sector 
dollars, even earned income, ticket sales. It is a great 
industry, it has had huge growth, but, like any other industry, 
it needs a little bit of a boost. You gave it last year with 
increases in the last three years, and you gave it with the 
economy recovery money, as well.
    And then, finally, I just want to point out that you, this 
committee in particular and Congress as a whole, can make a big 
difference with a modest addition. Sometimes I don't think that 
the committee understands the power of what it has done over 
the last 50 years--45 years, actually. When the National 
Endowment for the Arts began 45 years ago, there were only 
7,000 nonprofit arts organizations in America. The essential 
leveraging money that you have put in over those years and the 
ability to create a network, a web all across the Nation has 
resulted in 100,000 nonprofit arts organizations. That is a 
growth statistic that any industry would find wonderful.
    And that does not include the fact that, if you add in the 
for-profit businesses in America, it is--according to Dun & 
Bradstreet, not Americans for the Arts, that is 668,000 
businesses, nonprofit and for-profit, that are arts-centric in 
the United States of America.
    So my ``thank you'' to you is on behalf of 86 national 
organizations representing literature and folk arts and visual 
arts, performing arts, ethnic diversity, that are all assembled 
today for National Arts Advocacy Day. And the theme is, ``The 
arts build communities''--the arts at the core as something 
that can actually advance community development. And I am 
certainly seeing that as some of the things that Chairman 
Landesman and the NEA are talking about, as well.
    Our witnesses today, who I will call up one at a time, 
rural communities are represented, like Chelsea, Michigan, and 
Minot, North Dakota; urban areas like the great city of 
Philadelphia; the global community, with a discussion about the 
use of the arts as a diplomatic strategy; and corporate 
support, how corporate support works with government to enrich 
the cultural life for all.
    What you did three years ago was to increase the budget by 
$20 million; two years ago, $10.3 million; last year, $12.5 
million; which brought it up to $167.5 million, almost to where 
it was when it was slashed over a decade ago. Our hope is that, 
this year, with a $12.5 increase it goes to figure that 
represents, again, reaching that goal and just slightly 
surpassing it.

                          RECOVERY ACT FUNDING

    Last year, also, the $50 million economic recovery money 
was something that helped save jobs all across the country in 
the nonprofit arts sector. I think that you need to know that 
it worked. It worked dramatically. It is a story that I have 
seen told a number of times throughout the country in 
newspapers, where the NEA money which was administered quickly 
and effectively got out there: helped save jobs at the Idaho 
Shakespeare Theater; helped save jobs at Signature Theater in 
Arlington; helped save 22 arts organization jobs in Seattle; 16 
nonprofit arts organizations across the State of Oklahoma; 
Broward County, jazz musicians there; and in Ohio, the Great 
Lakes Theater Festival, just to mention a few that happen to 
have connections to committee members.
    Real people, real jobs, real bills paid. Sometimes it is 
funny, people kind of think that the arts and jobs in the arts 
are not the same thing, that this happens by magic or this 
happens--it is magic, but these people still have to go home 
and pay the mortgage and pay the bills. And you helped make 
that happen.
    All 50 States were affected, and I think that that is 
something that I saw go out with $16.8 million through the 
States, $4.8 million through the locals, and $25 million 
direct. Congratulations to the United States Congress for 
having done that.

                      STATES AND LOCAL COMMUNITIES

    The arts are more important than ever. Last night Mayor Joe 
Riley, who a number of the committee members know, 35 years the 
mayor of Charleston, spoke for our annual Nancy Hanks lecture. 
We had about 1,500 people in the audience. And he talked about 
investment in the arts and investment in design as something 
that he saw, throughout the country, with 800 other mayors, 
create a better city for all citizens, create a better America 
for all Americans. Cost-effective solution through the arts to 
a lot of problems, or at least a partner in the solution to 
problems: jobs, economic development, community development, 
youth at risk, and so on.
    That is why the United States Conference of Mayors talks 
about the arts as one of the ten things that they hope this 
administration will do to make for a better America and better 
cities in America. That is why the National Governors 
Association has a report out that talks about the importance of 
the creative sector for the competitive global economy. That is 
why the Conference Board of CEOs all across Fortune 500 
companies in America has a study that says the arts equal 
creativity, and creative workers in the 21st century is what 
businesses want in America, the arts as part of the solution.
    The NEA plays a hugely important leveraging role in this, 
not only directly. Indirectly, the Federal Government has many 
resources that help the arts: HUD, Education, Transportation. 
And, often, the NEA impetus is what leads to leveraging dollars 
in those areas, as well.
    At the State and local level, we have seen the great 
matching power of the NEA create almost $300 million worth of 
annual State appropriations. And that will be better when taxes 
are higher. And at the local level, we see that the previous 
LAA program, with a two-to-one match, was the great engine that 
leveraged almost a billion dollars of local government support 
for the arts that still continues today. That program does not, 
and we encourage the subcommittee to work again on a formal 
regranting partnership program to help arts organizations of 
all sizes in all communities.
    I could go on about all the other leveraging impacts, but 
you get the picture.

                      DIMINISHING FUNDING REASONS

    The support is at risk. And it is at risk because nonprofit 
organizations get their money three ways: They sell things. 
Disposable income is down, so that is a little bit harder. They 
get private donations, 40 percent of their money. That has seen 
a slippage over the last decade and, in the last year, down 6.5 
percent. And they get government money, 10 percent of their 
money, most of it from locals and States, but we have seen an 
overall diminishment by $1 billion.
    So, finally, my point is: You can make a difference. Thirty 
years ago, the NEA received 12 cents per $100 of non-military 
discretionary spending. Today, it is 3 cents per $100. And, 
yes, today we are in the middle of a creative industries 
economy. We are at the start of recovery right now, and it 
makes sense to me to invest in this great engine of 
development.
    One interesting thing for me, at Americans for the Arts 
here in Washington, D.C., we are seeing a foreign delegation 
every 2 weeks, from China, from Brazil, from the Netherlands, 
from Russia, all in the last month. What are they here to learn 
from us? How does this great American system work, and how can 
they beat it to attract people to those countries to see their 
art?
    It is a time for us to make a small investment and have 
really big dividends. I want to simply say thank you for all 
that you have done.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.057
    
    [GRAPHIC] [TIFF OMITTED] T6647B.058
    
    [GRAPHIC] [TIFF OMITTED] T6647B.059
    
    [GRAPHIC] [TIFF OMITTED] T6647B.060
    
    [GRAPHIC] [TIFF OMITTED] T6647B.061
    
    Mr. Moran. Thanks very much, Mr. Lynch.
    Mr. Simpson.

                        INCREASES TO NEA BUDGET

    Mr. Simpson. Just a quick question.
    Thank you for your testimony, Robert. I appreciate that 
very much.
    The question is actually for Rocco. This is the danger of 
staying around after your testimony.
    Mr. Landesman. My mistake.
    Mr. Simpson. We know you support the President's budget 
request. OMB says that is what you have to do. We are not bound 
by that. What if this committee were able to increase the 
budget? The proposal now is, what, a decrease of $6 million. 
What if we were able to find the money to provide the $180 
million that was requested by Robert. Do you have plans for 
that? Do you have a place where that would go? Where would it 
go?
    Mr. Landesman. I think the Our Town Initiative would make 
that money powerfully leveraged. There is no question. We could 
roll it out to more places. We could do a lot more with that 
money, there is no doubt about it.
    Mr. Simpson. Would some of it go into Big Read?
    Mr. Landesman. It could.
    Mr. Simpson. That tells you where I am coming from.
    Thank you.
    Mr. Moran. Very good. Thank you.
    Mr. Lynch, thank you very much.
    And now we will hear from the mayor of the great city of 
Philadelphia, Michael Nutter.

                   Testimony of Mayor Michael Nutter

    Mr. Lynch. It gives me a lot of pleasure to introduce our 
first witness. And before being elected mayor in 2007, Michael 
Nutter served as city councilman for nearly 15 years, 
representing Philadelphia's fourth district, one of the city's 
largest. He is a longtime friend of the arts and can speak 
about the social, civic, and economic benefits of the arts and 
the economic impact, because we brought our conference there 
two years ago, and it was a great several days.
    Mayor Nutter.
    Mr. Moran. Mayor, you are on. Thank you for being here.
    Mr. Nutter. Mr. Chairman, thank you very, very much, and 
Ranking Member Simpson, members of this House Appropriations 
subcommittee. Thank you for providing me the opportunity to 
testify before you today.
    My name is Michael A. Nutter. I am mayor of the city of 
Philadelphia, Pennsylvania. I am delighted to be here on Arts 
Advocacy Day representing the United States Conference of 
Mayors in cities all across America. I am also pleased and 
honored, as well, to be in support of Rocco Landesman at the 
NEA, Robert Lynch at Americans for the Arts, and of course our 
great president, Mayor Kautz, and our executive director, Tom 
Cochran, at the U.S. Conference of Mayors.
    I am here to ask the subcommittee to approve a budget 
request of $180 million for the National Endowment for the Arts 
for the creation, preservation, and presentation of the arts in 
America.

                          ARTS IN PHILADELPHIA

    Philadelphia is truly a city of neighborhoods, and I can 
assure you that in every neighborhood in our city you can see 
the presence and feel the impact of the arts. The arts anchor 
our neighborhoods. They are an integral part of our civic 
identity, a vital part of the fabric of the Philadelphia 
community life, and a key ingredient in the education and 
enrichment of our children, and a major sector of our economy. 
There are millions of dollars spent on the arts in the 
Philadelphia region, supporting thousands of jobs. It is a 
major sector of our economy. And, with the new arrival of 
institutions like the Barnes Foundation, it will grow larger 
still. To give you some context, more than 40,000 people in 
Philadelphia depend on art and culture for their livelihoods in 
Philadelphia.
    Shortly after taking office in 2008, I demonstrated my 
commitment to the arts by reestablishing, as I had committed as 
a candidate, reestablishing the Office of Arts, Culture, and 
the Creative Economy and by creating the position of chief 
cultural officer. I am joined here today by my chief cultural 
officer, Gary Steuer, and his deputy, Moira Baylson. The office 
gives the public a single point of contact for the arts and 
creative industries and an enthusiastic partner in creative 
problem-solving.
    As a city, we seek to employ the arts to strengthen city 
services and improve the lives of Philadelphians. I increased 
the allocation to the Philadelphia Cultural Fund, the city's 
arts grant-making body, from $2.2 million to $3.2 million in my 
first year. Even in tough times, cultural organizations can be 
a catalyst to population growth, workforce development, and a 
strong economy.
    Furthermore, I established the Mayor's Cultural Advisory 
Council and appointed a distinguished group of cultural 
leaders, who are an incredible resource to me and to this newly 
created office. The council's role is to make sure we are truly 
representing and addressing the needs of the arts community and 
the public.
    In addition to supporting and nurturing the arts community 
in Philadelphia, I am always looking for creative ways the arts 
can help us achieve our larger visionary goals. I applaud NEA 
Chairman Rocco Landesman for his commitment to working across 
agencies at the Federal level. Likewise, we in Philadelphia see 
the value and we have been looking to the arts as a tool to 
strengthen programs in services across our city departments, 
especially in the areas of health, housing, prisons, planning 
and economic development, transportation, and education.
    Just last Friday, our Philadelphia Streets Department 
organized an event to promote our new anti-litter campaign 
called UnLitter Us, a movement to clean up Philadelphia. And it 
featured the talents of spoken-word poets and musicians.
    Through our internationally renowned Mural Arts Program, 
Philadelphia uses art to improve public safety, education, and 
youth development. Mural Arts works with our court system, our 
prisoner reentry program, and other groups to build healthy, 
sustainable neighborhoods, using community-based public art 
projects. Each year, the Mural Arts Program works with more 
than 100 communities and employs more than 300 artists, 
revitalizing open spaces and remediating blight with colorful 
and innovative public arts projects. To date, Philadelphia has 
nearly 3,000 public murals throughout our city. The city has 
truly earned the nickname ``the city of murals.''
    Arts education is critical to the success of our education 
goals. This year, the city's Philadelphia Cultural Fund 
launched a new program, the Youth Arts Enrichment Program, to 
foster youth engagement in the arts. The program will 
distribute $350,000 in grants to exemplary arts education 
programs. Also, through a newly created organization, Arts 
Rising, there is a commitment to improving and expanding 
equitable access to arts education for all children in the 
greater Philadelphia region.

                          RECOVERY ACT FUNDING

    Several weeks ago, I announced the recipients of the 
Creative Industry Workforce Grants, a new and groundbreaking 
program funded through the Community Development Block Grant, 
CDBG, from the American Recovery and Reinvestment Act. This 
program is a partnership among Philadelphia's Office of Arts, 
Culture, and the Creative Economy and our Philadelphia 
Department of Commerce and other city agencies. Eight creative 
businesses received grants, ranging from $20,000 to $100,000, 
for construction or renovation of affordable artist workspaces, 
performance spaces, and creative multi-tenant spaces. From a 
pool of $500,000 of our CDBG money, grants for capital 
improvements will stimulate our economy. Businesses were 
selected based on their ability to serve low- and moderate-
income neighborhoods and to create permanent jobs. This 
exciting new program is already serving as a national model for 
the use of CDBG funds for the arts and creative sectors.
    Many of Philadelphia's acclaimed museums, visual arts, 
historic sites, theaters, dance companies, music organizations, 
universities, and arts education organizations are the 
recipients of NEA funding. This funding supports the creation 
of new works of art, both visual and performance. It fosters 
collaborations between organizations, supports education 
programming, funds research and marketing efforts, the creation 
of public art, and free and low-cost access to museums and 
theaters. In the case of ARRA funding, NEA funds saved jobs. 
This year, Philadelphia organizations also received funding 
through a $50 million allocation to NEA from the ARRA.
    The Philadelphia Museum of Art, one of the largest museums 
in the country, with a remarkable collection, notable exhibit 
programs, and exemplary arts education programs, received some 
of these. Its free and low-cost programs are accessible to all 
Philadelphians, made possible with your support.
    The internationally acclaimed Philadelphia Orchestra 
produces Arts in the Park, a series of performances in 
Philadelphia's Fairmount Park, our Mann Center for the 
Performing Arts, as well as free neighborhood concerts 
throughout the city. Both organizations are funded by the NEA.
    The Kimmel Center and its many resident companies, located 
in the heart of our downtown arts district, is also funded by 
the NEA. One of the resident companies, Philadanco, hosted the 
22nd annual International Conference of Blacks in Dance in 
partnership with the University of the Arts in Philadelphia, 
again funded by a grant through the NEA. This conference 
brought together dance professionals from all across the United 
States, Canada, and the Caribbean to network, strategize, and 
share their artistic experiences.
    And while there has been some criticism about the use of 
recovery funding for arts organizations, I cannot more strongly 
emphasize and reiterate my support for organizations and 
initiatives funded through the American Recovery and 
Reinvestment Act. Philadelphia organizations such as Pig Iron 
Theatre Company and Spiral Q Puppet Theater are award-winning, 
highly regarded, and successful businesses that are important 
members of Philadelphia's economy. These organizations receive 
grants directly through NEA for the purpose of saving real jobs 
for real Philadelphians.
    The city's Office of Arts, Culture, and the Creative 
Economy also partnered with the Greater Philadelphia Cultural 
Alliance to distribute $225,000 to organizations as job-
retention grants. Ten organizations received grants, and ten 
jobs were saved as a result.
    There has been overwhelming support from Philadelphia's 
civic leaders and residents for these investments in the arts. 
The recovery funding provided by the NEA was spent efficiently 
and made an immediate impact in Philadelphia. There is just no 
question that this money was spent well. And I believe that 
annual funding from NEA is essential to strengthening and 
transforming our communities.

                    MAYORS' INSTITUTE ON CITY DESIGN

    Lastly, this year marks the 25th anniversary of the Mayors' 
Institute on City Design, a program of the United States 
Conference of Mayors, the National Endowment for the Arts, and 
the American Architectural Foundation. We are very excited 
about NEA's grant program, the MICD 25, which will provide up 
to $250,000 to cities using the arts as part of the plan to 
create and sustain livable communities.
    On his recent visit to Philadelphia, Chairman Landesman 
toured the Crane Arts Building, a 120,000-square-foot multi-
tenant arts facility in a former plumbing supplies building. 
Chairman Landesman called Philadelphia a leader in reshaping 
our post-industrial communities into arts communities. I am, of 
course, honored by this statement.
    But we are also challenged, and now we must continue our 
progress forward in this area. We look forward to our Federal 
partner, the NEA, as not just a funder but also as a policy-
maker in recognizing how these and other initiatives can impact 
the health and vitality of cities all across America. Through 
my work with the U.S. Conference of Mayors, I know that mayors 
all across the country share a mutual support for the NEA.
    The NEA is at work in Philadelphia and many other 
communities across America. Its programs have tremendous impact 
on our citizens' lives and on our local economy. The NEA is 
critical for the continued development of American cities as 
centers of art and culture. When properly funded, NEA can 
foster artistic excellence for generations to come.
    It is a great honor for the city of Philadelphia that I 
would have this opportunity to give testimony today. Thank you 
very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.062
    
    [GRAPHIC] [TIFF OMITTED] T6647B.063
    
    [GRAPHIC] [TIFF OMITTED] T6647B.064
    
    [GRAPHIC] [TIFF OMITTED] T6647B.065
    
    [GRAPHIC] [TIFF OMITTED] T6647B.066
    
    Mr. Moran. So I guess we don't have to worry about Brady's 
or Chaka's votes on the arts, right, Mayor? You will take care 
of that for us?
    Mr. Nutter. Mr. Chairman, I work on those every day.
    Mr. Moran. That is the spirit. We don't envy you.
    Mike, do you have anything?
    Mr. Simpson. No questions.
    Thank you for being here.
    Mr. Moran. Okay. Thanks very much.
    Mr. Nutter. Thank you very much.

                      Testimony of Kyle MacLachlan

    Mr. Moran. I may usurp your role for a moment in 
introducing the next witness, Bob, because I really enjoyed 
talking with him this morning.
    Kyle MacLachlan--he started out in Washington State with 
repertory theater when he was still in high school. That got 
him turned--come on up here, Kyle. He has played some 
tremendous roles in David Lynch's almost surreal films, ``Blue 
Velvet'' and ``Dune.'' And then Jim Morrison's band, The Doors, 
changed people's perspective on music. There was this 
phenomenal keyboardist, and you played him perfectly in that 
Oliver Stone movie.
    And then, of course, I feel as though I know you because my 
wife and I try to get home early enough on Sunday so we can 
watch ``Desperate Housewives.'' You do a great job as Orson 
Hodge. And then in ``Sex and the City''--and, of course, you 
were terrific in ``Twin Peaks,'' winning a Golden Globe.
    Now, Bob, did you have anything else you wanted to say 
about Kyle?
    Mr. Lynch. I think you have covered it, sir.
    Mr. Simpson. Well, Mr. Chairman, I have something I would 
like to say.
    Mr. Moran. Please, Mr. Simpson.
    Mr. Simpson. I found out when looking at this that we have 
something in common. I am a dog lover. My wife and I have two 
dogs at home, Snickers and Nibs. And you have, what is it, 
Mookie and Sam?
    Mr. MacLachlan. Mookie and Sam.
    Mr. Simpson. And you have created a Web site, 
mookieandsam.com, and that these dogs talk?
    Mr. MacLachlan. Yeah. Well, I----
    Mr. Simpson. Somebody needs to see this, if you haven't 
seen it yet. It is----
    Mr. MacLachlan. Actually, it is partly responsible--my wife 
is in the audience here, and----
    Mr. Moran. Oh, stand up. There you go. Thank you.
    Mrs. MacLachlan. We are dog-obsessed, it is true.
    Mr. MacLachlan. Yes, it is true.
    Mr. Simpson. Me and my wife are dog-obsessed, too. Thanks 
for being here today.
    Mr. MacLachlan. Well, we come from the same part of the 
country, so maybe----
    Mr. Moran. I trust they are not Portuguese water dogs.
    Mr. Simpson. Have you got something against Portuguese 
water dogs?
    Mr. Moran. Ted Kennedy unloaded one of his on----
    Mr. Simpson. You don't unload a dog.
    Mr. Moran. Well, no. I mean, it is wonderful, but she 
insists on sleeping with us, with the head on the pillow and--
every night.
    Mr. Simpson. That is what dogs do.
    Mr. Moran. I know they do. But, they are wonderful.
    Anyways, I think we are digressing a bit, and you may have 
wanted to talk about the arts, perhaps. So, Mr. MacLachlan, you 
are on.
    Mr. MacLachlan. Well, good morning, Chairman Moran and 
Ranking Member Simpson, members of the subcommittee. Let me 
express what an incredible honor it is for me to be here to 
testify in front of you. This is well outside my wheelhouse, 
but I am very happy to be here. And it is an issue that I am 
passionate about, and it also happens to concern my job.
    So, as you said, my name is Kyle MacLachlan. I am an actor 
and member of the Americans for the Arts Artists Committee.
    One sidebar: I did think your appearance on ``Hardball'' 
was pretty special last week. Just wanted to----
    Mr. Moran. Thank you.
    Mr. MacLachlan. Well done.
    Mr. Moran. Well, that makes me feel good.
    I am not sure would you agree with the--well, I think you 
probably would have, Mike. Actually, I think you would have on 
that one, yeah, absolutely.
    Mr. MacLachlan. Yeah. It was a good job.
    Mr. Moran. Thank you.
    Mr. MacLachlan. You are welcome.
    I am here today to speak about how the arts have not only 
enriched this country but also served as public support for my 
professional career.
    As we all struggle with the current economic downturn, 
congressional leaders such as yourselves face the enormous 
challenge of getting people back to work. It is especially 
important to me to underscore the struggles of those in the 
creative community who are facing the same demands on their 
families.
    When Bob asked me to participate in this event, I started 
to think about my roots and the opportunities that I had had 
growing up, and realized that I took many of these for granted 
simply because they were available to me.
    My first significant relationship with the theater was when 
I was about 10 and my mom volunteered me and my brothers to 
help out at the local community theatre in Yakima, Washington, 
my hometown. Our theatre was a converted apple storage 
warehouse and had been turned into a vibrant nonprofit 
performance stage theatre and community resource. And my 
brothers and I would help out during the summer musical and the 
fall play.
    Our little theatre was a real good example of how the arts 
can have a positive economic and civic effect on a small 
community. It was a lot of work, as you can imagine. The 
audiences absolutely loved it. It gave my mom and many others 
like her a tremendous source of pride in serving her community. 
And because it was a town hub, it generated a lot of buzz, 
whether it was the plays or the musicals we did. And during the 
afternoons they would have art displays on in the lobby. And it 
was this type of thing that just really made the difference and 
impacted Yakima in a very positive way.
    Ultimately, it was my involvement in the community theatre 
that gave me a foundation in something that would later 
resonate with my academic pursuits and much later into my 
career.
    During high school, I was very involved in the music 
programs, the drama group, the after-school plays, but I never 
really thought the theatre was something I could do as a 
career. It was, however, a great place to meet girls, as you 
can imagine, and that was a pretty good selling point. But----
    Mr. Moran. She is beaming.
    Mr. MacLachlan. Yes. Yes. That came later.
    But when I look back, I realize that by doing the 
performances--I was in ``Oklahoma'' and ``My Fair Lady''--it 
gave me confidence that I would draw on later when I seriously 
began to consider acting as a career.
    I was very fortunate to have those kind of outlets and 
programs in my junior high and high school, as a lot of kids 
don't have that kind of opportunity to find their voice in 
something outside a standard curriculum.
    I know he is not here, but 1960 football national champion, 
number 63, Mr. Norm Dicks, also went to the U, and that is 
where I went to continue my education. And, to borrow a 
football analogy, I kind of fumbled around college for a few 
years before finally landing on my feet. They had a training 
program there called the Professional Actor Training Program. 
This was an esteemed program, rivaling schools like Juilliard 
and Yale. And I set my sights on getting into this program and 
was accepted in 1979.
    The main thrust of the program, apart from training us to 
be actors, was that the instructor, the main instructor, his 
expectation was nothing more than to make us become working 
actors. We were there to learn about acting, but, really, he 
wanted us to enter the workforce, and that was a main part of 
his education.
    And each year, leading to that, each year, as an extension 
of this training, we were expected to go out and do summer 
theater. So I had summer theater apprentices in a lot of 
nonprofit theaters around the country: Flat Rock Playhouse, 
North Carolina; Millbrook, Pennsylvania, which is really in the 
middle of nowhere, but it is beautiful and they have great 
corn. I worked at the Lyric Repertory Theatre in Logan, Utah. 
These little theaters were fantastic training grounds for 
honing my craft, but the communities would also benefit. They 
cherished these summer theatre productions, as you can imagine, 
and they drew visitors from across the region.
    So it was during my last year of school I auditioned, I got 
a job at the Oregon Shakespeare Festival in Ashland. The 
Shakespeare Festival is a repertory company, which means I did 
three different roles, in rotation, doing a different play each 
night, five to six performances a week, on an outdoor stage, 
battling the elements, May through October, while earning the 
vast sum of $550 a month. It didn't matter; I was doing what I 
loved. I was putting into practice skills that I had acquired 
through the training program at the University of Washington.
    And, believe it or not, this opportunity to work at the 
festival was due, in part, to the work of this subcommittee. 
Many of these nonprofit theatres that shaped my early career 
were recipients of NEA grants, either directly or indirectly 
through State and local arts councils. The universally praised 
Oregon Shakespeare Festival in Ashland is a consistent grant 
awardee. So it is not farfetched to say that your belief in 
this incredible festival helped me enter society as a 
productive member and pursue my passion.
    This year, your funding of the NEA will help bring 
``Hamlet'' again to the 2010 Shakespeare Festival season. And I 
am sure that the working actors, sound techs, stage managers, 
wardrobe staff, electricians, carpenters, and vendors will feel 
the impact of those Federal funds as they work to bring high-
quality performances to the hundreds of thousands of people who 
travel to Ashland each year. I am proud to have been a part of 
this tradition.
    So I was up in Seattle doing theatre, I got a call to meet 
and read for the movie ``Dune'' by David Lynch. They were 
looking for an unknown to play the lead. You couldn't get much 
more unknown than me, at that time. And I read for a casting 
agent in downtown Seattle. Turns out she had come across my 
name by contacting many of the mentors of mine in the Seattle-
area stage community.
    And I have been fortunate, as Chairman Moran said, to work 
in a lot of film and successful television series. And I 
continually draw back on my education and experiences in 
Seattle, Ashland, and, yes, even Yakima. I look at those 
experiences as fundamental to my success, allowing me to pursue 
my life's work.
    So let me conclude by saying a heartfelt ``thank you'' to 
the subcommittee for their work on behalf of the NEA. You are 
our champions here in the halls of Congress. And for many of 
us, you hold our livelihoods in your hands. Much of my success 
has to do with the opportunities that were present because of 
the support from this subcommittee for the NEA to give grants 
directly to theaters and through State and local arts councils.
    I know that recent years have seen increases in funding, 
and the American Recovery and Reinvestment Act has helped save 
jobs in the creative workforce. Thank you for that. I am 
living, walking proof of the tangible difference supporting 
these types of programs can make.
    And I join with my colleagues here today in respectfully 
requesting that this committee allocate $180 million to the 
National Endowment for the Arts so that the arts and arts 
education remain pillars in the communities they serve.
    Thank you so much for allowing me to testify before you, 
and I would be happy to answer any questions you might have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.067
    
    [GRAPHIC] [TIFF OMITTED] T6647B.068
    
    [GRAPHIC] [TIFF OMITTED] T6647B.069
    
    [GRAPHIC] [TIFF OMITTED] T6647B.070
    
    [GRAPHIC] [TIFF OMITTED] T6647B.071
    
    Mr. Moran. Excellent testimony.
    Mr. Simpson.
    Mr. Simpson. No, no questions.
    I appreciate hearing your story. Rocco and I, this past 
week, went to the Idaho Shakespeare Festival. And their winter 
program, where they go around to--``Shakespearians'' is what 
they call it--around to high schools. And we sat and talked to 
some of the actors afterwards for a while, and you are right, 
you know, they struggle to get by and then hope that they get 
on with the summer production of the Shakespeare Festival.
    But it is a tremendous opportunity for these schools, 
because these drama students and other students that were 
there, these artists spend time with them and talk to them 
about what it is like and what they go through and how to act. 
And it is an experience they wouldn't have without the support 
of the NEA and what they are able to do to get those programs 
out to those schools.
    So it is interesting to hear that you have gone through 
that, too.
    Mr. MacLachlan. Well, you know, it reminds me of when I was 
in high school, it is the same thing you are talking about. 
From the Oregon Shakespeare Festival, they had touring groups 
that would go out, and they came to my school, they came to 
Eisenhower, and they did monologues for us. And that was 
really--I mean, I still remember it. I got chills. As a matter 
of fact, I stole that guy's monologue to audition to get into 
this program. Maybe I shouldn't admit that. I guess it is in 
the record now, isn't it? Okay, doesn't matter.
    But it had a tremendous impact on me, just them visiting 
the school, and it was because of these grants. So they really 
do make a difference, a tangible difference.
    Mr. Simpson. Thank you.
    Mr. Moran. It is amazing, the number of people for whom the 
NEA has given a kick-start that they could sustain through 
their career, and how much all of us have benefited from that.
    So, Mr. MacLachlan, thank you so much.
    Mr. MacLachlan. Thank you so much. Thanks for having me.
    Mr. Moran. Thank you.
    Mr. Lynch, who do you have?

                       Testimony of Terri Aldrich

    Mr. Lynch. Well, I would like to call up Terri Aldrich.
    And, last year, Congressman Simpson asked some questions 
that had to do with the impact of the arts, the impact of the 
National Endowment for the Arts on rural areas and other parts 
of the country. And so, Terri Aldrich is executive director of 
the Minot Area Council of the Arts in Minot, North Dakota.
    Her organization is a nonprofit local arts agency that 
provides services to member organizations, including symphony 
orchestra, opera company, art museum, ballet theater company, 
contemporary dance companies, community theater companies, as 
Kyle just spoke about, in a geographically broad and 
challenging area. Nearly 40 arts and cultural organizations 
call Minot home, and she has been there to support them with 
support locally and from the Federal dollars and a lot of 
traveling support by her.
    Mr. Moran. Very good.
    Please, share with us your testimony. If you would like to 
summarize it, Ms. Aldrich, that would be fine.
    Ms. Aldrich. Good morning, Chairman Moran, Ranking Member 
Simpson, and distinguished committee members. It is an honor to 
be here and to have the opportunity to speak to you on behalf 
of local arts agencies in rural communities.
    And my name is Terri Aldrich. I am the executive director 
of the Minot Area Council of the Arts in Minot, North Dakota. 
And I have served in that capacity for the past ten years, and 
I am here because I am passionate about the arts.
    Minot is the smallest community in the Nation to have a 
full-scale symphony orchestra. We have an opera company. We 
have five dance companies. We have theater companies. We have a 
multitude of performing arts organizations and art galleries. 
And I know the positive impact that the arts have on the 
economy and on the quality of life in rural communities. So, 
arts organizations truly help to build vibrant communities 
because they are good stewards of the funds that are entrusted 
to them.
    Minot is a community of approximately 36,000 people, and it 
is the geographic, the cultural, and the economic hub of the 
northwest quadrant of North Dakota, as you think of that 
square. And we are located between two Native American 
reservations; there is Fort Berthold and Fort Totten.
    And then we are defined by vast space. So you can travel 
100 miles in any direction from that hub of that quadrant and 
for a hundred miles you won't come across another community of 
15,000 people. And, as you travel across that vast space, you 
will encounter very, very few vehicles. And you might go 
through a few communities of maybe 250 to a thousand 
individuals, where the median income is about $26,348.
    So, arts events in rural communities are generally 
accomplished without paid staff and with shockingly small 
budgets. Even the Minot Symphony Orchestra operates with just a 
part-time executive director. So there are very, very few rural 
arts organizations that can meet the requirements that are 
necessary to qualify for a grant that comes directly to us from 
the National Endowment for the Arts.
    However, the Minot Area Council of the Arts did receive a 
grant from the NEA ten years ago. That $12,000 that I received 
allowed me to hire a part-time arts education coordinator and 
to bring working artists into schools that could not otherwise 
afford to hire an art teacher.
    Now, that investment has gone on to impact the community 
because the coordinator's position has been sustained. The 
number of working artists continues because we continue to hire 
artists on a contract basis. And the number of students that is 
impacted by that arts education program has increased 200 
percent in 10 years. So the impact of that program and that 
$12,000 is felt today through arts instruction that meets our 
State's fine arts education standards and it touches our local 
economy.
    I could tell you all those wonderful statistics about how 
students who are involved in the arts are four times more 
likely to win an award in science, but I would rather tell you 
a story about someone who is very precious to me.
    My son married a beautiful young woman, and she is in her 
first year of medical school. And while she was pursuing her 
undergraduate degree, she received national recognition for 
cancer research related to the breakpoint clusters of acute 
myeloid leukemia. Now, I don't understand those words that I 
just spoke, but she does.
    But the amazing thing is, her background in music allowed 
her to be able to have critical thinking skills and analytical 
skills that put her ahead of others, and it allowed her to do 
great things in the research. And the ability to see patterns 
and to look at things with an artistic eye are key parts of 
arts education that are just so crucial.

                           RURAL ARTS FUNDING

    So those funds that reach us are so important. NEA funds 
reach rural arts organizations mainly through our State arts 
agency, and that is the North Dakota Council on the Arts. And 
about roughly 25 percent of the arts organizations that I 
represent receive those funds. And our State arts agency is not 
just a bureaucratic cliche. They are comprised of a great 
staff, and they provide assistance not only to arts 
organizations but to schools and to individual artists, and 
they provide great assistance and advice. So the State agencies 
are a tremendous resource for our rural communities.
    And it was exciting to me as I began to think about the 
impact of the arts across rural communities and how those 
things touch our region. I was in Canada at a petroleum 
conference, and individuals talked to me about how important 
the arts are to their business and how those things that impact 
the quality of life just are important to attracting and to 
retaining their quality employees.
    A development director in Garrison, North Dakota, a 
community of 1,700 people, told me that she could never have 
accomplished what she did without a vibrant, active arts 
council. They have created the Dickens Festival that draws 
thousands of people to their community. They have created a 
holiday destination that brings people into their community to 
shop in the stores, to patronize the restaurants, to attend 
performances. And so, in that community, the arts have had a 
profound impact on what is North Dakota's number-two industry: 
That is tourism.
    And then in Stanley, North Dakota, a small group of people 
got together and they decided that they wanted to renovate a 
historic building, a church. It has become a tremendous arts 
and performance center. And while I was there at a standing-
room-only performance, we began to talk about, ``Have you ever 
had a Whirlawhip? Do you know what a Whirlawhip is?'' Well, we 
left the performance and we went to the local drugstore, we had 
a confection called a Whirlawhip, and we went to the cafe. And 
it was the arts that drew the people to that tiny little 
community, but it was the downtown business that reaped the 
benefit.
    Arts organizations impact rural communities, and individual 
artists help to build communities in a myriad of ways. A potter 
in Burlington, North Dakota, a community of a thousand people, 
sells her work on a national scale in exclusive shops, but the 
revenue comes right back to our community to benefit us.
    A young North Dakota artist bought an abandoned church; he 
renovated it. It is where his home is now, where his studio is. 
So a community gained a renovated building, so what would have 
been lost has been saved. The community also gained a 
destination point, and the revenue that comes from the sale of 
his beautiful glasswork comes right back to that community.
    And, of course, you cannot discount the valuable skills 
that come into a community because of the artists themselves 
when they work in fields outside of the arts. Right in my own 
office, I have a jazz musician. And, every single day, I see 
the way that his musical training impacts in a creative way the 
way problems are solved and the way problems are isolated and 
taken care of.
    So it is an exciting thing, to think about how the arts 
impact and build our communities in rural areas. The Arts and 
Economic Prosperity Study that was accomplished through 
Americans for the Arts revealed that the nonprofit arts 
industry in Minot, North Dakota, is an $8.6 million industry 
that generates $476,000 to State government and $363,000 to our 
local government while supporting 188 jobs.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.072
    
    [GRAPHIC] [TIFF OMITTED] T6647B.073
    
    [GRAPHIC] [TIFF OMITTED] T6647B.074
    
    Mr. Moran. Thank you, Ms. Aldrich. Very excellent 
testimony.
    Mr. Simpson.
    Mr. Simpson. I appreciate your testimony. And the reason I 
asked questions last year and continue to ask them--and Rocco 
and I have talked about this--is, when you described North 
Dakota, you could have been describing Idaho. If you look at 
that map over there, that is my district, and the dots along 
the line, that is the Snake River. But the rest of that is--if 
you go north of those dots, that is mountains, big mountains. 
But there are communities throughout that.
    And what I have been trying to emphasize is that the arts 
are not just for urban areas; they are for those small towns 
out in rural Idaho and rural North Dakota. And how do you get 
the arts out there, and how do you maintain those efforts to 
get those arts out to those small communities? And the NEA does 
a great job of that.
    Ms. Aldrich. Yes, sir. You certainly know, then, how the 
arts can impact those communities and help them to keep from 
being ghost towns.
    Mr. Simpson. Yep.
    Mr. Moran. Good for you. Well, thanks for all that you have 
done for the State of North Dakota, particularly Minot. But 
really throughout the State, I am sure they are inspired by 
your efforts. Not a whole lot of money at all, but it sure had 
a whole lot of impact. So thank you very much, Ms. Aldrich.
    Ms. Aldrich. Thank you.
    Mr. Moran. Mr. Lynch.

                Testimony of Brig. General Nolan Bivens

    Mr. Lynch. A few years ago, I was able to bring a witness 
here who was the CEO of the Conference Board, the business 
community. And, in addition to great testimony, he introduced 
me to a program with the United States Army where leadership 
skills between the business community, the nonprofit community, 
and the military were shared and discussed.
    And, through that program, I got a chance to meet U.S. Army 
Brigadier General Nolan Bivens, retired. He entered the United 
States Army in 1976 and was commissioned as an infantry second 
lieutenant. In Army uniform for more than three decades, 
General Bivens worked his way through the ranks at home and 
abroad, serving in capacities of increasing responsibility.
    This is a real American patriot who can bring a truly 
unique perspective of the arts role for our returning troops 
and this country's diplomatic endeavors in a challenging world. 
And we have invited him and he has accepted to sit on the 
Americans for the Arts Board of Directors, as well, so we are 
very fortunate.
    General Bivens.
    Mr. Moran. Very good.
    Thank you, General. And please share with us how we can 
take advantage of the half a trillion dollars we have put in to 
the defense budget every year, which has to struggle far less 
than the poor NEA to get a tiny fraction of what goes into the 
defense budget, as Mike well knows. But maybe we can civilize 
some of our military commanders, perhaps, a little more in 
terms of their strategy of winning over hearts and minds and 
the morale of the troops, as well as using those resources. So 
I am glad you are here. Thank you. General Bivens?
    General Bivens. Well, thank you so very much. And your 
opening remarks couldn't be more, I think, appropriate to the 
comments I would like to make today. It goes right to the heart 
of the issue, in terms of what my experiences have shown me 
about.
    So, first of all, Mr. Chairman and distinguished members of 
the subcommittee, thank you for the opportunity to be here and 
also to make comments on behalf of supporting the $180 million 
appropriation for the National Endowment for the Arts for 
fiscal year 2011.
    As stated, my name is Nolen Bivens. I am a U.S. Army 
brigadier general, retired recently after 32 years of service. 
And I am here to present really three policy areas in which my 
experience in the military has shown me that support for the 
arts and culture can improve our national security needs--that 
is one; provide a pathway to stronger cultural diplomacy; and 
also improve the quality of life for our wounded warriors and 
veterans returning to civilian life.
    First of all, as you said in your introduction, I am 
perhaps not like a lot of individuals in the background that 
are speaking to you today or have spoken to you in the past. 
But I do assure you that I am not Malcolm Gladwell's new 
outlier either. I think that what I would like to make sure is 
understood as a result of this is that, like a mayor of a city, 
like an arts administrator in any town or city, or any 
corporate leader, I have come to understand the importance and 
the value of the arts, having come up in one aspect of another 
profession, but seeing another government agency be very 
critical to our ability to do those three things that I 
mentioned in my introduction.
    The American art community is a national asset and treasure 
with tremendous potential to contribute to the United States 
Government's ability to deal with the national security 
challenges it faces. Its arsenal of art forms and capabilities 
can be shared and exchanged as part of a larger government and 
interagency activity designed to increase cultural 
understanding between all nations. The arts community can do 
this in a way other instruments of national power cannot. I 
always remind myself that the universal language is music.
    In human history, there are three great revolutions: 
agricultural, industrial, and now the current information 
revolution. All three have shaped generations of warfare and 
how militaries protect their country's national security 
interests. In our information age, the kindling for conflicts 
includes such issues as globalization, urbanization, climate 
change, population growth, and the depletion of natural 
resources.

                          WARFARE AND THE ARTS

    And this gets to one of my first points. The asymmetrical 
warfare has reemerged as our adversaries' preferred method for 
protecting or advancing their interests. According to the 
Secretary of Defense, we expect that asymmetrical warfare will 
maintain the mainstay of the contemporary battlefield for some 
time. These conflicts will be fundamentally political in nature 
and require the application of all elements of national power.
    From my experience, asymmetrical warfare requires creative 
solutions and innovative thinking. And it is on this very point 
that the arts community can contribute to meeting our security 
needs.
    And, by way of example, as the U.S. forces drove to Baghdad 
and transitioned from decisive combat phase into the security 
and stability phase, it faced many problems that had been 
created by the vacuum in government that were largely created 
by asymmetrical and irregular means of the enemy. And one 
example I would like to highlight is the looting of Iraq's 
archeological sites.
    Newspaper headlines announced, ``Iraqi Looters Tearing Up 
Archeological Sites.'' Their commentary included such comments 
as, ``After two days of looting, almost all of the museum's 
170,000 artifacts were either stolen or damaged.'' In the words 
of one Iraqi man, he says, ``It is a catastrophe. It is like a 
lobotomy. The deep memory of an entire culture has been 
removed. It is an incredible crime.''
    It took members of the Archeological Institute of America, 
Iraq's Cultural Ministry, and the U.S. Army Reserve soldiers 
with experience as curators to help the Department of Defense 
and Department of State to address this issue.
    As stated, asymmetrical warfare requires creative 
solutions, and the arts can contribute new ways to address this 
form of warfare before, during, and after combat and/or crisis. 
I think it is important to point out that art is key to 
contributing and understanding culture. And culture is critical 
to understanding, and for our young soldiers, airmen, and 
Marines in what they do today, understanding that culture is 
critical to their solutions to the problems they face.
    I am reminded of a story; many of you probably heard about 
it. A young Marine squad was in Iraq, and it was coming up on a 
procession. And that procession was a funeral. And this was in 
the first days of the stability. And not knowing what to do, 
because you had a procession coming, a very large crowd, and he 
was moving forward to do his job, ``What do I do in order to 
show respect for this aspect of this country's culture?'' And 
the only thing he knew to do was to tell his men to take a 
knee. And, as a result of that, he was able to then defuse a 
lot of other issues in that community because of the aspect of 
what he drew from his culture, understanding the need to 
respect that of others.
    I am also here to tell you that frenetic practitioners of 
asymmetric warfare do not restrict its use to active combat 
operations. They use the information age of global 
communications architecture as a means to continuously 
influence the hearts and minds of populations in favor of their 
cause.

                  INTERNATIONAL DIPLOMACY THROUGH ARTS

    To respond to that, increased public diplomacy is greatly 
needed. Exchanges of artists between countries, performances by 
groups like the Iraqi Philharmonic Orchestra at home and 
abroad, and cultural figures that connect to youth are all 
elements of this strategy. Support for arts through the NEA 
will help to strengthen our cultural assets in the pursuit of 
greater cultural understanding worldwide.
    Through cooperative initiatives, the National Endowment for 
the Arts brings the benefits of international exchange to arts 
organizations, artists, and audiences nationwide and fosters 
international creative collaboration. Support for the arts and 
artists can help bridge many common values that lead to 
peaceful resolution of disagreements as well as the sustainment 
of cordial international relations.
    Whether it is in combat operations in the CENTCOM's area of 
command and responsibility or conducting security cooperation, 
what we call Phase Zero humanitarian activities in either of 
the other four combatant command's regions, the U.S. military, 
other departments and agencies have increasingly recognized 
that we need a whole-of-government approach in addressing the 
issues. The American arts community can best contribute towards 
this cultural diplomacy during the Phase Zero operations. These 
activities are so valuable because they impact the lives of 
people, which, in turn, affect their attitudes and perceptions 
about other countries positively.
    Not only can the arts leaders and organizations collaborate 
with the Department of Defense security operations and cultural 
diplomacy, but they can also partner with the Federal 
Government to assist our wounded warriors as they transition 
back into civilian life.

                          OPERATION HOMECOMING

    As I am sure this subcommittee has heard in previous years, 
the National Endowment for the Arts began in 2004 what is 
called Operation Homecoming to help U.S. troops and their 
families write about their wartime experiences. Also, NEA's 
Great American Voices featured 24 professional opera companies 
performing on 39 of our military bases across the country. Both 
of these initiatives were designed to connect high-quality arts 
experiences with our servicemen and their families and provide 
a sense of the community.
    I had a firsthand experience of this when I was a young 
general there at Fort Hood, Texas and just getting back from 
Iraq, and I was going to take one of those annual hearing tests 
you have to take so my wife could be confirmed that I do hear 
all the time. But as I was sitting in there doing this, the 
young lieutenant that was giving me my hearing test, she 
started to talk with me. She said, ``hey, sir, can I talk to 
you about something.'' We were filling a little time between 
the hearing booth and I said sure. She said ``I sit in here all 
day long and as I conduct hearing tests for individuals coming 
back from the conflict, sometimes it gets real quiet and I 
don't know if they are hearing what I am doing.''
    ``But one day I went to look inside the hearing booth and I 
saw the young man and he was in there crying.'' That got my 
attention as a general. I said, oh, okay. I said, what is going 
on? She said, ``well, what I did is I opened the door and we 
started talking and he was really, for the first time, in that 
quiet chamber away from all of the distractions. Everything 
that he had experienced had begun to come back to him.'' And 
she said, ``I see that oftentimes and I don't really know what 
to do. So I am asking you what should I do?''
    I said here is what you do, you refer them to the right 
medical organization. So what started as a dinner as I was 
transitioning out of the military with Bob here, I began to 
understand that there was a connection because the professional 
music therapy at Walter Reed Army Medical Center helps wounded 
soldiers heal both emotional and physically. In addition, the 
NEA programs and other elements of the government are doing 
things to support that. The Federal Veterans Affairs Department 
coordinates the Annual National Veterans Creative Arts 
Festival, which is really a culmination of talent, competitions 
in art, creative writing, dance, drama and music for veterans 
treated in VA's national health care system.
    Providing support through local community arts and cultural 
institutions sustain returning soldiers and veterans as they 
transition back into their family and community life. And by 
the way, artists are also in that community as well. So in 
conclusion, I presented three areas in which my experience in 
the military has shown that support for the arts and quality 
can improve our national security needs and the quality for our 
wounded warriors and veterans transitions into civilian life as 
well as our cultural diplomacy. Our forces are adjusting to a 
new state of warfare, an asymmetrical threat that demands new 
and innovative approaches in responding.
    Protection of valuable and cultural resources such as those 
looted in Baghdad museums can go a long way in helping our 
forces maintain support among the citizens. Investment in 
cultural diplomacy during peacetime or times of strife can help 
prevent military intervention. Support for our veterans and 
their healing in post service through creative outlets can help 
support their path and transition to a civilian life. All of 
these efforts can be aided by supporting our Nation's leading 
cultural agency, the National Endowment for the Arts and the 
investment it makes in developing skills and building 
communities. Thank you so very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.075
    
    [GRAPHIC] [TIFF OMITTED] T6647B.076
    
    [GRAPHIC] [TIFF OMITTED] T6647B.077
    
    [GRAPHIC] [TIFF OMITTED] T6647B.078
    
    Mr. Moran. General, thank you very much. Thank you for your 
insight. Thank you for presenting a new and different and 
important perspective. I appreciate the fact that you made 
mention of those lapses in governance, one of course was the 
American occupation of Iraq, where we allowed the looting of 
170,000 artifacts dating back to the cradle of civilization, 
the Tigris and Euphrates. That is where civilization started 
from what many sources believe and yet we thought nothing of 
it. We sent troops to protect the oil wells, which, of course, 
was ineffective because they cut the lines anyway. But had we 
shown any respect for the Iraqi culture, it might very well 
have shortened that war and certainly improved our reputation 
among the Iraqi people, both insurgents and those who were on 
our side.
    But hopefully we learn from our mistakes sometimes. I am 
glad that you pointed that out and pointed out what we need to 
be more fully aware of. It is our values and principles more 
than our military might which, of course, will enhance our own 
national security. That was very good testimony. We appreciate 
it, General. Mr. Simpson.
    Mr. Simpson. Yeah. First of all, thank you for your 
testimony, but more importantly, thank you for your service to 
our country. I appreciate it very much. Operation Homecoming 
has been a very interesting program and very valuable. I have 
spent time at VA hospitals with veterans from World War II and 
so forth. And we are losing their stories when we lose these 
individuals that are dying off. And it is important that we 
learn from those stories and keep those stories. So Operation 
Homecoming is a very important program. It is in your budget 
this year. We are going to continue that?
    Mr. Landesman. Yes.
    Mr. Simpson. Thanks. Thanks for being here today.
    Mr. Moran. We are building a couple of world class military 
medical facilities, particularly in the Washington area, Walter 
Reed, over at Bethesda and Fort Belvoir and they are 
increasingly looking at aesthetics and music and so on in terms 
of the healing of returning wounded warriors. Thank you very 
much. Mr. Lynch.

                      Testimony of Charles Segars

    Mr. Lynch. From the business perspective, we are very 
pleased to have as a witness, Mr. Charles Segars. He is the CEO 
of Ovation TV, a television channel entirely dedicated to art, 
performance and creativity. Charles also is a movie producer 
and a TV and film executive having produced, for one thing, the 
movie ``National Treasure,'' and its successful sequel. Ovation 
is a prime provider of arts programming as demonstrated by 
giving $5 million in sponsorship grants and in-kind media in 
support of local arts education and cultural institutions. 
Charles.
    Mr. Segars. Thank you, sir. I appreciate it. These bios 
make me sound like I cannot hold a job, but I promise I can. 
Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to speak with all of you today. My name is Charles 
Segars and I am CEO of Ovation, a television network devoted to 
arts and contemporary culture. We believe and know arts 
programming is good business, and so do many of the 
corporations that support us through our advertising dollars as 
well as our distributors. We have companies like Comcast Cable, 
Direct TV, Time Warner, DISH Network, Verizon and Charter, who 
have made our network available in over 40 million households 
across our Nation, and we are growing every day.
    I represent the private sector and someone who has made the 
decision to invest millions of dollars into arts. I am here 
today to urge you please to do the same. The most recent arts 
and economic prosperity studies states that the nonprofit arts 
and culture industry generates over $150 billion in economic 
activity every year and employs over 3 million people. That 
would not happen without the NEA.
    Now, the impact can be seen in all 50 states and here in 
the District of Columbia. Mr. Simpson, you spoke about Idaho. 
In Congressman Mollohan's district alone, 4,000 people. 
Congressman Price, 7,000 people. Our neighbor, Congressman 
Calvert, has over 6,000 people in District 44. Los Angeles, 
where Ovation is based, is a widely recognized city for the 
driving force for America's estimated $300 billion of creative 
exports. There, one in six jobs is directly related to the 
creative economy. And creativity is prized as an asset and a 
skill that every company actively seeks in their workforce. Our 
Nation is a manufacturing-based economy and it is moving very 
quickly to a software based one and it demands an educated, 
creative and dynamic workforce. An investment in the arts, and 
arts education is not only good business today, but it helps 
create the next generation of competitive workers to rule the 
global economy of tomorrow and make no mistake we are being 
outspent in arts and arts education in the countries of the 
European Union as well as countries like China and India. We 
cannot allow ourselves to fall farther behind.

                             ARTS EDUCATION

    Now, in order to build a dynamic workforce, we have to 
start young. The arts has the power to transform our children. 
Students who have the arts as part of their curriculum greatly 
increase their aptitude in literacy, science, and math. They 
are far more likely to graduate high school, go to college and 
secure full-time employment. In the formative years, arts 
supplied as a core curriculum increase dramatically complex 
problem solving, team dynamics and communications skills. That 
sounds like a competitive workforce in development to me. This 
development is magnified most importantly in at-risk youth. 
Exposure to the arts and arts education reduces absenteeism and 
dropout rates. It even reduces crime in both general and at 
risk populations. And I have seen this firsthand. I am a 10-
year Los Angeles Reserve Deputy Sheriff assigned to our most 
challenged communities. And I can tell you with complete 
certainty, I have never arrested a child leaving an after-
school arts program.
    Now, that being said, arts education budgets are under 
siege across the country. Los Angeles unified school district, 
which is the second largest in our country, is proposing to 
eliminate all visual and performing arts teachers in their 
elementary schools. Elementary schools represent the most 
critical formative years for our children and the best case I 
can tell you is a bad one. These children will miss out on the 
transformative academic powers of the arts.
    The worst case is unthinkable. Our at-risk youth will be 
lost. This cut saves the school district less than three 
percent of their budget, or $2 per child, yet the State of 
California spends $200,000 a year for every child that is 
incarcerated. So $2 per child for mandatory arts programs in 
our schools is a much better investment. Unfortunately this 
fight is happening in schools all over our Nation. If it wasn't 
for the NEA and the exposure I had to field trips to the art 
museum, to artists that supported those museums, to the after-
school programs I was involved, I would not have the 
opportunity and the pleasure to shepherd the only arts network 
in America. I would not have had the opportunity to create and 
write ``National Treasure.'' I would not have had the 
opportunity to spend $3 or $4 million of production in the 
great city of Philadelphia. It was because of the NEA after-
school programs that inspired me to become part of the arts.
    So I ask you for your leadership in sustaining arts funding 
for our federal cultural agencies because what you do here sets 
the stage for decisions that are made about the arts at every 
level of our national, State and local governments. You 
represent our commitment to the arts and that commitment is a 
measure of the strength of this democracy. Thank you for your 
time and thank you for allowing me to testify today.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.079
    
    [GRAPHIC] [TIFF OMITTED] T6647B.080
    
    [GRAPHIC] [TIFF OMITTED] T6647B.081
    
    Mr. Moran. Good job. Thank you, Mr. Segars.
    Mr. Simpson.
    Mr. Simpson. No questions. Thank you.
    Mr. Moran. All right. Well done. This is another important 
element of the economic input of the arts. Who have you decided 
should be our wrap-up, our clean-up hitter to leave the final 
thoughts of the day with us, Mr. Lynch?

                       TESTIMONY OF JEFF DANIELS

    Mr. Lynch. Our wrap-up thinker is a working artist who has 
to actually go do his job tonight on Broadway and that is 
actor----
    Mr. Moran. He has to fly back this afternoon to act and he 
came all the way here to share his thoughts? Okay. I am sure he 
is going to have some great thoughts. I am looking forward to 
it.
    Mr. Lynch. I will just say a word about Jeff Daniels----
    Mr. Moran. It is a little on the spot.
    Mr. Lynch [continuing]. Founder and executive director of 
Michigan's Purple Rose Theater Company, which happened with 
some of the proceeds from his great work. That is a 
professional nonprofit, equity theater. He has also appeared in 
more than 50 films, including the Squid and the Whale, Woody 
Allen's The Purple Rose of Cairo and Something Wild, all three 
of which led to Golden Globe nominations.
    Recently he was nominated for a Tony Award for the play he 
is currently in on Broadway, God of Carnage. He is a writer, a 
director, a playwright, an actor and a guy who is going to have 
to catch a plane a little bit later, Jeff Daniels.
    Mr. Daniels. Amtrak willing. Thank you, Bob. Chairman 
Moran, Ranking Member Simpson and subcommittee and 
distinguished members, thank you very much for having me. It is 
a privilege to be here and Rocco, who came to Chelsea, Michigan 
a month ago. It meant a lot that you came. And thank you, sir, 
for that.
    My name is Jeff Daniels. I am a product of the American 
theatre. I was raised in Michigan. I began in high school 
musicals, went on to community theater, summer stock, college. 
At the age of 21, I moved to New York, worked on and off 
Broadway and then on to Hollywood. 50 movies later, I am happy 
to say I am back on Broadway and Amtrak willing, I will make 
tonight's show. Without the American theatre, I would not have 
had a career.
    Mr. Moran. I hope you are taking the Acela then.
    Mr. Daniels. Yeah, the first car. Without the American 
theater, I would not have had a career. I would not have been 
good enough to be cast in films such as Terms of Endearment, 
the Purple Rose of Cairo, Gettysburg, and, yes, wait for it, 
Dumb and Dumber.
    Mr. Moran. One of my favorites.
    Mr. Daniels. To many people, that is their Citizen Kane, I 
am afraid. Anyway, because of my gratitude for what the 
American theatre has done for me, I bought an abandoned 
warehouse in my hometown of Chelsea, Michigan. Now, there in 
what some consider the middle of nowhere, I had a dream of 
creating a professional theatre company that produced new 
American plays. And when word got out about what I was doing, 
many in my own community thought I was an idiot and they told 
me so. They said, Jeff, you are an idiot, this will never work. 
If we want to see good theater, we will fly to New York. And my 
favorite was you have to understand, to people like us, art is 
somebody who lives north of town.

                          PURPLE ROSE THEATRE

    Now, I am happy to say, art now has some company. In the 
20-year history of the Purple Rose Theatre Company, over half a 
million people have come to our little town, bought a ticket 
and watched a play. Hundreds of actors, writers, designers, 
directors, crew members and staff have cashed a Purple Rose 
paycheck. And those are real paychecks for real jobs for real 
people. Careers have begun in my building. Lives have been 
changed. Dreams have come true. Now, I knew that there were 
very talented theatre people in our part of the country. And if 
I taught them what I had learned, in time, the Purple Rose 
would have a national reputation. Not because of me, but 
because of the quality of our artistic product. What I didn't 
see coming was the economic impact that the Purple Rose would 
have on my hometown.
    When I opened our doors in 1991, if there were 25 
businesses in town, half were empty or just getting by. Soon, a 
town with two stoplights, about 5,000 people was suddenly 
getting 40,000 new people a year walking down Main Street. It 
didn't take long for our business community to realize that 
every one of those people had a wallet or a purse. And very 
quickly, restaurants replaced open store fronts, Mexican coffee 
shops, art galleries, markets, jewelry shops. Seemingly 
overnight, two hotels sprang up at our exit out by the highway. 
Old Victorian homes turned into beds and breakfasts, bookings 
catered to people with tickets to the Purple Rose. Owners of 
established businesses told me how they now stayed open at 
night because of all the foot traffic. Realtors use the Purple 
Rose to sell homes. Corporations included us in attracting out-
of-state hires. Car buyers stopped by our local dealers and 
compared prices.
    And someone whose family is in the lumber business and has 
a local lumber yard there, I am happy to report the 
theatergoers also buy wood. Even the local funeral director 
thanked me for two funerals he picked up from people who 
happened to be in town to see a play.
    Mr. Moran. They had heart attacks? They must have been 
scary plays.
    Mr. Daniels. I didn't ask for details. I just said you are 
very welcome. With an average ticket price of just under $23, 
making a play at the Purple Rose affordable for as many people 
as possible and being the one and only reason that we are not 
for profit, affordability. Theatregoers attend over 260 
performances a year at the Purple Rose. Over 5,200 in our 
history. Many have come back again and again, sustaining that 
early trend and turning it into the status quo. Because of the 
arts, my sleepy little hometown is now a destination. Where I 
live, the arts are a fundamental American asset. They are an 
essential element to our community's cultural and economic 
success. Where I live, the arts are for everyone and everyone 
is for the arts, including the guy who lives north of town. The 
National Endowment for the Arts helps organizations such as the 
Purple Rose create jobs, stimulate business and transform 
communities. Mine is one.
    With gratitude, I thank you for what you have done to help 
the NEA help towns like mine. And with respect, I urge you to 
continue to do that and more. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.082
    
    [GRAPHIC] [TIFF OMITTED] T6647B.083
    
    Mr. Moran. Terrific. Well, you came through. That was a 
perfect cleanup to the entire morning. And that is what it is 
about. It is not just about inspiration, but it is also about 
the tough business of creating jobs and stimulating this 
economy and the arts have got to play a vital role. If we are 
smart about it, they will. Mr. Simpson.
    Mr. Simpson. Mr. Chairman, I just want to thank you for 
being here today and Mr. Chairman, I was going to say it 
earlier, but I am shocked at all these cameras here facing the 
wrong direction. I thought they were here for us. I guess I was 
wrong.
    Mr. Moran. I wasn't under any such delusions.
    Mr. Simpson. I guess I was wrong. But for those of you who 
may not know how Congress works, the reason that you have the 
Chairman and the Ranking Member here today and the other 
members of the committee aren't here today is because this is 
the first day back after the two-week break that we have had 
and we don't have votes until 6:30 tonight.
    So most members are returning to Washington today and it is 
unfortunate that it worked out this way because I am sure that 
all of the members of the committee would have been here, but 
they will look at your testimony and that of yours, Rocco, as 
we put together the budget. But I appreciate you being here 
today. I don't know if you have any dogs or not----
    Mr. Daniels. I do have two dogs. And, yes, they sleep on 
the pillow.
    Mr. Simpson. That is my guy. I appreciate you being here.
    Mr. Daniels. Thank you very much.
    Mr. Moran. Thank you very much, Mr. Daniels. It was 
excellent testimony. Everyone's testimony was absolutely 
superb. You made the point. You made it in an articulate and 
compelling fashion. Mr. Lynch, thank you for assembling such a 
terrific list of witnesses, and of course, Mr. Landesman, you 
are the best. I still would like to know how you won the 
Trifecta in the Kentucky Derby.
    Mr. Landesman. Off the record, I will.
    Mr. Moran. Okay. Thank you. This will conclude the 
testimony. It has been a very productive and informative 
morning. I hope it will be reflected in the appropriations 
mark. Thank you all very much for your attendance.
                                         Wednesday, March 10, 2010.

 RECLAIMING ABANDONED MINES AND REGULATING SURFACE COAL MINING; OFFICE 
                OF SURFACE MINING FY2011 BUDGET REQUEST

                               WITNESSES

JOSEPH G. PIZARCHIK, DIRECTOR
GLENDA H. OWENS, DEPUTY DIRECTOR
RUTH E. STOKES, BUDGET OFFICER

                   Opening Statement: Chairman Moran

    Mr. Moran. We will now begin our next hearing, and we want 
to welcome Director Pizarchik. Thank you very much for being 
here.
    The Office of Surface Mining plays two different but 
complementary roles, helping the States to oversee and regulate 
current coal surface mining, and helping the States to reclaim 
abandoned mine lands which are the legacy of 150 years of coal 
mining. They are very important roles. They are built upon 
partnerships with the States.
    And when we look at your budget, we only see reductions, so 
there will be some question as to whether the resources are 
adequate. At $146 million, the Office of Surface Mining's 
budget has been reduced by almost $17 million, 10 percent below 
the enacted level. It includes an $11 million reduction in 
grants to States to operate their regulatory programs, which 
the Administration assumes States will cover with increased 
fees at your urging. This is a different policy than what the 
Administration proposed last year.
    You are also proposing to eliminate $4.5 million to States 
for emergency cleanups and federal high-priority projects. And 
similar to last year, you have re-proposed to eliminate $115 
million in mandatory funding to certified States.
    As is true with the other bureaus within the Department of 
the Interior, the Office of Surface Mining has to as well 
absorb fixed costs. This amounts to nearly $1.5 million that 
OSM will absorb this year. Again, that may be another concern 
registered by the Committee. We will get into that as we get 
into questions.
    But at this point I would like to hear from Ranking Member 
Simpson and his observations. Mr. Simpson.

                     Opening Statement: Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman, and thank you for 
joining us this morning.
    I think you probably have one of the most challenging jobs 
in the Department of Interior. I say that because the coal 
industry that you oversee is now at the center of a critical 
national debate that will continue to occupy the attention of 
Congress this year. I am very concerned about the potential 
impact in terms of lost jobs and stifled economic growth if 
cap-and-trade legislation and other costly regulatory actions 
upon the coal industry and the rest of our national economy.
    No one can dispute the coal mining industry has been at the 
forefront in the development of our national economy and the 
industrial heartland. It has provided jobs for generations of 
Americans. This critical work, which now is the subject of much 
criticism and debate in this age of cap and trade, has fueled 
our economy for more than a century. Most people would be 
surprised to know that coal remains our country's leading 
source of domestic energy and provides over 50 percent of our 
country's electricity. The fact remains that coal is part of 
our past, our present and our future, and I believe it will 
continue to play a pivotal role in fueling our economy and our 
country along with domestic developments of oil and gas and 
renewables and nuclear energy as part of America's long-term 
energy portfolio.
    I look forward to a candid conversation about your work and 
appreciate your being with us today.
    Mr. Moran. Thank you, Mr. Simpson.
    We will now hear from Mr. Pizarchik, and you will explain 
your budget and your priorities. Thank you for being here.

                    Testimony of Joseph G. Pizarchik

    Mr. Pizarchik. Thank you, Mr. Chairman, and congratulations 
on your new position. I am happy to be here. Good morning to 
you and the other members of the Committee. With me today, I 
have my Deputy Director, Glenda Owens, on my right, and on my 
left I have my Budget Officer, Ruth Stokes.
    The Surface Mining Coal and Reclamation Act of 1977 
established OSM, as you aptly pointed out, as having two basic 
purposes, the first to assure the Nation's coal mines operate 
in a responsible manner that protects our citizens as well as 
our environment and restores the land to a beneficial use after 
the mining has been completed, the second being the Abandoned 
Mine Land program to address the hazards and environmental 
problems created by the unregulated mining before the 1977 Act 
was passed. Today, as in 1977, coal remains an important fuel 
for our country, as was pointed out by Mr. Simpson. It provides 
half or more of our electricity in this country and will 
continue to be an important part of our energy needs for the 
foreseeable future.

              BALANCE BETWEEN ENVIRONMENT AND ENERGY NEEDS

    The Surface Mining Control and Reclamation Act recognized 
that there was a need to ensure that there was a good balance 
between the protection of our environment and our people and 
meeting our energy needs. Striking and maintaining that balance 
has been a constant challenge for OSM. It has been a constant 
challenge because as administrations change in States, 
sometimes the policy priorities change. It has been a constant 
challenge because of the economic circumstances and changes 
that States and the Federal Government face. It has been a 
constant challenge because the industry has evolved over the 
last 30-plus years and it is a challenge today because of the 
emerging science we are learning of things that are affecting 
coal mining. With that emerging science, we are seeing issues 
that today are being recognized as causing some water problems, 
particularly in Appalachia, that were not recognized a decade 
ago.
    That is why, back in June of 2009, the Department of the 
Interior, the Environmental Protection Agency and the Army 
Corps of Engineers entered into a memorandum of understanding 
on how to go about, and to commit those agencies to doing, a 
better job of protecting the environment and minimizing the 
adverse impacts of mining in Appalachia.

                             BUDGET REQUEST

    Our 2011 budget is a focused budget. It is fiscally 
responsible and it provides support to States, 24 of whom have 
approved regulatory programs where they have the primary 
responsibility for regulating coal mining. It also provides 
support to OSM for two federal program States, in Tennessee and 
in Washington. And it provides support for OSM as we work with 
the Navajo Nation, Hopi and Crow Tribes as they move forward to 
try to obtain primary responsibility for regulating coal mining 
on their lands.
    The budget also includes, under the Abandoned Mine Land 
portion, mandatory funding to support high-priority coal 
problems. In fiscal year 2010, $369.1 million was provided to 
25 States and three tribes for that particular work, and there 
remains about $4 billion of priority one and two problems. 
Those are the most dangerous sites from the historic 
unregulated coal mining. That $4 billion estimate is only the 
cost to do the actual work and does not include the cost for 
the States to design, contract, and to oversee that work.
    Our budget request totals $146.1 million in discretionary 
spending. It is a decrease of $16.7 million from the 2010 
enacted budget. The discretionary portion of the budget reduces 
the grants provided to the state regulatory authorities by 
about $11 million. It proposes to eliminate funding of State 
and federal emergency programs. It proposes to eliminate 
funding of federal high-priority projects that was in the 2010 
budget at $1 million. It also proposes a $700,000 reduction 
through efficiencies that we seek to attain in travel costs, in 
information technology changes, how we manage our IT, and in 
strategic sourcing of contracting for services and other 
materials. It also reduces funding of $500,000 in an area where 
we had conducted audits related to litigation on the 
reclamation fee that was paid on exported coal. We have been 
successful in defending that litigation and no longer need that 
money to audit those companies. While that decision is being 
appealed, we expect a favorable outcome.
    In the mandatory portion of our budget, which deals with 
the abandoned mine land areas, we are proposing the elimination 
of funding to the certified States and tribes. That would 
eliminate projected payments of about $167.3 million that would 
be going to the States of Wyoming, Louisiana, Montana, and 
Texas as well as to the Navajo Nation, Hopi and the Crow 
Tribes. Unlike the 2010 budget proposal which had also proposed 
to eliminate funding to certified States and tribes, this 
budget includes $10 million to use for high-priority sites. In 
the event that there is an abandoned mine land that is 
identified in one of the certified States or tribes, we would 
have the money available to take care of that problem.
    The last point I would like to raise is that due to my 
previous position with the Commonwealth of Pennsylvania, I have 
recused myself from certain items which would create a conflict 
or an appearance of impropriety, so if any of your questions 
today would go into that area, I will have them answered by my 
Deputy Director, Glenda Owens.
    Thank you for the opportunity to testify, and I have 
submitted my formal statement for the record, and I am 
available for any questions.
    [The statement of Joseph G. Pizarchik follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.084
    
    [GRAPHIC] [TIFF OMITTED] T6647B.085
    
    [GRAPHIC] [TIFF OMITTED] T6647B.086
    
    [GRAPHIC] [TIFF OMITTED] T6647B.087
    
    [GRAPHIC] [TIFF OMITTED] T6647B.088
    
    [GRAPHIC] [TIFF OMITTED] T6647B.089
    
                        STATE REGULATORY GRANTS

    Mr. Moran. Thanks very much, Mr. Pizarchik. We appreciate 
your testimony.
    In last year's budget, you proposed and promoted fully 
funding the 50 percent federal match for the States programs. 
This was the first time ever. Now one year later, there is an 
about-face with the Administration's approach, cutting $11 
million from that grant program and again shifting the burden 
for the cost of these programs onto the States. Do you want to 
give further explanation as to the reason for that dramatic 
policy change?
    Mr. Pizarchik. Yes, Mr. Chairman. We are in dramatically 
different circumstances this year. There has been a 
deterioration on an economic level. The budget issue has become 
more important and more significant. There are many Members of 
Congress and many members of the public, as well as the 
Administration, who are concerned about the size of the 
deficit, and we have looked at that and are doing our part to 
try to address those concerns. We have made some very difficult 
choices. I would have loved to have been able to be here 
proposing that we would fully fund the States' share up to 50 
percent. The law provides for up to 50 percent, but does not 
mandate that, and we are not proposing to shift that reduction 
to the States or those costs to the States. We are asking the 
States, and will encourage and work with them, to have those 
costs covered through a fee to the community who receives the 
benefit of the services that the States provide. In essence, 
the coal mining companies, the regulated industry, receive 
substantial services from the State in the permits that are 
issued, through oversight actions, et cetera. So our goal is to 
have those fees passed on to the industry who receives the 
benefit of the States' services.

                   FUNDING STATE REGULATORY PROGRAMS

    Mr. Moran. Well, fair enough. But based on the historical 
distribution of funds, it is likely that in Virginia we would 
lose half a million dollars in federal funding for the 
regulatory program. It would require that the Virginia General 
Assembly approve a fee change.
    If States find that increasing fees is not an acceptable 
option for them, will the Office of Surface Mining provide 
funds to ensure that States do have the resources they need to 
operate strong regulatory programs, or would the OSM and the 
Federal Government have to step in and run the coal mining 
regulatory program?
    Mr. Pizarchik. In regards to the latter part of that 
question, OSM's view, and my view, is that the States can do a 
better job of running these programs than OSM can, and we think 
they can do so more efficiently. Our plan is to work as closely 
with the States as possible to maintain their primary 
responsibility for running the program. There have been 
instances in the past 30-plus years where States have not fully 
implemented the responsibilities they undertook and there were 
efforts that we engaged in at those times to address those 
circumstances. It is an ongoing challenge to try to assure that 
the States have the resources they need to fully implement the 
program that they voluntarily have undertaken.
    In our budget proposal, it does not include money for us to 
step in to either take over the State programs, or to take over 
part of the program, or to provide additional funds to the 
States. We are cognizant of the fact that, for a number of the 
States, it will be difficult or they would need statutory 
amendments to implement the fee. That is one reason why we have 
been talking to the States and encouraging them now to plan for 
this. This budget will not take effect until October 1st, so 
there is several months' time for the States to work on 
implementing a fee. If there are things that we can do to help 
facilitate that process, I have personally offered to do so 
with the States.
    We have also asked the States if they have ideas or 
suggestions on how to address this proposal or if there are 
things that we can do to help out. We have received some ideas, 
and we intend to work closely with the States to implement this 
budget.
    Mr. Moran. Thank you, Mr. Pizarchik.
    Mr. Simpson.
    Mr. Simpson. How many States and tribes will be affected by 
this, and which ones would be most significantly affected?
    Mr. Pizarchik. There are 24 States that are receiving 
funding through this program, up to about half of their cost. 
The decision as to how to distribute the funds among the States 
has not been made so I cannot tell you which ones would be most 
affected by the reduction. One of our tasks is to incentivize, 
or to create an incentive, for the States to pass this 
reduction on to the service receivers, and we are still 
evaluating how we will do that.

                    INCREASED FEES ON COAL INDUSTRY

    Mr. Simpson. What would you say on a scale of almost 
insignificant to very significant would be the impact on the 
coal industry for the increased fees?
    Mr. Pizarchik. There was about 1.2 billion tons of coal 
mined last year and this $11 million is about a 15 percent 
reduction to the States, but when the States are already 
covering the other half, it is about a 7 percent cost of the 
overall program for the States. Considering those facts, I 
would not say that it is significant but it is not 
insignificant either, and it would vary depending on how the 
States would elect to pass on that cost. We have not specified 
how to do that. We are giving the States the flexibility to 
decide how they could best charge fees in their particular 
State because there are variations as to how they fund their 
programs.
    Mr. Simpson. But if they increase the cost on the coal 
companies, then since most of this goes into the production of 
electricity, or a lot of it does, you would expect electricity 
rates to go up to some degree?
    Mr. Pizarchik. I would expect that whatever costs are 
passed on to the regulated community for the services they 
receive, it would result in an increase on their end at some 
point. I do not know the time frame that this would occur.

                  PAYMENTS TO CERTIFIED STATES/TRIBES

    Mr. Simpson. One of the other proposals in the budget is to 
eliminate payments to States and tribes, as you mentioned, to 
clean up abandoned coal mining operations where the cleanups 
have been completed. It seems like it makes sense to me. When I 
heard that, when the President said we are going to stop paying 
to clean up abandoned mines that have been cleaned up, I 
thought, ``hmmm.'' And now I see this same proposal has been 
submitted to Congress for a couple years and rejected. Do you 
have any idea why Congress has rejected it? I wish I could tell 
you. I do not know.
    Mr. Pizarchik. I do not know the answer to that. I think 
you would have to ask your colleagues. One of the things that I 
have heard expressed by at least one Member of Congress is that 
the 2006 amendments took several years to negotiate and that 
this issue was part of that negotiation, and at least that 
Member was reluctant to revisit the issue but I cannot really 
say for the rest of the Members.

                    OSM AND EPA PERMIT COORDINATION

    Mr. Simpson. Well, if you want to see some criticism on TV 
about wasteful government spending, it is pretty easy to stand 
up and say gee, you know, we are going to quit funding 
abandoned mines that have been cleaned up. People would 
probably agree with that. But I guess we will get into more of 
that during the budget markup.
    Your office has the primary authority over regulating the 
coal mining industry in the United States. I think it is safe 
to say that many coal mining interests believe that the real 
authority for issuing permits, regulating best practices and 
overseeing environmentally friendly mining practices no longer 
resides with your office but with the EPA. This is not an 
isolated complaint these days. Has your authority to govern the 
industry been undermined by the EPA's involvement in your work, 
and how would you describe OSM's relationship with the EPA, and 
does your office have any say or are you bound by the decisions 
of the Agency?
    Mr. Pizarchik. When the Surface Mining Control and 
Reclamation Act was passed in 1977, it provided primary 
responsibility for regulating coal mining with my office, but 
it specifically reserved to EPA the responsibility for 
implementing the Clean Water Act, and most surface coal mines 
require a permit to discharge water from those mines. The 
standards under which those permits are issued, and which water 
is discharged under those permits, all come from EPA. That has 
been the case from the beginning and it is still the case 
today. EPA is the agency that works in some instances with 
their State partners on water discharge permits because they 
have delegated the authority for making those permitting 
decisions to some of the State water authorities. So there has 
not been a change in how that authority or responsibility has 
been divided up between the EPA and OSM. There has been some 
emerging science that seems to indicate that there are 
substances that are getting into the water from surface mining 
that were not recognized either by the EPA, the States or the 
OSM, or even environmentalists and citizens, that are causing 
some issues. So with that emerging science, it is important to 
examine what is occurring, and identify the impacts and how 
best to address them.
    We are working with EPA and the Army Corps of Engineers. If 
you are going to mine coal, you need both a surface mining 
permit under the Surface Mining Control and Reclamation Act, 
and you need a discharge permit called a NPDES, National 
Pollution Discharge Elimination System permit. NPDES permits 
are issued by the State water program staff who received 
delegation from EPA, so you need both SMCRA and NPDES permits. 
If you are planning on placing fill or spoil overburden from 
the coal mine into a stream channel, you need a fill permit. 
The way it is structured, that jurisdiction falls with the Army 
Corps of Engineers, who would make the determination as to 
whether or not you can place spoil material into the stream. 
The authority is under section 404 of the Clean Water Act. So a 
coal company would need at least three permits. That has always 
been the case, and EPA has review authority over the Army Corps 
of Engineers' 404 permitting decision. In the past the 
permitting was usually handled linearly in that the coal mining 
permit would be issued, then the water permit, then either 402 
or 404, decisions would be made. Because of the emerging 
science and the impacts that some of these fills and surface 
mining are causing on streams, there has been closer scrutiny 
paid by EPA as they carry out their responsibilities. That has 
led to some permit delays and some additional reviews, and in 
some instances, a revision of the mining plan that has been 
previously approved under the State mining program.
    The three agencies, EPA, OSM and the Army Corps of 
Engineers, are working together to better coordinate the 
permitting actions in order to provide for a more efficient 
review and more timely permitting decisions. That effort had 
started both in the field with the staff who actually do the 
work and in Washington, D.C., with headquarters staff. Also, 
there have been meetings including with the State regulatory 
authorities. We have a lot of work to do in this area but at 
least all three federal agencies and the State staff believe 
that there are some opportunities here where we can do a better 
job on making coordinated permitting decisions to provide for 
more certainty and a more timely decision on the permit 
application.
    Mr. Simpson. Thank you.

                           STREAM BUFFER RULE

    Mr. Moran. Thank you, Mr. Simpson.
    In 2008, the Office of Surface Mining amended the stream 
buffer rule to provide exemptions to allow industry to place 
fill in streams if one could demonstrate that it was not 
possible to comply with the 1983 rule. That rule, of course, 
required that fill be placed at least 100 feet from streams if 
the disposal of such fill would negatively impact water quality 
or quantity. I would like to know if you have concerns that the 
2008 exemptions will lead to a substantial negative impact on 
water quality and the environment.
    Now, in addition, as you answer that, you might comment on 
the latest rulemaking proposal because I understand you are not 
going to have the revised rule ready until next year, and in 
the meantime, there should be concerns, I have some, that the 
existing law is going to impair the quality of streams. So I 
would like to know what the Office of Surface Mining is doing 
to ensure that we will not have to pay to undo in the future 
mistakes that are being made in the interim in terms of water 
quality.
    Mr. Pizarchik. The 2008 rule took effect back in the end of 
that particular year. It was challenged in the courts by some 
individuals. The Administration had examined that rule and 
concluded that it did not do an effective job and that there 
were some deficiencies that needed to be corrected. We have 
undertaken and are starting a new process to revisit the 2008 
rule and prepare a new rule. Once a federal rule is promulgated 
and becomes effective, then the States are directed to amend 
their programs to be consistent with, and no less effective 
than, that new federal rule. Because of the litigation and 
concerns associated with the 2008 rule, the States have not 
been directed to make changes to their programs. The States are 
reluctant to spend the time and resources to change their 
programs if the rule is being litigated, and that was the case 
here. So right now, all the States that have primary 
responsibility for regulating the mining of coal are still 
operating under the 1983 rule and we expect that they will 
continue to do so in the interim. We think it is more prudent 
and more efficient resource-wise for States to not make those 
changes until we get the revised stream protection rule in 
place.

     MEMORANDUM OF UNDERSTANDING: DOI, EPA, ARMY CORPS OF ENGINEERS

    Mr. Moran. Thank you. On June 11th of last year, the 
Department of the Interior, EPA and the Army Corps of Engineers 
signed a memorandum of understanding that they would conduct 
oversight of State permittings enforcement regulatory 
activities. The understanding committed OSM to review the 
stream buffer rule exemptions. EPA and the Corps of Engineers 
are reviewing the surface mining permit applications for 
compliance with the Clean Water Act. Is OSM working with the 
Corps and EPA on other functions that were outlined in the 
memorandum of understanding in terms of coordination?
    Mr. Pizarchik. As I indicated earlier, we are working 
together to review areas where we can do a better job on the 
permitting end. That is in regards to the surface coal mining 
permit, and the water permits under sections 402 and 404 of the 
Clean Water Act, which involves all three agencies and the 
state regulatory authorities. There are some similarities 
between the requirements of the Surface Mining Act and the 
Clean Water Act and so we are looking to see if we can do a 
better job on coordinating and gathering that information.
    In regards to our oversight and inspections work, the 
States have primary responsibility for those mine sites. OSM 
does oversight and we are looking at increasing the oversight 
that we do and conducting additional inspections. If we find 
water issues or other problems, our first action is to bring 
them to the attention of the State regulatory authority who has 
primary responsibility to address the problem. If they do not 
address the problem, and it is a surface coal mining matter, 
OSM we will take appropriate action. If it is a water-related 
issue, OSM will provide that information to EPA or the State 
water program staff for them to address it. So, from the 
permitting aspect, we are looking at how we can do better 
coordination. In regards to the rule to better protect streams 
that we are embarking on, OSM will be working with EPA, the 
Army Corps of Engineers and U.S. Fish and Wildlife Service to 
better develop the stream protection rule. So if there are 
things that we can do under the Surface Mining Control and 
Reclamation Act to protect streams and the aquatic communities 
and resources, OSM will do so in a manner that would be 
complementary to EPA's task of protecting the streams' water 
quality. From that standpoint, we are including EPA in our 
processes. We have also had meetings where we shared 
information with each other on the efforts that EPA is 
undertaking in regards to their permitting responsibilities and 
their water quality standards.
    Mr. Moran. Thank you, Mr. Pizarchik. I am going to put the 
rest of the questions in for the record. Mr. Simpson?
    Mr. Simpson. Same with me.
    Mr. Moran. Okay. Fine. Then the hearing is concluded. 
Thanks very much.

[GRAPHIC] [TIFF OMITTED] T6647B.090

[GRAPHIC] [TIFF OMITTED] T6647B.091

[GRAPHIC] [TIFF OMITTED] T6647B.092

[GRAPHIC] [TIFF OMITTED] T6647B.093

[GRAPHIC] [TIFF OMITTED] T6647B.094

[GRAPHIC] [TIFF OMITTED] T6647B.095

[GRAPHIC] [TIFF OMITTED] T6647B.096

[GRAPHIC] [TIFF OMITTED] T6647B.097

[GRAPHIC] [TIFF OMITTED] T6647B.098

[GRAPHIC] [TIFF OMITTED] T6647B.099

[GRAPHIC] [TIFF OMITTED] T6647B.100

[GRAPHIC] [TIFF OMITTED] T6647B.101

[GRAPHIC] [TIFF OMITTED] T6647B.102

[GRAPHIC] [TIFF OMITTED] T6647B.103

                                         Wednesday, March 17, 2010.

                     EISENHOWER MEMORIAL COMMISSION

                                WITNESS

BRIG. GEN. CARL W. REDDEL, USAF (RET.), EXECUTIVE DIRECTOR, EISENHOWER 
    MEMORIAL COMMISSION

                   Opening Statement: Chairman Moran

    Mr. Moran. Let's go ahead and do the Eisenhower Commission 
now and we will conclude the hearing for today.
    Welcome, General Reddel. We are glad to have you here to 
provide us with an update on the design and construction of the 
National Eisenhower Memorial. President Eisenhower was a firm 
believer in peace, freedom, democracy and the great promise of 
a strong, secure America. He held a belief that our natural 
resources were part of our Nation's precious heritage. It is 
fitting thus that this Subcommittee exercises oversight over 
this Commission. There is a memorial site selected between 4th 
and 6th Street Southwest and Independence Avenue in front of 
the Air and Space Museum.
    Last year, the Committee provided a total of $19 million 
for the Commission to fund the Commission's two year design 
phase. With that funding, we believe the Commission could lock 
in contract prices, minimize costs and make significant 
progress toward achieving its fundraising goals but the goals 
are to raise the money privately so there is no specific 
request this year but perhaps you could give us a summarized 
statement if you could, General, and then we can ask some 
questions. We do not need to take up a whole lot of your time 
since there is not a specific request pending before us.

                 Tesimony of Brig. General Carl Reddel

    General Reddel. Thank you, Mr. Chairman, members of the 
Subcommittee. Since the chairman described the location of the 
memorial graphically, for those of you that are not familiar 
with it, this is Eisenhower Square. It is a great location 
surrounded by institutions created by President Eisenhower 
directly related to his activities including establishing the 
Department of Health, Education and Welfare, establishing the 
FAA, establishing NASA, bringing Voice of America studios down 
there in 1954 and so on. So we feel very fortunate to be in 
that location and I am most appreciative of the chance to speak 
to you today. I realize with the shortage of time we will have 
to press rapidly on. I have with me, however, our executive 
architect, Daniel File, as well.

                         FY 2010 APPROPRIATION

    The appropriation we received in fiscal year 2010 will 
cover the entire two year design process. It will enable the 
Commission to move forward in a concrete, expeditious way. The 
testimony from Congressmen Dennis Moore and Jerry Moran from 
Kansas, who are also Commissioners, described the progress that 
we have made in this task, a very important Congressional 
mandate that we have to memorialize the Supreme Commander of 
the Allied Forces in World War II and the 34th President of the 
United States, a brilliant, selfless, military commander and a 
master practitioner of pragmatic governance.
    The Commission is not requesting funds, as you just heard, 
for fiscal year 2011. We will complete the two-year design 
phase with the monies that have been given to us. The design 
process encompasses these two years. The appropriation that the 
Commission received will enable what we believe an efficient, 
cost-effective and low-risk approach to completing the 
Memorial.

                     ACCOMPLISHMENTS OF COMMISSION

    The Commission accomplished several milestones since I last 
testified on its behalf. In 2007, we completed a pre-design 
program with Skidmore, Owings and Merrill. This program 
communicated to the designer what the Memorial should be. The 
pre-design program served as a guide for the Memorial's design. 
In 2008 we engaged with the selection of a design team for the 
Memorial. Four design teams advanced to final consideration 
from the initial 44. On March 31, 2009, the Commission and GSA 
selected well-renowned architect Frank Gehry as the Memorial 
designer. In December 2009, the Commission and GSA selected the 
Gilbane Company for design and construction management 
services. These contracts were signed in January 2010 and the 
Commission intends now to create a memorial that will be of the 
same caliber as the Washington, Jefferson, Lincoln and 
Roosevelt Memorials.

                               E-MEMORIAL

    Concurrent with this design phase, the Commission is 
developing positive relationships with interested private and 
governmental groups. In 2010, the Commission will complete the 
pre-design program for the E-Memorial, a computer-based 
electronic system that will connect the onsite visitors' 
experience with the global reach of the Internet. The 
Eisenhower Memorial will be the first Presidential memorial to 
integrate into its design both the physical site and such an 
electronic system. It will establish a prototype partnership 
between the Dwight D. Eisenhower Presidential Library in 
Abilene, Kansas, the National Archives and the National Park 
Service. The Park Service will operate the Memorial upon 
completion.
    The E-Memorial will serve then as a future paradigm for 
relationships between national Presidential memorials operated 
by the Park Service and the Presidential libraries, and the 
innovative E-Memorial is especially appropriate for the 
Eisenhower Memorial given President Eisenhower's leadership in 
organizing science and technology and the country's security 
interests. You may or may not recall, he created APRA which led 
to DARPA which is the forerunner of the Internet and so on. So 
it fits what Eisenhower was about.
    With this E-Memorial, digital information will be available 
on the Memorial site itself to enhance visitors' understanding 
of Eisenhower's achievements and legacy. It will be available 
in all of the languages of the United Nations. Offsite, the 
educational component will implement the Commission's primary 
goal of outreach to grades K-12 by assisting teachers of this 
target audience.

                          FUNDRAISING PROGRESS

    The Commission is engaging with private individuals 
planning a national fundraising campaign in support of Memorial 
construction. With the assistance of the Webster Group, the 
Commission is completing a funding feasibility study, and to 
facilitate wider public participation, the Commission is 
updating its website. These revisions to the website will give 
visitors the ability to make tax-deductible donations to the 
Eisenhower Memorial over the Internet. This will be managed by 
pay.gov and will be operational in 2010.

                              DESIGN PHASE

    The 25-month Memorial design process will be completed in 
February 2012. Gehry Partners is the Memorial designer. Gilbane 
Company is assisting GSA's national capital region in managing 
the design and the construction of the Memorial. GSA awarded 
those contracts on behalf of the Eisenhower Memorial 
Commission. Several of the partners in the design process are 
headquartered or have substantial regional presence in the 
District of Columbia, Maryland, and Virginia. We believe this 
means the project will continue to have a positive effect on 
local employment and tax revenue.
    The Commission has an aggressive schedule. We want to hand 
the Eisenhower Memorial over to the Park Service and put 
ourselves out of business by Memorial Day 2015. That is our 
target date. Members of the World War II generation continue to 
remind us that they are passing away, and Eisenhower, their 
heroic contemporary, is someone they would like to celebrate.
    [The statement of General Reddel follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.104
    
    [GRAPHIC] [TIFF OMITTED] T6647B.105
    
    [GRAPHIC] [TIFF OMITTED] T6647B.106
    
    [GRAPHIC] [TIFF OMITTED] T6647B.107
    
    [GRAPHIC] [TIFF OMITTED] T6647B.108
    
    [GRAPHIC] [TIFF OMITTED] T6647B.109
    
    [GRAPHIC] [TIFF OMITTED] T6647B.110
    
                          PRIVATE FUNDRAISING

    Mr. Moran. Thank you, General.
    What portion of the total funds will be raised privately?
    General Reddel. At this point we do not have a final figure 
for the construction of the Memorial but we are anticipating 45 
percent.
    Mr. Moran. So less than half will be raised privately?
    General Reddel. Yes.
    Mr. Moran. Mr. Simpson.
    Mr. Simpson. I do not have any questions. Thanks for what 
you are doing. I was going to submit my opening statement for 
the record, so let us keep up the good work.
    Mr. Moran. I am sorry I skipped that, Mr. Simpson.
    Mr. Simpson. No, I understand that. I was going to submit 
it for the record anyway.
    So thanks for the work you are doing and let's get it done 
by 2015.
    [The statement of Michael K. Simpson follows:]

    [GRAPHIC] [TIFF OMITTED] T6647B.111
    
                         Mr. Hinchey's Remarks

    Mr. Moran. Mr. Hinchey.
    Mr. Hinchey. Well, I very much appreciate what you are 
doing, and it must be interesting for you to be engaged in this 
process and taking it from the bottom right up to its final 
completion. I think that will be a great thing to do, and I am 
sure that is something that you are finding very satisfying as 
well, engaging in what you are doing.
    The history of Eisenhower is very, very important, 
particularly, of course, his involvement in the Second World 
War as well as his eight years as President of the United 
States during a very interesting and challenging time.
    So I appreciate what you are doing. I appreciate the 
information that you have given us and we look forward to 
working with you.
    Mr. Moran. Thank you very much, Mr. Hinchey.
    Thank you, General. We are going to go vote. We appreciate 
your taking the time to share a few minutes with us today.
    Mr. Simpson. We apologize for the votes that interrupt 
every hearing we ever have.
    Mr. Moran. It is fortuitous, though, that you do not have a 
pending request immediately before us so it is just as well.
    General Reddel. As a historical note, sir, I started the 
Holocaust course at the Air Force Academy, so to sit here and 
listen to the words of representatives of the U.S. Holocaust 
Memorial Museum were especially notable. Thanks for the 
opportunity.
    Mr. Simpson. I would note that 51 years ago today on St. 
Patrick's Day, Eisenhower welcomed the first Irish president, 
president of Ireland, to the United States at Reagan Airport.
    Mr. Moran. No kidding?
    Mr. Simpson. Yes. The first one to ever visit the United 
States.
    Mr. Moran. Thank you for adding that to the record.

    [GRAPHIC] [TIFF OMITTED] T6647B.112
    
    [GRAPHIC] [TIFF OMITTED] T6647B.113
    
    [GRAPHIC] [TIFF OMITTED] T6647B.114
    
    [GRAPHIC] [TIFF OMITTED] T6647B.115
    
    [GRAPHIC] [TIFF OMITTED] T6647B.116
    
    [GRAPHIC] [TIFF OMITTED] T6647B.117
    
    [GRAPHIC] [TIFF OMITTED] T6647B.118
    
    [GRAPHIC] [TIFF OMITTED] T6647B.119
    
    [GRAPHIC] [TIFF OMITTED] T6647B.120
    
    [GRAPHIC] [TIFF OMITTED] T6647B.121
    
    [GRAPHIC] [TIFF OMITTED] T6647B.122
    
    [GRAPHIC] [TIFF OMITTED] T6647B.123
    
    [GRAPHIC] [TIFF OMITTED] T6647B.124
    
    [GRAPHIC] [TIFF OMITTED] T6647B.125
    
    [GRAPHIC] [TIFF OMITTED] T6647B.126
    
    [GRAPHIC] [TIFF OMITTED] T6647B.127
    


                           W I T N E S S E S

                               ----------
                                                                   Page
Aldrich, Terri...................................................   547
Applegate, Dr. David.............................................   349
Atkinson, Kathleen...............................................   223
Bennett, Barbara.................................................     1
Bivens, Brig. Gen. Nolen.........................................   547
Bloomfield, Sara.................................................   488
Burzyk, Carla M..................................................   349
Daniels, Jeff....................................................   547
Gaglione, James Richard..........................................   488
Giles, Cynthia...................................................     1
Haseltine, Susan D...............................................   349
Jackson, Lisa....................................................     1
Kimball, Suzette M...............................................   349
Landesman, Rocco.................................................   519
Larsen, Matthew C................................................   349
Leach, James A...................................................   441
Lynch, Robert L..................................................   546
MacLachlan, Kyle.................................................   546
McNutt, Dr. Marcia...............................................   349
Nutter, Michael..................................................   546
Owens, Glenda H..................................................   603
Owens, Steve.....................................................     1
Perciasepe, Bob..................................................     1
Pierce, Brenda S.................................................   349
Pizarchik, Joseph G..............................................   603
Reddel, Brig. Gen. Carl..........................................   633
Segars, Charles..................................................   547
Silva, Pete...................................................... 1, 56
Slaughter, Congresswoman Louise M................................   543
Stanislaus, Mathy................................................     1
Stokes, Ruth E...................................................   603
Tidwell, Thomas..................................................   223
Werkheiser, William H............................................   349


                               I N D E X

                              ----------                              

           Budget Hearing for Environmental Protection Agency
                           February 24, 2010

                                                                   Page
Acquisition Management...........................................   154
Agency Implementation Plans......................................    22
Air Quality...............................................133, 205, 218
American Recovery and Reinvestment Act (ARRA)..............66, 196, 213
Aquatic Herbicides/Non-Point Source Exemption....................   195
ARRA Job Creation................................................    28
ARRA Loan Forgiveness............................................    26
ARRA Obligations.................................................    27
Arsenic Levels in Drinking Water.................................    25
Arsenic/Phosphorus...............................................   190
Atrazine........................................................23, 200
Beach/Fish Programs..............................................   110
Biography: Lisa P. Jackson.......................................    20
Biosurveillance and Cooperation with Homeland Security...........   188
Brownfields Grants..............................................55, 145
Brownfields: Unliquidated Obligations............................   137
Cap-and-Trade Legislation........................................   203
Carbon Sequestration.............................................54, 73
CARE (Geographic Programs).......................................   101
Chesapeake Bay.............................................93, 178, 182
Clean Water Act..................................................   222
Clean Water State Revolving Fund.................................   184
Cleanup of DOD Hazardous Waste...................................   124
Climate Change...................................................21, 67
Climate Change Grants............................................   131
Climate Change Regulation........................................32, 39
CO2 Emissions....................................................    21
Coal Combustion Ash.............................................98, 182
Construction Grants..............................................   138
Copenhagen Climate Summit Cost..................................31, 219
Davis-Bacon Provisions..........................................57, 192
Diesel Emissions Reductions Grants...............................   135
Electronic Manifest..............................................   187
Endangerment Finding........................................21, 40, 198
Endocrine Disrupters.............................................   170
Enforcement................................................57, 153, 204
Enforcement: Region 10...........................................   191
Environmental Education..........................................   104
Environmental Programs and Management............................    82
Environmental Justice............................................   113
Executive Order 13514............................................   193
Facilities Infrastructure and Operations........................106-107
Facility Security................................................   152
Florida Nutrient Standards.......................................   211
FTE..............................................................   156
Future Energy Sources and Incentives.............................    39
Great Lakes--Davis Bacon.........................................    61
Great Lakes Restoration Initiative...............................34, 86
Green Infrastructure Research....................................    73
Green Travel and Conferencing....................................   155
Greenhouse Gas Reporting Rule....................................    72
Greenhouse Gas Reductions Funding................................    30
Greenhouse Gas Regulatory Path...................................    30
Homeland Security...............................................62, 148
Hydraulic Fracturing.............................................    36
Information Technology.........................................106, 168
Inspector General..............................................115, 139
Integrated Cleanup Initiative....................................   121
Irrigation Activities Jurisdiction...............................   194
Leaking Underground Storage Tanks................................   124
Mexico Border Program...........................................55, 143
Mine Permitting Review...........................................   182
Mississippi River Basin..........................................    82
Nanotechnology...................................................    79
National Estuary Program.........................................   107
OCFO.............................................................   164
OCS Oil and Gase Operations Permits..............................   207
Oil Spill........................................................   126
Opening Statement: Chairman Dicks................................     1
Opening Statement: Mr. Simpson...................................     3
Perkins, Oklahoma Project........................................    28
Permit Process..................................................60, 209
Pesticides Budget................................................   111
Pesticide Regulation.............................................   216
Pollution Control: Section 106 Grants............................   142
Pollution Prevention.............................................   114
Puget Sound......................................................    83
Questions for the Record.........................................    66
Questions from Chairman Dicks....................................    66
Questions from Mr. Calvert.......................................   213
Questions from Mr. Mollohan......................................   182
Questions from Mr Moran..........................................   170
Questions from Mr. Price.........................................   187
Questions from Mr. Simpson.......................................   190
RCRA.............................................................   114
Recission of Prior-Year Balances.................................   147
Regulatory Flexibility...........................................    26
Renewable Fuels Standards........................................   201
Rent.............................................................   150
Research.....................................................75, 76, 77
School Air Monitoring............................................   147
Science and Technology...........................................    73
Simpson/Lewis Letter to the President............................   197
Smartgrowth......................................................   100
STAR Grants......................................................    78
State and Tribal Assistance Grants...............................   127
State Air Quality Grants.........................................   133
State Revolving Funds..........................................127, 128
Stationary Diesel Engine Rule....................................   206
Spruce One.......................................................    59
Stratospheric Ozone: Domestic....................................   100
Superfund.......................................119, 120, 121, 122, 215
Superfund--Criminal Enforcement.................................55, 117
Testimony of Administrator Lisa Jackson..........................     5
Threatened Water Bodies Funding and Research.....................  2930
Title 42 Authority...............................................    74
Tribal Grants Program............................................   136
Voluntary Programs...............................................    98
WaterSense.......................................................   108

                 Budget Hearing for U.S. Forest Service
                           February 25, 2010

Agency Morale....................................................   240
Air Tanker Options...............................................   253
Airtanker Needs and Missing Report...............................   298
American Recovery and Reinvestment Act....................305, 340, 347
Back Country Air Strips........................................258, 336
Biography: Tom Tidwell...........................................   237
Bridger Teton National Forest....................................   341
Budget Restructuring in National Forest System/Integrated 
  Resources......................................................   276
Climate Change............................................232, 303, 339
Collaborative Forest Landscape Restoration.....................231, 286
Conservation Easements...........................................   339
Core Watershed Condition Indicators Table......................236, 278
Cost Recovery: Outfitter Guide Permits...........................   241
Ecological Restoration Budget..................................230, 343
Eliminating Road Improvement Funding.............................   272
Emerald Ash Borer................................................   243
Emerald Ash Borer Efforts: Status................................   244
Energy from Forest Biomass.......................................   270
Federal Lands Recreation Enhancement Fund......................263, 265
Fire Clean Up....................................................   343
Fire Prevention and Hazardous Fuels..............................   295
Fire Suppression...............................................233, 254
Fire Suppression: Air Tankers....................................   252
Fire Suppression: Aircraft Availability..........................   246
Five Year Summary of the Woody Biomass Utilization Grant Program.   297
Forest Access....................................................   250
Forest and Rangeland Research....................................   269
Forest Health Management.......................................233, 300
Forest Legacy and Land Acquistion..............................307, 337
Forest Legacy Program............................................   243
Hazardous Fuels Funding Distribution.............................   245
Human Resource Service Delivery..................................   333
Increased Fees on Senior Citizens................................   341
Integrated Resource Restoration................................254, 255
International Program............................................   303
Land and Water Conservation Fund.....................329, 334, 337, 338
Land Management Plan Recommended Wilderness...............259, 261, 263
Legacy Roads and Trails........................................239, 274
Management and Administrative Issues.............................   290
Management Efficiencies and Program Reductions...................   290
New Forest Planning Rule and Viability...........................   305
Opening Statement: Chairman Dicks................................   223
Opening Statement: Mr. Lewis.....................................   225
Opening Statement: Mr. Simpson...................................   224
Performance Measures.............................................   328
Priority Watersheds and Jobs Stabilization Initiative.....231, 247, 288
Proposed Reduction On Campground Discount........................   264
Proposed Wilderness: Agency Differences..........................   262
Proposed Integrated Resources Restoration Program................   325
Questions for the Record.........................................   272
Questions from Chairman Dicks....................................   272
Questions from Mr. Calvert.......................................   343
Questions from Mr. Chandler......................................   334
Questions from Mr. LaTourette....................................   342
Questions from Mr. Moran.........................................   319
Questions from Mr. Simpson.......................................   335
Research.......................................................302, 321
Revenue and Receipts.............................................   311
Road Maintenance.................................................   238
Roadless Rule....................................................   247
Roads Funding in the FY2011 Budget.............................238, 330
Snowmobile and Mountain Bike Use in RWAs.........................   336
Special Places...................................................   319
State Fire and Forestry Assistance...............................   299
State Fire Assistance............................................   268
State Forest Assessments.......................................269, 300
Stewardship Contracting..........................................   284
Stewardship Contracting Outcomes/Outputs Table...................   286
Stewardship Management...........................................   329
Suppression/FLAME/Contingency Reserve............................   324
Testimony of Chief Tom Tidwell...................................   226
Timber Performance...............................................   256
Trails Funding Reduction and Backlog Maintenance.................   309
Transportation Costs and Biomass Utilization.....................   271
Travel Management..............................................249, 251
Travel Management: Ouachita......................................   251
Unplanned Fires: Hazardous Fuels.................................   256
Unplanned Fires: Resource Benefit................................   258
Urban and Community Forestry.........................301, 322, 333, 342
Biomass Grants Within Hazardous Fuels Funding....................   296
Watershed Restoration and Condition Class......................282, 308
Watersheds.......................................................   246
Weeks Act Centennial March 1, 2011...............................   310
Western Bark Beetle..............................................   335
Western Governors' Association Bi-Partisan Letter Supporting 
  Roads..........................................................   275
Wildfire Preparedness--New Baseline..............................   292
Wildfire Suppression, FLAME Reserve Fund and New Presidential 
  Contingency....................................................   294
Wildland Fire and Community Preparedness.........................   258

             Budget Hearing for the U.S. Geological Survey
                             March 10, 2010

Biography: Dr. Marcia McNutt.....................................   360
Budget Overview..................................................   352
Budget Summary by Budget Activity................................   355
Bureau Science Support...........................................   412
Climate Change.................................................384, 423
Climate Change: Appropriate Funding Level........................   362
Climate Change: Government-Wide Coordination.....................   364
Climate Change: Role and Level of Coordination...................   361
Climate Impacts Initiative.......................................   353
Coastal and Marine Spatial Planning............................354, 411
Collaborative DOI Science Work...................................   355
Construction.....................................................   421
Data Collection Versus Assessment: Funding Challenge.............   377
Earthquakes and Other Natural Hazards..........................400, 427
Endocrine Disruptors...........................................380, 387
Energy Frontier Initiative.....................................353, 416
Fixed Costs......................................................   409
FY2011 Program Decreases in the Request..........................   419
Great Lakes, Chesapeake Bay, Puget Sound Restoration Efforts.....   396
Groundwater Coordination with EPA................................   380
Interagency Coordination.........................................   363
Introduction of USGS Management Team.............................   351
Landsat Data Continuity Mission..................................   354
Landsat Satellite for Remote Sensing of the Earth................   409
Mercury Contamination Study......................................   381
Mercury in the Shenandoah River..................................   395
National Network of State Conservation Data Agencies.............   420
Hydraulic Fracturing Techniques & Natural Gas....................   377
Natural Hazards Funding..........................................   354
Opening Statement: Chairman Moran................................   349
Opening Statement: Mr. Simpson...................................   350
Proposed Budget Reductions.......................................   355
Puget Sound Action Plan..........................................   382
Questions for the Record.........................................   384
Questions from Chairman Moran....................................   384
Questions from Mr. LaTourette....................................   430
Questions from Mr. Simpson.......................................   422
Science Support..................................................   429
Streamgage Program: Vision.....................................365, 422
Streamgages: Reduced Funding Support.............................   366
Threatened and Discontinued Streamgages by State Table...........   367
Testimony of Dr. Marcia McNutt.................................351, 356
National Map.....................................................   426
Treasured Landscape Initiative...................................   354
USGS Potential Reorganization and Altered Budget Structure.......   416
WaterSMART Initiative, Water Census and Streamgages..............   390
WaterSMART Program.............................................353, 423
Wildlife and Fish Diseases.......................................   413

         Minerals Management Service--Statement for the Record

Deep Gas Incentives..............................................   433
Energy for the Future............................................   434
Federal and Indian Compliance Assurance..........................   438
Fee on Nonproducing Leases.......................................   433
FY2011 President's Request.......................................   432
Geothermal County Payments.......................................   434
Indian Trust Responsibilities....................................   439
Lease Sale Implementation........................................   435
MRM Support System Modifications and Increasing Audit/Compliance 
  Coverage.......................................................   438
Net Receipts Sharing.............................................   434
Royalty In-Kind Phase-Out and Transition to Royalty in Value.....   437
Royalty Management Review and Reform.............................   436
Strategic Reorganization of MRM Program..........................   437
New Five-Year OCS Oil & Gas Leasing Program......................   436

        Budget Hearing for National Endowment for the Humanities
                             March 17, 2010

Biography: Jim Leach.............................................   453
Bridging Cultures..............................................468, 478
Bridging Cultures Issues Conferences.............................   479
Bridging Cultures: Tangible Results..............................   455
Challenge Grants Program.........................................   481
Civility and American History....................................   457
Civility and Congress............................................   458
Civility Tour....................................................   469
Digital Humanities...............................................   470
EDSITEment Website...............................................   472
Endangered Languages...........................................462, 482
Endangered Languages Partnership with National Science Foundation   476
Funding Grants for Post-Secondary Education Teachers.............   473
Graduate Education & the Humanities..............................   486
Grants to Historically Black, High Hispanic Enrollment and Tribal 
  Colleges and Universities......................................   475
Idaho Humanities Council (IHC)...................................   480
Lifelong Learning in the Humanities..............................   484
Mr. Dicks Remarks................................................   442
Opening Statement: Chairman Moran................................   441
Opening Statement: Mr. Simpson...................................   442
Philanthropy and Humanities......................................   480
Questions for the Record.........................................   468
Questions from Chairman Moran....................................   468
Questions from Mr. Price.........................................   486
Questions from Mr. Simpson.......................................   478
State Humanities Councils......................................463, 464
Testimony of Chairman Jim Leach..................................   443
Two-Year College Initiative....................................465, 474
We the People Program............................................   485

         Budget Hearing for the U.S. Holocaust Memorial Museum
                             March 17, 2010

Biography: Sara J. Bloomfield....................................   495
Coordination with Other Federal International Efforts............   516
Endowment........................................................   515
Ethical Leadership Programs......................................   496
Exhibitions...............................................502, 506, 513
Genocide Prevention Task Force.................................499, 505
International Tracing Services Archive...........................   507
Military Training Programs.....................................498, 511
National Education Outreach......................................   508
Opening Statement: Chairman Moran................................   488
Opening Statement: Mr. Simpson...................................   488
Outreach Initiatives.................................497, 502, 506, 513
Private Funding..................................................   503
Questions for the Record.........................................   501
Questions from Chairman Moran....................................   501
Questions from Mr. Simpson.......................................   510
Security Concerns.........................................496, 501, 510
Testimony of Executive Director Sara J. Bloomfield...............   489

         Budget Hearing for the National Endowment for the Arts
                             April 13, 2010

``Arts Works'' Tour..............................................   523
``Our Town'' Initiative...................................524, 531, 660
American Masterpieces and the Big Read Initiatives...............   523
American Public Support for the Arts.............................   540
Biography: Rocco Landesman.......................................   529
Controversy and NEA..............................................   537
Economic Impact of Arts Funding................................531, 532
Fixed Costs......................................................   660
FY11 Budget Request..............................................   523
Hatch Act and Ethics Training....................................   537
Increased Budget and Impact of Arts Funding......................   530
Opening Statement: Chairman Moran................................   519
Opening Statement: Mr. Simpson...................................   520
Private Sector Partnerships......................................   661
Questions for the Record from Chairman Moran.....................   660
Recovery Act Funds...............................................   539
State Arts Councils..............................................   538
Technology and the Arts..........................................   662
Testimony: Chairman Rocco Landesman..............................   522
The Big Read...................................................533, 660
Underserved Populations..........................................   661
Use of FY10 Funds................................................   522
Work with Foundations............................................   530

           Public Witnesses: American Advocates for the Arts
                             April 13, 2010

Arts Education.................................................544, 592
Arts in Philadelphia.............................................   557
Benefits of the Arts.............................................   545
Diminishing Funding Reasons......................................   549
Economic Impact of the Arts......................................   544
International Diplomacy through the Arts.........................   584
Mayors' Institute on City Design.................................   559
NEA Budget.....................................................544, 556
Opening Statement: Mr. Moran.....................................   543
Operation Homecoming.............................................   585
Purple Rose Theatre..............................................   598
Recovery Act Funding...........................................548, 558
Rural Arts Funding...............................................   577
State and Local Communities......................................   549
Testimony of Brig. General Nolan Bivens..........................   582
Testimony of Charles Segars......................................   591
Testimony of Congresswoman Louise Slaughter......................   543
Testimony of Jeff Daniels........................................   597
Testimony of Kyle MacLachlan.....................................   566
Testimony of Mayor Michael Nutter................................   556
Testimony of President & CEO Robert Lynch........................   547
Testimony of Terri Aldrich.......................................   575
Warfare and the Arts.............................................   583

            Budget Hearing for the Office of Surface Mining
                             March 10, 2010

Absorbing Fixed Costs/State Equity...............................   624
AML Emergency Program............................................   620
AML Fund Balance.................................................   627
Audits...........................................................   626
Biography: Joseph G. Pizarchik...................................   612
Coal Mining Permitting Process...................................   630
Environment and Energy Needs Balance.............................   604
Elimination of Payments to Certified States......................   622
EPA Review of Mountaintop Mining Projects........................   631
FY11 Budget Request..............................................   605
Funding State Regulatory Programs................................   613
Increased Fees on Coal Industry..................................   614
Memorandum Of Understanding: DOI, EPA, Army Corps of Engineers...   617
Mountaintop Mining...............................................   630
Needs Estimate...................................................   626
Opening Statement: Chairman Moran................................   603
Opening Statement: Mr. Simpson...................................   603
OSM and EPA Permit Coordination..................................   615
Payments to Certified States/Tribes..............................   614
Performance/Data Trends..........................................   625
Proposed Revision of Rule on Mining Waste Disposal...............   631
Questions for the Record.........................................   619
Questions from Chairman Moran....................................   619
Questions from Mr. Simpson.......................................   630
Regulation and Technology........................................   619
State Regulatory Grants..........................................   613
Stream Buffer Rule.............................................616, 624
Testimony of Director Joseph G. Pizarchik........................   604

         Budget Hearing for the Eisenhower Memorial Commission
                             March 17, 2010

Accomplishments of Commission....................................   634
Biography: Brig. General Carl W. Reddel..........................   642
Capturing the Essence of Eisenhower..............................   656
Design and Construction Budget.................................646, 652
Design Phase.....................................................   635
E-Memorial.....................................................634, 650
Federal Agency Involvement.......................................   654
Fundraising Progress...........................................635, 647
FY2010 Appropriation.............................................   634
Mr. Hinchey Remarks..............................................   645
Opening Statement: Chairman Moran................................   633
Opening Statement: Mr. Simpson...................................   644
Private Fundraising..............................................   643
Questions for the Record.........................................   646
Questions from Chairman Moran....................................   646
Questions from Mr. Simpson.......................................   652
Temporary Federal Workforce......................................   651
Testimony of Brig. General Carl Reddel...........................   633
Total Cost.......................................................   653

</pre></body></html>
